<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?
 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island   FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania         JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California            ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California          JO BONNER, Alabama         
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 PETER J. VISCLOSKY, Indiana        
 JOSE E. SERRANO, New York          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              John Blazey, Dixon Butler, Adrienne Simonson,
             Tracey LaTurner, Diana Simpson, and Darek Newby
                           Subcommittee Staff
                                ________
                                 PART 5
                                                                   Page
 Science Overview.................................................    1
 The Place of NASA and NSF in the Overall Science Enterprise......   57
 The Place of NOAA and NIST in the Overall Science Enterprise.....  103
 Science Education................................................  161
 Where Are We Today: Today's Assessment of ``The Gathering Storm''  225
 Status of Climate Change Science.................................  265
 Critical Satellite Climate Change Datasets.......................  317
 Climate Satellite Requirements, NASA and NOAA Programs...........  363

                                   S

                                ________
         Printed for the use of the Committee on Appropriations

PART 5--COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS 
                                FOR 2010
                                                                      ?
?
                                                                      ?

  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island   FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania         JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California            ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California          JO BONNER, Alabama         
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 PETER J. VISCLOSKY, Indiana        
 JOSE E. SERRANO, New York          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              John Blazey, Dixon Butler, Adrienne Simonson,
             Tracey LaTurner, Diana Simpson, and Darek Newby
                           Subcommittee Staff
                                ________
                                 PART 5
                                                                   Page
 Science Overview.................................................    1
 The Place of NASA and NSF in the Overall Science Enterprise......   57
 The Place of NOAA and NIST in the Overall Science Enterprise.....  103
 Science Education................................................  161
 Where Are We Today: Today's Assessment of ``The Gathering Storm''  225
 Status of Climate Change Science.................................  265
 Critical Satellite Climate Change Datasets.......................  317
 Climate Satellite Requirements, NASA and NOAA Programs...........  363

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 51-219                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman
 
 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New Jersey
 JOSE E. SERRANO, New York          TODD TIAHRT, Kansas
 ROSA L. DeLAURO, Connecticut       ZACH WAMP, Tennessee
 JAMES P. MORAN, Virginia           TOM LATHAM, Iowa
 JOHN W. OLVER, Massachusetts       ROBERT B. ADERHOLT, Alabama
 ED PASTOR, Arizona                 JO ANN EMERSON, Missouri
 DAVID E. PRICE, North Carolina     KAY GRANGER, Texas
 CHET EDWARDS, Texas                MICHAEL K. SIMPSON, Idaho
 PATRICK J. KENNEDY, Rhode Island   JOHN ABNEY CULBERSON, Texas
 MAURICE D. HINCHEY, New York       MARK STEVEN KIRK, Illinois
 LUCILLE ROYBAL-ALLARD, California  ANDER CRENSHAW, Florida
 SAM FARR, California               DENNIS R. REHBERG, Montana
 JESSE L. JACKSON, Jr., Illinois    JOHN R. CARTER, Texas
 CAROLYN C. KILPATRICK, Michigan    RODNEY ALEXANDER, Louisiana
 ALLEN BOYD, Florida                KEN CALVERT, California
 CHAKA FATTAH, Pennsylvania         JO BONNER, Alabama
 STEVEN R. ROTHMAN, New Jersey      STEVEN C. LaTOURETTE, Ohio
 SANFORD D. BISHOP, Jr., Georgia    TOM COLE, Oklahoma                 
 MARION BERRY, Arkansas             
 BARBARA LEE, California            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010

                              ----------                              

                                            Tuesday, March 3, 2009.

                            SCIENCE OVERVIEW

                                WITNESS

DR. RALPH CICERONE, PRESIDENT, NATIONAL ACADEMY OF SCIENCES

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. I am glad to see you made it in this cold 
morning. It was cold this morning. March comes in like a lion, 
goes out like a lamb. So we have spring to look forward to.
    Welcome before the Commerce, Justice, Science, and Related 
Agencies Subcommittee. We appreciate your coming today to 
provide your perspective on the state of science in the United 
States and where you see it heading.
    As those responsible for appropriations for four 
significant research agencies, NSF, NASA, NOAA, and NIST, we 
want to ensure that we provide appropriate support for science 
and technology so that our country can continue to enjoy 
economic growth beyond our growth in population.
    We recognize that there is more to encouraging and 
sustaining a healthy science and engineering enterprise than 
government financial support. The freedom of inquiry offered by 
our democracy is significant as are patent protection and the 
rule of law.
    Our responsibility is to balance the investment of federal 
tax dollars across many competing government programs and 
across the research and science and education activities 
included in our jurisdiction. Finding the right balance is 
crucial along with providing levels of support that are 
sustainable politically and practically.
    Research is usually a long-term investment and is poorly 
served by boom-bust cycles in funding and employment.
    The National Academy of Sciences of which, of course, you 
are currently President provided a major influential report 
entitled Rising Above the Gathering Storm that highlighted the 
critical need for increased funding for NSF, NIST and the DOE 
Office of Science and recommended increases have been provided 
especially in the just enacted ``American Recovery and 
Reinvestment Act of 2009.''
    So, as the U.S. science enterprise is receiving increased 
funding, are we striking the right balance among different 
areas and agencies and between science and science technology, 
engineering, and mathematics education?
    This morning's hearing is the first in a series that are 
intended to give this Subcommittee a clearer view of the state 
of science and science education in the U.S. and a basis on 
which to make the tough choices balancing federal investments 
in the research agencies within our jurisdiction.
    Dr. Cicerone, we look forward to your starting us off with 
an overview of the state and direction of the U.S. science 
enterprise. Your written statement, of course, will be made a 
part of the record.
    Before I ask you to begin, I would like to call upon our 
Ranking Member. This Subcommittee was extremely well served by 
the good work of our colleague Rodney Frelinghuysen last year 
who was the Ranking Member on this Committee. And we were sorry 
to see Rodney go, but we are very pleased to see Ranking Member 
and former Chairman of the Committee, Frank Wolf, join us back.
    Frank has a deep understanding of the accounts that are 
under the jurisdiction of this Subcommittee and he is a great 
guy in every way and we are very pleased to have him here.
    Frank.
    Mr. Wolf. Well, thank you, Mr. Chairman. I am really 
pleased to be back with you. We had a great working 
relationship before and I really am glad to be here.
    And I want to welcome the witness. And with that, I will 
just yield back. Thank you.
    Mr. Mollohan. Thank you.
    Dr. Cicerone.

                     Dr. Cicerone Opening Statement

    Mr. Cicerone. Good morning and thank you, Chairman Mollohan 
and members of the Subcommittee.
    My name is Ralph Cicerone. I am President of the National 
Academy of Sciences, which, as you know, was chartered in the 
middle of the Civil War, 1863, with the mission of advising the 
government on matters of science and technology.
    So even though we are not part of the government, that is 
our job and we work along with the National Academy of 
Engineering and the Institute of Medicine.
    I appreciate the opportunity to speak with you this morning 
about the enterprise of science in the United States because it 
is a subject that is enormously important to our country and, 
yet, complicated enough that I do not think anyone knows the 
whole picture. Therefore, I think the hearing that you are 
holding is essential for all of us.
    With your permission, Mr. Chairman, I will just skip 
through parts of my testimony here and there.
    Mr. Mollohan. Go ahead.
    Mr. Cicerone. Thank you. And submit it.
    The enterprise of science in America today is very strong. 
Federal investment in American science has enabled the United 
States to be the world's scientific leader since World War II, 
and continuing federal investment has led to unmatched growth 
and prosperity through the creation of technology and 
technological advances themselves have increased the quality 
and span of life for Americans and for people around the world.
    Our science has also led to amazing discoveries about our 
universe and about life itself and all together, it has 
contributed greatly to the high opinion in which the United 
States is held in most countries.
    Other significant benefits include the strengthening of our 
military power to deter and to fight wars.
    Science comes in many kinds and your Subcommittee oversees 
much of American physical sciences and engineering, yet there 
is also a major enterprise in biomedical science.
    American science continues to lead the world in the 
physical sciences, but faltering federal support over the last 
30 years or so along with increased emphasis and investment 
elsewhere in the world has reduced our lead.
    In fact, our leadership is now disputed in some fields of 
physical science. In fundamental biology and biomedical 
science, including the creation and development of 
pharmaceuticals and biomedical instruments, the American lead 
is larger, although not in all subspecialties.
    In other countries, there is increased attention to 
inventorying and measuring scientific investment and 
productivity, especially in nations where national plans are 
being implemented.
    But besides federal funding, as you just said, Mr. 
Chairman, other ingredients are needed to sustain the science 
enterprise. Talented, ambitious people are essential, for 
example, and the stream of such people starts with childhood 
education and continues through college and university years to 
graduate and postgraduate education.
    To attract the brightest graduates, career opportunities 
must also be available along with specialized equipment in 
laboratories and computers.
    American science draws deeply from American-born people who 
study and produce here, but we have also enjoyed a large 
advantage over other nations through the immigration of 
students and scientists from other countries to our shores.
    We received many gifted people who fled pre World War 
Europe and the Nazis followed by others who left iron curtain 
countries and still others who sought opportunities here from 
Britain, from all of Europe, Japan, China, India, and Africa, 
for example.
    Names like Einstein, Fermi, Bethe, Von Braun, Von Neumann, 
and Eric Kandel come to mind. In fact, 24 percent of the living 
American Nobel Prize winners were born in other countries.
    Similarly, of the scientists elected to membership in our 
National Academy of Sciences just in the last ten years, nearly 
the same number were foreign born, that is 23 percent, and are 
now naturalized U.S. citizens.
    However, recognition as Nobel Laureates and as NAS members 
is usually for important research that took place 20 years ago 
or even earlier.
    A more current indicator is that approximately 65 percent 
of all of our current doctoral engineering students in the 
United States are from foreign countries. This flow of human 
resources to the United States continues. But as we place more 
barriers against the entry of talented people and as more 
opportunities develop in their own home countries, we will not 
be able to rely on them as much as we have.
    Research laboratories. American research universities are 
acknowledged to be worth imitating and many nations are trying 
to do so. The doctoral students who study and conduct research 
at our universities are extremely important to the science 
enterprise along with postdoctoral researchers and faculty 
members.
    And our research universities and liberal arts colleges 
also provide opportunities for undergraduate students to 
experience research.
    After World War II until roughly the end of the Cold War, 
American corporations also operated some amazingly distinctive 
and productive scientific research laboratories. Probably the 
apex was at Bell Laboratories where prodigious amounts of basic 
research were conducted.
    Bell Lab scientific staff was star-studded. They won 
several Nobel Prizes. They published their own journals. They 
created many advanced products. They contributed to the 
national defense while they also created and maintained the 
world's best telephone system.
    And there were other important corporate research labs such 
as at IBM, Xerox, Exxon, Chevron, and Eastman Kodak.
    Now, today those same laboratories do very little basic 
research compared to earlier years. The major responsibility 
for conducting research now is with our universities. However, 
it is an advantage, I think, to combine research and graduate 
education.
    So while our universities already have more than enough 
duties, the recently acquired burden of carrying the national 
research agenda fits well with the mission of education.
    And our system of American national laboratories and 
research institutes also represents important capabilities.
    I want to mention two other strategic advantages enjoyed by 
American research, philanthropy and business investment.
    The American practice of philanthropy is not practiced 
widely anywhere else. Private funds from individuals and 
foundations provide essential support for our research and for 
student scholarships and fellowships.
    And, of course, I mentioned business funds, but I will not 
go into detail today, about such funds invested in 
universities.
    Science is also a source of good will for the United 
States. American achievements and activities in science have 
created a great deal of good will worldwide. Significant 
numbers of foreign leaders attended American colleges and 
university graduate schools before returning to their homelands 
and they remain lifelong friends.
    There appear to be large opportunities for American science 
to become a major component of our diplomatic efforts while it 
also continues to undergird our economic and military strength.
    Let me say a few words about science education. Chairman 
Mollohan already mentioned the report from the National Academy 
of Sciences, the National Academy of Engineering, and the 
Institute of Medicine in 2007 called Rising Above the Gathering 
Storm. It arose from a 2005 request from your Senate colleagues 
and discussions with a number of House members, including Mr. 
Wolf, who is here today, who led any number of efforts in his 
home State and around the country about science technology and 
competitiveness.
    The charge that that Committee accepted was to identify 
actions which federal policymakers could take to enhance the 
science and technology enterprise so that the United States can 
successfully compete, prosper, and be secure in the global 
community of this century.
    The authoring Committee of 20 distinguished Americans 
placed a specially high priority on increasing America's talent 
pool by vastly improving K through 12 science and mathematics 
education. They argued that it is essential to produce more 
teachers who are well grounded in the sciences and mathematics 
themselves and to existing teachers to improve and maintain 
their science-content skills. And they proposed to use 
previously tested methods to achieve those goals.
    The Gathering Storm report dealt with all levels of 
education all the way through graduate and postdoctoral levels. 
I hope that Mr. Augustine will discuss this topic further with 
you.
    There are, of course, arguments about why American children 
do not stack up better than children of many other countries 
and maybe whether our standardized tests give too much emphasis 
to factual knowledge as opposed to reasoning ability, yet it 
remains that we receive very few visitors from around the world 
who want to learn about and to imitate our K through 12 system 
while we receive scores of foreign visitors to our university 
graduate schools who are trying to emulate them and to 
reproduce them worldwide.
    We have much work to do to improve our K through 12 and 
college level science and math education. Not only do we want 
to increase the flow of human talent into high level science 
and research, we also want to fill the pipeline with science 
students so as to equip the nation's workforce to be able to 
create and manufacture products which take advantage of 
scientific breakthroughs.
    And as Chairman Mollohan said, we need a scientifically 
literate population to comprise an electorate informed on many 
contemporary issues.
    Finally, improved education enables individuals to launch 
their own productive careers.
    The Gathering Storm report called attention to the 
importance of creating something like a new National Defense 
Education Act specifically to provide support to science and 
engineering graduate students.
    Now, recently there are some reports from around the United 
States, informal reports, that applications to attend graduate 
science schools are up right now apparently because of reduced 
job prospects for baccalaureate degree holders in industries 
such as finance and investment.
    It is especially important to provide support for these 
students not only to see them through their Master's and Ph.D. 
programs but also for research opportunities later.
    Amongst these new and prospective grad students, the new 
ones, there is special interest in energy science and 
technology and in climate change.
    For example, working in the science and technology of 
materials that might be useful in capturing solar energy and in 
storing solar and wind energy is very attractive now.
    Similarly, plant science is appealing as we consider 
pathways towards advanced biofuels that would not decrease food 
production and emerging issues of food security are attracting 
interest.
    And the science of climate change presents many fundamental 
and complex challenges that are perceived by young people very 
clearly who want to engage these challenges through science. So 
I think we have a special opportunity today supporting science.
    The Rising Above the Gathering Storm report presented four 
main lines of action that the federal government should take to 
enhance the science and technology enterprise for the reasons 
stated and they are to vastly improve K through 12 science and 
math education, to increase federal support for science and 
engineering research, to attract the best and brightest to 
American higher education in science and engineering, and to 
create an environment for innovation through a combination of 
economic, legal, and immigration policies.
    The report recommended special attention to increased 
federal investment in physical sciences, engineering, 
mathematics, and information sciences and to the Department of 
Defense basic research funding.
    It focused importantly on energy science and technology 
research and somewhat on the National Science Foundation and 
the Department of Energy and that choice of emphasis was very 
wise.
    However, the report omitted detailed discussion of NASA, 
NIST, and NOAA and, yet, the work of these agencies not only 
complements that of NSF, the National Institutes of Health and 
the Department of Energy, but these agencies are also important 
to address the new challenges I just mentioned, and to support 
American science and higher education and, frankly, to all that 
we must do.
    The recently passed federal stimulus package has provided 
substantial support towards major national goals and goals that 
have been arrived at very thoughtfully. The stimulus bill funds 
aimed at American science, I believe, will be used very 
productively and in forward looking ways.
    Let us hope and resolve to make these new levels of 
baseline for further advances.
    Thank you once again for inviting me to appear before you, 
Mr. Chairman. I would be happy to address any questions that I 
can.
    [Written statement by Ralph Cicerone, President of the 
National Academy of Sciences follows:]

[GRAPHIC] [TIFF OMITTED] T1219A.001

[GRAPHIC] [TIFF OMITTED] T1219A.002

[GRAPHIC] [TIFF OMITTED] T1219A.003

[GRAPHIC] [TIFF OMITTED] T1219A.004

[GRAPHIC] [TIFF OMITTED] T1219A.005

[GRAPHIC] [TIFF OMITTED] T1219A.006

[GRAPHIC] [TIFF OMITTED] T1219A.007

[GRAPHIC] [TIFF OMITTED] T1219A.008

[GRAPHIC] [TIFF OMITTED] T1219A.009

[GRAPHIC] [TIFF OMITTED] T1219A.010

[GRAPHIC] [TIFF OMITTED] T1219A.011

                            science funding


    Mr. Mollohan. Doctor, thank you. Thank you for your 
testimony, and again, thank you for appearing here today.
    I know the Subcommittee members have a lot of questions for 
you and very much value the opportunity to discuss these issues 
with you.
    I will ask in the first round if we could stick to a five-
minute questioning period and then the second round and that 
will give everybody an opportunity early on to ask questions 
and then in subsequent rounds, they can follow-up in more 
detail.
    Doctor, given the current largely bipartisan commitment to 
increase funding for science, which we are already seeing and 
we are very pleased, I can tell you all members of this 
Subcommittee are very pleased to see an increased interest in 
larger funding for science, what do you feel should be the end 
point of this growth and when should we reach a stable level on 
investment in real terms?
    Mr. Cicerone. Well, obviously that is a fair question, but 
I think we are so far away from that level that it is hard to 
say.
    But to be more thoughtful, I think we have to think about 
what our goals are for American science. A little over 15 years 
ago, we did a study at the Academy on basically how much 
science was enough, that is pretty much your question.
    And the conclusions of that group were that there are 
certainly several major goals for science: to maintain a basis 
for economic activity, to help to defend the national security, 
emerging issues of the environment, and, in some cases, to lead 
the world in important social and cultural issues.
    They concluded that it is going to be increasingly 
difficult for the United States to lead in all fields and that 
thought had to be given to which fields we absolutely felt it 
essential to lead such as those involving economic development.
    But the second category is in those fields where we could 
no longer be the clear leader, to be good enough to recognize 
breakthroughs that happened anywhere else in the world. So, for 
example, high temperature superconductivity was basically 
discovered in Switzerland and the new breakthroughs had been 
shown there, but our physicists and material scientists were 
close enough to the lead that they could instantly recognize 
the breakthrough and move into that area of work.
    So as we try to answer that question, when can we stabilize 
after these increases, I think we have to have goals of how 
many fields do we really want to lead the world in and in how 
many other fields are we content to follow, but to try to 
follow closely enough to be able to recognize major 
breakthroughs.
    I do not have a number in mind. It is just too far in the 
distance to be able to see when we will be at a stable level.
    Mr. Mollohan. Well, we are looking for numbers here.
    Mr. Cicerone. All right.
    Mr. Mollohan. I do not know. Maybe in terms of factors or 
something and what does the recent funding in the stimulus 
package do for you and what is sustainable as you look forward 
and how do you compare the increases, for example, at the 
National Institutes of Health with regard to the increases in 
the accounts under our jurisdiction?
    Mr. Cicerone. There are certainly some lessons there that 
we can try to learn about what happened after the National 
Institutes of Health had a doubling of their budget and how 
they got into the pickle now where they are oversubscribed 
again under level funding.
    The success rate of investigators going through 
competitions for grants is frightfully low. It is something 
like 18 percent right now.
    Mr. Mollohan. We would like to avoid that as we look to the 
future and increased funding in these accounts.
    Mr. Cicerone. My understanding is it is going to take a 
combination of management at the agencies as well as thoughtful 
budget foresight so that the number of long-term commitments 
that are made with these new funds does not exceed the funding 
that is likely to be in place for the next two, three, four 
years. That is one issue.
    But to try to get to a number of what we actually need, I 
would look at the backlog that has developed in various fields, 
for example, at the National Science Foundation and the other 
agencies of how many proposals that had been submitted into 
these competitions or given the highest marks and then not 
funded over the years.
    We understand that a lot of the stimulus funding is going 
to be used to clear up some of the current year's backlog and 
from them to move back into a situation where maybe at least a 
third of the funding proposals could be funded.
    So that would suggest at NSF not only just a 50 percent 
increase in the funding, but because the grant sizes have 
gotten so small, we have people who do not even apply anymore 
because they cannot get enough done with an NSF grant. So 
clearly at NSF the doubling that has been requested by the 
Rising Above the Gathering Storm report would be kind of a 
minimal baseline.
    Where we go from there would depend on how much of a 
backlog develops and the proposal pressure of highly 
competitive proposals, some of which are facilities and 
equipment also.
    Mr. Mollohan. Mr. Wolf.

                              STEM GRANTS

    Mr. Wolf. Thank you, Mr. Chairman.
    I would hope that we could do much more than we are 
currently doing. And Jim Cooper and I have a bill which tries 
to deal with this whole spending entitlement issue where we put 
more in math and science and physics and chemistry and biology.
    And when I get on the train in Washington and take it to 
New York, if you just close your book and look to the right and 
to the left, the factories are in decay, the windows are 
broken, the graffiti is all over, and we just do not seem to be 
making things anymore.
    There is that sign over the bridge in Trenton that said 
Trenton makes and the world takes. And Trenton does not make 
anything anymore. Trenton is a city that has been impacted. It 
has gang problems.
    And I really think we are having a tough time. One of the 
reasons, I think, is that young people are not as interested as 
they used to be. I saw figures, and maybe you will have the 
answers, showing that of the STEM grants last year, only 50 
percent of them were taken up.
    Do you know if that is true or not?
    Mr. Cicerone. No, sir, I do not.
    Mr. Wolf. Can you check or maybe we can check.
    Secondly, how many students do we have majoring in math and 
science and physics and chemistry and biology compared to, say, 
the Chinese and also India? Do you know that number?
    [The information follows:]

    Congressman Wolf asked about full utilization of STEM grant 
resources by students. The funds are known as Academic Competitiveness 
and SMART grants, and are overseen by the Department of Education.
    Created by Congress in 2006, the Academic Competitiveness and SMART 
Grant programs were designed to encourage students to take rigorous 
courses in high-school and to major in science, technology, 
engineering, or mathematics (the STEM fields), or a language deemed 
critical to national-security needs. Both programs were identified by 
Congress as a supplement to Pell grants for eligible students. Students 
must maintain at least a 3.0 GPA in college to be eligible.
    In 2006/2007 $428M was given out of $790M available. In 07/08, 
$493M was given out of $850M available. An overview of both programs 
and a table of state-by-state student awards for each grant program can 
be found in the following PDF prepared by the Department of Education: 
http://www.ed.gov/programs/smart/results2007/national.pdf
    It is likely that underutilization of SMART and Academic 
Competitiveness grants was not due to disinterest. Instead, the above-
listed report indicates a lack of knowledge on the part of students and 
their parents about these resources. There is not a separate 
application necessary for each of these grant programs, but one does 
have to indicate on the FAFSA application about student eligibility. It 
is likely that students (and their parents) are not aware of these 
relatively new grant programs and do not understand what they are about 
or terms for eligibility.
    The Department of Education has been criticized (see Chronicle of 
Higher Education article--http://chronicle.com/daily/2009/01/9471n.htm) 
for not exhibiting more effort in publicizing these programs. Also, 
undergraduate colleges have registered complaints as to the difficulty 
of identifying and confirming student eligibility for these awards. In 
other words, startup flaws in the system appear to be working against 
strong program interest as well as institutional encouragement of 
student participation in seeking awards.
    I do not know what resources are designated in the 2009 budget for 
these programs or what has happened to unused funds from earlier years.
    Again, the underutilization of these grant funds do not point to a 
lack of interest in STEM careers, but instead to a lack of interest or 
understanding among students, parents, and undergraduate institutions 
about these two grant programs. Program-reporting regulations could be 
acting as a deterrent as well. The use of funds from these programs has 
incrementally increased over the last two funding cycles, but not at 
the speed which Members of the Congress would have hoped.

    Mr. Cicerone. I know that the fraction of our students who 
take college degrees, who major in the sciences and math is, I 
believe, it is about five percent. I can check that. And it is 
a fraction of that in China and India. It is probably less than 
half of that.
    [The information follows:]

    ANSWERS: The total number of bachelor's degrees (in all fields) 
awarded in China has grown rapidly in recent years, and is roughly 
comparable to the number awarded in the United States. Bachelor's 
degrees in math, natural sciences (e.g. physics. biology, chemistry), 
and engineering as a percentage of total degrees is much higher in 
China (about 50%) than in the United States (about 15%). Thus, China's 
annual production of bachelor's degrees in these fields is roughly 2.5 
times that of the United States (over 600,000 for China, under 250,000 
for the United States). Views differ with regard to the quality of 
those degrees. With no comparable standardized testing, the anecdotal 
information from company leaders hiring in both countries is that there 
is a significant quality gap between the U.S. and Chinese cohorts.
    Reliable statistics on Indian higher education degrees are not 
available, given the mix of public universities, private universities, 
and unaccredited private universities all providing engineering 
degrees. Recent research on engineering and IT-relating bachelor's 
degrees indicates that for 2005-2006, U.S. production of such degrees 
stood at about 129,000, with India's production about 220,000, and 
China's about 575,000.
    With regard to foreign students in the U.S., in recent years, 
temporary foreign residents have not constituted a high percentage of 
recipients of U.S. bachelor's degrees in math, natural science, and 
engineering. U.S. citizens and permanent residents, who would be 
expected to stay in the United States after earning their degrees, made 
up 95% of degree recipients in those fields. In fields such as computer 
science and engineering, the percentage of temporary foreign residents 
rises to 7 or 8 percent.
    There are some interesting data on foreign students who receive 
Ph.D. degrees in science and engineering in the U.S. These data 
generally show that 60% to 70% of these new Ph.D. degree holders are 
still in the U.S. two to five years after receiving their degrees, and 
that students from China and India stay at above-average rates.
    Data and Sources:
    United States data are for the year 2005. Total bachelor's degrees: 
1,437,200; Total math, natural science, and engineering bachelor's 
degrees: 235,619; Proportion of math, natural science, and engineering 
bachelor's degrees: 16%.
    U.S. citizens and permanent residents earning math, natural 
science, and engineering bachelor's degrees: 223,255; Proportion of 
U.S. citizens and permanent residents among math, natural science, and 
engineering bachelor's degrees: 95% (though temporary residents earn up 
to 7% or 8% of engineering and computer science bachelor's degrees)
    Stay Rates for Ph.D. degree holders: Computing Research Association 
(www.cra.org) and S&T Indicators at NSF).
    China data are for the year 2004. Total bachelor's degrees: 
1,196,290; Total math, natural science, and engineering bachelor's 
degrees: 610,705; Proportion of math, natural science, and engineering 
bachelor's degrees: 51%
    India: Reliable statistics on Indian higher education degrees are 
not available (see NSF S&E Indicators). Gereffi et al. have produced an 
estimate of ``engineering'' bachelor's degree production that includes 
computer science and other IT-related degrees with the following 
results for 2005-2006: United States, 129,000; India, 220,000; China, 
575,000.
    Notes:
    a. Social and behavioral sciences excluded
    b. U.S. and China figures are for first university degrees (ISCED 
5A)
    Sources: S&E Indicators 2008, Appendix Tables 2-28 and 2-38 http://
www.nsf.gov/statistics/seind08/c2/c2s4.htm
    Gary Gereffi, Vivek Wadhwa, Ben Rissing, and Ryan Ong. 2008. 
Getting the Numbers Right: International Engineering Education in the 
United States, China, and India. Journal of Engineering Education. 
January.

    Mr. Wolf. In overall raw numbers, how do we compare? The 
reason I ask, and I do not know if it is true, I saw that India 
and China last year had 700,000 students in engineering. We had 
70,000.
    And then it went on to say that 40 percent of our students 
were foreign students who were probably not going to stay here. 
And is that figure accurate? And how long, if it is accurate, 
how long can you kind of go on with those numbers?
    Mr. Cicerone. The figure, I think, is probably exaggerated 
for China and India because it includes people who are not 
taking, let us say, as strong a degree as we would have in four 
years, but who are getting much more practical technician type 
training, two and three year programs.
    I am not sure anybody has the exact number, but it is not 
grossly exaggerated. I would say that is on the high side and 
it is growing so fast that if it is not that big now, it will 
be soon.
    Mr. Wolf. Could you see if you could get those numbers for 
the Committee.
    I also saw that we have fewer physicists, Ph.D. physicists 
in the country today than we had in 1956 before Sputnik. Is 
that accurate?
    Mr. Cicerone. These figures have all come out since the 
Gathering Storm report.
    Mr. Wolf. Are they accurate though? Is that an accurate 
figure?
    Mr. Cicerone. It is approximate, but I think we actually-- 
that number also has been criticized in the last year with some 
evidence that we have a few more physicists now than we did in 
the mid 1950s, but not a lot.
    Mr. Wolf. Well, if you can correct the numbers, but also 
just a few more would sort of be a failure because the 
population in the country today versus then is fairly dramatic.
    What do you think we should do to have young people get 
interested? What age do you believe do we lose them? You very 
seldom hear somebody who goes to the University of California, 
University of Virginia, majors in history and then in their 
sophomore year transfers into biophysics.
    [The information follows:]

    Before listing any numbers about physicists in the United States 
now and in 1959, please note that the total population of the U.S. has 
increased by about 70% in those 50 years.
    The number of physicists is only an estimate, because many 
physicists take jobs not identified as a ``physics position,'' and in 
other cases, people who do not have degrees in physics may fill 
positions labeled as such. That said, the American Institute of Physics 
(AIP) has a membership (combined number from its constituent societies) 
of about 125,000 at last count. That number includes people with 
physics degrees at the BS, MS, and PhD levels. It is known that about 
27% of people awarded the BS degree in physics go on to get a PhD. Of 
those 34,000 PhDs awarded over the years, only about 40% are in 
teaching or university research positions in physics. That number of 
14,000 active PhD physicists is the same as the number cited in the 
Department of Labor Bureau of Labor Statistics. According to the AIP, 
there are 9,150 tenured or tenure-track university positions in physics 
in 2006 (contract with 8,450 in 1996); the remainder of the 14,000 are 
in non-tenure-track positions.
    The number of Ph.D. degrees awarded annually in physics in the 
United States was in the range of 500-600 around the time of Sputnik. 
In recent decades, the number has fluctuated in the 1,100-1,500 range. 
However, the proportion of bachelor's degrees in physics to total 
degrees awarded was twice as high in the year before Sputnik as in 
2004.
    Physics Ph.D.s awarded--Sourc: American Institute of Physics http:/
/www.aip.org/statistics/trends/highlite/ed/figure13.htm
    Physics Bachelor's Degrees as a Percentage of the Total--Source: 
APS News, August/September 2007 http://www.aps.org/publications/
apsnews/200708/physicsbachelors.cfm

    Mr. Cicerone. That is right.
    Mr. Wolf. Usually they go into engineering or math or 
science and then into business or something else. I am not 
saying nobody ever does it, but there are probably not a lot of 
people.
    What age do you believe we lose them? Is it fifth grade, 
third grade? Have there been any studies showing that?
    Mr. Cicerone. It seems every time someone looks, it seems 
to be earlier and earlier. That is, the children seem to have a 
lot of curiosity, interest, and excitement about nature and 
science when they are young and as they get older, it seems 
that whatever we are doing to them, we are losing more.
    But I think the biggest break point is probably seventh 
grade or eighth grade. It has to do with Algebra, the teaching 
of Algebra, and the way children respond to Algebra word 
problems and then Algebra I and Algebra II. We seem to lose an 
enormous number of children there. They develop some kind of an 
antipathy toward science and math and it is hard to get them 
back after that.
    Mr. Wolf. Is the Academy looking at anything? How do you 
maintain and keep people? You are?
    Mr. Cicerone. Yes.
    Mr. Wolf. Could you share with us what?
    Mr. Cicerone. Mostly I would say these are local programs 
all around the country who are working towards increasing the 
flow of students through high school into college science 
technology and math programs. And they find the same 
experience. For example, if the child is excited about biology.
    I remember a lot of programs in California I worked with, 
we found that the failure rate had to do with first and second 
year chemistry, among the students who wanted to be biologists. 
And that failure in turn was based on the calculus and physical 
chemistry which in turn revealed a weakness all the way back to 
that seventh and eighth grade Algebra.
    So getting the math skills strong through high school has 
been identified as one of the keys because with strong math 
skills, then these young men and women can go on to do almost 
anything, whether it is engineering or whether it is economics 
or physics.
    So a lot of focus has been on working on the math skills. 
The other focus is to have teachers who are comfortable doing 
experiments with children which really bring out the curiosity 
and that is where so much emphasis, as I think you know, Mr. 
Wolf, has focused on equipping teachers and finding new 
teachers who are really comfortable in the content matter, that 
is who are not just generalists, but who have, if they are 
going to teach physics, a decent background in physics, if they 
are going to teach biology, a decent background in biology.
    But we have a long way to go. I think in California, two-
thirds of the high school biology teachers do not have a degree 
in biology just as an example. So we have a long way to go.
    Mr. Wolf. Last question.
    Mr. Cicerone. More weaknesses than we do the solutions.
    Mr. Wolf. Well, then that leads to the last question and it 
is a difficult question. But since you do not work for the 
Administration, you can be very candid and tell us what you 
really believe. And I think you would carry a lot of weight.
    If you had to look at where we are on math and science and 
physics, chemistry and biology and all of these and the nation 
with regard to science, would you say that we are doing very 
well, would you say that we are holding steady, or would you 
say that we are in decline?
    Think carefully because I think----
    Mr. Cicerone. I would say we are in decline, but it is 
split. Our top end students can and do compete with the best 
anywhere. Our weakness is with a great bulk of the population 
who are not attaining a minimal level of understanding. So if 
we are content with a country based on the achievements of the 
highest few, we can hold steady. But we are not educating the 
great bulk of our students well enough.
    So when you go to our really top schools and see what the 
students are doing, they are doing wonderful things and better 
all the time and they can compete with anybody. There just are 
not enough of them and that is why we depend so much still on 
foreign students coming here because we are not producing 
enough engineers, we are not producing enough scientists, but 
our best students are as good as anywhere in the world, if not 
better. There just are not enough of them. We are not doing 
enough with our entire population, so that is why I would say 
we are in decline.
    Mr. Wolf. Okay. Thank you for your time.
    Thank you, Mr. Chairman.

                           SCIENCE EDUCATION

    Mr. Mollohan. You are not doing enough farming to identify 
and nurturing? A lot of the population is being lost in the 
schools?
    Mr. Cicerone. Yes, sir.
    Mr. Mollohan. We are just not producing the students?
    Mr. Cicerone. Yes, sir. Our best continue to hold their own 
with anybody, but we are not bringing along the rest of the 
people enough.
    Mr. Mollohan. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman, and welcome.
    Just to pursue the line of questioning that Mr. Wolf had 
asked, in your opinion then, we are talking about changes in 
the field of education and the funding and support.
    Given the recent infusion of revenue and the direction that 
we are going in and the areas that we are concentrating on now, 
where are those differences compared to the last few years and 
is it more or less in terms of funding and support in those 
areas that relate to research and science and technology?
    Mr. Cicerone. Do you mean, sir, with reference to the 
stimulus accounts?
    Mr. Honda. Whatever revenues we are looking at now, whether 
it is stimulus or the current Omnibus bills that we are looking 
at, the type of support and the amount of support in the areas 
that are necessary.
    Mr. Cicerone. Probably the most dramatic change has been in 
the general field of research and development in energy. Our 
federal expenditures for energy R and D stagnated over the last 
30 years and probably went down in constant dollars. I am 
pretty sure they did.
    And this stimulus bill that has just been approved has a 
great deal of emphasis on energy. That is probably the most 
outstanding example of change overnight where we really have 
not done anywhere near what is necessary on energy research in 
this country.
    Since the oil shocks of 1973, 1974, and 1979, and a little 
bit of work around 1980, things have just gone downhill until 
this past year.
    Mr. Honda. In terms of educational policy, preschool to 
postgraduate, and looking at creating an inclusionary kind of a 
policy so that we expect all youngsters to be able to 
understand math and science as individual citizens, not 
necessarily to be scientists, but to be thoughtful and critical 
consumers, how would you address and where would you make those 
changes in terms of making those kinds of shifts in the way we 
are doing things or do we need to do it?
    Mr. Cicerone. Probably every one of us has their own ideas.
    First of all, a disadvantage we have is we do not have a 
national system of K through 12 education. It is all controlled 
locally so that even those of you with tremendous 
responsibility for the federal government cannot do everything 
for K through 12 education, but you can set examples and that 
those of us who have seen progress with our children, our own 
communities always have stories to tell about exemplary people 
who come forward and can work with children on their own terms, 
showing them interesting curiosities, ways to make a career, 
practical issues like how you can live your life better by 
understanding how this works or knowing how to do these kinds 
of calculations.
    There does not seem to be any substitute yet for individual 
attention to children. So we continue to depend enormously on 
the teachers and, of course, the family home life. I wish I 
could be more insightful than that, but I think that is the 
answer.
    Mr. Honda. So individual attention that is consistent 
across the country on instruction and how we address these 
areas is something that would or should be looked at?
    Mr. Cicerone. With examples from successful people who the 
children have heard of.
    Mr. Honda. Okay. And that is different from standardized 
assessment.
    Mr. Cicerone. Well, we have to have some kind of 
assessment, though, to know whether we are just feeling good or 
whether we are actually achieving anything.
    Mr. Honda. But if we have standardized assessment with an 
inconsistent feel of treatment, then the assessment is always 
going to be not where you want it. Is that accurate? So our 
focus should be really on trying to figure out how we address 
across the country consistent curricula and instructional 
activities to the child, individual child is what I hear.
    Mr. Cicerone. Yes. But some kind of nationalized standards 
are also necessary so that we do not kid ourselves in our own 
communities that we are like a little bit better than average.
    Mr. Honda. But this national treatment and approach to each 
youngster, that is going to be important, I mean that we are 
consistent across the board. And I guess we call it equity of 
instruction and resources. Rather than trying to victimize a 
victim, we have set them up so that we need to really provide 
the wherewithal for them to all be able to meet their 
potential.
    Mr. Cicerone. Of course.
    Mr. Honda. Okay. Thank you.
    Do I have a little bit more time, Mr. Chairman?
    Mr. Mollohan. Your first round is up.
    Mr. Honda. Yes, sir.
    Mr. Mollohan. You will get a second one.
    Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman.
    Doctor, I would like to go back to a question that Mr. Wolf 
posed and try to get you to enlighten us or at least enlighten 
this member.
    He asked a question that I was going to ask, and that is 
what we are doing to try to reach down to the right age and the 
right grade to capture the minds of young people to develop 
future scientists.
    Can you tell us what country or countries should be the 
example because it seems to me that the teaching of math or 
science or physics or chemistry, that the subject would be the 
same even if it is in a different language in China or in Japan 
or wherever, but obviously some other countries are doing a 
better job than we are? Which ones should we look to?
    Mr. Cicerone. Other countries are doing a better job of 
creating a floor level where nobody falls below. I do not think 
they are doing a better job at the high end. In fact, there is 
some evidence that if it is just teaching things to be 
remembered and kind of wrote learning, other countries do 
better than us. But on reasoning skills and thinking skills, 
there is a lot of evidence that we still do as well as we 
should.
    I think the real challenge is for us to work against our 
own best selves, that is we know we can do better. And these 
comparisons with other countries can always be criticized.
    For example, I just saw an article in Science Magazine last 
week that showed me that on reasoning skills and any number of 
tests, American students across the board are doing as well as 
many of their international counterparts. They are just not 
mastering as much material. They are not working as hard.
    But in terms of creativity, the reasoning skills are very, 
very important. So I am not willing to say that we are failing 
against all other countries. I think we have to focus on just 
lifting ourselves and as perhaps Representative Honda mentioned 
working with the potential of every child rather than trying to 
compare ourselves to Finland or Japan or Germany. There is a 
lot of disagreement on that point.
    Mr. Bonner. Well, my hometown of Mobile is the host of the 
State School for Math and Science, High School for Math and 
Science for our entire State of Alabama. I am very supportive 
of their efforts. I have actually sought earmarks for them.
    I guess the question, I am not going to ask you to say what 
are the top two or three schools for math and science in the 
nation, but when they come to me asking for help for computer 
technology or a new library, what should the very best schools 
that are training future scientists and mathematicians, should 
they be looking to make sure as a part of their curriculum so 
that they could one day be considered one of the best?
    Mr. Cicerone. So it sounds like that school identifies 
perhaps the children who have some kind of a gift or extra 
curiosity. There are few of these around the country and they 
are remarkable. And to provide opportunities for students like 
that is just absolutely essential because we just cannot ignore 
them.
    I would focus on the teachers. All the evidence is the 
quality of the teacher is the most important thing, the ability 
of the teacher to lead the children and to respond to unusual 
questions from children in a reasoning way rather than trying 
to give them flat out yes or no answers, but to lead them 
through deeper and deeper considerations and better and better 
experiments.
    So that falls on the teacher. I would focus on the teacher. 
And if the teachers say they need those kinds of equipment, I 
would listen to them.

                            SCIENCE FUNDING

    Mr. Bonner. And I guess my last question is this, that 
clearly this Subcommittee and many members of Congress do 
support increasing the funding for human sciences and, yet, 
everywhere we turn, the American people have a great angst 
about what is going on with their country. I mean, the stock 
market has certainly taken a tumble the last several weeks. 
People have seen their savings disappear. Costs go up, perhaps 
taxes going up.
    So I think a fair question on behalf of the American 
taxpayer is, and the Chairman alluded to it in his question, 
but to not pin you down to a specific number, what can we tell 
the American taxpayers that the benefits of increased support 
for the sciences will get them, because there are two things 
that I think most people believe we will never see and that is 
peace in the Middle East and a cure for cancer? And, yet, 
science may not provide the first. It certainly could play a 
role in providing the second.
    I guess my question is, what is the last most significant 
breakthrough in the sciences that we could tell the people back 
in my district or any other district in America that is so 
significant that it was worth the investment of more of their 
hard earned tax dollars?
    Mr. Cicerone. We have a whole string of those. I am not 
sure I could say the last one chronologically, but all around 
us, we have the benefits of this research like the global 
positioning system and everything it has done for our safety 
and traffic routing.
    And it all came out of discoveries that had nothing to do 
with the final product. People in laboratories were working 
with lasers and masers and timing devices, all of which turned 
out to be essential for the global positioning system.
    Going back a few years before that, these clunky devices 
that were individual transistors about as big as this 
microphone. When they were invented at Bell Laboratories and 
other places, nobody foresaw that they could be shrunk and made 
faster and embodied in automobiles to get better fuel 
efficiency and in biomedical devices to not only record data 
but to detect any unusual behavior with the biomedical sensing 
device.
    The nuclear magnetic resonance devices that give us NMR 
diagnostics now in medicine not only for sports injuries but 
for imaging of various organs and circulatory system and brain 
function, none of these were invented. That is, they were done 
because research was getting done and students asked questions 
and their supervisors asked them questions about how things 
work. And then some entrepreneurial person came forward and 
said, you know, I could make something useful out of that.
    So we have a whole string of these discoveries and, yet, it 
is hard to fit this into an elevator when somebody asks you why 
are you supporting all this extra spending at a time like this. 
It is very hard for us to predict what is going to happen six 
months from now.
    But I think our reasons for science have even expanded 
beyond what they were 15 years ago where we were focusing on 
military strength and economic strength in the post Cold War 
world. Now we know that we have national security issues 
developing out of climate change. We have some world leadership 
issues that people are looking to the United States because of 
the fondness they have for us and they like to see us leading.
    We know that some of our science serves that purpose from a 
diplomatic point of view. But, once again, it is hard to say to 
somebody your tax bill just went up because we want to support 
more science. I feel that way myself, but I am happy to pay the 
taxes.
    Mr. Bonner. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you.
    Mr. Schiff.

                            ENERGY RESEARCH

    Mr. Schiff. Thank you, Mr. Chairman.
    Doctor, I wanted to follow-up on your comments regarding 
energy which I was delighted to hear. I think we did make a 
very important and sizeable investment in energy research in 
the stimulus bill.
    Just a few days ago, I visited a brilliant constituent of 
mine named Bill Gross who runs Idea Lab in Pasadena, which is a 
high-tech incubator. And one of the solar companies that has 
spun off from Idea Lab will be completing in May a solar power 
plant in Lancaster, California that for the first time will 
produce energy, will produce electricity from solar power at a 
price cheaper than deriving it from natural gas.
    They use a combination of affixing the solar panels on to 
units that track the sun to maximize the efficiency as well as 
mirrors to concentrate the sunlight and not have to go to so 
much expense in the production of the panels.
    So this will bring the price point down below natural gas, 
which is remarkable. It is hard for me to see how if that can 
be done this will not take off like a rocket.
    So I am very optimistic. I think we are on the cusp of a 
paradigm shift in energy, but how quickly that happens, I 
think, will depend also on how sensibly we incentivize and 
encourage that to continue and develop new science in this area 
and as well as encourage the transition of that science into 
technology and industry.
    So what I want to ask you is, what are your thoughts on 
what is the next step that we should be taking? We put a lot of 
funding in the stimulus bill. What steps can we take to further 
our work, the development of good science and technology in the 
field of energy?
    Mr. Cicerone. If I am not mistaken, the development you are 
talking about near Lancaster is actually focusing the sunlight 
to use the heat to make electricity on a fluid rather than the 
conversion directly into electricity.
    Mr. Schiff. Right.
    Mr. Cicerone. And it is turning out to be remarkably 
successful without even using a lot of great new basic science, 
but a lot of small improvements focused into one. It is 
fantastic.
    Well, as you know from California's history with 
electricity, the fact that Californians only use about 60 
percent as much electricity per capita as the rest of the 
country does, it has taken a lot of work in California not only 
in science and technology but in public policy.
    The pricing strategies whereby the utilities have been 
given incentive to provide energy services along with just raw 
electricity, the pricing strategies that allow the companies to 
charge more at times of peak usage have encouraged conservation 
which then save capital funds to help to keep the cost down. 
All of these things have to be done in tandem.
    But the challenge in front of us is huge. We are working on 
a set of reports right now which I am hopeful is going to help, 
it is called America's Energy Future, where we are looking at, 
this at the Academy, where are we getting our energy now, how 
much does it cost in each case, what are the prospects in the 
next few years, including efficiency improvements, and then 
trying to identify the barriers towards further improvement.
    And the barriers turn out to be a combination of science, 
technology, public policy, incentives, as you said. So we have 
a challenge to work together over a period of years to get all 
this done for a wider adoption of solar and wind energy and 
even nuclear. It is not going to be easy, but the incentives 
are huge.
    The strategic challenge is probably to create fleets of 
electric drive vehicles that can run off of the electricity 
generated from renewable and nuclear sources as opposed to 
using petroleum. That would accomplish a great deal for this 
country, but it is a strategic challenge because right now if 
you had the electricity, you do not have the cars. So it is 
going to have to go hand in hand.

                      ORBITING CARBON OBSERVATORY

    Mr. Schiff. I look forward to that report.
    Let me ask you one other very quick question if I could. 
The Orbiting Carbon Observatory, a lot of the research on 
climate change and in particular on this project comes out of 
the Jet Propulsion Lab, my neck of the woods. As you know, the 
launcher failed to place that mission in orbit. This is a 
heartbreak for all of us.
    As you look at our climate change research portfolio, do 
you see the data that this would have gathered as 
irreplaceable? Should we build another satellite to take its 
place? What do you recommend?
    Mr. Cicerone. Well, that mission, it is just a tragedy that 
it failed. I think it was February 23rd, because we were 
expecting several kinds of information from it. The only 
instrument like it is one that the Japanese just launched in 
December or January. And I am not sure which instrument would 
have turned out to be better. They are somewhat different.
    But the Orbiting Carbon Observatory was supposed to do at 
least two things. One is to track the carbon dioxide ebbs and 
flows and the bulges here and there that come out of both 
natural sources of carbon dioxide as well as industrial ones, 
and then also see the deficits, that is where is the carbon 
dioxide disappearing into the world's green things and the 
oceans to be able to do a better accounting for scientific 
purposes so we can make better predictions of future climate 
change.
    The other thing that that satellite possibly could have 
done is contributed to the United States' ability to monitor 
any new international agreements that might be reached in the 
future. That is, if the countries of the world sign up and say 
I am doing X, Y, and Z, what would be our ability to 
independently monitor whether country X is doing what it is 
supposed to be doing and whether or not the agreements are 
being effective.
    We were hopeful that OCO as it was called would give us 
some national ability which in turn could be shared with other 
countries to monitor international agreements, but we will 
never know now.
    So I think a strong case can be made that that instrument 
should be rebuilt and launched as quickly as possible. Usually 
producing the follow-on version of an original instrument, the 
prototype, is cheaper than the first one, but I do not know the 
details on this one.
    It was really the creation of the Jet Propulsion Laboratory 
and people out there would have to give the answers.
    Mr. Schiff. Thank you, Mr. Chairman.

                               SATELLITES

    Mr. Cicerone. On that line, I think of the 20 satellite 
instruments we have looking at the earth right now, 19 of them 
are passed their lifetime. We expect to see these instruments 
going dead and if not falling out of the sky and that includes 
some weather satellites that we all depend on every day as well 
as these longer term issues. We have a real problem with our 
fleet of satellites.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Mollohan. You have 19 reaching or already beyond----
    Mr. Cicerone. I think it was at the close of 2008, it was 
either 19 out of 20 or 20 out of 21 satellite borne instruments 
looking at the earth have gone past their predicted lifetime. 
They are not fresh anymore.
    In some cases, it is pretty black and white, clear cut. 
That is, if an instrument had a certain amount of cryogenic 
fluid on board because it had to cool the detectors, we knew 
how fast that would evaporate and we knew that the lifetime, 
that would be it.
    In other cases, the instruments are continuing to perc 
along. They are not dependent on, you know, a certain amount of 
fluid and they will keep working. We do not know how long.
    Mr. Mollohan. Mr. Culberson.

                            SCIENCE FUNDING

    Mr. Culberson. Thank you, Mr. Chairman.
    Dr. Cicerone, I cannot tell you how much I admire the 
National Academy of Sciences, National Science Foundation. The 
work that you do is so important. And for the future prosperity 
of the nation, thrilled to be a part of this Subcommittee and 
work with the Chairman, members who are all equally committed 
to supporting the National Science Foundation and your work. It 
really is a privilege to work with you guys on this.
    I am particularly and wanted to focus, Dr. Cicerone, on how 
the Congress funds the sciences and what your recommendations 
would be in order to give greater stability and predictability 
to science funding.
    It is my impression after serving on the Committee for a 
number of years and following the work of science grants and I 
have been a subscriber of the Journal of Nature and Science for 
about 20 years and try to read as much as I can. I am an 
amateur astronomer, very passionate about the space program and 
funding the sciences.
    Mr. Wolf's question is so important and to have you testify 
that in your opinion we are in decline, and I think that is 
self-evident to all us, profoundly disturbing.
    The National Academy of Sciences chartered in 1863 to 
advise Congress.
    Do you have any thoughts or recommendations, number one, so 
we give you an open-ended opportunity to tell us? What in your 
opinion could we do or should we be thinking about doing to 
restructure the way that the Congress appropriates funding for 
the National Science Foundation, NIST, the National Institutes 
of Health?
    But let us start first with NSF because bouncing around 
from year to year is terribly destructive and damaging to the 
ability of undergraduates, for you to attract graduate 
students, for example, to stay in these grant programs.
    What do you recommend that we need to do to give more 
stability and predictability to science funding year after 
year?
    Mr. Cicerone. Well, you have already said some very 
important things and that is the commitment to the goals and to 
help people, including your own constituents, understand how 
important these goals are.
    The National Science Foundation is perhaps one of the 
jewels of the world and you can see it the way other countries 
are always trying to imitate it.
    The NSF standards are seen as the goal standard in terms of 
competition. The competition for NSF funding is extreme, 
sometimes brutal.
    Mr. Culberson. Yes, sir.
    Mr. Cicerone. The success rates when people send their best 
work to the National Science Foundation and seek funding, the 
success rates are now about 22 percent. And it is kind of like 
an unemployment statistic. When the unemployment figures go up, 
you know that you have got problems because a lot of people 
have dropped out and are not even applying anymore.
    Mr. Culberson. Right.
    Mr. Cicerone. We have got problems like that at NSF now 
that people are not even sending in applications because they 
are so discouraged.
    Mr. Culberson. Well, they do not know what next year's 
numbers are going to look like.
    And looking at other countries based on your experience 
over the years, do you have any recommendations today that you 
could talk to us verbally about and then follow-up with a 
written response? Very important.
    What should Congress do to change the way we fund the 
sciences to ensure great stability, predictability, a steady 
growth over a number of years to give those scientists in the 
field the assurance that their grant is not going to be jerked 
out from underneath of them in the second or third year?
    [The information follows:]

    To produce and maintain a strong core of scientist and engineer 
researchers in the United States, we must teach and encourage young men 
and women who are now in our K-12 schools and in colleges and then 
provide support for their counterparts who are in graduate schools and 
those with new doctoral degrees. A great start would be to implement 
fully the recommendations in our 2007 report Rising Above the Gathering 
Storm: stronger investment in cutting-edge research, fostering a new 
generation of dedicated researchers, building a K-12 education with a 
strong STEM element, improving the environment for business innovation 
in science and technology areas.
    The US research universities are still the best in the world, the 
most innovative in both research and the innovativeness of the people 
produced. The gap between us and other parts of the world is narrowing. 
We were preeminent; we are not probably best among equals. We must 
increase and maintain our commitment to developing and supporting 
talented people. Students can sense opportunities and also the lack of 
opportunities, partly by watching older, more experienced people in 
their own fields of interest. When students see accomplished and 
motivated older researchers who are not able to obtain research 
funding, the younger students can get discouraged.
    A key issue in science funding is that the competitive grants 
programs at NSF and NASA, for example, must be robust enough and stable 
enough to offer opportunities for truly worthy proposal requests to be 
funded. Now, the fraction of successful applications is only 22 or 23% 
at NSF and the grant sizes are too small to support even modest-sized 
projects. In fact, some researchers do not even apply any more because 
of these low chances for success and small grant sizes. At the NIH, 
grant sizes are much larger but success rates are even lower, perhaps 
19%. My opinion is that success rates must reach at least 33 to 35% and 
that grants must be at least twice as large as they are now, and that 
competitive grants for major pieces of scientific equipment are also 
needed.
    We need ways to establish believable, stable career opportunities 
for young scientists in areas of critical national need (as NIH has 
done for biomedicine) as the only way to build a best-of-class 
technical workforce in these areas. The US is the unquestioned world 
leader in biomedical research. As we increase such research funding, 
however, we must avoid bust-to-boom-to-bust cycles. Management of the 
allocation of funds in coordination with management of anticipated 
budgets is required; lessons from recent increases at NIH followed by 
periods of stagnation and cuts can offer lessons.
    Broader goals are to re-energize longer-term, truly innovative 
research (more emphasis on truly innovative ideas, longer grants, 
critical mass in funding) to contribute to job creation and solutions 
to national problems. Peer review has served America very well in 
science funding but many reviewers are too reluctant to support 
researchers whose goals are large; reviewers often favor incremental 
progress.
    Similarly, it is essential to develop financial/career incentives 
to attract good scientists/engineers (especially women and minorities) 
into K-12/college teaching as the fastest way to increase the quality 
of teachers, and now is a great time to do it since there are talented, 
committed people without choice jobs.

    Mr. Cicerone. Well, a few of you are in such leadership 
positions that I am sure that you do a great job in making the 
case and, yet, I think it would help if the public, more of the 
public understood why you were doing that.
    So in the case of NSF, the reason it is so special is that 
the NSF does not have the kind of mission, say, that NOAA does 
where NOAA has to run the weather service and the fisheries 
service which in turn are very important.
    NSF was created basically to respond to the scientific and 
engineering community when people had good ideas which did not 
yet fit into one of the national missions like fisheries or the 
weather service. So NSF is kind of the bright spot.
    Mr. Culberson. Yes, sir. I understand. Forgive me. We have 
got such a brief time.
    Mr. Cicerone. Sorry.
    Mr. Culberson. And I will follow-up. You are very kind, Mr. 
Chairman. Thank you.
    I am really driving at and what I am trying to get you to 
help us do is give us your best ideas on how, I mean, really 
restructure.
    Personally in my opinion, we ought to have an independent 
board of scientists that recommend a budget number to us, Mr. 
Chairman, that is independent of the President's budget no 
matter who the President is and that we fund that level of 
science based on the best advice of the best experts in the 
field and we get politics out of the way and let the peer 
reviewed competitive grant process drive the work.
    Please tell us what your best recommendation is on how in 
your opinion we should change the way we fund science in the 
future so that it is more stable, predictable, and we have a 
growth curve that will give the assurance to the scientific 
community and the world that the Chinese are not going to 
produce ten engineers to every or ten engineers or scientists 
to every one of ours.
    Mr. Mollohan. Along those lines, if the gentleman will 
yield.
    Mr. Culberson. Yes. Please, Mr. Chairman.
    Mr. Mollohan. In your closing remarks, you indicate let us 
hope and resolve to make these new levels, referencing the 
stimulus, a baseline for further advancement.

                        STIMULUS PACKAGE FUNDING

    Mr. Cicerone. Well, the reason I say that is I am thinking 
ahead now to what Representative Culberson was just hinting at. 
If you put together a group of people whose judgment was strong 
and that you trusted, what they would be looking at is what 
kind of demand, what kind of capability do we have.
    So the stimulus package is going largely into meeting the 
unfunded top proposals that were ranked in the top line by NSF 
and the other agencies just in the past couple of years.
    You want to at least meet that level, and then the question 
is, can it continue and what is the mix of equipments and 
facilities and computers and people in the future. One way to 
keep track of that is the influx of highly competitive 
proposals.
    Now, at NSF, far too small a fraction of those are being 
funded and the size of the grants that are being given out is 
far too small. They have fallen far down from historic levels 
that could have been maintained and should have been 
maintained.
    I also read Science and Nature every week and the last 
issue I looked at from the week before last, the first nine 
papers were from--eight of them were from foreign countries and 
the ninth one had an American collaborator on it. That is what 
we are looking at in the physical sciences and engineering. We 
are in decline competitively.
    We probably cannot afford to be the best in all fields. We 
are going to have to decide which fields we really have to be 
the best at and go for those and then the other fields be good 
enough to recognize breakthroughs elsewhere.
    So the way to measure that would be to get these success 
rates back up at NIH and NSF, back up maybe to the one-third 
level at least.
    Mr. Culberson. Well, let me say in conclusion, the Chairman 
has been very generous with his time. I would like to work with 
you, Mr. Chairman, and members of the Subcommittee to find a 
way to make that $3 billion one-time shot in the arm a 
permanent increase in the baseline for NSF and then really 
think creatively outside the box about what do we do to ensure 
that we do not bounce around like this in years to come because 
that is one of the most destructive, certainly, would you not 
agree, it is destructive and damaging to the grants that you 
award for the numbers to, funding levels to bounce around from 
year to year without any predictability or stability?
    Mr. Cicerone. It is. And that creates the kind of 
management and leadership issue that you were talking about, 
how you can have the people in charge of the agencies working 
with the budget people to smooth things out instead of going 
through these boom and bust cycles.
    Mr. Culberson. I have really appreciated your time, Mr. 
Chairman.
    And I also want to say, Dr. Cicerone, we have not met 
before, but, and my colleagues know this, I am pleased to say I 
just earned another hundred percent perfect conservative rating 
from the American Conservative Union and my starting answer is 
no to almost all appropriations requests unless it is for the 
National Science Foundation, the NIH, or NASA.
    Mr. Cicerone. Yes, sir.
    Mr. Culberson. Your success, the success of America is 
contingent on the success of the National Science Foundation I 
am convinced.
    Thank you, Mr. Chairman.

                        AMERICA COMPETES' AGENDA

    Mr. Mollohan. I thank the gentleman.
    Following up a little bit on Mr. Culberson's line of 
questioning, NSF, NIST, DOE Office of Science, do you feel that 
beyond these agencies, do other agencies need significant 
increases? Should other agencies be a part of the America 
Competes' agenda? And, if not, why not? And if you could just 
discuss that.
    Mr. Cicerone. I think there are the same kinds of needs 
elsewhere. For example, at the U.S. Department of Agriculture. 
There are emerging issues of food security, possibilities in 
plant biology butted up against the realities of climate change 
that are going to require more research than USDA has ever 
done. And I think a lot of it is going to have to be done more 
competitively than they have done before.
    It is going to have to involve research institutes and 
universities all over the country and not just at the 
agriculturally favored places.
    NASA, did you mention NASA, Mr. Chairman?
    Mr. Mollohan. Well, NASA and NOAA are under our 
jurisdiction. It is very interesting actually when we think 
about it in the context of climate change--the Department of 
Agriculture. I mean, I can see where they are very huge players 
in that arena.
    But we are obviously particularly interested in NASA and 
NOAA in regard to that question.
    Mr. Cicerone. And in the National Institutes of Health, 
there are a lot of indicators now that the capabilities that 
could be exploited are out there for the taking. We have got to 
encourage not only the young people but the established 
researchers who have been working for a long time to stay 
involved.
    And they are running up against funding difficulties now. 
Their success rates have lowered. The avenues they have to 
explore not only in basic biology but in a number of disease 
related specific issues are larger than the finances can 
provide for.
    The Department of Energy with its new leadership of Steven 
Chu, I think, is capable of doing a lot more than it has ever 
done before.
    Mr. Mollohan. Well, let me ask you.
    Mr. Cicerone. And on the NASA side, they have more missions 
now than they did 40 years ago. NASA seems to be trying to do 
too many missions without enough funding. And the missions that 
have developed, I will give you two kind of polar opposites in 
the last 20 or 30 years.
    NASA has become a force in our whole research and higher 
education infrastructure around this country that I am not sure 
the NASA Administration understands how important the graduate 
students and postdoctoral people supported by NASA have become 
in this country.
    And it is not just about manned exploration. In fact, I am 
not so sure that the American public wants to stick with a 
decade or a multi-decadal commitment to manned exploration. 
Maybe they do.
    But NASA's importance in astrophysics and astronomy is just 
fantastic these days. In earth observing and in climate change, 
so much of what we have learned about sea level rise properly 
averaged over the whole earth, not just one ocean basin, but 
now properly averaged, the observation of global precipitation, 
what is happening to the ice cover and the ice amounts, the 
mass, the horizontal extent, the thickness of the ice over the 
Arctic and Antarctic would not have happened without those 
satellites.
    So these are all kind of new missions for NASA that have 
not been provided for.
    Mr. Mollohan. Well, it sounds to me like you are making an 
argument for NASA being treated as is NSF or NIST or the DOE 
Office of Science with regard to our competitiveness agenda 
that NASA science----
    Mr. Cicerone. I think so.
    Mr. Mollohan [continuing]. Should be in the doubling and we 
should be in the business of trying to double NASA science as 
well as the other agencies.
    Mr. Cicerone. I think so. Frankly, I think it was an 
omission of our report Rising Above the Gathering Storm. We did 
not talk enough about NASA and NIST in that report nor even the 
Department of Defense basic research was not given enough play 
in that report. That report was written awfully quickly.
    But if you look at the impact on the American research 
enterprise, NASA is right in there.
    Mr. Mollohan. Well, pointedly, is it your testimony that 
you think that NASA science ought to be treated the same as 
those agencies that are enjoying a doubling agenda?
    Mr. Cicerone. I think that NASA science should, yes. But 
the NASA science is not that large a part of the whole budget. 
So perhaps it is doable.
    Mr. Mollohan. I am not asking whether it is doable 
necessarily. I mean, that is another question. I am asking what 
is your opinion about what should happen.
    Mr. Cicerone. I am just trying to distinguish between the 
entire NASA budget and the NASA science where I think you can 
make a case that it is just as important to the country as 
these other agencies.
    Mr. Mollohan. Do you make that case here today?
    Mr. Cicerone. Yes.
    Mr. Mollohan. Okay. Thank you.
    What about NOAA in those same terms?
    Mr. Cicerone. NOAA has much less to do with universities 
than some of the other agencies and, yet, what NOAA does is 
essential on the climate and weather side and the fisheries 
side. They actually provide services on which a lot of our 
commerce depends and it has to be done with first rate science. 
They have some amazing laboratories internal to NOAA.
    The impact on universities is not as evident except that it 
is places for people to go after they have finished at 
universities who then serve the rest of us. So I am very, very 
high on NOAA. I hope that the new administrator is confirmed 
quickly because she is dynamite. She has very high standards. 
You want to be on her side. She gets things done.
    Mr. Mollohan. Are there accounts within NOAA that you think 
should be treated in the same way and with the same goals as 
NSF and NIST with regard to a doubling of the funding?

                             CLIMATE CHANGE

    Mr. Cicerone. I think the fleet of observing satellites for 
weather and climate is in real trouble with NOAA. That needs 
some quick attention and some serious attention. And there 
fortunately, I think most people understand how important they 
are because they see their TV shows about weather and they can 
figure out that it is coming from the National Weather Service 
and NOAA.
    On the climate side, it is even worse. We do not even have 
an appropriate national strategy for monitoring climate. We 
have been doing it a piece at a time. And the faster things 
change and the more we have learned, we really need a strategy 
more than ever and NOAA should be in the center of that 
observing the oceans. And the problem with ocean acidification 
as part of climate change has not even been taken into account 
yet.
    Mr. Mollohan. My sense is that this Administration is 
beginning to give a lot of attention to climate, to climate 
study, climate change, and that NOAA is at the center of that 
as you just mentioned.
    Can you tell us what you know about what is going on in the 
scientific community, what their attitudes are with regard to 
climate change, what responsibilities NOAA should be assuming 
with regard to that, and talk about it also in terms of 
funding?
    Mr. Cicerone. We assume a mixed portfolio which has been 
the case in this country for climate work over the years. The 
National Science Foundation, NASA, and NOAA and to some extent 
the Department of Energy have been the leaders with 
contributions from places like Agriculture, Interior, but the 
four big ones have been NASA, NOAA, NSF, and Department of 
Energy.
    And it has always been assumed that they work together. 
Each one of them brings something. But in terms of a national 
strategy, we really have a lot of catching up to do. The way 
things are unfolding and the premium put on the value of this 
information is very high now, partly as a national security 
issue, I might add. A number of reports from retired military 
people have made this plain in the last couple of years.
    Mr. Mollohan. This what plain?
    Mr. Cicerone. The value of recognizing climate change as an 
element in national security and, therefore, getting the 
information that we need, how fast are things happening, where 
do we expect them to happen, and how much extra stress are they 
going to put on different countries.
    Mr. Mollohan. Well, looking at NOAA's responsibilities, it 
seems to me that that is a natural. And I understand there was 
a lot of discussion about NOAA's increasing responsibilities 
with regard to climate change.
    Mr. Cicerone. But they cannot do it without NASA and NSF. 
They absolutely cannot.
    Mr. Mollohan. Oh, no, of course not. But I guess you are 
talking about all these needs. How does that get pulled 
together and what are the funding, as you look at them, what 
are the funding requirements for those respective agencies that 
are going to have increased responsibilities with regard to 
climate change?
    Mr. Cicerone. I do not know what fraction of NOAA's total 
budget can or should go into climate because they have all of 
these other requirements on them at the same time, fisheries 
and weather service and so forth.
    But NOAA has been central certainly during the Bush 
Administration. All the way back to the early 1980s, NOAA has 
been central to our climate program and, yet, so many of the 
contributions have been due to NSF and NASA contributions that 
it is hard to separate them.
    Mr. Mollohan. No. I understand what you are saying. You may 
not be prepared to talk about it and being able to dice it out 
like that.
    Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.
    I saw a film. I looked at it the other day. You ought to 
get a copy. I will try to get a copy for you. It is called 
IOUSA and Pete Peterson funded it.
    I think in the year 2030, there is nothing left, there is 
not one dime for anything else other than the entitlements and 
interest on the debt, nothing for cancer research, nothing for 
education, nothing for the sciences.
    And so the reality, this Congress is broken. This place 
does not work. And, I mean, just the other day, it took away 
tuition tax credits for young kids in the inner city who are 
trying to break out of the public schools, and I had a daughter 
who taught in the D.C. schools, trying to break out to get in 
where they can get a good education. And they are taken away 
from them.
    And so, you know, there is that Simon and Garfunkle song, 
The Boxer. You ever hear it? You know, man hears what he wants 
to hear and disregards the rest. We are really only hearing 
what we really want to hear.
    And so the sciences are going to be squeezed unless we can 
get some sense of kind of bringing this thing back. And so I 
really am not that optimistic because, frankly, every time this 
Congress does something, if the Republicans do something, the 
DCCC puts out a press release attacking them. If the Democrats 
do something, the Republican Campaign Committee puts out 
something attacking them. And pretty soon nobody does anything.
    And so really we can talk about how important we want to 
get these numbers up, but unless we come together and develop a 
mechanism, and now I am not speaking as a Congressman, I am 
speaking as a father and a grandfather, we are in serious, 
serious trouble.
    And so we can talk about how we have to spend, but how are 
we really going to do it? George Washington said deed is not 
just words and we need the deeds to demonstrate.
    And let me say for the record the Bush Administration did 
not do a good job in the science area. I said it when I was 
Chairman and I will say it here for the record. But the 
Congress has to not just criticize, but has to come up with how 
we are going to deal with this spending in so many other areas.
    Now, my staff pulled the report that I talked about. It was 
the Chronology of Higher Education. It said new grants for 
students fail to meet expectations. In the program's first, 
this is the STEM grants, academic, competitive, and national 
smart grant programs, in the programs for the first twelve 
months, the Department awarded roughly 430 million in grants, a 
far cry from the 790 million that lawmakers had appropriated 
for them based on the Department's projections. Some 361,000 
students received the award, significantly fewer than the 
505,000 the Department had estimated.
    So I think we need to do something to make sure that young 
people have this interest. And I guess the question I want to 
ask you is, it is very tough to sort of answer your question 
about having people who have experience. We have a robotic 
program in a high school in our area. Thomas Jefferson has 
another one.
    Should we not have more companies like Rockwell and 
Raytheon to give their top people to say one day or a half a 
day in the classroom so you are bringing people from SAIC or 
Raytheon or Lockheed Martin to really be coming in with 
practical hands-on experience that can kind of electrify, and I 
do not mean just twelfth graders, I mean fifth graders and 
sixth graders, and is much happening? Do you have any ideas 
about how we can do it and is it a good idea or what can we do 
to do that?
    Mr. Cicerone. Well, I think it is a great case because 
science and technology really have so much to offer. I think we 
have seen it now in a couple of ways.
    One is all the economists who have looked at the growth of 
the American economy, as Chairman Mollohan said, growth that 
surpasses the rate of population growth is where the surplus is 
generated.
    Every one of them, regardless of their political position 
on the spectrum, has concluded that the science and technology 
efforts in the United States have accounted for at least half 
of the economic growth in the last 50 or 60 years. So we know 
that intellectually.
    We also know from the debacle in the finance industry that 
is occurring that it is going to be pretty hard to run an 
economy based on a service industry, whether it is financial 
services, whether it is just tourism. We have got to get back 
to creating things and we are not going to be able to create 
things competitively with many other countries because of our 
labor costs, the standard of living we are all accustomed to.
    So what we are left with is the innovation agenda that you 
know so much about, Mr. Wolf. It is creating a whole population 
which is not only capable of innovating but working in 
industries which have not been created yet. And that gets all 
the way back to high school. You are absolutely right.
    So what I am hoping for is that the agenda is so positive 
in the first place that people can see it all. They know that 
individual opportunities depend on it and they know that our 
national future depends on it.
    We all have to dig into our own communities and take 
advantage of those companies that will let their people go out 
and do a day's work like that or volunteer work in the 
evenings, retired people, and then creating a new cadre of 
teachers who are better equipped, the things that are going on, 
for example, out in Texas, the UTeach Program, that is being--
--
    Mr. Mollohan. What is that called?
    Mr. Cicerone. It is called UTeach, capital U capital T, U-T 
and then each after it, at Austin. They have created a way that 
their science schools on the campus are equipping young people 
who are getting science degrees to be certified teachers with 
just about six months extra instead of a year and a half or two 
extra in school and financial support to help them using the 
school district, using private philanthropy, using companies.
    And now California is imitating them. The University of 
California is imitating the UTeach Program. And several of the 
UC campuses are now turning out hundreds of new teachers who 
are certified. They are not emergency certified. They are 
certified to teach and they also have degrees in physics and 
chemistry and mathematics.
    So this is a start and it is the states doing things on 
their own. I think they are going to be imitated in the other 
big states.
    Mr. Wolf. Okay. Well, thank you.
    Maybe, Mr. Chairman, we ought to ask the new Secretary of 
Education to come before the Committee. He has a great 
reputation. I have a daughter in education. She says people in 
education are very high on it. Maybe we should ask him to come 
and ask if he can lay out what they plan on doing, particularly 
with regard to the science, math and science and physics and 
chemistry and them.
    The last issue, I think we need targets because if you do 
not have targets, I mean, if you are trying to run the mile, 
you have got to know where you ought to be at every time and 
you ought to have targets.
    And I think what President Kennedy did on saying we were 
going to put a man on the moon was very, very positive. And I 
think the more we have targets so that we understand that we 
are either making those targets or we are falling behind, I 
think, is very helpful.
    I heard and I am going to ask NASA this, but I had heard 
that China may very well beat us back to the moon. Is that 
accurate that China could or will or potentially may beat us 
back to the moon and do you think that is very significant or 
do you think it is just an interesting story? What does this 
mean?
    But, one, have you heard that they may beat us back to the 
moon?
    Mr. Cicerone. Yes.
    Mr. Wolf. Yes. And what is the likelihood of that? Is it 
like one in a hundred or is it like they get a 50/50 shot at 
it?
    Mr. Cicerone. I would not bet against it. Of course, it 
partly depends on what we do. On the other hand, I would not be 
too worried about it.
    That could be an example of expensive programs where 
international cooperation is the way to get the job done, but 
also to minimize our own cost. There are lots of things that we 
have talked about today at NSF and NASA and NOAA that could be 
done cooperatively with other countries. For example, high 
energy physics.
    It would be nice to have some of the experiments here in 
the United States, but at least the Americans can use the new 
facilities that are being built in Europe. Certain space 
programs like Exploration could be done cooperatively.
    Where we have trouble is like with that instrument that Mr. 
Schiff mentioned, the orbiting carbon observatory. If we demand 
that we work with international cooperation on every space 
instrument, we are going to end up with needlessly complicated 
things instead of focused, targeted, cheaper things.
    But going back to the moon could be a goal that we could 
cooperate with other countries rather than turning NASA upside 
down trying to do it ourselves for unknown purposes. I would 
not be too upset if the Chinese went there themselves, but it 
would be nice if we could cooperate.
    Mr. Wolf. Of course, the problem with the Chinese, they are 
spying against us and they are stealing our secrets. And maybe 
that is not the best country to cooperate with. But they have 
about 30 Catholic Bishops in jail. They have a couple hundred 
Protestant Pastors in jail. They have plundered Tibet. They are 
persecuting the Muslims and they are killing people in prison 
and taking their blood type and selling the organs for $50,000. 
And they have stripped the computers of 17 congressional 
offices and other committees.
    So they may not be the one that we want to cooperate with, 
but I think you make a good case about cooperation.
    I have other questions, but I just think, you know, I will 
just thank you for your testimony. I urge you to really be bold 
and speak out and even be controversial in the sense because 
when people get within the Administration, the previous science 
advisor would never say very, very much and we just could not 
get him to say very much. And pretty soon, if you will not say 
very much what you really believe, why even ask you any 
questions because whatever you are going to get is not really 
the reality.
    So I think that since your salary is not paid for, in 
essence you are not a government employee, we need people like 
you and Norm Augustine and others to be very bold, to speak 
out, obviously in a very kind way. We are not attacking and 
criticizing people, but just say here is where America is. And 
I think your credibility is probably greater, particularly 
since you are not in government than if you were.
    So I would urge you, the Academy, and others like you to 
speak out, write editorials, do op-ed pages of pieces for the 
Washington Post and the Wall Street Journal and others to sort 
of let America know really where we are at this time.
    And any thoughts you may have, and I am going to give you 
this----
    Mr. Cicerone. Please.
    Mr. Wolf [continuing]. If you could take a look at it, on 
what we do with regard to this because when we do talk about 
funding, here is the funding that laid on the table.
    Mr. Cicerone. IOUSA?
    Mr. Wolf. I am going to get you a copy. I am going to get 
you a copy. If you can have somebody come by, I will burn a 
copy off for you and get it for you by tomorrow.
    But also if you could just look into this STEM Grant thing, 
any thoughts you may have as to why so much money laid on the 
table.
    Mr. Chairman, thank you very much.
    Mr. Mollohan. Will the gentleman yield?
    Mr. Wolf. Yes, I would be glad to yield.

                       INTERNATIONAL COOPERATION

    Mr. Mollohan. I just want to follow-up on the gentleman's 
question about international cooperation since you raised the 
question and Dr. Cicerone spoke to it.
    There are a lot of scientific undertakings that are done 
through international cooperation. I would like for you to 
elaborate on Mr. Wolf's question.
    And how does that relate to our maintaining leadership in 
science and technology? Where is it appropriate to consider 
international cooperation and where not? And what about the 
issue of locating major scientific facilities in the United 
States or offshore?
    Mr. Cicerone. These questions are really more important 
than ever before. For example, in the physical sciences, we 
have heard a lot about the progress in China and India and 
Korea and, yet, the people who are probably beating us right 
now are Europeans. In many fields of physical sciences, they 
would still like to see our leadership, but they do not need 
it. They are quite willing to move ahead with big facilities 
without us. They would like to see us cooperating on, for 
example, high energy physics experiments, but other fields of 
physical sciences too.
    So it is these changes that bring those questions really up 
front. What can we do to advance the science to make sure that 
Americans are going to be part of it to enjoy their share of 
the discoveries and to including the ones that are going to 
have economic benefits when so much is being done elsewhere 
that we can no longer be in the lead in all fields? It is a new 
world. We cannot do it. I am being told this from everywhere I 
go.
    Mr. Wolf. Mr. Chairman, could I just follow-up on that 
then.
    Somebody from NSF who I will not say about two years ago 
said that Europe had a formal program of coming over here to 
encourage our engineers to go over. Like somebody would come 
and say, well, you are a German or you are Czech, come on back 
and work in your homeland for a couple years and you can go 
back.
    Is there a formal program? Are the Europeans coming over to 
take our engineers or was that just a story?
    Mr. Cicerone. I do not know if it is a formal program, but 
it is certainly happening. It is happening for a lot of 
reasons.
    One of the papers this morning talks about a young woman 
Russian Ph.D. working at MIT who cannot get her Visa extended 
to stay on and work with MIT in the company she has been 
working with. She is going to go back.
    A colleague of mine at Harvard I have known for many, many 
years, three of his last four Ph.D. students have gone to work 
in England and Germany instead of staying here.
    We are hearing more when we quiz entering graduate 
students, do you want to go back to your home country when you 
are finished or do you want to stay here. This is a question 
that the National Science Foundation has been asking graduate 
students off and on for about 25 years. There is more of a tilt 
now towards going back home because they have got opportunities 
like they never had before.
    But the United States still inspires people. People still, 
I think, would rather live in the United States. We have so 
much going for us that I think we can counter these trends by 
creating and maintaining the opportunities of the type you are 
talking about.
    But the international experiments, the international 
collaborations are here to stay and we are going to have to be 
strategic as to how we advance certain fields. For example, the 
international nuclear fusion experiments that are now being 
done in France instead of the United States.
    I certainly do not know whether that was the right thing to 
do, but it was a way for the United States to keep a hand in a 
kind of energy research that might pay off 30 or 40 years from 
now. Unfortunately, that is what people have been saying for 30 
or 40 years already.
    But it is so expensive that it seemed like the only way the 
United States could stay involved was to cooperate with several 
other countries, the so-called ITER Program, I-T-E-R, in 
France. There are going to be more decisions like that we are 
going to have to face. Can we go it alone or do we have to 
throw in with someone else and can we do some of them here 
instead of having them all going on overseas?
    Those are the questions we are looking at now, especially 
in the physical sciences.
    Mr. Mollohan. We will follow-up.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chair.
    The last 45 minutes are pretty thoughtful and stimulating. 
The idea of having guaranteed funding for the sciences with a 
growth factor, of course, plus asking you to be honest and 
critical of the way we are doing this, I think, has food for 
thought because there is an old Chinese saying, be careful what 
you ask for. But I think that those are thought provoking 
things.
    The other comment you made earlier about India and China 
versus the United States, one of the things I have been telling 
my colleagues and just thinking about it is that when we use 
numbers, round numbers, but we are thinking specifically 
certain kinds of disciplines, we send the wrong message, I 
think.
    And I think what I heard you say was that there are all 
kinds of disciplines in science and technology whether it is in 
India, China, or here and that the system that we have makes a 
big difference in how we grow our youngsters from the different 
countries.
    And I think I heard you say that one of the things that we 
might want to look at is exercising more rigor in our 
instruction at the lower level. Higher education appears to be 
more desirable to imitate and I think that is because we filter 
through our system those that continue to go through our system 
where it encourages creativity and innovation and thinking 
outside the box. And I think that is the attraction that other 
countries when their cream of the crop starts to look at 
``where can I go.''
    Through this discussion I heard, we might want to think 
about co-signing letters to the Administration about lifting 
some of the administrative barriers that we have on immigration 
so that we can provide this free flow of students and 
professors so that we do not lose out on that because I think 
in the long run, we do lose out. And the attraction of being 
here is still very strong.
    So we have some non-issues as far as this Committee is 
concerned, but I think there are some activities that we should 
be engaged in.
    On the issues around NASA and NOAA and NIST and the other 
agencies, they are scattered throughout different departments 
with different funding sources, but they are all integrated and 
necessary to work together so that we have comprehensive 
information.
    And given this atmosphere of wanting to look at stuff now, 
what would you recommend on how we could have NOAA and NASA and 
the other entities work together so that the outcome we will 
have is tools and technology and the knowledge and information 
that will be helpful for us to move forward in providing 
information on innovation, instruction, instructional 
strategies and innovation and having information on how to 
monitor and tell ourselves and give ourselves check points or 
touch points on controlling global warming?
    Mr. Cicerone. Did you say controlling----
    Mr. Honda. Understanding it better, monitor ourselves so 
that we can say, you know, we are off on this area and we need 
to pull in because my sense is that we have these ideas about 
combating global warming with talking about carbon 
sequestration, but, you know, I am not sure whether we are 
thinking about also how do we monitor that, how do we quantify 
it and allocate that to certain countries or activities.
    Mr. Cicerone. That particular task that you mention we have 
not given enough thought to yet and here we are on the verge of 
international agreements without probably a strategy for how we 
are going to monitor the agreements. That has to be done 
quickly. It is actually something we are working on behind the 
scenes now.
    But coordinating across these agencies, I remember some 
outstanding examples from the mid 1980s where the administrator 
of NASA, the administrator of NOAA and the director of NSF 
worked together, actually went to the Office of Management and 
Budget and suggested that their budgets be co-examined along 
the lines of what was called the United States Global Change 
Research Program.
    By starting at the very highest levels and by seeking co-
examination of their budget packages, they sent a message to 
everybody that they were working together. And some of the 
things that flowed from that were to the benefit of everybody, 
including keeping the budget cost down.
    For example, instead of developing new satellite sensors, 
NOAA depended on NASA with the high tech capabilities in the 
NASA centers and NASA scientists and engineers to develop new 
concepts for and new packages for satellite instruments which 
can be very expensive.
    Now, I do not know whether they coordinated with the NRO or 
not because in those days, the National Reconnaissance Office 
was classified. The fact that it existed was classified. It was 
not very well known.
    But the point is they coordinated so that NASA developed 
the new capabilities and then NOAA used them in an operational 
sense and delivered the data in a very effective way that never 
would have happened if either one of them had worked alone.
    And then NSF was providing a lot of the intellectual raw 
material from universities, people who were working with all of 
those payloads and the mathematical models, the mathematical 
calculations, the data evaluations. And I think the fact that 
they agreed to go through OMB together helped.
    That was one example of how coordination can still happen. 
So getting people like the agency heads together along certain 
lines of national priority can work.
    Mr. Honda. Perhaps that is something that we might want to 
think about in terms of some sort of an administrative policy 
and practice so that these things do happen. We can eliminate 
duplications. We can encourage collaboration and communication 
so that the interagency interactions, there will be less 
friction or barriers in that. You know, we encourage that.
    And I would hope that that is something that we will move 
towards because I do not know that we can afford to be that 
loose with our money since we are really tight.
    Mr. Cicerone. That is right.
    Mr. Honda. But that sounds like a good suggestion.
    Mr. Cicerone. It is also true that we need all kinds. Just 
when you think you've got a perfect organization, somebody 
comes in from left field with a great idea that nobody thought 
of. And that is where NSF comes through again and again and 
again. They do not have these operational responsibilities, but 
they bring people in from all over who just come up with 
fascinating and fabulously important new ideas.
    Mr. Honda. How would you take all this new information that 
comes up so quickly and convert that into instruction for K-12 
or----
    Mr. Cicerone. That is especially hard, especially because 
we do not have this national system like I mentioned earlier. 
So much of our K through 12 education happens in every small 
locality. That is where the federal government can still set 
good examples.
    For example, each of the agencies that Chairman Mollohan 
mentioned, I believe, has its own educational components too. 
NOAA, for example, and NASA have fairly substantial efforts to 
work with K through 12 education around the country. They 
support programs that provide materials based on, for example, 
that wonderful wall hanging here that is actually real results 
from remote sensing instruments.
    These agencies provide educational materials to schools all 
over the country and summer workshops for teachers to enable 
them to work with those materials and, in some cases, some 
summer research opportunities for teachers.
    So the federal agencies can do things like that which in 
turn then seed activities out in school districts all around 
the country using really modern things like that.
    Mr. Honda. Rather than impose on ourselves, then we should 
look at maybe the Department of Education which could take on 
that responsibility of gleaning the information from all the 
other different agencies and making some sense into that and 
providing that from the federal level.
    Mr. Cicerone. My sense is the Department of Education is 
very good at distribution, but it would be perhaps wise to have 
the agencies with the real expertise in content matter provide 
the materials.
    Mr. Honda. And then your discussion on UT, that sounds like 
a good linkage also.
    Mr. Cicerone. I think it is fabulous from what I can see.
    Mr. Honda. Thank you, Doctor. I appreciate that.
    Mr. Mollohan. Thank you, Mr. Honda.
    Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    I as a Texan can provide the Subcommittee with more 
information on the UTeach Program. It is an innovation of the 
State Legislature I think there and I came out of the Texas 
House, so I will be happy to provide that.
    Mr. Honda. And California has no problem copying Texas.
    Mr. Culberson. What is one of the great things about this 
Subcommittee, Dr. Cicerone, is we are all truly on the same 
wavelength when it comes to the sciences.
    And I would like to volunteer, Mr. Chairman, to, if I 
could, come up with a draft idea on changes to law in the way 
that the recommended budget numbers come to this Committee from 
an independent panel of experts.
    I would like to work something out that we can circulate to 
think about making sure that there is a stable, predictable 
growing funding level for the National Science Foundation into 
the future because it is a real source of concern.
    Dr. Cicerone, I would really like to have your help and 
guidance on that because it is why Congress chartered you guys 
back in 1863 to advise the Congress.
    I once had and in thinking about designing this, if I could 
leave you with some good advice, someone, I think it was 
actually a City Council member once pointed out to me in 
Houston that the City Council makes decisions that will affect 
you next week and next month. The State Legislature makes 
decisions that will affect you next year. And the Congress 
makes decisions that will affect you for the next generation 
and generations to come.
    So in a very real sense, we really have an obligation, this 
Subcommittee, the whole Congress to think about the next 10, 
15, 20 years. We always do, but it is especially important now 
following up on Mr. Wolf's quite accurate point, it is an 
irrefutable fact that we are headed towards a path today that 
if we do not change, we are going to become like Argentina.
    The Comptroller of the United States said that by the year 
2020, the safest investment in the history of the world, U.S. 
treasury bonds, could very well be graded as junk bonds. That 
is just 11 years away.
    And as Mr. Wolf says, we are going to spend every dollar we 
take in by 2030 on the social programs.
    So really this becomes even more important, Mr. Chairman, 
that we find a way to wall off the National Science Foundation, 
National Institutes of Health, NASA, the science functions at 
NASA, NIST in a way that will protect them because they are so 
vital to national security, design them kind of like a castle 
keep, you know, the old medieval castles had several walls for 
defenses. We, I think, ought to think of a statutory way to 
design an innermost castle keep, you know, where we protect.
    The sciences are really one of the most important things we 
can do for future generations. It is a real source of concern 
and I really would like your advice and guidance, the advice of 
your staff.
    And, again, what I am thinking about is to have just a 
recommendation, Mr. Chairman. This Committee should always 
control what happens to the funding, the final amount of 
funding. But it would be wonderful if the recommendation for 
the initial budget number that we work with came from an 
independent panel of scientists and engineers with no political 
agenda that are separate entirely from the Office of Management 
and Budget that make a completely independent recommendation 
about here is where I think you ought to start as an 
Appropriations Committee and here is what needs to happen in 
the future so that it is objective, nonpolitical and stable and 
predictable in the years to come.
    And I would like to volunteer to help design something like 
that with your advice and guidance and something that the 
entire Subcommittee could enthusiastically get behind.
    Mr. Mollohan. Is the gentleman yielding back?
    Mr. Culberson. Yes, sir. I am done. Thank you.
    Mr. Mollohan. I thank the gentleman for his ideas 
sincerely.
    Mr. Culberson. Yes, sir. You bet. You know how fired up I 
am about this.
    Mr. Mollohan. I do.
    I hear your testimony, Dr. Cicerone, that science funding, 
one of the goals should be to promote the development of 
scientists, engineers, that it is extremely important. And at 
the same time, it is important also to have the infrastructure 
that is necessary to do science.
    I wonder if as we think about this and we think about that 
and then our funding priorities, are there areas of research 
that we should emphasize one over the other on the basis that 
one area produces people, that the spending in that area goes 
more to developing people, the personnel, people infrastructure 
versus facilities infrastructure, which can be very expensive, 
and what is the balance between the two in your judgment?
    Mr. Cicerone. I do not know of any rigorous study, but I 
would favor producing people. Some of the infrastructure 
projects as important and as essential as they are probably 
have a shorter term benefit than producing people.
    I have heard a few economists talk about this and they 
generally agree that investment in people programs has more of 
a multiplier effect. And given the pipeline issues we have 
going down into the middle schools and high schools, I think 
again focusing on K through 12 education would be wonderful 
every time we got a chance.
    But it is surprising how sophisticated some of the children 
are. They are interested in cutting-edge issues and how you go 
about answering questions that we do not have to talk down to 
them very much.
    We have done a few things over the years that have helped. 
They are called decadal surveys of entire fields. One of the 
success stories is in the field of astronomy.
    For the past 40 or 50 years, the astronomers have gotten 
together every 10 or 12 years and it turns out they really go 
at each other and then they will produce a report on what is 
needed in the way of facilities and instruments. And they will 
methodically go down through the list and over a period of 
years get the high priority ones to be funded by working 
together and by demonstrating how important they are.
    We did a report three years ago on earth observations that 
was a landmark. It tried to bring together all the cats and 
dogs and the incomparable instruments and all the different 
things they were looking at and put some order to it. And they 
came up with several tiers of priorities. This is what is 
needed first. This is what is needed second. This is what is 
needed third and a time table.
    So to try to do that across fields and to therefore get 
back to your point of how you compare this kind of 
infrastructure investment instead of just providing broader 
support that is not so focused, we would have to go about it 
pretty methodically, I think.
    Mr. Mollohan. Well, off the top of your head or for the 
record, given your answer that our funding should always take 
into consideration the impact on developing the personnel 
infrastructure, what are the essential facilities investments 
that we must make at the same time? Would you be more 
comfortable submitting that for the record or----
    [The information follows:]

    The National Academy of Sciences has looked at your question in 
various ways over the years. In some cases, we have examined a specific 
field, such as astronomy, to design a roadmap of investment over the 
next decade across a range of needs--human resources, new 
observatories, and the balance between U.S.-based facilities and those 
overseas. There is no simple formula, and indeed, we have revisited 
astronomy with some frequency to modify the plan to meet changing 
realities.
    Looking across the board at approaches to designing roadmaps for 
investments in infrastructure and personnel, we have conducted a number 
of studies that consistently emphasize a balanced set of criteria in 
both realms. For instance, in a 2004 study for NSF, Setting Priorities 
for Large Research Facility Projects supported by the National Science 
Foundation, two of the key criteria are ``which projects produce the 
greatest benefits in numbers of researchers, educators and students 
enabled?'' and ``which projects have the greatest potential for 
education and workforce development?'' In effect, it is essential that 
the criteria for investment in either equipment or training include the 
role of and impact on both. Likewise, in our 2006 report for NSF, 
Advanced Research Instrumentation and Facilities, the committee noted 
that ``instrumentation is a major pacing factor for research; the 
productivity of researchers is only as great as the tools they have 
available to observe, measure, and make sense of nature.'' After 
examining the approaches taken by all federal research-funding agencies 
to evaluating proposals for instrumentation, and finding them 
inconsistent and lacking in rigor, the committee recommended that 
``each federal research agency should re-evaluate the appropriate 
balance between instrumentation and research grant, and, within 
instrumentation programs, the appropriate balance between small-, 
medium-, and large-scale instrumentation and facilities.'' The 
committee concluded that such a balance would vary by agency and by 
program field within each agency.
    Short of a field-by-field examination of the relative needs in each 
field, we could obtain quick estimates by asking NSF and other agencies 
for a tally of how many unfunded proposals, for example for equipment 
and facilities, have accumulated in each field, proposals which were 
rated highly but could not be funded in the last several years. This 
tally could present how much immediate investment could be absorbed 
easily and quickly. In reality, the demand is much higher because in 
some fields, there has been no competitive program to which 
investigators (at universities or elsewhere) could submit requests.

    Mr. Cicerone. I would. I think science has become so 
specialized that we really have to listen to experts from each 
field and then see what they have in common and see whether, 
for example, a regional facility which could serve, for 
example, one part of the country as opposed to being just in 
one person's back yard would work.
    And the only way to get there is by having people who 
understand each of the related fields saying, okay, we could 
share this facility. This one has to be tuned up in just such a 
way that it cannot be shared and that kind of tradeoff that has 
to be looked at to see how all the fields will develop.
    Mr. Mollohan. And certainly another aspect of that question 
is, how is that taken into consideration as we look at 
international cooperation?
    Mr. Cicerone. Yes.
    Mr. Mollohan. And perhaps you could discuss that in----
    Mr. Cicerone. Yes.
    Mr. Mollohan [continuing]. Your submission.
    Mr. Cicerone. I would be glad to try.
    [The information follows:]

    International sharing of costs and access to large facilities--
there are some notable successes such as high-energy physics 
experimental facilities and astronomy observatories. I do not know of 
well accepted ways of deciding how much to use this method to support 
science but cases have been made that have led to international sharing 
of costs and benefits, mostly in the physical sciences. Hallmarks seem 
to be very high cost items whose benefits can be shared without 
diluting them too much; for example, by making observatories available 
to many scientists without reducing individual time shares to less than 
absolutely required for the goal at hand. From the point of view of 
science, however, we would not like to see valuable funds diverted to 
projects whose main virtue is encouraging international exchanges 
without scientific benefit--there should be high value to science. 
Inside the United States, some facilities have been created that can be 
shared in geographical regions so that students and investigators can 
use front line equipment without traveling abroad or even across the 
entire country.

    Mr. Mollohan. All right. Education, you notice every member 
of the Subcommittee just jumps right on it and it is in part at 
least because, and certainly so far as I am concerned, it is 
such a huge issue in our districts, certainly with regard to 
math and science and technology education. But it is a big 
issue for English and history and sociology and civics teaching 
as well.
    But looking at the STEM subjects for a moment, we are 
really yearning for the answer. And I am sure the folks that 
testify before the Committee are anxious to give us the answer.
    You are not responsible for K through 12 secondary 
education obviously. At the same time, your thoughts about its 
importance are extremely motivating to us to try to see how we 
can impact that in a positive way through your expertise, 
through NASA, as you point out, NASA is being very active in 
that, and through any other of the science accounts under our 
jurisdiction.
    But it seems to me there are two sides to this problem. 
When folks come up and testify that we are behind, sometimes I 
think that part of that testimony is to motivate us to spend 
more money in science generally. And certainly that is true 
because it is a part of any program you put forward or you 
initiate.
    But there are two pieces. Number one is the product that is 
produced in K through 12 and delivered to the universities and/
or matriculates to the universities and then hopefully into 
graduate and postgraduates and docs and post-docs and all of 
that.
    Producing a sufficient pool of students or maximizing those 
who have a capability to aspire to graduate study in science, 
majoring in science at universities, producing that, finding 
those is one issue. How do you do that?
    And there is a lot of looking at how that happens, but 
there is very little of coming back and saying, okay, we have 
prototyped this and this is what really has to happen from 
kindergarten through post-doc to maximize the talent that 
exists in the United States.
    And it seems to me based on your testimony and everybody 
else's that that is increasingly important as other countries 
provide opportunities for their students who we have relied 
upon as you have testified.
    So while it has always been important, it is increasingly 
more important. And so I guess how do we maximize it? You are 
not the Department of Education, but you certainly have an 
interest in it.
    And Mr. Wolf asked questions about, you know, at what age 
are youngsters naturally interested in science and then when do 
they drop off and then you lose them forever.
    Those questions are very important for us to answer here on 
the Committee and also, I think, in the Education Committee.
    You have all kinds of reports that, well, scientists should 
teach science. Well, that probably works in the Washington 
area. It probably works around, I do not know, Princeton 
University. It does not work so well in a number of counties in 
my congressional district, probably about 20 out of the 21, 
because they are not there. That may be overstated.
    So it seems that we have to teach the teachers to know 
science and know mathematics when they go into the field. But 
it would be very helpful if we looked at that at your level.
    What does the educational system have to do in order to 
achieve this finding, identifying, mining, if you will, the 
minds that are able or capable and inclined to go into the 
higher sciences? You know, what does need to be there? Does the 
teacher who is coming out of the schools of education need also 
to have a major in biology if they are going to teach biology 
or biology and chemistry? What is needed?
    And so you can just tell the education departments' deans 
that if you are going to really get to kindergarten through 
twelfth grade, then the teachers who go there, not only do they 
have to be able to teach, but we cannot assume that because 
they have a teaching degree and they know how to teach that 
they can teach other things.
    So, look, it is a no-nonsense thing. You have to know 
chemistry if you are going to teach chemistry. So if you are 
graduating students who are interested in teaching the 
sciences, then these students have to have a science degree of 
some sort.
    That definitiveness, this is what is needed, would seem to 
me to be critical and maybe it is out there. I mean, maybe. I 
really do not know that. But I would just like your comments on 
that rambling.
    Mr. Cicerone. Well, I think you are on to something.
    Mr. Mollohan. Thinking.
    Mr. Cicerone. A lot of evidence shows that great teachers 
can teach almost any subject to children up to a certain age. 
There is argument about what that age is, but let us call it 
maybe fourth or fifth or sixth grade. But beyond that time, to 
be able to teach all the specialized subject, the teacher needs 
some specialized background himself or herself. That is kind of 
what you were getting at.
    And then most of the other evidence shows that the quality 
of the teacher is the biggest single thing that goes into 
success in school. Of course, the parental involvement probably 
still dominates. We just do not know how to measure that.
    Okay. So if you want to focus on teachers who have some 
specialization themselves or some content basis, the problem 
immediately arises that they have other job opportunities. So 
how can we attract them into teaching? How can we retain them? 
How can we give them a network of people who they can work 
with, where they can get extra materials, how they can stay up 
to date, how they can have summer research opportunities in 
companies and so forth?
    And those are the kinds of local actions that are taking 
place around the country, some of them very successful where 
there will be a group of citizens or a corporation that decides 
to basically see to it that teachers with those qualities are 
encouraged to stay for more than two or three years in 
teaching, that they are given, for example, extra summer 
employment and extra help.
    And unfortunately, because of our system in the United 
States, it is a patchwork, but there are hundreds and hundreds 
of good programs out there and some of them going off in 
special directions like, for example, computer-assisted 
instruction where there are now gifted, dedicated people 
developing kinds of software to teach children mathematics 
which will allow students to go off in all kinds of different 
directions using the same software, proceeding at their own 
pace and then providing feedback to the teachers to say did you 
know that your student X who is using this software is off 
doing that now.
    I have seen some fabulous developments recently. So we have 
got a thousand flowers blooming and it does not seem like we 
have any way to capture it all and to distill it and to take 
the best practice from here over to here. We have this 
patchwork that is hard to deal with.
    But lots of good things are happening out there to the 
benefit of thousands and thousands of students, but we look 
around and see other places where it is not happening at and it 
is very frustrating.
    [The information follows:]

    The major (or only) experience of which I am aware of a large 
increase in scientific funding which led later to discouragement 
amongst scientists is that of NIH in the last several years. Something 
similar might have happened immediately after Sputnik but I am not 
sure.
    At NIH, between the years 1998 and 2003, research funding was 
doubled so that biomedical investigators from American universities met 
with more success in competitions for NIH funds. A higher fraction of 
proposals succeeded and typical grant sizes increased. More 
investigators were encouraged to submit proposals to NIH. In addition, 
some of the awards were granted for longer periods of time, and 
simultaneously, NIH was given more tasks by the federal government. 
Consequently, after a relatively short time, little flexibility was 
left and both new and continuing investigators began to experience 
higher rejection rates. The current situation has discouraged many 
investigators and has probably led some young people to avoid entering 
biomedical fields. It might have been avoided if more attention had 
been paid to the demography of investigators and the duration, size and 
numbers of awards to them, and if funding to NIH and other roles for 
NIH had been more predictable, or if funding increases had continued.
    I am sure that NIH leaders can provide more detailed analysis.

    Mr. Mollohan. Thank you.
    Would you for the record, if you feel comfortable doing 
this and it certainly would be helpful for the Committee, as we 
look at this increased funding for science and the accounts in 
our jurisdiction, we very much want to reach the balance point. 
We do not want to create a baseline and a commitment to a 
percentage increase that we cannot sustain.
    You alluded to the fact that NIH perhaps could not sustain 
the increases over a certain period of time. Could you for the 
record comment on that question and give us the guidance that 
you feel you are capable or able to do or comfortable doing 
with regard to the accounts that we have jurisdiction of. And 
if you would like to comment on that, I would invite you to do 
that.
    Mr. Cicerone. Just real quickly. I do not have enough of 
the numbers in my head. But where I would start would be to see 
where the backlog is of all the really valid and critically 
evaluated proposals that have come into these agencies and see 
where we stand after this stimulus spending and how to move 
into the future and then what the age distribution of those 
successful investigators is.
    Are we dealing with a lot of people who are just starting, 
who will presumably want to continue after three or four years? 
Are we dealing with a fraction of people who are at the end of 
their careers, to try to look at the demography of it? And it 
is hard to know exactly what number to say without going into 
those dynamics.
    Mr. Mollohan. Mr. Wolf.
    Mr. Wolf. Well, thank you, Mr. Chairman. This has been a 
good hearing.
    And I know the Chairman knows this one Committee. We have a 
rural county in my district, Clark County, unbelievable school 
system, if you look at the U.S. News or World Report, and I 
think a lot of times, personnel is policy. They have had great 
leadership and, you know, they are doing terrific, 
unbelievably. You might just take a look at Clark County and 
look at the scores and look how they are rated.
    I wonder, and you do not have to answer this or if you want 
to, I would love to get you, I wonder if we could be losing the 
American work ethic to a certain degree.
    This past summer, you know, at the beach and the summer 
before down in Nags Head and one time in New Jersey, every 
young person working on the beach or working in the arcades or 
working, they were from Bulgaria, they were from Romania, they 
were from Russia. Well, gee, that is what I did and I worked 
construction for McClusky Construction. I did all these summer 
jobs.
    Now, I would like to hear maybe the kids are all at summer 
camp, at science summer camp working. And so if they are, then 
I am glad the Bulgarians are working. But if they are not, and 
it really troubles me.
    I had an experience. I was down at Nags Head and it was 
just when the Russians had invaded Soviet Georgia. And there 
was a big article there about Yeltsin, not Yeltsin, Putin, and 
there were two Russian young ladies there. And I said Putin and 
they made a comment pretty negative about Putin.
    But here everyone was from an eastern European foreign 
country hungry, doing good work. They were hungry because they 
wanted to earn. And I wonder if there has been some diminution 
of the work ethic in the country. If you have any thoughts on 
that.
    Mr. Cicerone. You and I should compare stories about where 
we have worked in our lives. I would love to do that.
    No. It is serious. It really is a question, can we change 
our behavior by looking at things rationally and seeing what is 
coming or does it take a crisis to change our behavior because 
I think there is some truth to what you just said.
    We have had it pretty easy here for a long time.
    Mr. Wolf. Yeah. Well, I thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Well, we are certainly facing a crisis.
    Mr. Cicerone. There is the opportunity.
    Mr. Mollohan. Yes. Maybe that is the opportunity.
    Dr. Cicerone, thank you very much for your testimony and 
your good work. I know the Subcommittee has appreciated it. And 
as Mr. Wolf expressed, I think it has been an excellent hearing 
principally due to your fine testimony.
    Thank you for appearing before us today. And there will be 
a few questions submitted for the record which we will submit 
to you after the hearing, if you would be kind enough to 
consider answering them and be responsive to some of the 
requests during the hearing.
    Thank you very much to you and your fine organization for 
being here today and the good work you do every day.
    Mr. Cicerone. Thank you.
    [GRAPHIC] [TIFF OMITTED] T1219A.012
    
    [GRAPHIC] [TIFF OMITTED] T1219A.013
    
    [GRAPHIC] [TIFF OMITTED] T1219A.014
    
                                            Tuesday, March 3, 2009.

      THE PLACE OF NASA AND NSF IN THE OVERALL SCIENCE ENTERPRISE

                               WITNESSES

LENNARD FISK, UNIVERSITY OF MICHIGAN, FORMER NASA ASSOCIATE 
    ADMINISTRATOR FOR SPACE SCIENCE AND APPLICATIONS
SAMUEL M. RANKIN, III, ASSOCIATE EXECUTIVE DIRECTOR, AMERICAN 
    MATHEMATICAL SOCIETY

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. The hearing will come to order. Good 
afternoon, Dr. Fisk and Dr. Rankin. And Dr. Rankin, as the only 
mathematician appearing before us today, or even the rest of 
the week, Happy Square Root Day.
    Mr. Rankin. The first time I have heard of it.
    Mr. Mollohan. Well, it was not too long ago it was the 
first time I heard of it. And I understand if we do not 
celebrate today then we have to wait until April 4, 2016. So 
how are you going to celebrate?
    Mr. Rankin. I have not thought that far.
    Mr. Mollohan. Stumped you on the first question. Well, 
welcome to the hearing. This morning we received an overview of 
science in the United States. This afternoon we will examine 
the role of two research agencies under our jurisdiction, NASA 
and NSF.
    Following the issuance of the report, Rising Above the 
Gathering Storm, there has been a bipartisan effort to double 
the fiscal year 2006 funding of NSF, along with NIST, and the 
Department of Energy Office of Science over ten years. The 
stimulus funding provided in the American Recovery and 
Reinvestment Act of 2009 increased fiscal year 2009 funding for 
NSF by roughly 50 percent, while providing a roughly 8 percent 
boost to NASA science.
    Looking forward, it is important for this Subcommittee to 
understand the relative roles and status of the different 
research agencies, and we look forward to learning more from 
Dr. Fisk about NASA and from Dr. Rankin about NSF. Gentlemen, 
your statements respectively will be made a part of the record. 
And before asking you to testify I would like to call upon our 
Ranking Member Mr. Wolf.
    Mr. Wolf. No questions.
    Mr. Mollohan. Okay, thank you. Gentlemen, if you will 
proceed? Dr. Fisk, will you go first?
    Mr. Fisk. Thank you very much, Mr. Chairman and Members of 
the Subcommittee. Thank you very much for inviting me here 
today. For the record I am Lennard Fisk. I am the Thomas M. 
Donahue Distinguished University Professor of Space Science at 
the University of Michigan. And I also served from 1987 to 1993 
as the NASA Associate Administrator for Space Science and 
Application, and until last July as the Chair of the National 
Research Council Space Studies Board.
    There have been, as you noted in your opening remarks, 
there have been several legislative initiatives that recently 
have treated science in NASA as less important to the nation 
than other scientific pursuits. The highly acclaimed National 
Research Council report Rising Above the Gathering Storm, which 
called for substantial investments in the physical sciences, 
was effectively silent on NASA. The legislative initiatives 
that followed from this report, for example the America 
Competes Act, did not focus on NASA science. And recently, the 
American Recovery and Reinvestment Act of 2009 was 
appropriately supportive of the National Science Foundation and 
the DOE Office of Science, and yet in NASA the only science 
discipline that received substantial funding was earth science. 
And then it provided only partial recovery from the disastrous 
decline in funding that had occurred in the previous decade.
    Now, as a practicing space scientist, and someone who 
throughout much of my career has been concerned with science 
policy, I can find no logic in the judgment that NASA science 
is of less importance than other scientific disciplines. And in 
my written testimony I have discussed the impact each of the 
disciplines of NASA science has had on society, and most 
important on our nation's future. These arguments can be 
repeated for many different science disciplines, and they are 
no less compelling for NASA science.
    Now, NASA science asks and is attempting to answer the most 
fundamental human questions. What is our place in the cosmos? 
Are we alone? NASA science is revealing the wonders of our own 
solar system and the resources it may hold for us. NASA science 
is attempting to understand the controlling body of our solar 
system, the sun, and the space environment through which we fly 
our satellites and send our human explorers. NASA science is 
attempting to make it possible for humans to live and work in 
space. And NASA science is attempting to answer the single most 
important question of our age. What is the future of the 
climate of the earth? And what are we as humans doing to it?
    We need to recognize that space has become part of the 
underlying infrastructure of our civilization. We have weather 
satellites. We communicate through satellites. Particularly the 
visual images of television that bring to each of us an 
awareness unprecedented in human history of what is happening 
everywhere in the world at all times. We have global 
positioning satellites which help us fly our airplanes and find 
our way in automobiles. We have remote sensing satellites that 
provide high resolution images from around the world. All this 
is simply part of the basic infrastructure of our civilization. 
We do not particularly marvel that it is available. We assume 
it will be and we think no further about it.
    Indeed, when we consider the impact of space on our society 
we have to look no further than the global interconnections 
that have flourished in the last few decades. We live in a 
global economy. Corporations are multinational. Manufacturing 
and trade are worldwide. Countries that in previous generations 
might have been suspicious enemies are now dependent upon each 
other for resources and for marketplaces for their manufactured 
goods. This has had a very real, stabilizing effect on world 
peace because detailed knowledge of what is happening 
everywhere in the world reduces fear and makes possible the 
full engagement among societies.
    We need to recognize that space is an integral part of our 
foreign policy. Our activities in space have profound impact on 
the image of our nation and provide extraordinary opportunities 
for us to be strategic leaders in a world that is increasingly 
judging space to be important.
    The peoples of the world are increasingly dependent upon 
space for their basic activities in their everyday lives. There 
are space races developing in Asia. And every nation that 
wishes to gain respect as an important player on the world 
stage has concluded that they need to acquire a recognized 
space capability.
    The United States has an opportunity to be a strategic 
leader in this worldwide effort to become a true space faring 
civilization and provided that we lead not by dominance but 
rather by example, and in cooperation we will realize our 
destiny as a great nation capable of making the world better 
for all the world's peoples.
    At the foundation of our space activities is science in 
NASA. Science often provides the initial reason why we explore 
a new region of space, or even a new region of the 
electromagnetic spectrum. The technology developed for space, 
for scientific exploration, enhances our other space activities 
and finds its way into our economy. The youth of our nation are 
inspired by the brilliance of our scientific achievements in 
space and encouraged to pursue careers in science and 
engineering.
    The people of the world ask the same fundamental questions 
that we do about our place in the cosmos. They expect the 
United States as a great nation to use its capability in space 
to enlighten. The people of the world are frightened by the 
pending changes in our climate and they expect the United 
States as a strategic leader to ensure that we create the 
capabilities in space to observe and to understand our changing 
climate.
    We invest in scientific research because it provides a 
foundation of knowledge on which we depend to advance our 
civilization. We invest in space because it is essential to the 
future of our nation, for the stewardship of our planet, and 
for the growth of our economy, and for our position as a world 
leader. It follows very simply, then, that the science of 
space, which is space and earth science in NASA, is as 
important to our nation's future as is any other scientific 
discipline.
    I will be happy to answer any questions you might have.
    [Written statement by Lennard A. Fisk follows:]
    [GRAPHIC] [TIFF OMITTED] T1219A.015
    
    [GRAPHIC] [TIFF OMITTED] T1219A.016
    
    [GRAPHIC] [TIFF OMITTED] T1219A.017
    
    [GRAPHIC] [TIFF OMITTED] T1219A.018
    
    [GRAPHIC] [TIFF OMITTED] T1219A.019
    
    [GRAPHIC] [TIFF OMITTED] T1219A.020
    
    [GRAPHIC] [TIFF OMITTED] T1219A.021
    
    Mr. Mollohan. Thank you, Dr. Fisk. Dr. Rankin.
    Mr. Rankin. Thank you, Chairman Mollohan, Ranking Member 
Wolf, and Committee members. I thought what I would try to do 
is give a little bit of an idea of what I think is the culture 
of the interaction between NSF and the scientific community.
    The National Science Foundation is the only federal agency 
that supports basic research across all fields in engineering, 
and all levels of science and engineering education. Although 
the agency's annual budget represents only 4 percent of federal 
R and D, it provides nearly half the support for non-medical 
basic research at colleges and universities. The main source of 
federal support for basic research at colleges and universities 
in the fields of mathematics, social sciences, non-medical 
biology, and computer science, comes from the NSF, as well as 
over 40 percent of support in the physical sciences, 
engineering, and the environmental sciences. Through the 
Directorate of Education and Human Resources the NSF supports 
activities that ensure a diverse, competitive, and globally 
engaged science, technology, engineering, and mathematics work 
force.
    An interesting number here is that the NSF invests over 90 
percent of its budget directly to support research at colleges 
and universities, in all fifty states. This support reaches 
over 2,000 institutions and nearly 200,000 researchers, post-
doctoral fellows, trainees, teachers, and students every year. 
NSF receives well over 40,000 grant proposals each year, making 
over 11,000 awards, mostly to individual investigators at 
colleges and universities and other public and private 
institutions. Through its merit review process NSF identifies 
the best ideas and the people to develop these ideas, who 
through their work advance the frontiers of knowledge in 
science and engineering.
    There are six Research Directorates and one Education 
Directorate. Most of the funds for research are allocated to 
investigators through these directorates. Research proposals 
are received as a response to solicitations issued by 
disciplinary divisions within these directorates and NSF 
offices (few offices also distribute funds), or an individual 
investigator can submit an unsolicited proposal. In either 
case, the proposal goes through a merit review process which 
assesses the intellectual merit of the proposed project and the 
broader impacts of the project.
    It is through the directorates that the science and 
engineering disciplinary communities have most of their 
interaction with NSF. In fact, over 45,000 scientists and 
engineers serve on merit review panels or as proposal reviewers 
each year, and therefore have direct impact in setting 
standards for research. NSF also derives input from 
disciplinary communities through directorate and advisory 
committees, and committees of visitors. Advisory committees 
provide advice on program management and performance as well as 
input on the impacts of policies, programs and activities in 
the disciplines that are funded through the directorate. 
Committees of visitors provide input on the quality and 
integrity of program operations and program level technical and 
managerial matters pertaining to proposal decisions, and 
comments on how the outputs and outcomes generated by awardees 
have contributed to the attainment of NSF's mission and 
strategic outcome goals.
    This characteristic of continuing interaction with the 
science and engineering disciplinary communities allows NSF to 
keep abreast of research in disciplinary fields, understand the 
needs of the scientific community, and be responsive to it. 
Conversely, the science and engineering disciplinary 
communities believe that they are an integral part of the 
process in helping move U.S. research and innovation forward. 
This includes those investigators making transformational 
discoveries to those scientists and engineers establishing the 
needed infrastructure that makes scientific discovery possible.
    Community involvement has served the NSF well over the 
years, as research supported by the NSF has had a tremendous 
impact. Many new products, procedures, and methods have accrued 
from NSF investments in basic research, research performed over 
many years and not always predetermined toward a specific 
application. Society, unaware for the most part of how basic 
research impacts daily life, enjoys many benefits from NSF 
investments. These benefits include products such as Google, 
the favorite internet search engine; magnetic resonance 
imaging, MRI, used widely to detect cancer and internal tissue 
damage; geographic information systems, used by businesses, 
police departments, governments and others to respond to 
natural disasters, reduce crime, provide better services to 
customers; and many others.
    The NSF investments have enabled the U.S. to build a 
scientific infrastructure second to none, facilitated 
revolutionary research that pushes the frontiers of knowledge, 
and laid the groundwork for innovation that has been important 
to the U.S. economy and a high quality of life. Thank you.
    [Written statement by Samuel M. Rankin III follows:]

    [GRAPHIC] [TIFF OMITTED] T1219A.022
    
    [GRAPHIC] [TIFF OMITTED] T1219A.023
    
    [GRAPHIC] [TIFF OMITTED] T1219A.024
    
                          THE GATHERING STORM

    Mr. Mollohan. Thank you, Dr. Rankin. Dr. Fisk, this morning 
we had testimony from Dr. Cicerone that indicated quite 
positively that NASA science was a science of equal quality of 
any of the sciences that are included in the competitiveness 
agenda, or that were recommended in The Gathering Storm Report. 
He indicated with not much other explanation that the reason 
for NASA being left out was that the Report was developed 
quickly. There has been a bipartisan effort to double the 
funding for NSF, NIST, and the DOE Office of Science. Should 
NASA science receive commensurate increases?
    Mr. Fisk. Yes. It would be good to do that. And I think you 
should always treat NASA science in the context of the space 
program as a whole, too. I mean, we should not lose sight of 
the fact that science is the foundation on which the Space 
Program is built. And so we also have to recognize the lack of 
adequate funding that the Space Program has received at the 
same time. You remember that on many occasions, and when I 
testified to this Committee earlier, when I was on the Space 
Studies Board we kept pointing out that NASA is asked to do too 
much with too little. And so there is a correction to the Space 
Program that is required. But in terms of the science that is 
in NASA, it is as important, and if we judge as a nation that 
we are to increase the scientific investments that we make, 
which is very much in our nation's future, then NASA science 
deserves to be there with everyone else. We can argue whether 
it is a factor of two or a factor of whatever you like, but the 
increases are required. Because we cannot, we are not 
accomplishing today what we could accomplish in the NASA 
science program.
    Mr. Mollohan. And as you allude, that should not be a zero 
sum game within NASA funding. NASA funding overall would be----
    Mr. Fisk. That is correct. I think it is important that it 
is not a zero sum game within NASA or within the NASA science 
disciplines. I mean, it is not a matter that you take from one 
and give to another. It is a matter of recognizing the 
importance of this scientific activity to the nation and 
supporting it in such a way that it contributes what it needs 
to contribute to the national endeavor.
    Mr. Mollohan. NASA science includes a wide range of science 
disciplines, including Earth science, astrophysics, planetary 
science, solar terrestrial physics, microgravity, and life 
sciences, as well as astronaut health. As you look at the 
current funding for NASA, are these different fields in 
relative balance? And if NASA science receives increases, 
should the disciplines receive them in the ratios as they are 
funded today?
    Mr. Fisk. No, I do not think so. Let me give you a fairly 
complicated answer to that, if you give me just a moment to 
talk about it.
    Let us take planetary, astrophysics, solar terrestrial 
physics. They had planned their programs on a larger amount of 
money than they are now receiving. I mean, they were in the 
past, in the nineties and others, tracking the growth in non-
defense discretionary spending. And then that was curtailed 
when NASA was forced to make decisions about keeping the 
Shuttle flying, and building the rocket to go to the moon 
within their limited budget. But there is an opportunity to do 
so much more and important things in those programs.
    The other two programs that you mentioned, Earth science 
and life science and microgravity. Those programs have suffered 
far more disproportionately compared to the other science 
disciplines over that same time interval. In the case of Earth 
science, let us sort of review the bidding there. In the late 
eighties, early nineties, NASA embarked on a major program in 
Earth science--the Earth Observing System, Mission to Planet 
Earth, to really provide a comprehensive set of satellite 
observations of what the future of the planet would be, to make 
policy decisions on. In the mid nineties, a decision was made 
to curtail that program within NASA and transfer the main 
observing of Earth to NOAA and the NPOESS. And NPOESS, as you 
know, has been a major national embarrassment, a disaster. It 
is overbudget and it is not performing according to spec. And 
the climate measurements are hanging on by a thread, there.
    And then at the same time, the Earth science program, 
starting in about 2000 within NASA began a serious decline to 
where as it is now essentially a $500 million per year short of 
what it was even in 2000, within the NASA budget. So you now 
have an Earth science program for the country and a climate 
monitoring system for the country which is inadequate to meet 
the national need to understand the climate and what we are 
doing to it. We are dependent upon three aging satellites that 
were left over from the original Earth Observing System. They 
are still operating, but they are well beyond their design 
life. And there are very few other research missions that are 
underway. So that is a program that has suffered 
disproportionately separate from the space science.
    In the case of life science, in many ways it is an even 
more egregious case. We refer to the life science and 
microgravity science within NASA as NASA committed scientific 
genocide. It essentially destroyed a community that it was 
planning to use, in microgravity in particular and life science 
to a lesser extent. We are not really planning to use the space 
station and that was the community for the U.S. activities. And 
that community was dependent on the space station that, and the 
grants program, and the research program that went with it. And 
so that is a community and a program that has suffered even 
more strongly than Earth science.
    So if I rank these things, astrophysics, solar terrestrial 
physics, planetary, they need support. They need to grow. There 
are many, there are things that they need to do, they are 
planning to do. They need to be put back on a slope that they 
were on, which was the basis for the program that they were 
anticipating. In the case of Earth science, we have a national 
need to restore that program so we get what we need. In the 
case of life science and microgravity it is a decision we 
should make as a country as to whether or not we really are 
anticipating long duration human space flight, in which case we 
had better do the basic research necessary to do so.
    Mr. Mollohan. Thank you, doctor. Dr. Rankin, following the 
Rising Above the Gathering Storm Report there has been a 
bipartisan effort to double the budgets of NSF, NIST, and DOE 
Office of Science. What effect is this having on NSF programs, 
and what are your expectations for the impact of the $3 billion 
provided in the American Recovery and Reinvestment Act?
    Mr. Rankin. Well when these bills, like the American 
Competes Act were first passed, I think everyone was very 
excited about the statement that NSF funding should be doubled 
over the next ten years. However, a lot of us remembered that 
we also had a doubling bill in, I think, fiscal year 2002 that 
was supposed to double NSF's budget from 2003 to 2007. And I do 
not think we ever even started. So in the last few years we 
actually have not gotten, even though things looked good up to 
the final game, in the end much of the increase that we were 
anticipating along the way. So we have not had a chance to 
actually think about how it would be if we doubled the budget 
until now when we have received this $3 billion all of a 
sudden.
    I know one thing that the money, the $3 billion input into 
NSF, has done, is certainly build up the excitement and the 
morale, not only in the scientific community but actually, I 
think, at NSF as well. I think it will be an effort for the NSF 
to get this money out the door but I believe they can. I think 
most of the pressure will be more at the administrative end of 
getting the grants out the door than actually the program 
officers deciding who gets the grants. Because giving grants is 
a positive action rather than a negative one. When you are 
turning someone down it is a lot harder to turn someone down 
than it is to actually give a grant.
    So given that they have all this money I think there will 
be a lot of new people coming into the pipeline, which will be 
good. I think there will be a number of young people that will 
be able to enter the grant pipeline through this funding that 
previously were doing good enough research but because of the 
funding levels were not supported.
    So I believe overall this is going to be very, very 
important for science funded by the NSF and the scientific 
community. I believe a lot of good research will come out of 
this. My only concern about all this is what happens when this 
money goes away in the next few years? Will we be able to fund 
these folks that are in the pipeline, will we be able to fund 
them continually if they are doing good enough research?
    Mr. Mollohan. I am sure members want to know more about 
that, and will follow up in other questioning. Mr. Wolf?
    Mr. Wolf. If we had given science all the money we gave 
AIG, can you imagine how they would be doing? Is there anyone 
who is mentioned to be head of NASA? Are there any names 
circulating that you are hearing?
    Mr. Fisk. All I know I read on NASA Watch or something like 
that. No, it is, I mean there are a number of newspaper 
stories. But I have no data on.

                           NASA ADMINISTRATOR

    Mr. Wolf. Does it hurt NASA? The fact that there is not an 
administrator ready to come up.
    Mr. Fisk. I think it does. I mean, we are all very excited 
about the major policy shifts that are happening in our country 
at the moment. There are certainly many things going on at the 
moment. And NASA needs to be at the table when these decisions 
are being made, and when, frankly, when the money is being 
passed out.
    Mr. Wolf. Right.
    Mr. Fisk. And the person who is running NASA at the moment, 
the Acting Administrator, is a very capable person, it is Chris 
Scolese. But he is not the Administrator, and that is not the 
same.
    Mr. Wolf. How serious is the competition from China? And we 
had asked the question earlier in the day, would it make an 
impact if China beat us back to the moon? And what are the 
ramifications with regard to China and space, and their 
military use of lasers?
    Mr. Fisk. In the case of China, I mean, I think what we 
should avoid, let me put it this way. Let us not repeat the 
Cold War and have some sort of a race to someplace we have 
already been. I do think there must be an opportunity here. We 
live in a globalized world that most, so many things are 
manufactured in China that we buy, and so on.
    Mr. Wolf. Too many.
    Mr. Fisk. So it is a very different world than we used to 
live in. And somewhere within that globalized world there must 
be an opportunity for the United States to be a strategic 
leader in all of space activities, and to somehow include other 
nations, other space faring nations in the activities in such a 
way that all of us benefit, and it is not a Cold War, zero sum, 
we win, you lose sort of activity. That would be my preference, 
if we could do that.
    Mr. Wolf. Well, that may be a little difficult with China.
    Mr. Fisk. It may.
    Mr. Wolf. Yes.
    Mr. Fisk. It may.
    Mr. Wolf. Without getting into the reasons. But I mean, a 
lot of China's technology they now have because they spied on 
us and so it is different with other countries. But what are 
the concerns with regard to the funding, or the decrease of 
funding, with regard to aeronautics? It seems to me that we are 
falling behind, or are we falling behind? And what has the 
impact been on the failure to fund aeronautics to the degree 
that many think it should be funded, with regard to NASA. What 
does that mean with regard to jobs, technology, keeping ahead, 
America?
    Mr. Fisk. You know, like any good university professor I 
will answer a question on any subject, including ones I do not 
know that much about. But let us----
    Mr. Wolf. Well aeronautics, I mean, NASA is, that is the 
word. It is not just, that is pretty important.
    Mr. Fisk. Well I am just, I am trying.
    Mr. Wolf. Unless we are going to shut down the Jet 
Propulsion Laboratory out in Pasadena and doing some of those 
things. Aeronautics is really important for the nation, and 
important for jobs and everything else.
    Mr. Fisk. Yes, I am going to get there. But here is what 
has happened in the space agency over the last decade or so, or 
eight years or so. You, NASA, was directed to go build a rocket 
to go back to the moon and was not ever given the money 
necessary to do that. And so you have within the budget all of 
these sacrifices that were made. Somebody made a decision. You 
can argue whether it was the right decision or not. But the 
consequence as, as we mentioned, life science and microgravity, 
gone. Or really, reduced. Aeronautics, a fraction of what it 
was when the vision was first announced. I mean, back in 2004, 
2005. And there are consequences for those kinds of budget 
cuts. You do not do the things that the agency was charged to 
do, which is to help with the research necessary to have a 
competitive aeronautics industry in the United States. That was 
its job. And you cannot do it at one-quarter of the budget, 
which is basically where the budget for aeronautics went from 
back in the early part of 2000 or so to where it is now.
    Now I think everyone was delighted who cares about the 
aeronautics program within NASA that it was included in the 
stimulus bill. And it is my recollection it was a $150 million 
increase in aeronautics, which in effect doubles the research 
budget of the aeronautics program of NASA. It is a huge impact. 
It will be a very similar question to the NSF question. Was 
that a blip? Or is that a reset? If it is a reset, then there 
is an opportunity to bring the aeronautics program back to what 
it should be.
    Mr. Wolf. Well I was, I should not do this but I am going 
to do it anyway. If you look at the long term numbers, the 
money just is not going to be there. And it is unfortunate. Our 
entitlements are eating up the spending. I had mentioned to the 
witness earlier today that there is a movie out which I will 
get you a copy called IOUSA, put out by David Walker, who was 
head of GAO. I think in the year 2030 every dollar of taxpayer 
money that comes in will go for Medicare, Medicaid, social 
security, and interest on the debt. Nothing for cancer 
research, nothing for NSF, nothing for research on autism, on 
Alzheimer's, nothing on education, on math or science.
    So the nation I want it to be, I have always supported the 
sciences. I think it is a job creation. I think it is an 
opportunity. I think America ought to be, but you know, it is 
the, the reality of it is unless there is a dramatic change by 
this institution and by the governing authorities it will not 
be there because it almost cannot be there. China holds one out 
of every ten of our dollars. And Hilary Clinton went over to 
China and was literally with a tin cup begging the Chinese to 
buy our paper, and yet not raising the issue of human rights 
and religious freedom. Because there is great pressure that we 
need China to buy our paper. So I am not sure it is going to be 
there.
    The other thing, and maybe you can just comment, and Mr. 
Rankin I will get you in the second round. I think space is 
exciting. I can remember, you know, John Glenn and Shepard, and 
we all knew. When they went up we all knew who they were. We 
would stop where they were. In the classroom the teacher would 
have the television on. I would just challenge, on the last 
space shuttle, to name the names of the astronauts. And I would 
venture to guess that some could. You could. Most people would 
not even know who they were. And I think there has been 
something missing. So hopefully the next Administrator will be 
somebody who will be aggressive, can lay out the excitement and 
the importance whether it be on aeronautics, earth science, 
space, whereby. And I think do what President Kennedy did. And 
maybe here is where I will differ with you, that America will 
be competitive and we will do everything we can, and we will 
work to be number one wherever it may be. Because if we are not 
number one, probably the Chinese will be number one. And they 
are using their laser technology and others for things that are 
not very good for the world.
    So I think that is part of the problem. We just have not 
really, you know, it is not like Glenn and Shepard. And do you 
have any comments?
    Mr. Fisk. You know, I think there is, you are right that 
the excitement of the sixties is not being repeated. But I 
think the thing we should never lose sight of is that so much 
has happened in the space program since the sixties, and so on. 
We have created a space program that basically is part of our 
national future, part of our national infrastructure. I mean, 
we are completely dependent upon space as a nation. Our 
military requires space. Our economy is very dependent upon, 
the globalization of the world is dependent upon space. These 
are all issues that have happened while we were thinking about 
the astronauts. But meanwhile we have created a space endeavor 
in this country which is broadly based and extremely important 
to both our economy and our national future. And that is the 
space program we need to recognize today.
    Now, just so you do not misunderstand me about competition 
with the Chinese. I am a great believer that the United States 
should lead by example and in cooperation. By leading by 
example means we had better be the best.
    Mr. Wolf. I agree. And in closing, not a question, I saw a 
figure that we had 95,000 people in the space program, 
government employees and contractors. And China had over 
200,000. If those numbers are accurate, and I am going to ask 
my staff to check it out and we will put them in the record, 
that is very bad for our country. I thank you for your 
testimony.
    Mr. Mollohan. Thank you, Mr. Wolf. This is a good 
opportunity to state the Committee policy about calling on 
witnesses lest the audience, let alone members of the 
Committee, think that I have any bias toward our fine minority 
brethren on the Committee. We call upon members in order of 
seniority up until the time the hearing starts, and then in the 
order of members' arrival after that. And so in following that 
policy, which we follow and I think most Subcommittees follow, 
Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman. As the newest member 
of the Subcommittee, and the most junior member of the 
Subcommittee, I appreciate this opportunity. It pays to get 
here earlier. As Chairman Serrano will note, when I was on his 
Subcommittee last year I tried to get to the hearings early and 
often so that I could have this opportunity. I appreciate it. I 
will be brief.
    I asked the previous witness earlier today a question and I 
would like to pick your brains as well. And Mr. Wolf alluded to 
the fact that we all remember, or those of us old enough to, 
some of our guests today are too young to, but we remember 
sitting around our TV sets and literally stopping what we were 
doing to watch as NASA answered President Kennedy's challenge 
in the earlier 1960's. And yet, today we seen distressing 
numbers about interest in young people with math and science. 
What are we missing? What do we need to do? At what age do we 
need to prick the curiosity of young minds? And what role can 
NASA specifically play in helping to challenge young people to 
think beyond the current market opportunities?

                           SCIENCE EDUCATION

    Mr. Fisk. I am sure you are going to weigh in on this one 
as well, I hope. The, let us take NASA. I mean, you are 
absolutely right that we remember the astronauts, we remember 
John Glenn. And of course I am, I suspect I am older than you 
are because Sputnik to me was the thing that got me going in 
the world here, and challenged me to a, go into science and 
engineering, and the American response to it, obviously.
    Now, it is very hard to reproduce those kinds of singular 
events. I mean, the world was, we were in the middle of a Cold 
War. The Russians were challenging us on all sorts of fronts. 
This was considered to be a challenge of significance. And we 
responded as a country and people were excited about doing 
that. I mean, like many people of my age, I remember being 
called in by my guidance counselor and being told, ``You can 
add and you can subtract. You need to be, your country needs 
you, you need to be an engineer.'' And I said, ``Well, I 
thought I wanted to be a scientist.'' He said, ``Well, that is 
probably as good.'' But in any event.
    Now we cannot reproduce that. But I think, with the space 
program, there are three things that space is supposed to do 
for you, I think. One is the inspiration. It is that same 
inspiration that says we do challenging things in space. We 
make exciting discoveries in space. And it can mean not just 
astronauts. It can be rovers on Mars and it can be the Hubble 
Space Telescope, and a variety of other thing which our 
technically literate generation has great appreciation for. We, 
in fact, even note in the space business that the younger 
generation is actually, seems at times to be more excited about 
the technology, you know, rovers and things, than they are 
about astronauts. And it has to do with the fact that in their 
everyday lives they experience through their computers and 
their iPhones and other things, vicariously all sorts of 
pleasures. And they can imagine being there with the rovers 
themselves.
    NASA only has to be successful to do that. It has to do 
things. The second one is more direct. All the products of NASA 
need to get into the K through 12. I mean, they need to, the 
teachers need to have access to this. They have to be able to 
use them in the classroom in the inspirational way.
    And the third one is more focused on the aerospace 
workforce, which is NASA has a very important role to play in 
the education of the aerospace workforce. Now, here you catch 
them later in life. You catch them when they are in college, 
and when they are in grad school. And you train the next 
generation of the truly technical people that we are going to 
depend upon for our space program, and we use NASA, NASA 
resources, NASA supported universities to be able to do that.
    Mr. Rankin. I will just speak a little bit about the 
education issue. I think that kids are very, at least little 
kids that I have seen, are pretty inquisitive. And somehow we 
knock a lot of that out of them by the time we move them 
through school. Mathematics, for example, is something that 
kids need and all of us need to a certain extent. It is a 
discovery kind of thing, but I do not believe in school that 
they see it that way. A lot of math is taught by rote, or, this 
is the way you do it rather than working with kids to let them 
discover things.
    I think the best situations, or at least the times I have 
seen, where there is success with kids learning elementary 
level mathematics is when they are doing some discovery along 
with some rote learning. You do have to have some 
automaticity--this is a word that means you should be able to 
multiply, for example, two by three and get six. I mean, you 
ought to be able to do that. But on the other hand, that is not 
the only thing you want to do. And if that is all you practice 
all the time, your multiplication algorithms, for example, then 
you are probably not going to like math very much. But if you 
understand how math can be valuable to you, even in your young 
adult life, you will start paying attention to math and find 
value in it.
    And I think one of the things that may keep kids from going 
into mathematics and science is that they do not realize that 
in order to get to science you have to know some mathematics, a 
basic level of mathematics. If you do not know this, and if you 
don't figure this out until the ninth grade, then you have no 
chance of going into science or mathematics. So I think getting 
kids interested in math early on is important.
    Another way that we can help show this importance, not only 
though, but there are also lots of other discoveries that are 
made through science and mathematics. I believe the more that 
we can promulgate information about these discoveries and how 
science is involved, everyday things, for example the cell 
phone, or your computer, going on the internet, is important. 
It is science and mathematics. Yet, how many people really know 
this? And so, if we had a campaign to put out this information, 
and I think the NSF is starting to think about how to put out 
more information about some of the discoveries that are made 
under NSF funding, this is a way to help the general public 
understand that there is something good for society in funding 
science.
    Mr. Bonner. Mr. Chairman, I know I do not have time for 
another question. But to close with Dr. Rankin's point. I have 
a thirteen-year-old daughter and an eleven-year-old son. And I 
can assure you that if they thought every time they wished for 
a Blackberry, or a cell phone, or a new video game, that that 
technology was a product of NASA or NSF, or one of the other, I 
think it would renew their interest in math and science and 
help their ailing father try to help them be better math and 
science students. Thank you.
    Mr. Mollohan. Thank you, Mr. Bonner. Mr. Aderholt.

                         PRICE OF NASA MISSIONS

    Mr. Aderholt. Thank you, Mr. Chairman. It is good to be 
here with you and our guests here today. Thank you for being 
here. Much of the cost that is associated with NASA missions 
seem to be tied up in costs associated with getting a science 
payload launched into the orbit. Some estimates put those costs 
as high as $10,000 per pound. The question is, how do the 
current costs of launching science payloads into space limit 
our nation's scientific agenda? And how would a significant 
reduction in the cost of launching payloads into space benefit 
NASA's science programs?
    Mr. Fisk. There are a couple of answers to that. One of the 
principle cost growths in recent years has been on the launch 
vehicle side. And that is driving costs, making it less 
possible to do, to use your science budget to get science. 
There are fewer missions you can fly within the budget envelope 
you are stuck with.
    It is true, though, that the launch vehicle cost as a 
fraction of the mission cost is still reasonably low. In other 
words, the science satellite itself, and the data analysis and 
so forth that will come from it, is still a much bigger cost. 
In other words, we do not launch cheap missions on top of 
rockets. So the percentage cost saving that you can get for the 
total mission, simply by reducing the launch cost, is not 
insignificant but it is not major because of the cost of the 
satellite itself.
    But you say, ``Well, why are launch vehicles costs going 
up?'' Well, they are going up in large part because we do not 
fly very often. The launch vehicles providers are forced to 
maintain a infrastructure for the occasional purchase of a 
launch vehicle. And that makes the cost per vehicle much higher 
than it would be if you had a lot of launch vehicles being 
purchased. So, you know, to some extent, you know, the 
limitations on the science budget of NASA have reduced the 
number of missions, which have in turn driven up the cost of 
the launch vehicles, which has made you reduce the missions 
even a little more. Because the cost of the launch vehicle is 
not just putting that vehicle together. The cost of that launch 
vehicle also includes maintaining all of the infrastructure to 
be able to build the launch vehicle. If you purchase only one a 
year, you still had to maintain the factory and the workers 
that were capable of doing this thing. And therefore, your cost 
per vehicle has been going steadily up.
    Mr. Aderholt. Do you think there are basic science and 
engineering questions that remain unanswered regarding space 
transportation? If so, do you think that implementing a basic 
scientific research program focused on making progress on the 
unanswered science questions associated with space 
transportation is appropriate for the federal government?
    Mr. Fisk. The rocket equation is the rocket equation. We 
are not going, we are not going to necessarily invest something 
new to do something. I mean, in some ways our rockets look a 
lot like the ones Wernher von Braun built in the forties. It is 
always possible to make improvements in, particularly in the 
reliability of rockets, and the cost savings associated with 
them. That is worth an investment because you do not have a 
space program unless you can get to space. And this is true on 
the military side, it is true on the NASA side. And so we are 
dependent upon the reliability of our launch vehicles, the 
costs of our launch vehicles. And, the lower we can make this, 
the more reliable we can make this, the better the nation is in 
so many regards.
    And so that is worthy of a federal investment. I do not 
think that we should expect some magic breakthrough that comes 
from that. It will be an incremental improvement on launch 
vehicles that we have been building systematically since the 
beginning of the space program. Because of the, the basic 
technology is there. You can make it better, you can make it 
more reliable, and we should.
    Mr. Aderholt. Okay. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Aderholt. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. Thank you very much 
for your testimony. I am, as everyone on this Committee is, 
committed to doing all that we can to support the sciences, the 
National Science Foundation, NASA. If it were possible to split 
out just that piece of the stimulus, Mr. Chairman, that pumped 
money into NASA and the National Science Foundation I would 
happily have been able to vote for that part.
    This testimony you are giving us is vitally important, and 
I wanted to zero in on two areas and get your comments. Number 
one, of course I agree completely with you that the Bush 
administration did not adequately fund the goals that they set 
for NASA. They set this ambitious agenda out there and then did 
not provide the money through the Office of Management and 
Budget. That was a bad problem. That coupled with the, what 
appeared to be some unrealistic cost estimates on a lot of 
major flagship missions that inevitably they had cost overruns 
because the initial estimates were inadequate, did not help. 
And in particular the, I wanted to first of all ask about an 
area of astronomy, for example.

                             DECADAL SURVEY

    The decadal survey, which is the, as we all know, the 
survey done every ten years among scientists to tell the 
Congress which projects are the most important and which should 
be funded, apparently the, I am looking at an article from the 
Journal of Science, January 30, this year, the top priority 
from the 1991 survey, an infrared satellite observatory called 
Spitzer did not fly until August 2003. And virtually all of the 
cost estimates in the 2001 survey turned out to be too low. 
Quoting from the article, ``So this time officials at the U.S. 
National Science Foundation, NASA, and the Department of Energy 
want the numbers to stick.'' Are you familiar, either one of 
you, with what the agencies are doing to try to make sure that 
we do not lose some of these missions and they get realistic 
cost estimates that the Subcommittee and the Congress can rely 
on?
    Mr. Fisk. Yes, I am familiar because of my previous role as 
the Space Studies Board Chair. The agency, remember the decadal 
surveys are an academy document. They are generated by the 
National Research Council.
    Mr. Culberson. Right. But used by this Committee and the 
Congress----
    Mr. Fisk. Absolutely.
    Mr. Culberson [continuing]. And the agencies, as we should.
    Mr. Fisk. Absolutely. But in terms----
    Mr. Culberson. As a roadmap.
    Mr. Fisk. But the cost estimation, NASA provides numbers 
but the academy has got to do a better job than it did in 
previous surveys in making sure those numbers are realistic. So 
in the Astro 2010, which is the next astronomy survey, just now 
starting, the Academy will in fact engage official cost 
estimation processes, industrial models, for being able to 
predict more reliably what the costs are going to be. It is not 
easy. Because you are always dealing with a mission that really 
is not that well defined. I mean, no one has agreed to go ahead 
with this mission. It is basically something that is intended 
to be started within the decade. And so, the planning process 
is early. And that gets you almost inherently into trouble.
    But we, it should be possible to actually bracket more 
effectively the costs than was done in previous surveys. There 
was the most egregious case, as you noticed, the astronomy 
survey, in 2001.
    Mr. Culberson. Yeah, the Webb, the Webb Telescope.
    Mr. Fisk. That is correct.
    Mr. Culberson. Which is a great instrument, and it needs to 
fly. But the cost overruns are just unbelievable. It has gone 
from I think, what is it, about $1 billion to maybe about $4.5 
billion before it is through.
    Mr. Fisk. Yeah.
    Mr. Culberson. And, you know, and an example also for the 
Subcommittee of a project that is at the very top of the 
decadal survey list that has hit every, I believe, cost 
estimate, hit every target, met every goal, is the Space 
Interferometry Mission out of Jet Propulsion Laboratory, the 
SIM Mission, where they, which is so vital to allow the next 
generation of space telescope to identify habitable planets. We 
have got to fly it. Yet, you know, Griffin and NASA kept trying 
to chop it. This Subcommittee restored it and I thank the 
Chairman and the Ranking Member for their help with it.
    We are committed to making sure that the decadal survey 
missions get flown. We do want to make sure, the Subcommittee, 
I know, wants to make sure that we are getting realistic cost 
estimates so we know that the, we will do whatever we can to 
avoid these cost overruns. In fact, the Science article points 
out that the National Science Foundation is going to hire cost 
contractors who will independently estimate the cost of the 
various proposals. It says Marcia Rieke, an astronomer at the 
University of Arizona, so you basically have an outside check 
and balance on some of these.
    Mr. Fisk. It is not the NSF. It is the National Research 
Council, I think.
    Mr. Culberson. That prepares the decadal survey?
    Mr. Fisk. Yes.
    Mr. Culberson. That actually prepares the decadal survey.
    Mr. Fisk. Yes.
    Mr. Culberson. We, I think I would also like to ask, 
finally, Mr. Chairman, your advice and guidance as I am going 
to move forward. I volunteered earlier in the previous hearing 
and I am going to put this together as a proposal for the whole 
Subcommittee to look at. A mechanism for recommending to the 
Congress and the Appropriations Committee a level of funding 
for the National Science Foundation, NASA Science, and maybe we 
need to include NIH at some point. But start with the sciences, 
NASA Science, NSF. It seems to be we ought to have an outside 
panel of experts, scientists, unrelated to, with absolutely no 
political influence outside of the administration, to give us a 
budget recommendation. Because I frankly do not trust OMB. I do 
not care who is the President. They, the bureaucrats at OMB are 
not scientists and they are driven by forces other than 
science. And they do not, I do not even know if they even pay 
attention to the decadal survey. And it would be nice to have 
as a Subcommittee an objective, realistic estimate of what the 
National Science Foundation and Science at NASA actually needs 
from an outside source that we would then use as a starting 
point for the work of this Subcommittee. Thank you, Mr. 
Chairman.
    Mr. Mollohan. Thank you, Mr. Culberson. We are pleased to 
welcome back to the Subcommittee Mr. Serrano who was its 
Ranking Member I think for four years, or six years?
    Mr. Serrano. Six years.
    Mr. Mollohan. Six years, three congresses. Served the 
Committee extremely well during a period when Mr. Wolf was the 
Chairman of the Subcommittee.
    Mr. Serrano. And Mr. Rogers.
    Mr. Mollohan. And Mr. Rogers. Thank you. Welcome to the 
Subcommittee, Jose. Mr. Serrano.

                       KIDS INTERESTED IN SCIENCE

    Mr. Serrano. Thank you, Mr. Chairman. Thank you so much, 
and it is a pleasure to be back. Joseph Michael Acaba, Joe 
Acaba. So this is in answer to Mr. Wolf's comments that we do 
not know who the astronauts are any longer. If you have an 
agenda like I do, you do know that name. Because a couple of 
years ago I sat next to you, Mr. Chairman, and I said to the 
NASA Administrator, I said, ``You know, we live in a society, 
for good or bad, where ethnic and racial pride and community 
pride are very much a part of who we are. And how nice it would 
be for children in Puerto Rico and in the Puerto Rican 
community throughout the fifty states to see someone who 
identifies with that community.'' So maybe the Committee had 
something to do with it. Joe Acaba is assigned to the crew of 
STS-119, as Mission Specialist Educator, tentatively scheduled 
to launch on March 12, 2009 to deliver the final set of solar 
arrays to the International Space Station. Just remember that 
name. Anyway.
    What I wanted to talk about was brought up by a lot of 
members. And that is this whole issue of how to get young 
people interested in the sciences. And the exciting way to do 
it, I think, in many ways, is through space travel. And I thank 
NASA, in absentia, for the fact that they work in the Bronx, 
New York and the schools and do a lot of work in this area. But 
the public discourse on space programs tends to take a tone of 
days gone by, as if the public's interest in space technology 
had waned since the days of Apollo. I would be interested to 
hear your thoughts on how NASA's space and science programs 
might go about reestablishing, or repositioning their programs, 
in a way that remains relevant to everyday Americans. And are 
there ways to further bridge the gap in terms of how space 
science relates to issues such as climate change and green 
technology? The short answer may be that we have gotten so used 
to spaceships taking off that we no longer think it is a big 
deal. And Mr. Wolf is correct, when we were younger this was a 
big issue. And you remember these names, and you really rooted 
for them. So is there a way to bring that feeling back? Is 
there a way to get Americans to pay more attention and be 
interested in it? And is there a way to begin to tie in to 
space travel with all the other sciences and the research that 
has to be done?
    Mr. Fisk. I think there is. It is NASA and our national 
leaders, and all that must participate in this process. I live 
in Michigan. I live in the middle of the country, right? And 
now Ann Arbor is a special place. But five miles out of town 
there are normal people. And if you ask them about NASA they 
say, ``Oh, are they not going to the moon? Did we not do 
that?'' You know. ``Why are we spending money on that?'' And 
they do not recognize how much of their everyday lives are in 
fact touched by space. And we need very much to somehow do 
that. To communicate that thought. I mean, there are the famous 
stories about, you know, I think it was a congressman who said 
to someone from the Weather Service. You know, why do I need 
the satellites? I get my forecast from the----
    Mr. Mollohan. Now, come on. Come on. That was not a 
congressman.
    Mr. Fisk. It is an urban myth.
    Mr. Mollohan. That was not a congressman.
    Mr. Fisk. It is an urban myth. But----
    Mr. Serrano. It is the same congressman who asked me about 
currency from Puerto Rico one day.
    Mr. Fisk. But the point I think is that we do not recognize 
how pervasive civil space is. Now, the issue of climate change, 
which is of serious concern to the entire world, we will 
understand climate change and what it is going to be and what 
humans are doing to it, and what we should be adapting to, and 
what we should be worrying about, only through space. I mean, 
period. I mean, it is a flat out statement. You need the global 
perspective of space to be able to do that. So everyday lives 
are going to be influenced. And we have to keep telling people. 
It is your space program that is doing this thing. It is not an 
accident that this is happening. I mean, this is not something 
that is different from your space program. This is what your 
space program is doing. It is doing climate change. It is 
creating new technologies. It is answering basic human 
questions. It is doing all these things.
    That is why the science program at NASA actually has great 
importance. Because it touches the lives far more directly than 
simply going to space with humans, which is very important to 
the future of the country, and all those good things. But the 
everyday lives are more touched by the science program of NASA 
than any other program.
    Mr. Serrano. So is it that it has lost its novelty?
    Mr. Fisk. I think there is some of that.
    Mr. Serrano. Or we have gotten used to such technological 
successes that we do not think it is that important anymore?
    Mr. Fisk. I think we do not recognize where things come 
from. I mean, and I think that is all our faults. Because we do 
not remind people that is what it is that is happening. And it 
is, you know, essentially your government supporting an 
activity which is benefitting your lives, and we should talk 
about those things. But I also think the agency has its faults 
here as well. Because in an effort to command the resources 
necessary to do the things that they think they were directed 
to do, like human space flight, they have put more of their 
emphasis on that than, and not recognized that in fact the 
other parts of the program are what are really impacting 
people.
    Mr. Serrano. Yes.
    Mr. Rankin. I would just say that, looking at young people 
today they have different ideas about things. And I do not know 
that it is actually reasonable to think that they are going to 
go back to the 1960's and have the same feeling we had when we 
shot the space rocket up in the atmosphere. But there are lots 
of things that are affecting everyone. And I think it will 
affect younger people even more so because they are just now 
coming through life. Climate change is one thing that has 
already been mentioned. But energy conservation is another, and 
clean water is another. And it seems to me that these are the 
kinds of things that people could get interested in, especially 
if they see how these things could possibly affect them in 
negative ways if we do not look at these areas and think about 
how to improve our situations. So I think I would suggest that 
we try to find the things that are happening today that might 
be on the minds of young people. A lot of young people these 
days are interested in conservation and ecology and things like 
that. And I think we can take advantage of these kinds of 
things, and there is science behind all of these. You know, you 
can always find science and mathematics in all of these 
endeavors.
    Mr. Serrano. I would agree, and that was my point. To get 
them interested in the space program by understanding what role 
it plays in the other issues that they are interested in now. 
Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Serrano. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman. I was going to raise a 
similar point. But before I do, Mr. Chairman, I saw you on the 
NBC Nightly News last night. Apropos of your original comments 
today, there was segment on the changing face of America. It 
focused on a Latino family in Wisconsin. But in profiling the 
changing face of America they showed your face, and Nydia 
Velazquez. Did you happen to see that?
    Mr. Serrano. No, I did not.

                              NASA SCIENCE

    Mr. Schiff. Yeah, NBC Nightly News, Brian Williams. You 
know, Dr. Fisk, I appreciate very much your testimony today. 
And the case you make for NASA science. I am not sure we are 
diagnosing the problem correctly, though. And, because I have 
wrestled with this, too, with the view that NASA is a luxury 
that we cannot afford in difficult times. I think there is the 
same fascination of when we were kids with the manned space 
flight. I mean, I see it reflected in different ways. I see it 
reflected in the billions of hits on the website when the Mars 
rover lands and starts roving. I see an interest, you know, not 
only here but around the world. But somehow that interest seems 
to get lost between there and this Capitol, and the White 
House.
    And I think there are two scientific questions that are 
really the preeminent questions that not only the American 
people but everyone has. Probably the first is, what can 
science do to improve my health and the health of my family? 
That is probably the most pressing scientific question that 
people have. But only second to that, I think, is the question 
are we alone? And when I, you know, read your testimony, Dr. 
Fisk, and I read statements like this. ``We have observed the 
remnant radiation from the Big Bang that began our universe. We 
have found that the universe has continued to expand, driven by 
a force that we do not yet understand. We have discovered that 
there is a matter in the universe, a lot of it which we cannot 
yet observe. We have seen galaxies forming at the beginning of 
the universe and stars forming in our own galaxy. We have 
discovered planets around other stars, many of them. So many 
that it is ever more likely that there are other earths and 
perhaps other civilizations comparable to our own.''
    How can you fail to be fascinated by that? And I do not 
know what we need to do differently. But people are inherently 
interested in that question. And there is no more popular 
person I bring to my district than an astronaut. And the 
interest is out there. You know, I labor, like we all do on 
this Committee, to justify our NASA expenditures in other ways, 
and tell people, ``Well, your cell phone technology came from 
NASA. A lot of improvements in medicine came from NASA.'' But I 
think that the, you know, the fascination with space and with 
the fact we may not be alone is the most powerful driver. You 
know, it is the old kind of exploring frontier ethic. And I 
think we need to find a way to make sure that is not lost 
between there and here.
    Mr. Fisk. I could not agree more. There are so many 
dimensions to that problem from my thinking. I have this belief 
that the United States chooses to be a great nation and has a 
reason for that. That is our destiny. And I considered it one 
of the responsibilities of a great nation to try and answer 
some of these basic human questions. So there is that dimension 
to it.
    This is innate in us. We have been asking those questions 
in some form since the beginning of civilization. I mean, this 
is a basic set of human questions we try and answer. And you 
can fascinate people. I mean, even those people in Ann Arbor 
and outside of Ann Arbor I can fascinate with those kinds of 
conversations. And you say, ``Now why is it that that does not 
come through somehow when we get closer to the Treasury?''
    I do not know. We do not have some great spokesman, 
particularly. You know? I mean, every now and then I wish Carl 
Sagan were still alive. We need people who somehow personify 
this. It is not just an esoteric thing. There is a face that 
goes with this when we think about this. And we have not 
created those kinds of spokespersons in our society that people 
can identify with when they ask the questions. I mean, they can 
be fascinated by the discussion but they want to have the 
discussion with a person. And that may be in some ways what we 
are missing more than anything else.

                        PLANETARY DECADAL SURVEY

    Mr. Schiff. Let me ask you just a follow up on a very small 
subset of space science issues. NASA recently decided on the 
sequencing for the outer planet flagship missions. Europa, 
followed by Titan. That order, I think, is consistent with the 
planetary decadal survey, which has always ranked Europa as the 
highest priority. Nonetheless there has been this continuing 
debate, at least in the past. Are we settled now on Europa? Can 
we go forward and not have to keep revisiting this?
    Mr. Fisk. Yes, the answer is I think so. That is a question 
you probably ought to direct to NASA. I mean, the debate has 
been going on. Europa was highest in the decadal. Enceladus, 
you know, came from behind and was looking promising. And but 
I, all I know on that subject is what I have been told. And I 
think the debate has been settled but I, yeah.
    Mr. Culberson. They just completed the survey.
    Mr. Fisk. Right.
    Mr. Culberson. They picked Europa.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Fisk. Good choice, by the way.
    Mr. Culberson. Yes.
    Mr. Mollohan. Thank you, Mr. Schiff. Mr. Honda.

                     FINANCING SCIENCE AT AGENCIES

    Mr. Honda. Thank you, Mr. Chairman. And welcome, and 
pleased to hear your thoughts and your testimony. It is 
refreshing. And I know that a lot of comments have been made 
about costs and money and comparing one thing to the other. But 
I think that we have to look at the history of how we finance 
all this stuff and how we finance it and how we budget it is 
really a reflection of our values. And we have a chance now to 
look at it again. And in that context, and perhaps this 
question was asked before I got here, but in the context of the 
change in the possibility of looking at rearranging some of our 
programs and priorities, what would be your recommendation as 
to reshaping, revamping, refocusing on this whole area that we 
look at when we think about NASA, NOAA, and the other agencies?
    Mr. Fisk. The, Congressman Wolf asked me earlier about the 
future and the budgets and so forth, and whether the country 
could afford it. I guess I have a point of view, too, that says 
we invest in science and technology because the only hope for 
the future of the country, and for our civilization, and for 
our economy, is the investments in science and technology were 
made so that we will in fact benefit from it. Our economy will 
expand, our civilization will be better off, and we will 
survive as a planet and a civilization.
    And so the investment is not an option. It is essential to 
the future. And the question is how much investment do you 
need? I think we all recognize that the investment that has 
been made to date is inadequate. And that the growth in our 
economy and the growth in our standard of living and so forth 
will require a larger investment in science and technology. And 
then you sort of work your way down. I mean, the NSF had a plan 
that says, you know, they need to double. And they are well on 
the way to that, I think, with the budgets and so forth. And 
NASA is the same, the space program is equally as essential to 
our future in the broadest sense, not just the science portion. 
And the science portion within it, in the sense it is of 
growing importance to the space program because it is the part 
of the space program which touches people's lives more directly 
these days than other parts. Aeronautics as well.
    And so you basically say, what you want to have happen is 
this reset. The stimulus package was not a blip, but it was a 
reset. And in the case of NASA it was under what it should have 
been to be even a blip. It needs to be a bigger blip, and then 
it needs to be a reset so that there is a continuation of this 
investment. And I think that is what you have accomplished with 
your stimulus package. You have corrected the problem from the 
past, the underinvestment. But now there has to be a continuity 
that extends that into the future so because science is not 
done in a year. I mean, the investment is not going to be done 
at the end of October 2010. The question is, is how do you go 
forward from that making the investment necessary to have the 
economy grow, the civilization be better off? And that is what 
we need to do?
    Mr. Honda. The opportunity to do this is here. And having 
spoken with the previous witness the question came up, with all 
these agencies dealing with science and research, whether it is 
earth science, oceanographic, NOAA, space, they are all 
related. And it does not seem that we should be dividing them 
up and trying to see which is a priority but rather see how 
they work together so that the information comes together in a 
sensible format so that we say we are getting the most bang for 
our bucks. And then also, you know, commercializing it in 
different ways.
    But looking at our budget in the future, is there a group 
out there that can look at this approach and recommend a way to 
fund our programs adequately so that we can be aligned and on 
time on the core mission of each agency, and also provide the 
information necessary to, you know, move things along.
    Mr. Fisk. I think it is going to vary somewhat from 
discipline to discipline. In disciplines that are contained in 
an agency, astronomy from space is contained in NASA. There is 
astronomy in the NSF but it is more research and ground based 
astronomy. They need to work together, but to some extent. So 
when the decadal survey, which was mentioned earlier, is done 
by the Academy, it plans for everybody. It plans for NASA, it 
plans for the NSF, it plans for the Department of Energy, which 
participates in the nation's astronomy program. And that gives 
you an answer to what you should do in that particular 
discipline.
    Earth science is always the outlier because it touches so 
many different agencies. We have a decadal survey in earth 
science, which is a National Academy document. But it deals 
primarily with NASA and NOAA. It does not deal with the 
Department of Energy, it does not deal with USGS particularly, 
or only to some extent, and so on. And so you need to, and the 
government has done coordination in the past on these issues, 
usually done through the Office of the OSTP, the Science 
Advisor. And so to some extent the coordination on earth 
science, so that all the agencies play in a program that is 
able to do the nation's things. That has to be, I think, one of 
the most effective things is to ask the President's Science 
Advisor to do as we have in the past, to give you that kind of 
coordination. And essentially present to you, as the 
Appropriations people, this is what is required for this agency 
to play in the national science program. That was actually done 
in the eighties and the nineties, and has been done less so 
recently.
    Mr. Honda. Right. I think that we were trying to starve 
them, or we were not adequately funding them, so.
    Mr. Fisk. Yes.
    Mr. Honda. To answer a question on a personal basis about 
interest in science and space. I thought about that really for 
a moment. And it seems to me that we probably have, this is not 
a slam against TV or anything else like that, or light 
pollution. But it seemed to me that ancient people had done a 
lot of staring at the skies and wondering. And through 
generations it seems to me that they came up with the idea of 
astronomy, math, science, timing, and things like that, even 
came up with the concept of zero. Perhaps we do not look in the 
skies enough to touch that part of our humanness of wondering. 
Are we alone?
    Mr. Fisk. Yes. I think there is a lot to be said for that.
    Mr. Honda. Yes. Well, thank you very much for your 
testimony.

                           OFFICE OF SCIENCE

    Mr. Mollohan. Thank you, Mr. Honda. Mr. Rankin, Dr. Rankin, 
following longstanding practice the Office of Science at the 
Department of Energy funds high energy physics and nuclear 
physics, although the current focus of research in these fields 
is basic research addressing fundamental questions such as the 
nature of matter and the fundamental forces of nature. Is this 
appropriate? And does this placement of an area of fundamental 
research in an agency other than NSF result in an overemphasis 
in this area? Or any other concerns?
    Mr. Rankin. I personally do not see a concern with it. I 
mean, this kind of thing happens all the time. I know when I 
was a program officer for a while at AFOSR and I used to 
collaborate with folks at NSF in funding folks to do research. 
So I actually look at it as a positive thing, that it is a way 
of leveraging money. If both agencies have support for the same 
area of research then it is a way that they can collaborate or 
share funding of various projects. And in that sense make their 
money go further, and have more people involved in the 
research.
    I would suggest that program officers should try to 
collaborate and let each know what the other is doing and who 
is being funded. Sometimes this happens on the program officer 
level automatically. I mean back when, as I said, when I was at 
AFOSR I just worked with another program officer over at NSF 
and we knew that we had certain people that were applying to 
both agencies. So we decided to split the cost and that way he 
could use half his money for something else and I could use my 
half for another investigator.
    Mr. Mollohan. Thank you. Dr. Fisk, what is the status of 
space biology and space physical sciences at NASA?
    Mr. Fisk. The space biology, I mean, both space biology, 
the physical sciences and the microgravity environment, those 
sorts of things, they were of course transferred into the 
Exploration Office, Exploration Systems Mission Directorate, 
ESMD. It has not been a happy time for them there because that 
office's primary responsibility has been to build the Aries 
launch vehicle, and Orion, and so on. And there has been a 
systematic scale back. I mean, that was my earlier comment. It 
was only a few years ago that during one September basically 
all the grant program was canceled and 500 scientists, post 
docs, or graduate students and undergraduates were laid off. 
And so there has been a tremendous scale back that occurred in 
those disciplines.
    Would I have made the same decision? I mean, it is hard, it 
is hard to say. I mean, you cannot get to space, you do not 
need these programs. But you need a rocket to get to space. You 
go through that argument that says, well, building the rocket 
is the priority when you have limited funding. But the 
consequence is your long term future.
    First of all, why are you going to space if you are not 
planning to use it in some ways, whether it is in the 
microgravity environment, or if you are not planning to have 
humans be able to live and work in space? And that requires 
some discoveries in basic research and biology. This is not, we 
do not know enough today to say that the human can go into 
space for long duration space flight in a radiation 
environment, which is what would be required if we are going to 
the moon, going to Mars, going someplace else. We do not know 
enough to do that today. And it will be basic research which 
gives us that and that program has suffered more than any other 
science discipline within NASA.
    Mr. Mollohan. Well, and without those programs or that 
study at some point you would not know the challenges, and you 
would not know how to deal with them. Is this a matter of 
timing? Are these issues that can be put off to another day 
because----
    Mr. Fisk. They can to some extent. We have obviously been 
to the moon and we can get there. We know we can get there and 
you can spend three days, or whatever it is. And there is a 
partial gravity on the moon if we are wandering around there. 
We are not so clear about the radiation environment that will 
also be an issue on the moon, and so on. So you are going to 
need this.
    But I think there is another thing that just is not 
recognized in this. You do not turn science disciplines on and 
off like a faucet. And basically, particularly in the life 
science and the microgravity, or life science in particular and 
microgravity to a somewhat less extent, the best and the 
brightest in that field have choices as to what they do. If you 
are a space, if you are doing space biology you may be also 
working for the NIH on basic human health issues. If you are 
doing microgravity in space you may be a material scientist 
that is working with the NSF or the Department of Defense. So 
NASA turns you off. And in fact, in some cases, NASA not only 
turned people off they forced them to lay off their graduate 
students precipitously. Those folks are not coming back. They 
said enough of this.
    Mr. Mollohan. What is the consequence of that?
    Mr. Fisk. I sense if we are really serious about doing this 
research and you want to turn this back on because we need the 
answers, we are going to have to rebuild again. You are going 
to have to go out and convince people. I mean, to some extent, 
some of these people treat this like Lucy and the football, you 
know? You teed me up once and you, and this is not a new event 
for NASA. They have had this community go up and down over 
time. You put the football there and you go to kick it, and you 
pull it away. They are not Charlie Brown. They are not going to 
come back and try again. And I think, you know, the first thing 
that is going to have to happen when somebody says yes we 
really needed that answer, is somebody is going to proactively 
have to, and it is going to be a sales job. They are going to 
have to say, okay, why are you serious this time that you were 
not serious the last time, or the time before that?
    Mr. Mollohan. Well, what is your recommendation in this 
regard? And what is the timing?
    Mr. Fisk. I think the damage is done to some extent. I 
guess I am troubled by the fact that we built the Space Station 
and we do not plan to use it. And, you know, the number of NASA 
experiments on the Space Station is very small. Basically, the 
Europeans and the Japanese are having a wonderful time, and we 
are doing less and less. We do not have a community that does 
this thing. And so, it seems to me that was a bad choice.

                          BUDGETARY DECISIONS

    Mr. Mollohan. Is that driven by a budgetary decisions 
alone?
    Mr. Fisk. Strictly budgetary, it is basically, we cannot 
afford it. And we have ended up in a somewhat silly position. 
Basically we have to fly the Shuttle to finish the Space 
Station because of our international commitments. The Shuttle 
money is coming out of the rest of the NASA program and we 
cannot afford to use the Space Station. And you say, gee, tell 
me again why that was? If you tell NASA you have $17 billion, 
and these are all the things you have to do, and this is your 
highest priority, you know, namely replace the Shuttle, what 
else are you going to do? I mean, you are going to make these 
choices. But the, there are long term consequences for those 
near term decisions. And it would be wise if somebody, 
especially if we are trying to redress some of this money that 
is available, that somebody says, hey, maybe it is not too 
late. Call that guy up, you know, that you fired and laid off 
and don't have him----
    Mr. Mollohan. Well, if you were to do that, there would 
have to be corresponding decisions you would have to make with 
regard to station and access to station.
    Mr. Fisk. Right.
    Mr. Mollohan. What would those be?
    Mr. Fisk. Well, we continue to fly the shuttle until 2010. 
And we have resupply contracts now in place. There are two 
competitors who have been awarded contracts to fly autonomous 
ELVs to the space station, not the shuttle, for resupply.
    We are going to be dependent upon the Russians as it is 
now. And while the gap still exists until an American launch 
vehicle is available, we are not abandoning the space station.
    Mr. Mollohan. No, we're not.
    Mr. Fisk. We are just not using it.
    Mr. Mollohan. We are not abandoning it. But transportation 
is a real limiting issue here, is it not? Would you be able to 
turn on microgravity and space biology research, as you 
suggested, before being able to access the station in ways 
other than----
    Mr. Fisk. Yes.
    Mr. Mollohan [continuing]. Resupply?
    Mr. Fisk. I don't think that is so much the issue. There is 
an issue of down mass, which is the question of bringing things 
back from. You know, if you do experiments on the station you 
may want to bring something back. And so you would have to make 
sure that the resupply that you have is safe.
    But there are going to be people on the station. And those 
people can do this research if there are payloads. And you will 
have to ask, you know, can I get--make sure I get the payloads 
there? But I--and, you know, you really have to ask NASA the 
question. But my understanding is that the resupply that is 
being--has been contracted for has the capability to take 
experiments up there, not just stuff, you know, supplies.
    Mr. Mollohan. Okay, thank you.
    Dr. Rankin, in the President's budget, he speaks of 
encouraging exploratory and high-risk research through NSF. 
First, let me ask you in the peer review process is there a 
tendency at NSF toward conservatism?
    Mr. Rankin. Well, I think that can happen.
    Mr. Mollohan. Is it typical? Is it a defining 
characteristic of the peer review process?
    Mr. Rankin. I don't know that I would say it is a 
characteristic. I think--I have heard NIH folks mention this 
quite a bit more than I have folks from NSF. But I think it is 
natural in times when money is tight that people want to make 
sure they spend the money well. Although that doesn't mean that 
they actually do all the time. But I think the peer review 
process has worked pretty well at NSF.
    Over 180 Nobel Prize winners have at one time in their 
career received NSF money. I have mentioned some of the 
innovations that have come from NSF Support, and there are many 
other innovations. This means that at least the process is 
picking good people working on good science.
    I think if you are talking about doing transformative 
research, I think we have to make--I think it would be good if 
the NSF director would create a culture of that within the 
agency. And I think it should start with going down to the 
directorates. This is where it is going to happen and with the 
program officers. Maybe there has to be some training of 
program officers of how to work with the community to build 
this idea of transformative research. But I think it can be 
done.
    Mr. Mollohan. But it is not necessarily there now?
    Mr. Rankin. Well, yes, there has obviously been 
transformative research.
    Mr. Mollohan. No, there has been. But people are concerned 
about this. And they are talking about it, and----
    Mr. Rankin. Well, I think because there is so much money 
now that is coming in. I think generally the scientific 
community is worried that we are sort of stuck in a rut and 
that we need to move forward with new discoveries.
    I think what the rhetoric is about is that we want to 
create an environment where we are looking at these high-risk 
projects. But calculate the risk and see if they are 
worthwhile. If the projects are worthwhile and we can pick the 
right people to work on these, then I think it is probably 
something we ought to do.
    Mr. Mollohan. If it becomes a policy directive so to speak 
and money is associated with it, you are suggesting that the 
adjustment to the extent NSF would have to make an adjustment 
through the peer review process wouldn't be something that----
    Mr. Rankin. I think, they could--I think they should have 
information sessions where they talk to reviewers, but I think 
program officers need to go through this as well, because the 
program officers in the end make the final judgement. They take 
the advice of the panels or the reviewers, but in the end they 
make a recommendation based on these reviews. But there may be 
other things that program officers know about that causes them 
to make a different kind of decision.
    Mr. Mollohan. Thank you. Mr. Wolf.
    Mr. Wolf. I'll pass, Mr. Chairman.
    Mr. Mollohan. Mr. Aderholt. I'm sorry, Mr. Culberson yes. I 
thought you left.

                             FUNDING LEVELS

    Mr. Culberson. I had a phone call, excuse me. Sorry. Thank 
you. Thank you very much.
    Let me if I could ask both of the witnesses what you would 
think of--just food for thought. In order to provide stability, 
predictability at the funding levels for National Science 
Foundation, which is the root of much of the problem we have 
had, if the--because I am going to put together a proposal for 
this Subcommittee to make a serious effort at adopting into law 
that we remove--take OMB out of the loop when it comes to 
making funding recommendations for the National Science 
Foundation and NASA for that matter. And put that in the hands 
of an independent board of experts. What about the National 
Science Board? I think Dr. Ray Bowen is the Chairman and former 
President of Texas A&M.
    Mr. Rankin. Not now. Steven Bearing.
    Mr. Culberson. Isn't that--who is the President?
    Mr. Rankin. Steve Bearing is the current Chair.
    Mr. Culberson. Frank Bowen was the Chairman?
    Mr. Rankin. I think maybe a while back.
    Mr. Culberson. Okay. Who is the Chairman now?
    Mr. Rankin. Steven Bearing.
    Mr. Culberson. Okay.
    Mr. Rankin. Steven Bearing.
    Mr. Culberson. Okay. What would you think about that? Let 
them make the budget recommendation to us on the funding level 
that is necessary for the National Science Foundation and NASA 
to do the job that they are entrusted with to have a panel like 
the National Science Board make that budget recommendation to 
the Appropriations Committee formally instead of the Office of 
Management and Budget.
    Mr. Rankin. I don't know. I haven't thought about that. The 
Science board already has oversight of the NSF.
    Mr. Culberson. Yeah, policy.
    Mr. Rankin. The policy of the NSF.
    Mr. Culberson. I just frankly get sick and tired of OMB 
short-sticking NASA. I get tired of them short-sticking NSF 
over the years. We all know the Bush Administration did not 
give adequate funding to NASA or the National Science 
Foundation. The Bush Administration loaded up NASA with a lot 
of projects then did not give them the money.
    Mr. Rankin. Well----
    Mr. Culberson. And then it was up to this Committee to try 
to find a way to make it up. And it was tough.
    Mr. Rankin. Well I don't know--I mean personally I would 
like to see science--I will talk about the NSF. I would like to 
see the NSF, and you can say this about all science, funded in 
a way that we know what to expect year over year.
    I mean, we talk about doubling these different agencies, 
doubling the NSF.
    Mr. Culberson. Right.
    Mr. Rankin. But the fact of the matter is that this is 
tough to do. And on the other hand if you do do it, it gives 
you a sense that you have accomplished the job.
    Mr. Culberson. Yeah.
    Mr. Rankin. And, therefore, you stop. If you look at the 
example with NIH, they doubled from 1998 to 2003. Then bang, 
they stopped, NIH got no more money.
    Mr. Culberson. Right. We have got a vote going on. I want 
to make sure to submit any comments or questions. If I could 
then would you both agree then the most important message to 
leave with the Chairman of this Committee is that we find a way 
to provide stable, predictable funding levels to NSF?
    Mr. Rankin. On an uptake.
    Mr. Culberson. Stable and predictable, I think I know how 
to help you do that. Thank you.
    Thank you, Mr. Chairman. Thank you for your--thank you all 
for being here. And thanks for having this hearing by the way. 
Thank you.
    Mr. Mollohan. Well being able to vote and return and keep 
the hearing going is a benefit of having a hearing room----
    Mr. Fisk. I am impressed.

                    MATHEMATICS IN THE UNITED STATES

    Mr. Mollohan [continuing]. In the Capitol. You trade off. 
Use the small space for that.
    Dr. Rankin, as the only mathematician who is appearing this 
week actually as a witness, please give us a brief picture of 
the overall support environment for mathematics in the United 
States.
    Mr. Rankin. Well, the NSF is the major supporter of 
mathematics in the U.S. It represents about 47.6 percent of 
overall funding. However, if you look at just the federal 
funding for basic research in mathematics in universities and 
colleges, then the NSF represents about 60 percent of that 
funding. The remainder of the funding for mathematics comes 
from the Department of Defense, it is about 17.9 percent, the 
Department of Energy, 18.4 percent, and NIH is about 16.1 
percent.
    These numbers have changed over the years. It used to be 
that NSF was clearly 50 percent or more of the funding for 
mathematics. Then DOD took a big slice and then DOE. Over the 
last ten years there has been a change. And also the fact that 
NIH is now becoming more of a player.
    There are quite a few mathematicians now that get funding 
out of NIH, usually working with a biomedical scientist. And 
there is this program through the Division of Mathematical 
Sciences at NSF and the National Institutes for General Medical 
Sciences where they--I think the way it works is that NSF puts 
in a dollar and NIGMS puts in two dollars.
    Mr. Mollohan. Thank you.
    Mr. Aderholt.

                     NASA CIVIL SERVANT SCIENTISTS

    Mr. Aderholt. Thank you, Mr. Chairman. It is my 
understanding that under NASA's implementation of full cost 
accounting, scientists working as NASA's civil servants are 
increasingly being asked to seek funding to cover the full 
costs of their salaries. Yet NASA scientists are civil 
servants. And furthermore they are not always permitted to 
compete for funds external to NASA, such as those made 
available by the National Science Foundation.
    This situation creates anxiety and stress among current 
NASA civil servant scientists. And at a time when the average 
age of the agency's scientific workforce is increasing, this 
does not establish NASA as an attractive career option for the 
next generation of our nation's biggest scientists.
    The question would be science makes advances through 
competition of ideas. And NASA civil servants as well the 
agency benefit from scientific competition. But from your 
perspective does it make sense that NASA scientists who are 
civil servants also compete for their salary? Just your--both 
of your thoughts on that.
    Mr. Fisk. I think what is important is that they compete. 
And this is not a new issue. I mean, you want a--you want to 
have science done by the people that are best able to do it. 
And I think that it is important that NASA scientists. And they 
have for the tradition of, you know, the whole history of the 
space science program dating back, you know, as far as I know. 
I mean, NASA science people had to submit proposals for 
research support. The only difference is whether their salaries 
were in it or not. I mean, any other costs that they had 
associated with this had to be won competitively in competition 
with the universities and all the other people.
    So that part I think is all right. And I also think to some 
extent having their salaries in this is not--is not an issue. I 
think--and, you know, this is a question where you really ought 
have the NASA person here. I can't--I still--even though I 
haven't been an associate administrator in decades, I still 
somehow think I answer questions for the agency.
    But the--it seems to me that one of the most difficult 
parts in competition over the years was the overhead rates at 
centers, because it was not only scientists competing for their 
salaries. But then there was an overhead charge on that which 
was exorbitant compared to their competitors. And that was in 
part because not every NASA civil servant could win in 
competitive things. And yet they still had to be funded, and 
the centers had to be funded, and all these other things.
    And I think, and I would encourage you to ask the NASA 
people this, that they have in fact corrected that situation 
where the overhead is now paid out of some general account some 
place. And the competition is now for salaries and other costs 
of doing the research.
    And that is not an unreasonable place for NASA scientists 
to be, because actually they now even have a competitive 
advantage to the universities. Even though university overhead 
rates were lower than the center overhead rates, there are 
still overhead rates at the universities.
    So the NASA scientists have the sort of competitive 
advantage if they are only being charged for the--for their 
salaries and their research. And that is a good trade I think 
in my judgement between asking them to not compete and asking, 
you know--and making sure their salaries are adequately 
covered.
    But you are correct in one very important point. It is 
absolutely essential that we revitalize the NASA workforce.
    Mr. Aderholt. Dr. Rankin, do you have anything else?
    Mr. Rankin. I didn't realize that these folks are employed 
by NASA but they have to apply for grants?
    Mr. Fisk. From NASA.
    Mr. Rankin. I didn't realize that went on. It doesn't 
strike me as a good situation. If they are employed by NASA, it 
seems to me that they should work for NASA. And if NASA wants 
to have them work on research, that seems like a good thing. I 
don't quite understand why they would apply for grant support 
if they are already paid by NASA.
    Mr. Aderholt. Let us go back to the history as you were 
talking.
    Mr. Fisk. Well the--I mean one of the things that NASA has 
worried about it in its past, it worries about it less these 
days, is the relative balance between universities and NASA 
centers. And people--you know, it--when I was Associate 
Administrator, I considered it my job to make sure that that 
balance was correct, because we have to think not of just NASA 
centers when we think of the space program. We have to think of 
the infrastructure of the country to do space. And space 
science is done at universities and government labs, and it is 
done in certain kinds of industries some places and so on. And 
that is the entire thing.
    And we need to create a system, which gets the maximum for 
the country out of this. Not just is it done in this center so 
let us look at the country as a whole. And one of the ways that 
that was maintained over the years was to have competition 
between the university scientists and the NASA scientists as to 
the support.
    And the traditional model, until full-cost accounting was 
put into effect, was that the NASA scientist had to vie for 
grants to give them support beyond their salaries, just things 
they were going to do, things they were going to build.
    And now with full-cost accounting, we went to the other 
extreme, which was not only their salaries with the overhead. 
And I think they are back to a system, which is just their 
salaries and their support.
    And often I think it is a way for NASA headquarters to make 
sure that the country's best are applied to this, regardless of 
whether they are in a center or the university. And frankly I 
think that is healthy.
    Mr. Aderholt. Why can't you have interchanging between the 
centers and the universities of personnel? It seems like that 
would be--I mean people do that all the time in other 
situations we see.
    Mr. Fisk. You are into--I mean, do you want to do IPAs or 
something?
    Mr. Aderholt. Yeah, sure.
    Mr. Fisk. Yeah, but no. I mean, those are minor events. I 
mean, there is a whole cadre of scientists at Goddard and JPL. 
And JPL by the way has always done it this way with the 
salaries. I mean, JPL is an FFRDC. The salary support for the 
scientists at JPL is won by--as part of the JPL contract or 
through competitive grants and contracts. It is only the NASA 
civil service centers where this issue arises.
    Mr. Aderholt. And JPL is a part of CalTech.
    Mr. Fisk. Yeah.
    Mr. Aderholt. Thank you, Mr. Chairman.

                           SATELLITE MISSIONS

    Mr. Mollohan. The satellite missions are often done in 
cooperation with other nations and the Multinational European 
Space Agency. Is the U.S. contributing its fair share in these 
efforts? And how does the cooperation work in terms of 
sustaining U.S. science technology, engineering, and its 
leadership?
    Mr. Fisk. Again, it is a somewhat complicated answer. I 
mean, we talk about Earth science for example. Since we have 
let our capability in Earth science slip dramatically, it is 
very hard for us to be this leader that says let us get the 
world together, and figure out what is happening to the 
climate, and use the best of everyone's capabilities to do so.
    So when you want to lead by example and in cooperation, you 
better make sure you are bringing something to the table that 
you are capable of. And in certain fields we are not.
    In other fields we are such clear leaders, you know, 
planetary exploration, astrophysics. That when we cooperate, we 
do so because there is an advantage, a national advantage. We 
bring in some technologies from other countries and so forth. 
But there is a case where we are in some ways so far ahead that 
it is not--you know, our cooperation is important and it is 
good for scientific collaborations, good for our image, as a 
country, as a leader, and so on.
    But let us--you can't have a discussion about international 
cooperation unless you want to have an ITAR discussion, because 
the number one impediment to any meaningful international 
collaboration in space is ITAR.
    Now you can have missions where they do something and we do 
something. We share the data in the scientific literature. That 
is okay. But if we actually want to do something together, a 
spacecraft, you contribute, your nation contributes, we 
contribute, unless somebody fixes ITAR, it is not a workable 
system.
    And so you have got competing national policies here. If we 
think it is in our interest as a country to collaborate and--on 
scientific issues, not military, scientific issues, then the 
ITAR rules have somehow got to change and become commensurate 
with what we are trying to do as a country.
    Mr. Mollohan. Have you thought about that enough to give us 
your opinion on how that should change?
    Mr. Fisk. Yeah. I mean, I will fall back on mine. I have an 
opinion on it. Like all good university professors I have an 
opinion on everything. I mean, one of the things that I would 
explore--I mean, there is a law first of all, which, you know, 
you will have to deal with here. But within the law as I 
understand it, there is a question of what is on the ITAR list? 
What is on the controlled list?
    Even if you say we are going to have exactly the same law, 
I mean, somebody decides what is a controlled technology. And 
if we can make that restricted to things that are really 
essential for the national interest, you know, the national 
security as opposed to the kinds of stuff that is there now, 
which you can buy in the world anywhere in lots of cases.
    Mr. Mollohan. Those decision are based on fear for the 
national security.
    Mr. Fisk. Oh, no, they are not. I mean----
    Mr. Mollohan. Can you give it to me in an exact--off the 
top of your head?
    Mr. Fisk. The question is whether you can control 
technology. You would have to assume we had it and someone 
didn't. And yet in many cases the capabilities that are on the 
ITAR list can be purchased in other countries in even more 
capability than we have--you know, we are talking about 
electronics here. We are talking about basic kinds of things.
    There have been--there have been hearings. And I was not 
part of them where, you know, some--there was someone as I 
recall in one of these, in a House hearing, someone came in and 
said, ``I bought all these pieces in Radio Shack. And I put 
them in a satellite. And now they are an ITAR controlled 
item.''
    And so, you know, there is a silliness to the listed 
controlled technologies--it is comprehensive. It is too 
comprehensive. Somebody should simply go in and say, okay, tell 
me exactly what technologies we have to control in the 
interests of our national interests and take everything else 
off. I mean, that would be my simple solution.
    Mr. Mollohan. Okay, thank you. Dr. Fisk and Dr. Rankin, we 
want to thank you very much for appearing here today. We are in 
a series of votes. I think it has been a fine hearing. I think 
we learned a lot. And we especially appreciate each of you 
appearing and giving us the benefit of your expertise and 
answers to the questions. We look forward to seeing you again 
in the future. We have some questions submitted, which we would 
appreciate your answering them.
    Mr. Fisk. Sure.
    Mr. Mollohan. It won't be burdensome.
    Mr. Fisk. Sure.
    Mr. Mollohan. We appreciate the time that you have given us 
today.
    Mr. Fisk. Well thank you very much. I have enjoyed it 
immensely.
    Mr. Rankin. I wanted to also thank you for your efforts on 
behalf of the science community, the NSF in particular, in the 
stimulus bill and also in the fiscal year 2009 appropriations. 
Thank you very much.
    Mr. Mollohan. Well, thank you.
    Mr. Fisk. Thank you.

    [GRAPHIC] [TIFF OMITTED] T1219A.025
    
    [GRAPHIC] [TIFF OMITTED] T1219A.026
    
                                          Wednesday, March 4, 2009.

       THE PLACE OF NOAA & NIST IN THE OVERALL SCIENCE ENTERPRISE

                               WITNESSES

DR. JAMES SERUM, PRESIDENT, SCITEK VENTURES
DR. SUSAN K. AVERY, PRESIDENT, DIRECTOR, WOODS HOLE OCEANOGRAPHIC 
    INSTITUTE

                 Opening Statement By Chairman Mollohan

    Mr. Mollohan. The hearing will come to order.
    Good afternoon, Dr. Avery, Dr. Serum. Yesterday we received 
an overview of science in the United States and examined the 
role of NASA and NSF in the overall science enterprise.
    This afternoon, we will examine the role of two other 
research agencies under our jurisdiction, NOAA and NIST, both 
of which are included in the Department of Commerce.
    Following the issuance of the report, Rising Above the 
Gathering Storm, there has been a bipartisan effort to double 
the fiscal year 2006 funding of NIST along with NSF and the 
Department of Energy Office of Science over a ten year period.
    The stimulus funding provided in ``The American Recovery 
and Reinvestment Act of 2009'' increased fiscal year 2009 
funding for NIST by roughly 70 percent while providing a 
roughly 20 percent boost to NOAA.
    Looking forward, it is important for this Subcommittee to 
understand the relative roles and status of the different 
research agencies. We look forward to learning more from Dr. 
Avery about NOAA and from Dr. Serum about NIST.
    We would like to welcome you to the hearing, letting you 
know that your written statement will made a part of the record 
and you can proceed with your testimony as you will.
    But first, I would like to call upon the Ranking Member, 
Mr. Culberson, for any comments he might have.
    Mr. Culberson. Thank you, Mr. Chairman.
    I just want to say once again how much I appreciate the way 
you have structured these hearings. All of us on the Committee 
appreciate the outside perspective, the independent objective. 
Outside perspective is very important to us and we appreciate 
very much your being here today to help us in our effort to 
make sure the sciences are fully funded as they should be.
    Thank you very much.
    Mr. Mollohan. Thank you, John.
    Let us proceed with Dr. Serum.
    Mr. Serum. Uh-huh.
    Mr. Mollohan. Your written statement will be made a part of 
the record, please proceed as you like.
    Mr. Serum. Thank you, Chairman Mollohan and Ranking Member 
Wolf, for the opportunity to testify about the role of NIST in 
the overall science enterprise.
    My name is James Serum and I am the President of SciTek 
Ventures, a science and technology consulting firm. I have been 
deeply engaged in developing and commercializing measurement 
technologies and applications for over 40 years.
    I have been associated with NIST for the past ten years, 
serving first as a member of the National Research Council 
Assessment Panel for the NIST Chemistry Lab and since 2004 as 
an elected member of NIST's Visiting Committee on Advanced 
Technology, VCAT. I am currently the Chair of that federal 
advisory committee.
    From my long association with NIST, I can tell you that 
NIST is a unique research agency and a critical element to this 
nation's scientific enterprise. NIST is the only federal agency 
that I am aware of that is specifically focused on promoting 
U.S. economic competitiveness. Unlike other government research 
agencies, the primary stakeholder of all NIST programs is 
industry.
    Today I hope to show you that whether it is through 
technology research, the development of advanced precision 
measurements, or the creation of standards that NIST provides 
the tools essential to increase the productivity and efficiency 
of industry, accelerate the adoption of new technology, and 
enable fair trade.
    Measurement science and standards are the foundation for 
technological innovation. The measurement science performed at 
NIST is often at the cutting edge of science, providing the 
foundation for many new technological innovations. This is 
important because if you cannot measure something, you cannot 
control it. And if you cannot control it, you cannot reliably 
manufacture it.
    NIST's unique role is to advance measurements and standards 
so that the next innovation can be realized and commercialized. 
The impacts of NIST measurement science research are numerous.
    For example, the work of one of NIST's Nobel Laureates, Dr. 
Jan Hall, was focused on the precise measurement of the 
wavelength or color of light. An unprecedented accuracy and 
precision of the technology pioneered by Dr. Hall has been the 
foundation upon which numerous technological advancements have 
been built, including the development of extremely accurate 
atomic clocks, increased capacity of fiberoptic communications, 
new methods to rapidly diagnose disease, and ways to identify 
trace chemical species in the environment.
    NIST research also provides industry with critical tools 
that help overcome such challenges as cleaner and renewable 
sources of energy.
    NIST measurements have led to improvements in fuel cell 
design, helping large and small companies such as auto makers, 
Dupont, and Plug Power to improve the efficiency and durability 
of fuel cells for zero carbon emission vehicles.
    Another critical element to NIST's role is the development 
of standards which provide the common language in commerce. 
NIST standards enable U.S. manufacturers to design and build 
products to one standard or a set of standards with an outcome 
of increasing their competitiveness in the world market and 
facilitating global trade.
    In addition to NIST's role in measurement science and 
standards, the Technology Innovation Program, TIP, and the 
Manufacturing Extension Partnership, MEP, provide critical 
support and services to America's competitive backbone, its 
small businesses. These help to foster collaboration across 
diverse technology partners and to develop transformational 
technologies.
    TIP created by ``America Competes Act'' provides NIST with 
the capability to overcome the barriers to successful 
innovation by investing in high risk, high reward science that 
address critical national needs.
    This year, TIP addressed the nation's critical need for 
improvement in the nation's physical infrastructure. I am 
convinced that TIP will be a key part of the federal portfolio 
that helps accelerate American innovation.
    The Manufacturing Extension Partnership, MEP, is a unique 
partnering program of manufacturers, states, and federal 
government to increase the competitiveness of U.S. small 
manufacturers. The MEP network bridges the productivity gap for 
small manufacturers by identifying opportunities for growth and 
profitability by encouraging technology development and 
providing services that reduce manufacturer's bottom line 
expenses, increase efficiencies, and build capacity.
    These are just a few examples of the important role that 
NIST plays in the overall science enterprise. Founded on 
precise measurements, NIST programs have a high impact and 
benefit to entire industries by enabling innovation.
    I applaud the Subcommittee on its leadership in writing the 
fiscal year 2009 appropriations bill that provides NIST with 
the resources outlined by the ``Competes Act.''
    I would urge Congress to continue to show a strong 
commitment to NIST and not overlook the important and essential 
role it plays in our nation's scientific enterprise.
    Again, thank you for the opportunity to testify today. I 
look forward to answering your questions.
    Mr. Mollohan. Thank you, Dr. Serum.
    [Written statement by James W. Serum, Scitek Ventures 
follows:]

[GRAPHIC] [TIFF OMITTED] T1219A.027

[GRAPHIC] [TIFF OMITTED] T1219A.028

[GRAPHIC] [TIFF OMITTED] T1219A.029

[GRAPHIC] [TIFF OMITTED] T1219A.030

[GRAPHIC] [TIFF OMITTED] T1219A.031

    Ms. Avery. Good afternoon, Chairman Mollohan and members of 
the Subcommittee. Thank you for the opportunity to speak with 
you today about the National Oceanic and Atmospheric 
Administration.
    My name is Susan Avery and I am President and Director, of 
Woods Hole Oceanographic Institute in Woods Hole, 
Massachusetts.
    My primary message today is that NOAA is critical to our 
nation's research effort to understand our planet as an 
integrated system in which the ocean, atmosphere, and 
terrestrial environments interact in a highly complex fashion.
    These are areas of inquiry that have both immediate and 
global implications for long-term social and economic well-
being of all peoples and nations. As such, they require 
integrated, intellectual approaches and close collaboration 
among researchers across disciplines, agencies throughout our 
government, and governments around the world.
    Both the ocean and the atmosphere are shared globally and 
we must have international cooperation to address such issues 
as natural hazards, environmental quality, collapsing 
fisheries, and adaptation to and mitigation of global climate 
change.
    NOAA has proven its ability to pursue such cooperation in 
numerous ways over many decades. Especially notable in recent 
years was its key role in providing scientific expertise and 
data to the Inter-Governmental Panel on Climate Change. NOAA's 
climate modeling capability is considered one of the best in 
the world and its models helped form the basis for the IPCC 
reports.
    In many ways, NOAA is unusual among our government's 
science agencies. It is a mission agency responsible for 
monitoring both the atmosphere and the ocean, from predicting 
hurricanes to protecting fisheries. It works to conserve and 
manage coastal resources and environments where 14 of our 
country's 20 largest urban areas are located and where more 
than half the population lives.
    Additionally, however, NOAA funds scientific research. It 
not only forecasts weather, it seeks to understand and predict 
climate. In effect, it makes a science investment in order to 
develop unified modeling, understanding, and prediction across 
atmosphere, fresh water, and ocean ecosystems.
    One example is so obvious that we tend more to ignore it or 
take it for granted and that is the National Weather Service. 
NOAA forecast warnings and the associated responses produce 
approximately $3 billion in savings during the typical 
hurricane season.
    With respect to forecasting the impacts of short- to long-
term climate variability, NOAA has been a leader in detecting, 
predicting, and understanding the effects of El Nino southern 
oscillation or ENSO, which occurs every three to seven years. 
The often severe results of such events can include drought or 
floods, colder or warmer than usual winters, more or fewer 
hurricanes and typhoons.
    Research has estimated an ENSO forecast to benefit the 
decision making of U.S. agriculture between 500 and $900 
million a year. These examples are a startling measure of 
NOAA's importance.
    The annual economic return to the United States economy of 
the ENSO observing system is between 13 and 26 percent, more 
than double OMB's specified minimum rate of return for federal 
projects. Yet, consider the ENSO observing system spread out 
across the vast reaches of the southern Pacific Ocean is 
anchored by only 700 moored ocean buoys supplemented by free-
drifting floats and ship-based observations.
    By contrast, in Maryland and Virginia alone, there are 84 
land-based weather stations. In short, a greater investment in 
NOAA's research operations and services, including its many 
academic and industrial research partners, could bring a 
commensurate increase in return on that investment. Again, 
broad collaboration is essential.
    These examples illustrate the scope of NOAA's 
responsibilities to the nation encompassing ocean, land, and 
atmosphere and their connections and collective effect on our 
planetary environment and global society.
    I want to emphasize that the extramural research conducted 
by NOAA and its partners is critical to the agency's own 
success.
    Research leads to understanding that refines the models 
that improve prediction, that informs policy, and, therefore, 
helps determine the ultimate economic benefit. In short, it is 
essential that all of NOAA's operations and services be based 
on science.
    In summary, my recommendation is simple. They echo those of 
Rising Above the Gathering Storm report. Given the breadth of 
its mission portfolio, the wide range of science needed to 
support that mission, and the ever increasing demand for its 
products and services, I believe certainly a doubling of NOAA's 
research budget is required to carry out its missions.
    As things stand, the scope of NOAA's mission far exceeds 
the dollars devoted to it. The budget as yet does not allow for 
the establishment of the much needed National Climate Service. 
And additionally, many of NOAA's facilities and operations are 
partially paid for out of its research budget, shortchanging 
the various science and partnerships that support and inform 
those services and operations and that contribute so greatly to 
NOAA's national value.
    In fact, the total research component of NOAA's 2009 budget 
request, $537 million, is only 14 percent of its total budget. 
That mismatch between funding for services and operations and 
funding for research can only in turn shortchange sound policy 
and decision support.
    Increasing NOAA's research budget and recalibrating that 
balance will be in line with this Administration's 
determination to restore the voice of science to the 
collaborative formation of national environmental policy and 
improve decision making. This will be good for NOAA, good for 
science, and, most of all, beneficial for the nation.
    Thank you.
    Mr. Mollohan. Thank you, Dr. Avery.
    [Written statement by Dr. Susan K. Avery, President and 
Director, Woods Hole Oceanographic Institution follows:]

[GRAPHIC] [TIFF OMITTED] T1219A.032

[GRAPHIC] [TIFF OMITTED] T1219A.033

[GRAPHIC] [TIFF OMITTED] T1219A.034

[GRAPHIC] [TIFF OMITTED] T1219A.035

[GRAPHIC] [TIFF OMITTED] T1219A.036

                 NOAA AND BASIC SCIENTIFIC DISCOVERIES

    Mr. Mollohan. Dr. Avery, NOAA is fundamentally an 
operational agency, as you pointed out, providing environmental 
forecasts and maintaining extensive observing systems for 
weather and climate and to assess marine biota in support of 
fisheries management.
    Ms. Avery. Yes.
    Mr. Mollohan. In what ways does NOAA play a role in basic 
scientific discoveries and exploration?
    Ms. Avery. Okay. NOAA plays a major role through research 
that is conducted within their own national laboratories, 
through the cooperative institutes that are really long-term, 
sustained relationships between NOAA and academic and research 
entities and, of course, through individual grants and 
contracts that go to individual scientists throughout the 
research enterprise.
    This sort of interesting collaboration of research really 
provides and enables NOAA to access the best expertise for 
specific needs that then help form and improve the products and 
operations and services that NOAA provides.
    Mr. Mollohan. And how about NOAA's role with regard to 
scientific education?
    Ms. Avery. Yes. NOAA has taken an increasing role in 
scientific education. Of course, it is by having these 
partnerships with the extramural community, you inherently 
already have a built-in educational component associated with 
training undergraduate and graduate students.
    Additionally, many of those partners and universities and 
research organizations have outreach programs that are 
associated with K through 12 efforts. NOAA sponsored something, 
the Ocean Sciences Bowl, which is always a wonderful tool to 
get K through 12 communities engaged. And NOAA has engaged 
itself more broadly with educational opportunities.
    So it has that connection through its extramural 
constituencies and that training is vital for training the 
future of NOAA's workforce actually.
    Mr. Mollohan. What is the scope of those programs?
    Ms. Avery. The scope?
    Mr. Mollohan. Yes. Where do they exist; how broadly? How 
available are those opportunities, and to whom?
    Ms. Avery. The cooperative institutes are spread across the 
country and I do not know the exact number of them now. I would 
have to get back to you on that. They span research and 
education from atmosphere, ocean, and coastal areas, marine 
areas to fisheries and other important areas.
    But the cooperative institutes alone are not the only 
access to education and training for the future. Also through 
support of individual principal investigators at other 
universities who do not have cooperative institutes, you get a 
vital connection with educational enterprise.
    Mr. Mollohan. You referenced Regional Integrated Science 
and Assessment programs in your testimony, which reach out to 
stakeholders to incorporate more science into resources 
management in order to improve how communities, planners, 
managers, and end users, such as farmers and public utilities 
prepare for and adapt to changing climate.
    Ms. Avery. Yes.
    Mr. Mollohan. Where are those partnerships?
    Ms. Avery. The partnerships at the University of Colorado, 
University of--these are the headquarters. They actually 
develop a lot of partners. But University of Colorado, 
University of Arizona, University of Washington, University of 
California, out in Hawaii, University of Florida or Florida 
State. I am showing an embarrassing glitch there that I do not 
recognize.
    Mr. Mollohan. No. No, no, no, no, no, not at all.
    Ms. Avery. But basically it is actually a fairly small 
program, but a very innovative program that NOAA put together 
in developing experimental sort of pilot projects that more 
actively, if you will, structure engagement of scientists with 
stakeholders in a very problem focused area that allows 
stakeholders who have decisions to make that are important, 
have important stressors associated with climate and climate 
variability or climate change to really help develop the right 
science, the right information, the right decision tools that 
can help, for example, manage the west water resources or 
manage an ecosystem in the marine environment.
    Mr. Mollohan. What is interesting about that program is 
that it is an inland focused program, is it not?
    Ms. Avery. Yes.
    Mr. Mollohan. I mean, it looks like it is focused on a 
western water problem.
    Ms. Avery. Yes.
    Mr. Mollohan. How did NOAA get to that issue in the middle 
of the country?
    Ms. Avery. I think that is a good question.
    Mr. Mollohan. I know, which I applaud you for. I just want 
to understand how you got to that.
    Ms. Avery. Yes. It got to that, it emerged out of the 
climate program within NOAA, okay, and looking at the 
intersection of where climate information could have a 
tremendous impact on the economy.
    And if you look at western water, it is one of the key 
economic drivers. It is the natural resource that is a key 
economic driver for the west.
    Mr. Mollohan. Yes.
    Ms. Avery. And so there is sort of a natural fit between 
the universities and their scientific expertise and their 
public outreach missions with NOAA's climate and then----
    Mr. Mollohan. Expertise.
    Ms. Avery. The expertise. And it occurred at the same time 
that NOAA's ENSO predictive capability was beginning to mature 
to a sufficient stage that there was some skill, if you will, 
in predictive ENSO capability.
    In fact, a lot of the initial resources were dedicated to 
really looking at climate variability on ENSO scales rather 
than global climate change.
    Mr. Mollohan. Yes.
    Ms. Avery. That is evolving, of course, as the science 
evolves as well. But you are right. I have often questioned it 
myself and I would think that there would be a need for 
additional RISA efforts that might encompass coastal city 
environments, marine environments.
    Mr. Mollohan. Well, for those of us who are in-landers, it 
is actually encouraging because we think that we have these 
kinds of climate issues, these kinds of water issues, and we 
are the headwaters of everything that gets to your coastal 
jurisdictions.
    Ms. Avery. That is right.
    Mr. Mollohan. So I actually applaud that. But this program 
looks like it is facilitating the competing interests of 
stakeholders and trying to accommodate them in some way.
    Does it get down to that level of detail or are you simply 
providing data?
    Ms. Avery. No, no, no. That is what is really unique. By 
the way, prior to Woods Hole, I was at the University of 
Colorado, so I was an in-lander too.
    Mr. Mollohan. Oh, well, now we start understanding.
    Ms. Avery. And, actually, I have helped with the 
development of the RISA.
    Mr. Mollohan. I bet you did.
    Ms. Avery. And the interesting thing that I found about the 
whole development of this program was it restructured the way 
researchers think and scientists think. And it is not just that 
I am going to develop information and give it to you. It really 
is sitting down and developing sustainable stakeholder 
communities and sustainable user interactions understanding how 
decisions are made.
    One of the first things that the RISA Program in Colorado 
did was actually sit down with water managers and look at a 
water decision calendar. What time do you make decisions about 
managing water? What kinds of scientific information would be 
needed at what point in the year?
    Mr. Mollohan. Yes.
    Ms. Avery. And then from that, that helped kind of inform 
what kind of science really needed to be done. So taking 
something as simple as looking at water--scientists often look 
at water and display data about water on a calendar year 
instead of on a water year.
    Mr. Mollohan. Yes.
    Ms. Avery. And the water year in the west begins in the 
fall and goes through the summer. So something like that.
    But then also, it also helped inform what kind of process 
questions that we really do not know in order to address some 
of those scientific products that the stakeholders could use 
within their decision calendar.
    Mr. Mollohan. Yes.
    Ms. Avery. That is a typical example, but it has been very 
active and they have grown tremendously with little money 
actually, very little money.
    Mr. Mollohan. Well, great. All the better. Thank you, 
Doctor.
    Ms. Avery. Thank you.
    Mr. Mollohan. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    We are delighted that you are here today. This Committee is 
unified in our passion for investing in the sciences and, as I 
said, really do appreciate your independent objective opinions 
here today, Dr. Avery and Dr. Serum.
    I represent west Houston. I am here today on behalf of Mr. 
Wolf who has a conflict and cannot join us, Mr. Chairman, so I 
thank you for the time.
    I want to touch on a couple of areas. I cannot begin, 
however, without--I want to pass this on to you, Mr. Chairman. 
This is a quantum wire from Reich University and I have already 
given one, I think, to Adam. I need to give one to each member 
of the Committee.
    A particular passion of mine is nanotechnology which NIST 
has been especially key in. That is a single wall carbon nano 
tube, Mr. Chairman, that they are working, they are weaving 
them together into a wire. And a carbon nano tube is 
essentially a hollow structure of carbon 60 molecules that 
electricity is transmitted ballistically without any resistance 
down the wire.
    And once they weave that into a wire, and NIST has been a 
key part of this, they will be able to transmit theoretically a 
hundred million but they prefer I say a million times the 
electricity carried in those gigantic steel power lines that we 
see today running along freeways in a wire about the width of 
your little finger from New York to Los Angeles with zero loss 
of electrons because there is no heat resistance. There is no 
loss to electromagnetic radiation. And this revolutionizes, Mr. 
Chairman and Committee members, not only the transmission of 
electricity but the storage of electricity.
    And using a distributed system that the scientists at Reich 
University developed, a device the size of a washing machine, 
essentially a household appliance, using carbon nano tube 
technology could store enough electricity--you could buy it off 
the grid at night, store it in your electrical storage device 
in your laundry room, and then run your entire house and charge 
up your electric car and have enough electricity left over to 
sell back to the grid.
    In a distributed network like that, you could make the 
United States completely free of foreign oil, tell Saudi Arabia 
to jump off a cliff, the Middle East, or any of them. And it 
would be a magnificent achievement. And NIST has been a key 
part of this, Mr. Chairman.
    And the standards that you establish, I think that the 
Alliance for Nano Health, you have been working with some of 
our scientists at Reich University.
    Mr. Serum. Yes, we have. Yes.
    Mr. Culberson. And Dr. Mauro Ferrari. They are not only 
helping us make us energy independent but also identifying 
cancer when it first appears, a few cells, and be able to zap 
the cancer cells with gold nano shells literally killing every 
cancer cell in your body no matter where it is hiding without 
drugs, without surgery, without side effect, without 
chemotherapy, taking out every cancer cell in your body, 
instantaneously cauterizing them.
    Essentially it is the difference between a carpet bombing 
with a B52, which is what we are doing today with chemotherapy, 
and precision surgical strikes taking out Saddam Hussein 
without even singing the eyebrows of the general next to him.
    And this is all possible because----
    Mr. Honda. We have seen.
    Mr. Culberson. Right. It is coming, though, Mike. And you 
guys are doing some of that on the West Coast as well at 
Stanford and up in Palo Alto. I do not mean to neglect New York 
and the work that is being done on the East Coast.
    Mr. Serrano, you may be doing some of this as well, but it 
is----
    Mr. Honda. He is from Wisconsin.

                         CLIMATE CHANGE SCIENCE

    Mr. Culberson. Well, it is an important chance to brag on 
NIST not only for the work you do on nanotechnology and also on 
NOAA. And I appreciate very much the work that you do at Woods 
Hole.
    And let me ask a couple of, if I could, quick questions 
because we are voting and we will be rotating in and out during 
this vote.
    The work that NOAA does, and you have in particular, Dr. 
Avery, worked both with NOAA and the Climate Change Science 
Program, it would be very helpful from your perspective on the 
outside from Woods Hole, if you could give the Committee your 
assessment how the federal government's Climate Science Program 
needs to change to deal with the challenges we are going to see 
in the future. What should the Committee be thinking about 
doing to enhance, change our Climate Science Program?
    Ms. Avery. Okay. I think that the Climate Change Science 
Program, which has done wonderful things over the last couple 
decades, is evolving to not only looking at the impacts 
associated with policy that would lead to mitigation efforts, 
primarily associated with our use of energy, but I think it 
needs to probably expand its focus a little bit more, do more 
work in the adaptation area as well.
    I think you probably are poised for the modeling to get 
down to a regional scale with more skill. And I think most 
importantly is the real need to get an observing system.
    Mr. Culberson. Well, you say we only have 70 buoys in the 
ocean.
    Ms. Avery. That is right.
    Mr. Culberson. And so we need to expand the number of 
buoys. And when you say get down to regional modeling, that is 
modeling both the atmosphere and the ocean. So clearly we need 
more ocean buoys. We need to expand that program.
    Ms. Avery. Yeah. If you think about it, I like to think 
about it this way, I think sometimes people think of climate as 
only an atmosphere problem. Climate is really, the climate 
system is atmosphere, ocean, and land.
    Mr. Culberson. Yes.
    Ms. Avery. Okay. And the climate is going to respond. It 
does not say, oh, this is an atmosphere part of the problem or 
this is the ocean part of the problem, this is the land part of 
the problem. It is an integrated response.
    Mr. Culberson. But the oceans are the primary carbon sink--
--
    Ms. Avery. Yes.
    Mr. Culberson [continuing]. On the planet. That was, in 
fact, one of the questions when I get back to my second round, 
Mr. Chairman, I want to ask you about to be thinking about, to 
talk to us about the work that you have done in researching 
fertilizing the ocean with powdered, I would suggest, nano 
particles of iron oxide in order to--because the oceans are, 
Mr. Chairman, soaking out--this is an article from February 
9th, 2007 of the Journal of Science--the uptake, natural uptake 
of carbon dioxide by the ocean combined with the dissolution of 
marine carbonate will absorb 90 percent of the carbon dioxide 
released by human activities. So it really is--this is 90 
percent. The carbon sinks on earth are going to come from the 
ocean, right?
    Ms. Avery. It is really impressive. If you look at a map of 
where the carbon uptake of the oceans is occurring, the largest 
peaks are in the north Atlantic and in the southern oceans.
    Mr. Culberson. And then they also discover the Bay of 
Bengal too----
    Ms. Avery. That is right.
    Mr. Culberson [continuing]. The Ganges Rivers.
    Ms. Avery. Yeah. And, you know, the oceans, in many ways, 
you can almost say perhaps they are the first victims of 
climate change because of acidification issues, the dead zones 
that we are seeing in the oceans.
    Mr. Culberson. Unless you use iron oxide, powdered.
    Ms. Avery. We will talk about iron oxide.
    Mr. Culberson. Acidify the ocean.
    Ms. Avery. Yes.
    Mr. Culberson. Right?
    Ms. Avery. We need to actually do some further studies to 
see if----
    Mr. Culberson. We will talk about this on my second round, 
Mr. Chairman, but it is something I do want you to be thinking 
about. But the Committee does need guidance. We are voting and 
I will pass the witness. But we do need guidance, if we could, 
about what we need to do to change the Climate Science Program 
to make it allow us to do better modeling.
    Thank you.
    Ms. Avery. Wonderful.
    Mr. Mollohan. Thank you, Mr. Culberson.
    Mr. Schiff.

                 NOAA PARTNERSHIP WITH FEDERAL AGENCIES

    Mr. Schiff. Thank you, Mr. Chairman.
    Dr. Avery, as you know, NOAA undertakes a wide variety of 
research related to climate, but NOAA does not always have the 
in-house expertise or the technological capability. In 
particular, satellites provide some of the most useful global 
data for climate change research and are key to NOAA's 
missions.
    Do you think NOAA has taken the right steps to partner with 
NASA and other federal science agencies on climate change, in 
particular when it comes to gathering weather and climate 
related satellite data? What do you think the appropriate roles 
are for NOAA operated satellites versus NASA operated 
satellites versus the purchase of data from private satellite 
operators?
    Ms. Avery. Good question. And certainly there have been 
many Academy studies that look at the NASA/NOAA relationship.
    NASA has primarily been the source of research missions 
that help us in a way define research tools, to look at 
understanding of the planet Earth. But in that context, they 
often have a very important link to, a potential link to an 
operational entity.
    So you see any numbers of observations that were from 
satellites initially developed within the NASA framework and 
then have been proved being of great operational importance, 
whether it is an infusion into a data simulation that 
initializes a model, such as a weather model, or whatever.
    That transition from a research sort of satellite to an 
operational satellite is a difficult transition. And there have 
been a number of studies that have suggested ways to make that 
transition a little bit smoother, ways to make sure that the 
data gets there or gets into an operational framework.
    The problem is a lot of times, there is not necessarily the 
expertise to hand it off or necessarily the resources to hand a 
research satellite over into an operational entity. And that 
has been basically some of the problems.
    And I worked on the Decadal Study, the NASA Decadal Study 
for Earth satellite observations. And at that time, one of the 
critical things that we were looking at is the future of NPOES 
and where was NPOES going. And a number of key what we would 
call climate variables or climate observations were getting 
thrown off NPOES because of budgetary constraints. And I do not 
know what the status of that is right now, but it is a 
difficult thing.
    You do not want to just look at satellites though. In situ 
observations are important, too, and particularly for observing 
the ocean in the climate system. Remember the ocean--satellites 
you can only get near the surface of the ocean. You can only 
measure the surface of the ocean. You cannot penetrate the 
depths of the ocean because electromagnetic wave radiation will 
not penetrate and that is the primary sensing mechanism.
    So it is a difficult problem. I think it is an important 
problem. I think it is very important that NASA and NOAA 
partner together.
    On the private side, the question really becomes, and I 
have asked this question myself, should NOAA put out a request 
for data or should NOAA actually operate its own infrastructure 
and what can the private sector provide?
    And the real question, the stumbling block is when you are 
looking at weather, when you are looking at climate, when you 
are looking at ecosystem management, it is the continuity of 
the data and whether the private sector can provide that 
continuity in economic times where the industry may come and go 
would be the question that one would have to ask.
    Mr. Schiff. One other micro question. The unsuccessful 
launch of the orbiting carbon observatory.
    Ms. Avery. Yes.
    Mr. Schiff. What is your thought? Is that a must replace 
situation?
    Ms. Avery. Well, it certainly was in many scientists' minds 
and my own sort of the key component of taking that next step 
and understanding our carbon balance in the climate system and 
on the planet.
    That combined with a lot of programs that were being 
discussed in terms of complementing that satellite program with 
in situ observations was really key. So the loss of that 
satellite was devastating and it would be, I think, highly 
desirable to see if it could be replaced.
    Mr. Schiff. Thank you, Mr. Chairman.

                           SATELLITE PROGRAM

    Mr. Mollohan. Well, just following up, what would be a 
substitute for the satellite?
    Ms. Avery. To get the global coverage, you would need the 
satellite program. The satellite program was a stand-alone 
program. It was granted then, but it would get the surface sort 
of carbon budget and then there is talk about looking at the 
ocean imbedded carbon that is deeper down in the ocean that you 
would not get from a satellite observatory.
    Mr. Mollohan. You may have answered Mr. Schiff's question 
just exactly the way he wanted the answer. But, do you 
recommend it be replaced or do you think it is essential that 
it happen?
    Ms. Avery. Yes.
    Mr. Serum. Yes.
    Ms. Avery. Yes.
    Mr. Mollohan. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Dr. Avery, I know that as a Director of the Woods Hole 
Institution, you have had a long relationship with NOAA that 
has included important NOAA funded research.
    Ms. Avery. Yes.
    Mr. Serrano. NOAA through its Educational Partnership 
Program and its cooperative science centers at minority serving 
institutions has been at the forefront of training and 
encouraging our next generation of minority students.
    Ms. Avery. Yes.
    Mr. Serrano. But I also know that you have a fellowship 
program at your institution. Could you share with the Committee 
how that program works and what lessons we have learned that 
could be used by NOAA in general as we move forward?
    Ms. Avery. Okay. Yes. We have been very, very fortunate to 
have a very active fellowship program for students beginning at 
the undergraduate level. We have a summer sort of scholarship 
internship program that brings students to Woods Hole, 
undergraduate students to Woods Hole for a summer experience.
    They have a month of intensive classes and then two months 
of the opportunity to do research. Some are able to actually go 
to sea. And it swells Woods Hole, let us say, in the 
summertime. It complements the tourists there as well.
    That program has been really essential in many ways of 
exciting undergraduate students about the possibilities of 
doing graduate work in ocean sciences or in geosciences more 
broadly. Often undergraduates do not necessarily get an 
exposure in their undergraduate curriculum to atmospheric 
science, ocean science because they are more traditionally the 
physics, chemistry, and biology efforts in the universities.
    And a lot of students who go through that summer program 
actually become excited and actually go on to graduate school 
in ocean sciences around the country.
    Woods Hole happens to also have its own graduate degree 
program as well.
    We are really also seeking opportunities to work more 
closely with minority serving institutions, particularly during 
the academic year on a longer time scale that allows us to 
develop partnerships with faculty at minority serving 
institutions and our scientists here. And that is a program 
that is in the development stage and we have got some initial 
seed funding for that and some partnerships that we are going 
to be working on.
    Mr. Serrano. Well, how do these students come to you?
    Ms. Avery. They apply. We have a very well advertised 
program on the web. We certainly get the information out there 
as much as possible through our network of university 
colleagues. And then they basically apply.
    Mr. Serrano. Well, I encourage the work you are doing and I 
support it. I encourage it.
    I think that too often in our society, we tend to tell some 
students to go in certain directions, most students in certain 
directions, but we do not encourage students who ordinarily 
would not know about certain professions or certain work, of 
the role they can play.
    And I think more and more of working with minority serving 
institutions to say, you know, aside from everything else that 
is available in study, here is something different and exciting 
and how you can play a role within the society.
    And I think that we always talk about diversity in this 
society, but it is also diversity of what you want people to be 
involved in----
    Ms. Avery. That is right.
    Mr. Serrano [continuing]. You know, to move it around, not 
just to keep certain people in certain places. So I encourage 
and I support your work.
    Ms. Avery. Thank you very much.
    Mr. Mollohan. Do you want to go now?
    Mr. Honda. Yes. I have real quick questions.
    Mr. Mollohan. Okay. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    A couple of quick questions. And if we do not have time for 
a response, maybe get a written response. But to follow-up on 
the orbital carbon observatory, launching of the satellite was 
based upon the failure of the rocket. But the cost of a 
satellite is probably tremendous.
    Were there multiple functions on that satellite that could 
have been distributed to other satellites so when expiration of 
satellites occurred that you do not have all the functions 
expire at once and it just does not seem like a smart thing to 
do?
    Ms. Avery. Yes. That is a good question. And, 
unfortunately, I do not know enough details about the specific 
payload and the sensors and whether they could be split up or 
launched on other platforms. So I could take a note and get 
back to you on that.
    Mr. Honda. I would appreciate that.
    The other quick question is, there was a collaboration 
agreement between NOAA and NASA on calibration and other 
things. One agency was not able to do it because they had no 
money.
    Is that plan coming together again for this go around and, 
if so, are there sufficient funds? If not, why not?
    Ms. Avery. I will have to again find out more information 
about that for you.
    Mr. Honda. And one other area that NOAA works with is San 
Jose State University. They have got some projects with the 
Navy postgraduate school.
    Ms. Avery. Yes.
    Mr. Honda. My question related to that is, taking that kind 
of collaboration and working together and the information that 
comes out of it and looking at demonstration programs, is there 
any thought of extracting instructional materials for pre-
school to postgraduate in helping us teach information in a 
consistent, ongoing way so that by the time a youngster is out 
of school, either six, eight, high school or graduate school, 
that they are a critical consumer and a user of energy so that 
we grow not only individuals but a community or a nation of 
folks that will be sensitive to the carbon footprint and then 
start demanding these kinds of activities from people like 
ourselves?
    Ms. Avery. Yes. Certainly the potential is there. There is 
a wealth of information, consistent information and scientific 
information that can be used in that educational pipeline and 
in that public mission of educating people to become informed 
citizens on these difficult problems.
    Mr. Honda. Those are obvious kinds of things, but is there 
anything that is being thought of in order to execute and make 
it happen because we are talking about innovation, we are 
talking about, you know, continuous growth?
    Ms. Avery. Yes.
    Mr. Honda. If we look at Moore's law, we want to make sure 
that Moore's law continues.
    Ms. Avery. Yes. I do not know if there is one sort of 
integrating strategic plan that is pulling it all together. 
There are pockets, if you will.
    So you could say, for example, the Regional Integrated 
Science Assessment, the information that is coming out of that 
activity basically is coming out in user friendly information 
reports that are transmitted widely, that are on the web, that 
can be part of the education opportunity. And it is one of 
their goals.
    Mr. Honda. And perhaps you have someone in these inter-
agencies that you could ask and say would you guys conjugate 
about it and get back to us on a conceptual framework or a 
possible scenario that we can look at to put forward so that we 
can fund it and make it happen.
    Ms. Avery. Right.
    Mr. Honda. It would be a crime to let this information and 
opportunity pass buy.
    Ms. Avery. Yes. And I know that NOAA has a major education 
effort going on. I just do not know if they are doing something 
at that level or not.
    Mr. Honda. All right. Thank you.
    Mr. Culberson. Thank you, Mike.
    If I could, I would like to ask each one of you to give us 
your opinion on what, from your perspective, would be the best 
use--for example, Dr. Avery, NOAA received about $600 million 
in the stimulus bill for construction, reading from the report, 
general guidance said for construction, repair of NOAA 
facilities, ships, and equipment, that could certainly include 
buoys, facilities, ships, and equipment, comma, for the purpose 
of to improve weather forecasting and support satellite 
development, period.
    And out of that 600 million, 170 million shall address 
critical gaps and climate modeling and establish climate data 
records for continuing research into the cause, effects, and 
ways to mitigate climate change.
    Ms. Avery. Yes.

                             STIMULUS MONEY

    Mr. Culberson. Could you share with us, Dr. Avery, first.
    And then, Dr. Serum, for NIST, could you tell the Chairman 
and the Committee what in your opinion would be the best use of 
that money, for example, that NOAA received, the $600 million 
in the stimulus.
    Ms. Avery. Okay. So there is already, I think, $170 million 
targeted, as you said, for the modeling capability. And NOAA 
has been----
    Mr. Culberson. That is broad.
    Ms. Avery. It is gone.
    Mr. Culberson. I am sorry?
    Ms. Avery. The 170 million?
    Mr. Culberson. Yes, ma'am.
    Ms. Avery. Was for the computing.
    Mr. Culberson. For critical gaps. It is just the only 
guidance that Congress has given is to say shall address 
critical gaps in climate modeling and establish climate data 
records--
    Ms. Avery. Yeah.
    Mr. Culberson [continuing]. For continuing research. So 
within that, that reasonably gives NOAA some discretion.
    Ms. Avery. Yeah.
    Mr. Culberson. How should they use that?
    Ms. Avery. I think one of the things that they have been 
sorely needing is a computing capability, enhanced computing 
capability for their models. As the modeling effort goes to 
higher and higher resolution to try to incorporate more systems 
approach as well as a resolution that gets to the regional 
scale, you are going to need more computer power.
    And NOAA has been hurting, if you will, for that 
computational power. So investment in that computational power 
would be----

                            SUPER COMPUTING

    Mr. Culberson. Now, rather than NOAA buying one of those 
computers, because I have seen the IBM blue jean computer up in 
the Watson Labs--my brother builds IBM super computers to model 
seismic data for the oil and gas industry in Houston.
    And they are extraordinary, Mr. Chairman. They can actually 
with these massive computers that run so fast create three-
dimensional color images that you can wear three-dimensional 
goggles and get inside the geologic formation and see it, 
similar to what you are talking about.
    Because those things change so fast, they have to buy new 
ones about every three, four, six months to keep up. Would it 
be better for NOAA to contract that work out because that is 
what essentially the big oil companies are doing? They hire 
companies like this one my brother--my brother works for IBM. 
He subcontracts to a company called Western Geophysical and 
then Western Geo, you know, Exxon will hire them, Shell, 
Contico will hire Western Geo or some other company with giant 
super computers who can give Contico the best value for our 
dollar.
    Shouldn't NOAA approach it the same way and simply contract 
out that work for giant super computer modeling?
    Ms. Avery. I think it depends----
    Mr. Culberson. It would be cheaper and more effective and 
efficient; would it not?
    Ms. Avery. Yes. I think it depends on what the end product 
might be, because a lot of the super computer, the modeling 
work that is being done is still a tool for the research effort 
itself. So you need that close connection between the 
researcher and the computational code, if you will, the models 
that are being generated. It is not like there is a set model 
there that you could just hand off to someone to run, to do 
several runs.
    So I think it depends. I think I would need to know more 
and to weigh whether a contracting arrangement would be better 
than actually purchasing.
    Mr. Culberson. Atmospheric modeling data you are saying is 
different from seismic data and you could not just hand that 
data over as the oil industry does to a company like Western 
Geo? They just give them a big slug of seismic data and they 
crunch it over a couple of days and then give them the 
visualization. That is what you are talking about.
    Ms. Avery. Oh, okay. You are talking about the data aspect 
of it?
    Mr. Culberson. Couldn't the modeling data simply be, the 
atmospheric data be handed over to a private company like that 
that does really top-notch work with cutting edge computers and 
do it at a far better, cheaper price for the taxpayers and 
better computational power at a better price?
    Ms. Avery. I do not know. You would have to do an analysis, 
I guess, and determine which way would be the best.
    Most of the time that I look at, as I see scientists 
working with modeling and data in the super computer, a lot of 
that work is basically still in the research phase and they are 
still developing the models or they are still developing the 
data sets.
    If the data sets were already there or the models were 
already done and were all agreed upon and there was no further 
research, in other words they were set, you could then probably 
hand it off. In your case, the oil companies, did the oil 
companies have the models themselves----
    Mr. Culberson. It is raw data.
    Ms. Avery. It is just raw data?
    Mr. Culberson. I mean, it is what you are talking about.
    Literally it is raw data, Mr. Chairman, that the oil 
companies, and literally it is a competition. That is what my 
brother does for IBM. Western Geo has HP and IBM building these 
things.
    Is it the second vote?
    Mr. Mollohan. Yes.
    Mr. Culberson. Okay.
    Ms. Avery. Yes.
    Mr. Culberson. I am going to run down and vote. He is very 
generous with his time allowing me.
    Ms. Avery. He is. I see.
    Mr. Culberson. But we would love to hear from you. I know 
he would too. And I will quit interrupting with questions. How 
should NOAA spend the money and how should NIST spend that 
money?
    Ms. Avery. Okay.
    Mr. Culberson. And I will go vote. Thank you for your 
generosity with the time.

                          U.S. COMPETITIVENESS

    Mr. Mollohan. Dr. Serum, this mission is to promote U.S. 
innovation and industrial competitiveness by advancing 
measurement science, standards, and technology in ways that 
enhance economic security and improve our quality of life.
    Which segments of our economy depend on NIST research 
products and services?
    Mr. Serum. It turns out that almost every industrial 
segment that one can think of that NIST affects in one way or 
another, one can consider from the standards that are defined 
for mixing cement for durability, hardness, longevity and so 
forth, all the way up to healthcare and doing research in the 
latest biotechnology, DNA array technology.
    And the fundamental aspect of NIST, of course, is making 
accurate measurements so that industries can use standards that 
can be measured. And so it really is just about every industry 
that I can think of NIST touches in some fashion.
    Mr. Mollohan. And give us your thinking about how NIST 
impacts the lives of ordinary citizens. Give us a relevant 
statement of NIST for the ordinary population.
    Mr. Serum. Well, you mentioned in the mission that their 
focus is on improving the quality of life. And so perhaps one 
might begin with the field of healthcare.
    One can cite many examples, but all the way back in the, I 
think it was something like 1917, NIST, there was a lot of 
problems with dental amalgams and NIST got involved in 
healthcare way back then to define a standard for mercury 
amalgams in dental fillings.
    As one moves along, one can talk about standards for 
glucose measurements, the little meters that measure a 
diabetic. There are standards for defining that. The 
cholesterol test, there is a standard. And NIST has worked 
those out.
    And certainly in healthcare, last but not least, all of the 
diagnostics that back in the early 1990s when the world 
transformed to DNA measurements as a diagnostic, it turns out 
that, and I was part of that at Hewlett Packard, that the 
arrays were not very accurate and depending on whose one used, 
you could get different results, different interpretations. And 
NIST had undertaken an effort to work out accurate measurements 
of DNA and working towards standardization of those devices.
    I can mention things like fire safety. NIST defines the 
fire retardant requirements for----
    Mr. Mollohan. Let me interrupt----
    Mr. Serum. Yes.
    Mr. Mollohan [continuing]. You for just a moment. We have 
two more votes. These are five minute votes. This vote has 33 
more seconds. We will vote this vote, vote the next vote, and 
we will resume. And the hearing will be in recess until we do 
that.
    [Recess.]

                         NIST SETTING STANDARDS

    Mr. Mollohan. The hearing will come to order.
    Following up, Dr. Serum, on those questions. So one of the 
big benefits, of course, NIST sets standards. And those 
standards are followed. Certainly the United States has 
standards for everything, I guess, almost.
    Mr. Serum. Yes.
    Mr. Mollohan. What has been the experience with standards 
setting around the world and to what extent has NIST provided 
leadership in that area?
    Mr. Serum. Actually, NIST is a very, very highly respected 
agency throughout the world. The French organization, I think 
it is called System Internationale, SI, holds the world's 
standards on things like the meter and the kilogram and things 
like that.
    And I had the opportunity to participate in an 
international conference that was related to what are the most 
critical measurement needs as we look forward in the 21st 
century related to bioscience measurements and healthcare. And 
it was an international meeting and it was important enough to 
other international agencies that they sent their directors, 
the heads of the agencies from around the world, the 
Netherlands, over in the Middle East, and France and Germany 
and so forth.
    And a number of them knowing that I was the Chairman of the 
Visiting Committee came up to me and told me what phenomenal 
respect they had for NIST as a standards setting body.
    In addition, it is probably worthy of comment that NIST 
acts as sort of a mentor to developing standards organizations 
in South America and places where they do not have a lot of 
experience and they look to NIST as both a model and a mentor. 
NIST has hosted people for that.
    And, of course, we are a global economy and global 
standards are absolutely necessary and for people to adopt 
standards globally that NIST promotes and develops is extremely 
important for U.S. industry.
    Mr. Mollohan. So in addition to being a model and a mentor, 
NIST is a guide?
    Mr. Serum. Absolutely, yes.
    Mr. Mollohan. And the standards are followed?
    Mr. Serum. Yes. The process of standardization is not an 
easy one. I was involved in a variety of standards activities 
in software and hardware while I was in Hewlett Packard. And it 
is a little like pushing on a rope. You do not know where it is 
going exactly and you have to have quite a bit of patience.
    But, yet, a lot of leadership demonstrating why the 
standard is necessary and then convincing organizations to do 
it because there is nobody holding the whip that says they have 
to do it, each country is sovereign, and so it is only by 
respect and by the quality of the standard and the details that 
NIST standards are adopted and respected.
    Mr. Mollohan. Well, just as a general proposition, what is 
the trend line? I guess what I am trying to get at is the 
relationship between standards setting for products and 
processes and the acceptance of those standards and processes 
by other economies, by other governments, and the importance of 
that acceptance to our economy.
    If I am understanding your statement, in the past, the 
United States has typically been followed in many areas. Please 
mention some cases where it was not, and is this true looking 
forward or are there any concerns that U.S. leadership in 
standards will not be followed? Are we ceding leadership in 
this area and is there any aspect of standards setting with 
which we should be concerned and looking at?
    Mr. Serum. Well, based on my interaction with NIST, I guess 
I could answer that maybe in two different ways. One, there are 
standards that involve international trade that may be somewhat 
mundane, may have very strong opinions by other countries, 
Germany, France, Netherlands, and so forth, in which the United 
States has good respect and plenty of leadership, but not a 
dominant role.
    The other point that I would make is NIST is fundamentally 
a research organization and it goes about developing standards 
from the foundation of very accurate measurement that can be 
developed upon which a standard is based.
    And as I look across NIST and to answer your question about 
what does the future look like, I would say I would expect NIST 
to take an even greater role internationally because of the 
role of technology and the rapid changes that are occurring.
    Mr. Culberson talked about nano particles now or tubes, 
nano materials. I recently saw an expert opinion that as much 
as 50 percent of all future technology-based products will 
involve nano materials.
    And that is one of the reasons why the great amount of work 
on toxicity of nano materials because should the horse get out 
of the barn and then one finds toxicological effects after the 
fact, it could be devastating to the economy. And so NIST has 
taken a very major role in the toxicology of nano particles.
    Mr. Mollohan. And how does that relate to standards 
setting?
    Mr. Serum. Well, again, that is basic research. But when 
one thinks of nano particles, the way one's body ingests 
material, nano particles will be in everything you can think 
of.
    Mr. Mollohan. Exposure standards?
    Mr. Serum. Exposure. So the dimensioning, the size, the 
geometry, the chemical properties of a nano particle right now 
cannot be predicted a priori. The science just is not known. So 
doing fundamental science in that work, trying to relate 
structure and composition of nano particles to toxicity is 
really important.
    Mr. Mollohan. Thank you.
    The 2010 suggested budget request is .8 billion. And that 
is notionally broken down for NIST. And there are additional 
resources provided in ``The Recovery Act'' which we would add 
to the 2009 funding.
    Looking forward, Dr. Marburger, the President's science 
advisor last year, testified before this Committee in response 
to some question to the effect that if you had additional 
dollars, where would you spend them in science, and he said 
NIST.
    Mr. Serum. Good for him.
    Mr. Mollohan. And so he was asked what kind of numbers are 
you talking about. And I am not going to say exactly because I 
would be guessing, but it was a really surprising multiple of 
the NIST funding. Say it was twice or three times. And, 
actually, I think it was some multiple higher than that.
    But whatever the multiple, do you agree with that and why?
    Mr. Serum. Yes, I----
    Mr. Mollohan. Now, this is vis-a-vis other science 
accounts.

                        THE AMERICA COMPETES ACT

    Mr. Serum. Yes. I understand. Yes, I do agree with it. In 
fact, I have said privately to people that when one talks about 
``The America Competes Act'' and talk about doubling the 
budget, that represents about a seven percent per year growth. 
And I have said in response to that we are very grateful for 
that because of the challenges.
    Mr. Mollohan. That is the right thing to say first.
    Mr. Serum. Yes. But I could easily see the NIST budget 
doubling and enabling them to make very good use of those 
funds.
    When one looks at the challenges that NIST is involved in 
related to fuel cell research and energy, the energy grid, and 
that is an easy word to say and it is an extremely complex 
problem to solve, you do not----
    Mr. Mollohan. The energy grid?
    Mr. Serum. The energy grid.
    Mr. Mollohan. Yes.
    Mr. Serum. You do not just plug all the grids together and 
you have an energy grid. You have to have a whole new 
infrastructure of security management. You need to have 
standardized equipment that knows how to measure energy as it 
is moved around.
    And then in the context of alternative energy sources, one 
faces a whole new set of measurements to assure that as energy 
moves around on a new grid that it does so and is managed in a 
secure fashion, in an accurate fashion.
    When one looks at healthcare, the way NIST has managed 
their research, which I enthusiastically support, is they have 
these main thrusts of we have a deliverable to make and we have 
to make progress. And they are full of ideas, full of new 
technological ideas that are just waiting to be nurtured.
    And what they do is they have a competitive sort of 
evaluation each year in which they nurture some of the more 
promising ideas just enough to keep the germ alive but not 
enough critical mass to actually fund them.
    There are many, many of those that have been worked on and 
are waiting to blossom. There are very, very outstanding ideas 
for transfer of technology to industry related to energy and 
infrastructure and information technology. A complex system you 
are talking about, NOAA, and the management of that data.
    When one looks at climate change, one of the big problems 
is knowing that there are so many variables that actually 
exist. NIST has a lot of competency in complex systems 
information science.
    And so I could go on and on about germinating ideas that 
could utilize that money almost instantaneously.
    Mr. Mollohan. Well, I may let you do that because I am very 
interested.
    Mr. Bonner has not had a chance to ask questions.
    Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman. And I am sorry that I 
was not here at the beginning for the opening testimony.
    Mr. Mollohan. You made a point of being here early before.

                          GULF COAST AND NOAA

    Mr. Bonner. I had some constituents that I needed to see. 
But you may have covered this, Dr. Avery. I know it is in part 
of your written statement. But first of all, a compliment. I 
think I am the only member of the Subcommittee that actually 
lives on the Gulf of Mexico. And we have had, as you know, 
quite frequent occasion to use the talents and the services of 
NOAA, the National Weather Service, and others who have come to 
our rescue before the storms have come and certainly afterward. 
Ivan, Katrina, Rita, a lot of damage, in fact, with Katrina 
obviously the worst natural disaster in U.S. history. So thank 
you for the wonderful work that is done there. Red tide, living 
on the water and actually seeing how something that has an 
innocent enough name can do so much damage and destruction is 
something that, again, I give hats off to NOAA.
    On the National Marine Fisheries Service, however, I will 
have to ask you, and I am doing it in a respectful way. Based 
on your experience, is there room for new thinking within the 
processes by which MNFS considers all the data with regard to 
putting fish population on a list? An example. The Gulf Coast 
charter industry is a $650 million a year industry in my 
district. These are small, family businesses. Mom and Pop take 
out a loan to get a million and a half, $2 million boat. And 
when they are told, when scientists in our own academic 
universities with marine biology degrees are saying that the 
red snapper population is ample, or has enlarged in the last 
ten years. And then they are told by National Marine Fisheries 
people that no, it has not. It is over fished and it is 
endangered. You cannot expect a family to go down and charter a 
boat for $5,000 to go out and catch two snapper. And so my 
question to you is, based on your experience, does the mind set 
at MNFS allow for new ideas and new information that could help 
perhaps bring a more balanced perspective on something such as 
listing a fish?
    Ms. Avery. That is a good question. I think that you will 
see right now a growing awareness that sometimes managing 
fisheries in terms of a single stock works, more often it does 
not. And it is because you are looking at the, you really need 
to look at the entire ecosystem that supports that particular 
species. And that is what we mean by ecosystem based 
management. And that approach to fisheries I think is one that 
should increasingly become something that NOAA looks at. I 
think there is even an interesting twist on it, now, in that 
whereas before without the climate problem one might have 
looked at that ecosystem from a stationary climate perspective, 
nowadays you have the additional stress that that ecosystem 
could be stressed by climate change. NOAA is the right agency 
to kind of merge that marine effort, fishery effort, the 
ecosystem based management effort with the climate effort to 
come up with something that has new ideas on how to actually 
get good, sound, consistent information out. But it is a 
wonderful topic that NOAA is positioned to do. Or should be 
positioned to do.
    Mr. Bonner. Well, we look forward to working with NOAA.
    Ms. Avery. That is good.
    Mr. Bonner. In that conversation.
    Ms. Avery. That is great.
    Mr. Bonner. That is all I have, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Bonner. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. Mr. Chairman, would 
it be possible for me to have, maybe, two, may I ask two sets 
of questions? Do I have time for, one on, I wanted to ask them 
about how did----
    Mr. Mollohan. For a reasonable length of time, you can 
ask----
    Mr. Culberson. Yes, sir. I wanted to make sure I did not 
run out. I want to ask you about----
    Mr. Mollohan. But you may run out----
    Mr. Culberson. I will be prudent.
    Mr. Mollohan. All right.

                         FERTILIZING THE OCEAN

    Mr. Culberson. I will be prudent. Thank you, sir. If I 
could ask you very briefly and succinctly, because I want to 
get to a second set of questions with you, Dr. Avery in 
particular, about fertilizing the oceans. Could you tell us in 
your own opinion how, what would be your best recommendation, 
again short and succinct, on how NIST and NOAA should spend the 
additional stimulus money?
    Mr. Serum. Yes. I think that one of the things that 
happened this year in the NIST planning activity was a matrix 
between the feedback that they had gotten in all of their 
programs related to priorities and comparing it to the new 
administration's priorities. And there was actually an 
excellent amount of overlap related to moving ahead in energy 
field, in healthcare, in infrastructure. And so I believe that, 
well, I would say the visiting committee supported those 
initiatives and many are just starting as initiatives.
    Mr. Culberson. You know, NIST has very broad discretion----
    Mr. Serum. Yes.
    Mr. Culberson [continuing]. In how that money is used.
    Mr. Serum. Yes. So the way I would answer it is, we believe 
that those are excellent priorities related to accurate 
measurements in climate change, moving ahead in understanding 
fuel cell function more effectively, photovoltaics.
    Mr. Culberson. Especially with carbon nanotubes.
    Mr. Serum. Yes. Yes.
    Mr. Culberson. Because they make photo cells up to 60 to 70 
percent efficient.
    Mr. Serum. By the way, I post-doc'ed at Rice in 1970.
    Mr. Culberson. Did you?
    Mr. Serum. Yes.
    Mr. Culberson. Did you work with Dr. Rick Smalley? Was he 
there at the time?
    Mr. Serum. Oh, yes. He was an undergraduate partner of 
mine.
    Mr. Culberson. Did you get to meet him?
    Mr. Serum. Yes.
    Mr. Culberson. Extraordinary, brilliant man.
    Mr. Serum. So I think that making real headway in many of 
these areas, cyber security, making sure that all the 
transactions that are conducted on the internet are really 
secure, personal identity protection, things like that. Those 
are all easy to say. They are not so easy to implement. And a 
lot of effort has to go into them. And if it were, if it is up 
to me I am consistent with those priorities that have been 
established.
    Mr. Culberson. And then before I move on to Dr. Avery, are 
the research, is the research work done by NIST awarded, peer 
reviewed, competitively based research grants?
    Mr. Serum. I want to make sure I understand you correctly. 
Do you mean like the National Science Foundation?
    Mr. Culberson. Yes. Do you all farm out the grant money? Is 
it----
    Mr. Serum. No. Mostly not.
    Mr. Culberson. It is all done in house by in house 
scientists?
    Mr. Serum. It is mostly in house or partnered. If, for 
example, since you are very interested in nanoparticles, I have 
been quite insistent that they do not develop a whole 
toxicological department for that. But they partner with some 
world class organization to do that. They are the measurers and 
the developers of the technology and so forth.
    Mr. Culberson. Right. Texas Medical Center is ready to do 
that, through the Alliance for Nano Health.
    Mr. Serum. All right.
    Mr. Culberson. They have got a huge patient base, as well.
    Mr. Serum. So they will either do it themselves or they 
will partner to do it. And that is primarily their approach.
    Mr. Culberson. Thank you. Then Dr. Avery, very quickly if 
you could, and then Chairman, I may, I may have one brief 
follow up after the Chairman. How should NOAA use the stimulus 
money?
    Ms. Avery. Okay. So we talked about the computation of 
resources.
    Mr. Culberson. Yes, ma'am.
    Ms. Avery. And, you know, in many ways you get the 
petaflops necessary to do the job with the right architecture. 
And how you get there, the cheapest way is probably what you 
need whether it is contract or elsewhere.
    Mr. Culberson. More computing power?
    Ms. Avery. Yes. More computing power, right architecture, 
satisfy the research needs. That is basically what you need. 
And the other areas for, in terms of facilities, certainly 
NOAA's ship, its research ships, could use an upgrade. And 
clearly the ocean observing system that they are poised to put 
in place would be another area that one could look at. And, I 
would also take a look at what other facilities that need major 
renovation that would lead to enhanced research services and 
operations.
    Mr. Culberson. What about the satellite that was lost, 
number one?
    Ms. Avery. Okay, yeah.
    Mr. Culberson. And number two, why doesn't NOAA or NASA 
carry insurance on those satellites like the Europeans do?
    Ms. Avery. Oh, I do not know. Self-insured, government 
self-insured, I guess. But that is the other question on the 
facility thing. Is it also for rescuing some of the satellite 
programs that have been lost? Or making sure that the 
satellites get up? I do not know if there is a separate budget 
in the stimulus package for the satellite programs or not on 
that.
    Mr. Culberson. Thank you. Thank you. I have one extra area 
but I will wait until you are through. Or whenever you want me 
to do it. May I? Thank you, you are very gracious. The Chairman 
really is very generous with the time and it really is a joy 
working with you on the sciences. He knows how passionate I am 
about the sciences.
    Ms. Avery. That is great.
    Mr. Mollohan. It is obvious.
    Ms. Avery. It is obvious.
    Mr. Culberson. And, do you remember in the movie ``The 
Graduate'' where the young man, remember Dustin Hoffman they 
said, Mr. Chairman, at one point, the father of a friend 
approaches him and said, ``Young man, the word is plastics.'' 
Today, if that movie were remade the word would be nano.
    Mr. Serum. I agree.
    Mr. Culberson. No doubt. It will be nano in everything we 
touch, see, and hear.
    Ms. Avery. Can I interject?
    Mr. Culberson. Yes, ma'am.
    Ms. Avery. On the nano piece. There is a wonderful 
opportunity for a NIST/NOAA collaboration associated with the 
nano particles and the toxicity. Because it is not just 
toxicity to humans. It is also a real concern, I think, in the 
ocean sciences community of how these particles, if they get 
into the ocean, how they interact with a very unique life 
environment.
    Mr. Culberson. No question.
    Ms. Avery. And so the marine side is, in toxicity----
    Mr. Culberson. Let me say at the outset, there is 
absolutely no evidence that it is toxic to anybody.
    Mr. Serum. No.
    Ms. Avery. Absolutely not.
    Mr. Culberson. Because they are so small. I do not want to 
leave the Chairman or the Committee with the wrong impression. 
It needs to be explored.
    Ms. Avery. That is right.
    Mr. Culberson. Because it is brand new.
    Ms. Avery. That is right.
    Mr. Culberson. There is zero evidence, unless you, you 
know, it is like with Sweet 'n Low. Unless you inject the poor 
mouse with about a gallon of Sweet 'n Low it might be toxic.
    Mr. Serum. Incidentally, there is a, the Hollings Marine 
Biology Group in South Carolina, in Charleston, is, we went 
down there this past year and did a full day review on the 
work. And they are doing just outstanding cooperative work. It 
is an excellent relationship.
    Mr. Culberson. Well, if I could, Mr. Chairman, the one area 
I want to explore and then I will pass, and you have been so 
kind with your time, in light of the fact that we do know that 
the oceans are responsible for absorbing up to 90 percent of 
all carbon in the atmosphere. The oceans, you know, the good 
Lord designed this natural sink, and the dust storms, Mr. 
Chairman, off Africa a scientist I think at Woods Hole?
    Ms. Avery. Yes.

                            PLANKTON BLOOMS

    Mr. Culberson. Noticed that whenever there was a dust storm 
in Africa and it blew all that dust out over the Mid-Atlantic 
that there were these huge plankton blooms. Because it is my 
understanding that a cubic yard of mid-ocean water contains 
less life than a cubic yard of Sahara Desert sand. Is that 
roughly correct?
    Ms. Avery. Yes.
    Mr. Culberson. Because that is why the water is clear. And 
when the dust settled in the ocean the plankton bloomed. He 
noticed that there was this vast reduction in carbon dioxide, 
release of oxygen. He put two and two together. And I have been 
following this closely. I have been a subscriber to the 
journals Nature and Science for about twenty years. And he was 
unable, of course, to get permission from the United States. So 
he went to Peru, off the coast of South America, rented an 
iron, a freighter. Put powdered iron ore in it, and hired some 
guys I guess with snow shovels, Mr. Chairman, like a lawn 
fertilizer. And just drove back and forth over the ocean. And 
correct me at any point if I am wrong. And just fertilized the 
ocean off the coast of South America. Measured the results, and 
it was dramatic.
    And correct me again if I am wrong. But I do not remember 
his name, I would love to know his name, number one. And we are 
going to have hearings week after next on climate change. But 
if you could tell us, the Chairman in particular, the 
scientist's name? And then correct me if I am wrong. He says 
that if you give him a tanker of iron ore he will give you an 
Ice Age. You know, and he is very serious about it. I mean, you 
really have to be careful with this stuff. So carbon 
sequestration is a terrific idea. We are trying to get, you 
know, the Chinese? They could care less. They are building vast 
numbers of coal, they have doubled, the Chinese have doubled 
the amount of carbon dioxide they are pumping into the 
atmosphere in ten years. And if you look at a satellite image, 
Mr. Chairman, of the, taken over the Pacific Ocean, look at the 
pollution bloom? It is appalling. I have had friends that went 
to China that are runners? They cannot even run in any of the 
cities in China. The pollution is so bad you cannot see across 
the street.
    So the Chinese are pouring out carbon dioxide. We are not 
going to get them to do it. The Indians are pouring out carbon 
dioxide. You know, we really need to be careful before we 
handcuff America. But in the meantime, when we are debating 
that, could you please tell the Chairman about the work that 
Woods Hole has done on fertilizing the ocean using, and again, 
nanoparticles of iron oxide, you do not have the acid problem.
    Ms. Avery. Yes.
    Mr. Culberson. The plankton can take it up more quickly. 
There is no acidity. I have already had Rice University 
graduate students helping me look at this.
    Ms. Avery. Yes.
    Mr. Culberson. And I would very much, Mr. Chairman, if I 
could I will throw out an open ended question and then close. I 
like, if I could, Dr. Avery to help work with us during the 
carbon, the week that we have some hearings on climate change. 
Come talk to us about carbon sequestration, in particular 
fertilizing the ocean. That is a natural for NOAA to do and 
Woods Hole is the world's expert on it. Talk to us about 
fertilizing the ocean and what effect that can have as a carbon 
sink and helping us reverse the carbon in the atmosphere, and 
how careful we have to be because we could trigger an Ice Age.
    Ms. Avery. Okay. I think, first of all, Woods Hole's effort 
in all of this, of course, is to understand the underlying 
basic premises or processes associated with the idea of iron 
fertilization as a means for carbon sequestration. And there is 
still a lot of work to be done. Research currently is focused 
on whether iron stimulates a bloom. And as Mr. Culberson said, 
it does.
    Mr. Culberson. My description was accurate.
    Ms. Avery. Yes. It stimulates a bloom. There is no question 
it stimulates a bloom. Where there has, where the research has 
not taken us yet, and where we do not know, is whether the 
carbon is ultimately buried and for how long it remains buried 
before it might come up again. And that is sort of the next 
stage of research that needs to be done. The other thing that 
needs to be done is taking some of these what we would call 
small scale pilot examples.
    Mr. Culberson. Like the fertilizing the ocean off of Peru.
    Ms. Avery. Like off of Peru. What happens when you expand 
it to larger scales? Industrial level scales? That particular 
question has not been answered. WHOI did do, sponsored a 
workshop.
    Mr. Culberson. Who?
    Ms. Avery. WHOI, the Woods Hole Oceanographic Institution. 
I am sorry. I speak in acronyms and I should not.
    Mr. Culberson. Thank you.
    Ms. Avery. We call it WHOI.
    Mr. Culberson. Thank you.
    Ms. Avery. We did do a workshop about a year and a half 
ago, or a couple of years ago, bringing a number of experts 
together to just focus on the iron fertilization issue to try 
to get it all out on the stage. What has worked? What do we 
know? What do we not know? What needs to be done? And there is 
a report on that workshop that we published in our Oceanus. So 
I will be happy to get that to the Committee because I think it 
is a very nice, done in public understanding language that 
would be helpful. And then I would be happy to give you a list 
of some of our scientists who might be able to come and really 
talk to you in more detail.
    Mr. Culberson. Week after next?
    Ms. Avery. Yes.
    Mr. Culberson. Week after next, and this finally, ten 
seconds, just this could be an area I think, Mr. Chairman, if 
we could look at giving some money, designating money within 
NOAA to help do this research as a really important way of 
getting carbon dioxide out of the atmosphere very rapidly. And 
I think the plankton, they all, it turns to limestone.
    Ms. Avery. Yeah.
    Mr. Culberson. It is buried forever.
    Ms. Avery. The question is how it gets buried. Yeah. I do 
not know if it is going to stay there forever. We do not know 
yet.
    Mr. Culberson. Thank you, Mr. Chairman, for your 
indulgence.
    Mr. Mollohan. Thank you, Mr. Culberson. Welcome, Mr. 
Ruppersberger.
    Mr. Ruppersberger. Sorry. We have other hearings also, so 
you try to jump from one to the other. How is your friend WHOI 
doing, by the way?
    Ms. Avery. My friend WHOI is doing well.

                        RESEARCH AND NOAA BUDGET

    Mr. Ruppersberger. Okay, that is good. The one, and only 
just one question, and if it has been addressed then just let 
me know. In your prepared statement you describe the inequity 
between the dollars allocated for research and the rest of 
NOAA's budget. And that has been a trend for a while, and it is 
unfortunate but hopefully we will be able to turn that around. 
In your opinion, do you think NOAA is capable of adequately 
addressing some of the most pressing issues, I think, of what 
we deal with in this country, if not the world. Which includes 
the impact of climate change on sea levels, drinking water 
supplies, and our environmental concerns that can impact the 
entire world. If you could address those three, and if you 
feel, again, the question, do you feel that NOAA is capable, if 
more money, money does not always solve a problem.
    Ms. Avery. That is right.
    Mr. Ruppersberger. And you have to have your priorities, 
you have to have your staff in place. And so if you can get 
into a little bit of detail on those three?
    Ms. Avery. Yes. The answer to your question is yes. But 
NOAA cannot do it all internally. NOAA has to basically make 
sure that, in tackling these problems, it puts together the 
expertise base from the entire country, if you will, to 
actually tackle some of these problems.
    Mr. Ruppersberger. That is pretty broad. What do you mean 
by that?
    Ms. Avery. Well, what I mean by it is, you know, NOAA has 
its, I talked a little bit about this, it has its own in house 
research scientists group. But it also partners with 
universities in getting additional expertise and collaboration 
on some of these.
    Mr. Ruppersberger. And that is a very good point.
    Ms. Avery. And that is a very important strategy. And so 
NOAA's research, if you will, is almost leveraged in many ways 
by seeking these partnerships throughout the country that allow 
them to leverage those facilities, those minds, that expertise, 
that student base, etcetera, to tackle these problems. But yes. 
NOAA can play a tremendous role in the adaptation agenda. The 
climate impacts and adaptation, your issue of sea level rise. 
An important sort of modeling effort, observational effort, 
that is needed. A process understanding with the thermal 
expansion of the ocean, getting that pinned down a little bit 
more. Its work with stakeholders on some of these issues is 
going to be critical in investing more effort into some of the 
regionally integrated science assessment and similar programs 
that they already have there would be useful.
    Mr. Ruppersberger. You talked about academia, which I think 
is extremely important. Those partnerships. And you can do a 
lot of the research that is needed in those arenas. And a lot 
of the people in the colleges are going to be our future people 
working in this area.
    Ms. Avery. That is right.
    Mr. Ruppersberger. How about in the business community?
    Ms. Avery. Yeah. I think, you know, NOAA has been, actually 
NOAA has developed a real nice partnership, or it has evolved. 
And there is always a little bit of tension. But it is really 
working very well now with the private sector. And they have 
done a lot of work with the value added that is associated with 
the private sector. You know, when we talk about a national 
climate service and how it can reach any number of sectors of 
decision makers, there is probably a very key role for the 
private sector in producing what we would call value added 
information and working with that, with that service with the 
research community to develop that. You are going to need to 
have some discussions on, and policy discussions, on what is 
sort of a public service and what belongs in the private 
sector.
    Mr. Ruppersberger. When you are an appropriator, or you are 
an administrator, or whatever, there is not enough money for 
everything. So, you know, you have got to look at requests, you 
have got to prioritize and then decide where you go. And 
sometimes you cannot do it all. But if you were to, if you were 
appropriator and you were focusing on NOAA, where would you 
prioritize the money to go?
    Ms. Avery. Oh, man.
    Mr. Ruppersberger. Knowing that, well, you are the expert 
and knowing that they, knowing that you need staff, you need 
the infrastructure and the resources probably that exist 
already so that we can make sure what we do do we do it the 
right way. And after that I am finished.
    Mr. Mollohan. Well, there is always Woods Hole.
    Ms. Avery. Yeah, really. I can think of triple the budget. 
Are you, that is a big question. Do you, can I narrow it?
    Mr. Ruppersberger. Can your friend WHOI handle that?
    Ms. Avery. WHOI could handle that, yeah. Or some of it. We 
would probably reach out to others, though. Are we talking 
about in the research house specifically? Or do you want me to 
get----

                              WATER SUPPLY

    Mr. Ruppersberger. Why do you not talk about the issues of 
sea level, drinking water supplies, and the environmental 
impact on other countries in this hemisphere, in South America 
and Canada, and where does the wind go. You know, I happen to 
be from Baltimore but I understand all of our bad air comes 
from Ohio.
    Ms. Avery. Well, certainly sea level rise is a critical 
research area and there is a critical need to get the 
observations that will help us understand better the processes 
associated with sea level rise. As we all know, the accelerated 
ice melt in the arctic is a key sort of climate issue that 
impacts us all. The research area associated with sea level 
rise and why, we are perhaps, not capturing that adequately in 
models yet, is probably associated with the dynamics of the 
thermal expansion of the oceans. And we do not have enough 
observations to actually help us with that. So that is a key 
question that gets to can I do sea level rise, and how are my 
coasts going to respond to sea level rise?
    The drinking water, key, and the National Integrated 
Drought Information Service was one step but the whole issue of 
looking at water resource availability and being able to work 
with models that help decision makers, help cities, help 
agriculture people decide how you are going to manage water in 
the, fresh water in the future is, again, a key thing that NOAA 
could be doing. And environmental quality in general is going 
to be key.
    Mr. Ruppersberger. Okay, thank you.

                                  NIST

    Mr. Mollohan. I want to revisit just a little bit the line 
of questioning that I was pursuing with you and Dr. Serum 
before the vote. Staff handed me the quote from Dr. Marburger 
last year and let me just read it. ``NIST is a focused, well 
managed agency that ought to be about four times bigger than it 
is, in my humble opinion. And although it is a small agency 
that is why it features in the President's American Competitive 
Initiative. And that priority has been embraced in the America 
Competes Act and by others. So I would start with NIST.'' And 
the question was, where would you spend additional money for 
science research if you had additional money? So that was quite 
a ringing endorsement for NIST.
    Mr. Serum. Yes.
    Mr. Mollohan. And you were sounding just like Dr. Marburger 
did when you were answering my question. I do not know whether 
you had finished and I think I interrupted you in the middle of 
your answer. So, I wanted to give you an opportunity to 
elaborate on that. If we are going to increase spending for 
research in the area of science, as this administration has 
signaled it wants to, then we would like to hear every case 
made for different research opportunities.
    Mr. Serum. Yes. So, just continuing, I think that, you 
know, I started out by saying I think that the budget could be 
doubled immediately and they would know how to deal with it. 
There are a couple of things that are important there. NIST is 
an unbelievably conservative organization. It goes through the 
management of their funds as well as their self-aggrandizement 
in the publicity, and so forth. And I used to complain about 
that. But the fact is that their response was, if you cannot 
measure it then you had better not brag about it. And if they 
cannot exactly measure the contribution, which I felt was 
enormous in many industry segments, then we should not speak 
about it. So they are very careful. And in that carefulness and 
that conservative approach, they manage, I have observed them 
in my ten years managing on the up side of money and on the 
down side of money very effectively. And when, I think the last 
two years they were on a continuation budget most of the time. 
And I watched them reprioritize to make sure that the most 
critical programs were moving ahead as planned and as 
committed.
    Their ability to respond quickly, I can think of two 
things. One is the World Trade Center bombing in which NIST 
immediately dedicated resources to not only understanding the 
cause of the collapse, and on our review board we went through 
that in gory detail, in which they recommended whole, entire 
new tower structure construction regulations or guidelines in 
order to accomplish that. That was not on their vision plan. 
The American Voting Act, or whatever the official name was, how 
do you, every American has the right to vote, you want to make 
sure that all the votes count correctly and just once. And that 
is a question of accuracy of voting machines. They jumped into 
that and immediately made recommendations for it. Those are 
not, that latter one is not large. But it is an example of how 
they can jump into something quickly and know how to deal with 
it and how to deliver a result.
    As far as my priorities, when I look at energy, when I came 
into the Chairmanship I was thinking about where I would put my 
dollars if it were up to me. And in my, sort of my inaugural 
address on my first, in our first meeting, I spoke about the 
importance of energy independence and the many, many areas of 
contribution that NIST can make in that regard. And therefore, 
I would make energy, and again I say it goes to the measurement 
of energy. It goes to developing new sources. They have ideas 
on much more efficient solar panels. They have very good ideas 
on more efficient fuel cells, for hydrogen fuel cells. They 
have, they have been working in research on battery optimizing, 
or improving the performance of batteries so that the GM 
product when it comes out can get more then forty miles on a 
single charge. Those are critical to our energy independence. 
And I believe is very important for NIST to take on. And they 
recognize that. And they listed that in their three-year plan 
as one of the most important.
    And again, I have not seen the number in the last year. But 
the amount we spend on healthcare is probably something like 
$1.4 trillion or $1.5 trillion now. It just, I can hardly even 
begin to speak to the impact that some of these diagnostic 
measures can make. At this international conference, bioimaging 
was determined to be one of the most critical contributions 
that one can make. NIST is doing several initiatives in 
bioimaging. The problem is one of sensitivity and specificity 
in order to do a diagnostic at the very, very early stage. And 
so NIST has the, if it were funded appropriately, NIST could 
probably make some significant contributions in bioimaging and 
that is one of the very important areas.
    And I have already spoken about the field I have gotten 
into in the last fifteen years is really biotechnology, and 
understanding the role of both DNA, RNA and proteins in the 
cause of disease. NIST is working on structure function 
relationships and proteins for understanding that kind of 
disease. Each one of these has absolutely a stochastic impact 
on human health, quality of life, and so forth.
    Mr. Mollohan. Let me ask you to focus that just a little 
bit. If NIST were to receive additional funding, which you 
already have and if the President's signaling is an indication 
we can expect additional requests for funding, prioritize, say, 
through the top three or four what you think would be 
appropriate. Two, three, or four areas that you feel that that 
money ought to, where that money ought to go.
    Mr. Serum. Well, as I mentioned, and let me just----
    Mr. Mollohan. You mentioned a lot of different exciting 
areas.
    Mr. Serum. I would, let me say one other thing in a moment, 
is when one lists climate change, and energy, and 
infrastructure, and manufacturing technologies, and so forth, 
it is certainly true that NIST cannot do all of those with a 
high degree of quality. So I think that one of the challenges 
that I listed in our annual report that you will be getting 
almost momentarily, I made the recommendation that they had to 
prioritize those according to, one, their core competencies, 
two, according to their ability to make a significant 
contribution as measured by the impact on competitiveness or 
the economy.
    Personally, I believe that energy is at the top of that 
list. And I would probably say, I would rate healthcare next. 
Now, they have a huge impact to make on infrastructure as well. 
I pooh-poohed their work in cement standardization when I first 
got involved. Well, if you look now at what is wrong with our 
infrastructure it is that things like cement are falling apart. 
And NIST has some initiatives underway that look at new 
standards to assure that cement bridges that are constructed 
now will last to a much greater time into the future.
    NIST has underway initiatives that they want to expand on 
with regard to catastrophic weather damage. How do you 
construct a building on the Gulf Coast so that it is actually 
resistant to hurricane?
    Mr. Mollohan. Well, I am looking for the priority. But you 
are suggesting that, your prioritization. But you are 
suggesting that this report that will do that is imminent?
    Mr. Serum. What we did, they listed about six areas. And 
our statement, my statement was that they should go back and 
reassess that. They stated that in their three-year report and 
they did not prioritize those six. My statement was they 
cannot, they do not have the same core competencies in all six. 
The impact of the outcomes is not the same in all cases. And 
therefore, I asked them to go back and reevaluate those on the 
basis of those parameters.

                         INVESTMENT IN SCIENCE

    Mr. Mollohan. In your judgment, should we be investing more 
in broader science and technology programs, STRS, and less in 
MEP and TIP? I ask with foreboding.
    Mr. Serum. I have a bias there. And my answer to that 
question would be yes. If it were up to me I would put 
dramatically more money into the laboratory research. Now, that 
is not to say that I do not support TIP and MEP. They serve a 
different purpose. As consider MEP. As one looks at U.S. 
competitiveness, and I cannot remember the exact number but 
something like 80 percent of our businesses are small 
businesses, or 80 percent of the employees are small 
businesses. And the sole purpose of MEP, Manufacturing 
Extension Partnership, is to transfer technology, know-how, et 
cetera, to make them more productive, produce products at a 
lower cost, and so forth. That is a, that is a well run, 
historic organization that in my opinion is doing very well. I 
would not personally add a lot of money to it. But I for sure 
would not eliminate it given our national goals.
    The TIP program, the Technology Innovation Partnership, is 
new.
    Mr. Mollohan. Well, it was called the----
    Mr. Serum. But it has changed.
    Mr. Mollohan [continuing]. ATP program, I believe.
    Mr. Serum. Yes, it was ATP. But very much different and 
focused virtually 100 percent on innovation now.
    Mr. Mollohan. Is now.
    Mr. Serum. Is now, yes. And I believe that is a very good 
foundation to continue to support. But I would, and you know, I 
think it is, it could probably grow some in its budget in order 
to advance some of the fundamental high risk, high reward type 
technologies. But that said, that is not where, if I were 
Marburger I would not put, I would put the vast majority into 
STRS laboratories.
    Mr. Mollohan. He is just recommending, too.
    Mr. Serum. Yes. So, you know, there are not very many 
places, in fact, I am sure there are no other organizations in 
the world that can boast three Nobel Prize winners in their 
organization.
    Mr. Mollohan. Yes, that was very impressive. Dr. Avery, 
thank you. Thank you, doctor, sir. Although NOAA's primary 
responsibilities are operational, do a lot of research, we have 
talked about that a little. There was a line of questioning 
about inside research and contract research. I just want you to 
elaborate a little bit. From your perspective as a member of 
the science community, the research community, outside NOAA, is 
the balance between in agency research and outside research in 
your judgment a good balance, a correct balance? Does it need 
to shift one way or the other? And if you would, elaborate on 
why.
    Ms. Avery. Sure. Yes, this has been sort of an ongoing 
discussion about the appropriate balance between internal and 
external research, or in house and outside research. You know, 
currently I think the balance is about 70 percent in house, 30 
percent outside. There has always been a goal over many 
administrations and under many NOAA Under Secretaries is that 
it be a goal of 50 percent, 50 percent.
    You know, when you look at what is in house expertise and 
external expertise what you are really doing is looking at the 
unique complementary attributes of those two communities. So if 
you look at the NOAA laboratories very much like the NIST 
laboratories, there is stability in the research agenda. There 
are long term missions that they satisfy. They have base 
funding. If you look at the external community and that 
external research portfolio you are looking at research that 
might be more agile, more closely linked to external 
international partners worldwide. You might be looking at 
leveraging funding from other agencies or assets that would, 
might be easier to do externally than in house. You might be 
looking for training for the next work force, or the ability to 
engage user communities.
    So, what is the right balance? I do not know if you could 
basically set a specific number. What might be beneficial is 
for the agency to really sit down and have a discussion or to 
develop some sort of coherent policy or guidelines themselves 
on what they think is stuff that should be done internally and 
what should be done externally. Other mission agencies have had 
this discussion.
    Mr. Mollohan. NOAA has not?
    Ms. Avery. I do not think NOAA has specifically articulated 
that, at least to enough knowledge that it gets communicated 
widely. And that might be a good starting point to actually 
then determine what is the right balance.
    Ideally, eventually, the balance is going to be determined 
and should be tailored to the particular problem that you are 
going to look at with the particular expertise that you need.
    Mr. Mollohan. Yes. To what extent does the expertise need 
to be in house, for example.
    Ms. Avery. Right.
    Mr. Mollohan. To what extent do you need to have in house 
expertise to even monitor the contract research?
    Ms. Avery. Right.
    Mr. Mollohan. Where does 50-50 come from? That sounds a bit 
arbitrary.
    Ms. Avery. I know it has been, for the last couple of 
administrations the number has always been, ``Well, the new 
resources should be 50 percent external, 50 percent internal.'' 
I think it was trying to get a balance between the agility, if 
you will, to focus on a particular problem and bring in that 
expertise without bringing that, all the expertise that you 
need all the time in house, which could get quite costly. I 
mean, if you, if you look at the breadth of NOAA's mission and 
the science that needs to underpin that mission, and if you 
wanted all of the research to be done in house, you would be 
having a huge federal workforce, scientific workforce.
    Mr. Mollohan. That does not bother some of us.
    Ms. Avery. Well, yes.
    Mr. Mollohan. But others.
    Ms. Avery. The real question is, is when you make that 
commitment, have you basically then lost some agility that you 
might get that an external community provides.
    Mr. Mollohan. Well, Woods Hole is a contract out operation, 
is it not?
    Ms. Avery. It is a soft money organization.
    Mr. Mollohan. But you really think of it as a NOAA 
operation.
    Ms. Avery. Really?
    Mr. Mollohan. That may be very inaccurate, or it may be 
because I am not really familiar with it.

                               WOODS HOLE

    Ms. Avery. Now Woods Hole's history, initially, you know, 
seventy-five, eighty years ago, was based in Navy, and the Navy 
when the Navy really had the major oceanic research component. 
But then the Navy backed out of ocean research greatly, and 
particularly the deep ocean, greatly. At same time that the 
National Science Foundation then began to ramp up its budget 
for ocean science research.
    Mr. Mollohan. Mm-hmm.
    Ms. Avery. So WHOI--sorry, Woods Hole Oceanographic----
    Mr. Mollohan. No, we got it now.
    Ms. Avery. Got it? They are fast learners. WHOI's research 
portfolio, funding portfolio now, is predominantly, the largest 
source of research grants comes from the National Science 
Foundation. And then secondly, Navy and NOAA in about equal 
partnerships.
    Mr. Mollohan. Ah. So that is very appropriate to be an 
outside research organization. It works really well.
    Ms. Avery. It really does.
    Mr. Mollohan. You are able to work with other agencies. So 
maybe that is one of the tests, how many different research 
directions you serve.
    Ms. Avery. What that does is, it leverages the resources of 
all of those and the types of research that one does in a 
comprehensive way.
    Mr. Mollohan. It sounds like there is not, but in making 
these decisions, is there a criteria list that people look at? 
Or is it sort of intuitive as you are sitting around the table? 
Or do you know? You may not know.
    Ms. Avery. I do not know.
    Mr. Mollohan. O.K.
    Ms. Avery. I really do not know. I am not at that level of 
the organization.

                              NOAA FUNDING

    Mr. Mollohan. All right. If there is an increase in funding 
for NOAA, what should be the balance between operational needs, 
including critical satellite observations to address climate 
change, and increased support for research?
    Ms. Avery. Well, again, I will be biased just as----
    Mr. Mollohan. That is okay.
    Ms. Avery. In the fact that, you know, the research 
program, as has been noted, has been flat or decreasing for so 
many years. And there are so many issues that require that 
research underpinning that it is really needed. On the other 
hand, I am very sensitive to the need that the research 
enterprise needs observational data. It needs observational 
data both from an in situ observing platform as well as from a 
satellite observing platform. I also realize that part of 
NOAA's budget constraints over the last year, few years, has 
been sort of the cost overruns associated with their satellite 
programs. And getting those under control is obviously key. 
And----
    Mr. Mollohan. A couple of tough programs, hopefully lessons 
learned.
    Ms. Avery. That is right, lessons learned to go forward in 
the future. I would hate to say that the research program would 
continue to be not supported because we have the satellite 
program still to resolve. I would love to just get the 
satellite problem off the table and get refocused on NOAA's 
missions that need that science underpinning so badly.
    Mr. Mollohan. Just for the record, to give you an 
opportunity to say it, to talk about it, what would be the 
consequences, assuming levels of research funding at NOAA just 
simply remain the same, not decrease.
    Ms. Avery. Well, you are putting at risk several, sort of 
things. Like I said before, a lot of the observational work 
that is the underpinnings of the research component is actually 
being funded by the research program itself. And so if the, 
research program remains flat, or declines, you are putting at 
risk, if you will, not only the research but some of the 
observations to support that research. And ultimately, the 
innovation and creativity that is going to go into addressing 
questions of better weather forecasts, better hurricane 
prediction, climate adaptation, climate impacts, and ecosystem 
based management. So you are really, you know, you can only do, 
you can only stay the course so much and not having that 
research continually feeding, updating, upgrading, looking at 
new approaches, thinking outside the box when things are not 
working in a complex environmental framework. And that is 
basically what you are putting at risk.
    Mr. Mollohan. You all have been tremendous here today, 
first of all appearing and then secondly giving this good 
testimony. We had a few minutes off the hearing because of the 
votes, and so, we are going a little over. Perhaps we can keep 
it to one more round of questioning and give Mr. Culberson an 
opportunity. Then we will ask some fast questions and try to 
wrap it up. Mr. Culberson?
    Mr. Culberson. Thank you, Mr. Chairman. I will be very, 
very brief, just to say that I am struck here again today with 
the expert advice of this panel which you have put together 
telling us that the best investment, it seems to me, from your 
testimony, the best investment of our dollars is always going 
to be in the pure scientific research, in the competitive peer 
reviewed scientific research, and just let the facts lead where 
they may. It is a tremendous, I think, place to invest our 
money.
    I would actually just ask Dr. Avery, if I could, 
specifically, would you recommend then that this Committee, I 
see it was the conclusion, I do have an article here from the 
January 11 issue of the Journal of Science summarizing the, I 
guess you, a workshop that you call it? The work that you did 
at Woods Hole to talk about iron fertilization of the ocean?
    Ms. Avery. Yes.
    Mr. Culberson. That your conclusion essentially was that we 
need more research, clearly.
    Ms. Avery. Yes.
    Mr. Culberson. And we will find out what the effects are 
and how best to do it. Then, would you then recommend to the 
Committee that we ask, specifically task NOAA with conducting 
the research that has to be done? Because NOAA is the best 
place for it to be done.
    Ms. Avery. That is probably a good starting point, yes.
    Mr. Culberson. You would make that recommendation to the 
Committee?

                          CARBON SEQUESTRATION

    Ms. Avery. Yes. If, certainly if you are looking at carbon 
sequestration as part of the portfolio----
    Mr. Culberson. Right.
    Ms. Avery [continuing]. Of what we do with our energy 
environment. You know, our energy portfolio----
    Mr. Culberson. Right.
    Ms. Avery [continuing]. As we go forward for an energy 
portfolio, it is renewables, there still could probably be, you 
know, offshore drilling at some level. There is going to 
certainly be the issue of carbon sequestration. When I talk to 
oil companies they are counting on carbon sequestration as one 
of their solutions. How that carbon sequestration is going to 
be done, whether it is in the ocean or on land-based systems 
probably needs----
    Mr. Culberson. That really, forgive me, that actually was 
the question I intended to ask, Mr. Chairman. Is when, would 
the Committee, I was asking, give specific guidance to NOAA to 
look at carbon sequestration.
    Ms. Avery. Sequestration, yes.
    Mr. Culberson. Department of Energy is probably going to 
have to also do the same thing.
    Ms. Avery. That is right.
    Mr. Culberson. But looking at carbon sequestration, the 
specific part of that has got to be how do you encourage it in 
the oceans, which is 90 percent of the----
    Ms. Avery. Right.
    Mr. Culberson [continuing]. Carbon sink on earth? Is this 
a, let me make sure I understood from your testimony, Dr. 
Serum. What are the core competency areas that you think NIST 
should focus on? We do not want you doing, NIST doing too much, 
too many things and not doing them well. I just want to make 
sure for absolute clarity. And my concluding question, if you 
could tell us the core areas that you think NIST should focus 
on? In its pure basic research. Work in establishing standards, 
for example, for concrete, which is a good example.
    Mr. Serum. Yes. I, first of all let me say that NIST views 
their core competency as accurate measurement in many areas. 
And indeed, I want to emphasize that very strongly. You can go 
into a new field, as long as you are dedicated to making 
accurate measurements and understanding the technology, or 
developing the technology that allows those measurements to be 
made accurately. Then you are making a major contribution. 
Whether it be in climate change measurements, which suffer 
greatly from accurate measurements. Whether it be in energy, 
related to new technologies or in things like the grid. So I 
would say the foundation is accurate measurements.
    Now, the interesting thing is that I would say NIST has a 
good competency in healthcare. I would not say they have an 
outstanding competency in energy. But they know how to get that 
competency. And I think it is important for them to get that 
competency.
    They have phenomenal, an area that I did not even speak of, 
it is almost more like a fundamental science, but the world, 
the next thing that is going to explode, also very small, is 
quantum physics. And I could speak to the benefits that quantum 
physics is going to have. But you are talking about the IBM 
computer. Quantum computing has the opportunity to do massive 
computing in a very short time, that even the biggest computers 
cannot do now over many years. That kind of work, it is really 
important to continue. That is where the Nobel Prizes are, by 
the way, in understanding all of that. And I have to rate that 
as a fundamental science that is vitally important to 
everything that goes on. I do not classify that as energy or 
something like that, yet it----
    Mr. Culberson. That is within NIST's core competency?
    Mr. Serum. It is a very big competency of NIST. As now I 
would say nanotechnology two years ago was not a competency. I 
now believe it is a competency, and there is no lack of ideas 
as to how to move forward. But those, you know, it is a little 
difficult. You classify energy. I have spoken hardly at all 
about information technology. I would say that is a core 
competency from a technology perspective. Phenomenal talent and 
ideas in complex systems, cyber security, a variety of areas, 
that will make a contribution in these applications areas, such 
as energy and such as healthcare. The medical record that is a 
priority now. NIST will play a very major role in 
standardization of that information so it can move across. 
Very, very important.
    Mr. Culberson. Thank you.
    Ms. Avery. If I could go back to your question about the 
iron fertilization and carbon sequestration in general, I think 
NOAA is appropriate but I am not so sure that NOAA should not 
be also working with DOE on this. And getting, whereas NOAA has 
the expertise, DOE probably should be aware of ocean 
opportunities, and the opportunities the ocean has to solving 
the energy piece.
    Mr. Culberson. Bundled perhaps with power plant 
sequestration.
    Ms. Avery. Yes.
    Mr. Culberson. Thank you very much, Mr. Chairman. Thank 
you.

                      NASA EARTH SCIENCE AND NOAA

    Mr. Mollohan. Okay. Thank you, Mr. Culberson. Dr. Avery, 
should ties between NASA Earth science and NOAA be 
strengthened? Or changed?
    Ms. Avery. It should be strengthened. I think that there 
has been certainly good dialogue in the past between NASA and 
NOAA at the working level. It is critical because, as I said 
before, a lot of research missions that are initiated within 
the NASA framework will, may ultimately end up in an 
operational context.
    Mr. Mollohan. How could it be strengthened?
    Ms. Avery. Well----
    Mr. Mollohan. And in what ways should it be strengthened?
    Ms. Avery. Yeah. I think what you can do is in part look at 
the decadal survey that was done, now how many, two years ago? 
Thank you. The recommendations there really call for the Earth, 
space-earth observation capability for the future, and 
regaining, if you will, the U.S. capability in that. The 
observing capability from space has degraded over the last 
decade. And they have specific recommendations on how that 
relationship can be strengthened, what kinds of things NOAA 
should be doing in this next stage, what kinds of things NASA 
should be doing, and how they might be partnering together to 
move things from research to operations.
    Mr. Mollohan. Where the hand off is, or where it is not.
    Ms. Avery. Right.
    Mr. Mollohan. And what the roles and the boundaries are.
    Ms. Avery. You know, part of the issue is that sometimes 
the research needs, sometimes you need to have missions to 
actually put it in a research framework to understand what is 
really needed for an operational framework, if I am making 
sense. So in other words, you do not necessarily know ahead of 
time what the exact operational framework should be. What kind 
of observations, where they should be, how frequently should 
they be measured, what is the distribution? And so often, NASA 
will start with looking at primarily a research mission that is 
focused on a particular research question that then helps 
inform, if you will, an operational strategy. If you know in 
advance that there might be a really great operational hand off 
here, it is probably not a bad idea to sit the research and 
operational agencies together to kind of at least acknowledge 
that there is that potential. Because very often you get in 
this, in this bind where a research satellite goes up and then 
all of a sudden the data becomes very, very useful to an 
operational entity. TRIM, the TRIM mission, which is a rainfall 
mission, was one of those. Yet, because NASA had deemed it as a 
research mission with a specific, specified timeline, or time 
life, lifetime, yet the operational entities were using it. 
Then there was an operational sort of push back, if you will, 
for a limited, you know, stopping this particular----
    Mr. Mollohan. Those responsibilities and those roles are 
not decided ahead of time.
    Ms. Avery. Not necessarily, because you may not know, 
necessarily, that it is going to have an operational value. It 
may just be that it is focused on a research endeavor. Because 
NASA is a fundamental research----
    Mr. Mollohan. I see.
    Ms. Avery. Yeah. So I think getting better at having that 
dialogue ahead of time when you are looking at a, particularly 
in earth observations from space, if you can have that dialogue 
that has the research community and the potential operational 
use. Have that dialogue up front so that you are at least 
cognizant of that.
    Mr. Mollohan. Yes.
    Ms. Avery. Then there might be a better, smoother 
transition.
    Mr. Mollohan. Have the agencies come to that?
    Ms. Avery. I think there is acknowledgment of that 
internally. I am not sure if it gets transmitted at the highest 
levels and in the budget process to actually have that happen.
    Mr. Mollohan. Down to the----
    Ms. Avery. You need dedicated people who are doing this 
full time, probably.
    Mr. Mollohan. So where is the issue? At the program level?
    Ms. Avery. I do not know.

                NOAA AND DEPARTMENT OF DEFENSE RESEARCH

    Mr. Mollohan. Same question with regard to NOAA and 
Department of Defense research and environmental operations. 
Should it be strengthened? Changed?
    Ms. Avery. Yes, it should be strengthened. And again, the 
greatest intersection that I see there probably is between, is 
in the ocean area. The, and one example that would illustrate 
the NOAA-Department of Defense, primarily probably Navy, would 
be even what is happening up in the Arctic. If we are looking 
at, in the next decade, relatively ice free zones for a 
significant period of time, what does that mean in terms of 
resource availability, security issues, any number of things. 
And this is where NOAA and Navy could really have a good 
discussion and good partnership.
    Mr. Mollohan. Following up on Mr. Culberson's and your 
discussion, and maybe Dr. Serum's, about energy, and the notion 
of spreading, I suppose, powdered iron on the ocean as a 
CO<INF>2</INF> sink strategy, I guess. Is there a dialogue, a 
relationship with Department of Energy and the National Energy 
and Technology Laboratory, NETL, regarding that notion?
    Ms. Avery. If it is it is not a very active one. If you 
look at DOE's portfolio over the years, prior, you know, prior, 
well I am trying to think. There used to be in the DOE 
framework a look at the oceans and their energy potential. That 
sort of research portfolio, I am trying to think, probably was 
cut away and eliminated, or down scaled, probably during, I 
want to say the Reagan era. Eighties, eighties. And, you know, 
I actually was looking the other day at the DOE laboratories 
trying to figure out if any of the laboratories are putting any 
significant amount of work into the ocean and its role in the 
energy arena. And there is not a lot going on. And it is 
probably something that should be----
    Mr. Mollohan. There is not a lot going on in terms of 
collaboration?
    Ms. Avery. In terms of just research at all.
    Mr. Mollohan. Oh.

                            DOE LABORATORIES

    Ms. Avery. In the DOE labs.
    Mr. Mollohan. With regard to the potential.
    Ms. Avery. Ocean, the ocean and its role in the energy 
portfolio. I think it is something that would be very useful to 
have a discussion with DOE.
    Mr. Mollohan. Is that something Woods Hole specifically is 
interested in, or has a jurisdiction regarding?
    Ms. Avery. We do. We are very interested in it. We are very 
interested because we see the dialogue in ocean, you can see, 
you can talk about ocean in terms of energy derived from oceans 
in terms of tides. You can talk about it in terms of waves. You 
can talk about it in terms of currents. You can talk about it 
in terms of thermal extraction. You can talk about it in terms 
of carbon sequestration of the ocean. You can talk about it in 
terms of sighting of wind farms offshore. You can talk about 
it, also the energy portfolio, in terms of offshore drilling. 
How is the best way to do it, minimizing environmental impacts? 
A lot of things like that.
    Mr. Mollohan. I would think you would have a real 
collaboration. Everything we talk about in this hearing is 
about money. This is certainly about big money. Futuregen.
    Ms. Avery. Yes.
    Mr. Mollohan. I do not know whether it is a carbon sink but 
it is definitely a money sink. And there are huge amounts of 
money going there just, let us try this for half a billion 
dollars. Well, that did not work. Let us try this for half a 
billion. It seemed to me that consultations with regard to all 
of these ideas up front would be very beneficial, particularly 
what I have heard today about the potential of the ocean. I 
cannot speak for them, but I do not believe NETL is looking 
much at that. And if you are not talking with them, I do not 
know how they would look at it without talking to you. And 
also, the biological, the enzyme approaches to this issue and 
the little bugs they have described approach to this issue. I 
would think that you all naturally would be involved, or want 
to be involved, in that. I really commend that to you, and I am 
actually going to speak with them and hear them talk about that 
potential.
    This is a huge issue. And just pumping CO<INF>2</INF> into 
the ground somehow, and such massive amounts of it, too. I 
mean, you have to have places to do it even if it is a good 
idea. But we are going to spend----
    Mr. Culberson. Oceans. Oceans are sinking it.
    Mr. Mollohan. Yes, if there is a biological process that 
happens that is environmentally neutral or positive, I think 
that that would certainly have to be considered, the viability 
of it considered. And the cost benefit of it. You know, before 
we move forward. We are hey diddle, diddle right up the middle 
with carbon sequestration. I think that stepping back and 
thinking about it a little better in a multidisciplinary, multi 
agency way, I mean, that is something we should see how we 
could promote. And you may have some advice in regard to.
    Ms. Avery. Yes.
    Mr. Mollohan. So. Well on that note, energy, which is 
almost where we started I think, if Mr. Culberson does not have 
any more questions?
    Mr. Culberson. Just thank you.
    Mr. Mollohan. Okay. And we may have some questions to 
submit to you. And you are not an agency, you do not have to 
answer them, but you might be kind enough to be responsive to 
them. I have a couple questions here that I might like for you 
to respond to. We very much appreciate your time and your 
expertise. You were very kind to come down here, or over here, 
or in here. Wherever you came from. Down here, Woods Hole, I am 
thinking north----
    Ms. Avery. North, yes.
    Mr. Mollohan. Thank you for your testimony. Today has been 
extremely helpful.
    Mr. Serum. Thank you.
    Ms. Avery. Thank you.
    Mr. Mollohan. Thank you.
    [GRAPHIC] [TIFF OMITTED] T1219A.037
    
    [GRAPHIC] [TIFF OMITTED] T1219A.038
    
    [GRAPHIC] [TIFF OMITTED] T1219A.039
    
    [GRAPHIC] [TIFF OMITTED] T1219A.040
    
    [GRAPHIC] [TIFF OMITTED] T1219A.041
    
    [GRAPHIC] [TIFF OMITTED] T1219A.042
    
    [GRAPHIC] [TIFF OMITTED] T1219A.043
    
                                           Thursday, March 5, 2009.

                           SCIENCE EDUCATION

                               WITNESSES

BILL NYE, ``THE SCIENCE GUY''
DR. HAROLD PRATT, FORMER PRESIDENT, NATIONAL SCIENCE TEACHERS 
    ASSOCIATION

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. The hearing will come to order.
    Good morning, Mr. Nye and Mr. Pratt. Science, technology, 
engineering, and mathematics or STEM are key to U.S. economic 
growth and STEM education is key to the continuing health of 
the U.S. science enterprise.
    I first want to welcome both of our outstanding witnesses 
here today. We look forward to their testimony. Between them, 
they bring us a wealth of knowledge over a broad area, 
enlightening us today, I am sure, on science, science and math 
education and how the resources that this Subcommittee 
appropriates will be best applied to advance that cause.
    I would also like to notice and welcome the large group of 
students here today. They are from the National Young Leaders 
Conference; is that right, students? Yes. They are from the 
National Young Leaders Conference. We welcome them.
    And after today, they may be seeking professions in 
science, who knows, in great numbers. We certainly hope so. 
That would be one additional good outcome of this hearing.
    Well, this week, the Commerce, Justice, Science 
Subcommittee, which is this Subcommittee, has been taking 
testimony on the state of science in the U.S. and the roles of 
four research agencies that are in our jurisdiction, NASA, NSF, 
NOAA, and NIST, in the overall science enterprise.
    This morning, we turn our attention to science education, a 
major program within the National Science Foundation, and a 
component of the activities of NASA and NOAA.
    The American Recovery and Reinvestment Act of 2009, the 
stimulus bill, which we just passed, specifically increased 
funding for education programs at NSF by $100 million and 
provided $180 million at NIST for a competitive grant program 
for construction of research science buildings. This 
illustrates the importance of science education in 
appropriations.
    In testimony from Ralph Cicerone, President of the National 
Academy of Sciences, earlier this week, he pointed out that a 
U.S. graduate education in science and engineering is highly 
respected throughout the world and there are other countries 
working to emulate it. However, this is not the case with K 
through 12 science education. We all have seen reports in the 
press about the poor average performance of U.S. students on 
comparative tests of science learning.
    Engineering graduate enrollment is now overwhelmingly drawn 
from aboard, and while this draws bright, creative minds to our 
shores and economy, it begs the question as to where is the 
stream of U.S. students to pursue graduate engineering degrees.
    Our emphasis in this hearing is on K through 12 STEM 
education and the preparation, recruitment, and retention of 
science teachers.
    We are pleased to have as witnesses Bill Nye, ``The Science 
Guy.'' Welcome. And Mr. Harold Pratt, former President of the 
National Science Teachers Association. Welcome, Mr. Pratt.
    Both are in touch with U.S. science education. Both are 
educators and through meeting with thousands of science 
teachers each year, they have something to bring to us.
    We look forward to learning about the status of science 
education in the U.S. and its future direction.
    Gentlemen, your written statements will be made a part of 
the record. We will ask you both to make your oral 
presentations and then the Committee will proceed with 
questions.
    Why don't we start on the left with--I am sorry. Oh, pardon 
me. Congressman Wolf, who is the Ranking Member of this 
Subcommittee, today, now, during this Congress, was the 
Chairman of this Subcommittee for a number of years, did an 
outstanding job, has a dedicated commitment to science and 
science education, and has managed these accounts over the 
years when he was Chairman and on the Committee as well, to try 
to apply the scarce resources, and they were scarcer then, we 
hope they are more today and in the future, as best he could 
when he managed the Subcommittee in order to further the 
interest of science and education.
    Mr. Wolf.

                       Mr. Wolf Opening Statement

    Mr. Wolf. Thank you, Mr. Chairman.
    I really did not have anything to say, but I am going to 
say one thing. One, I appreciate the Chairman having these 
hearings. Two, I am looking forward to hearing what you are 
having to say.
    I have some constituent things. I am going to be bopping 
out and back and forth. So when I do, they have already been on 
the schedule and I cannot change them, so do not think I am not 
interested.
    Three, I really do worry about science. We had a report the 
other day. A lot of the STEM grants were laying on the table 
last year and were not used. And the failure--and I hope the 
New York Times is over this. Is a New York Times reporter here?
    The New York Times has a full page story today on the fact 
that Barak Obama's hair is turning gray, full page, front page 
story. And the Chairman is having great hearings. We have had 
great witnesses. They have never even covered this. And full 
page and on the radio and TV today, it is all about Barak Obama 
turning gray.
    I mean, do we wonder why our factories are empty and our 
science and we are in a period of decay on this issue? And I 
think the media, quite frankly, whoever is with the New York 
Times, you are just not doing your job. I mean, the editor of 
the New York Times to cover a full, front page story and to 
miss the hearings that the Chairman is having and others are 
talking about is actually just--it is depressing.
    And with that, we are looking forward to hearing your 
testimony.
    Mr. Mollohan. Mr. Nye.

                       Mr. Nye Opening Statement

    Mr. Nye. Thank you, Chairman Mollohan.
    Let me say you look fantastic with the hair color that you 
have today.
    Mr. Mollohan. And it is the one the good Lord gave me and 
it will never change.
    Mr. Nye. And I think, you know, the man can drink. That is 
all I am saying.
    Thank you very much for having this. Very much appreciate 
your taking the time to listen to what I have to say.
    And, as you point out, there is great concern about science 
education in the United States and I think it is very welcome.
    General Motors came here hat in hand--oh, turn on my mike. 
Do you want me to start again? It is really interesting. Yeah.
    General Motors came here hat in hand, U.S. based auto 
company. Japanese based auto companies did not come here. They 
did not need to because they have a different approach to 
designing and building cars, one that we used to be good at.
    No one is surprised by this. Everybody complains about it, 
but the thing to do about it, the thing to change is elementary 
science education.
    You see, something has happened where science education has 
been viewed as a special interest, something that is hardly 
different from farmers that grow a specific crop in a specific 
part of the country. But science is for everyone. Science 
involves everyone every day.
    You look around in this room, everything in here owes its 
existence to science, whether it is the precisely made 
woodwork, the microphones, the paint, the understanding of 
chemistry, the lighting, the electricity. This all comes from 
science.
    So right now we have a problem. Every year I meet not 
dozens, not hundreds, not thousands, I meet tens of thousands 
of science teachers every year. I have yet to meet one, I have 
not met one science teacher who believes in No Child Left 
Behind. So I do not know what it is exactly, but there is 
something wrong. Something is wrong with No Child Left Behind 
and it is not in anyone's interest to not fix it.
    The thing that has happened is science teachers have to be 
held accountable in exhausting ways. They have to administer 
tests. They have to do assessments. They have to file reports 
for officials. And they cannot do the one thing, the one thing 
that made me go into science, and certainly my science 
teachers, they do not have time right now to inspire. That is 
the key.
    You see, science starts with observation and then it goes 
through something we often call the scientific method and so 
on. But it starts with an interest, with being inspired. And so 
we have to change this. We have to make it easier for science 
teachers to do their job.
    And generally I would say the solution, if there is one 
solution, we have to do everything all at once. If you ask 
science teachers who have children who do not have a tradition 
of academic rigor, who do not have strong family that believes 
in education, I would say what we have to do is fix the 
parents. Well, that is not possible. We will not be able to fix 
the parents. We have to fix everything else that we can.
    So we have to make it so that someone graduating from, let 
us say, engineering school, instead of choosing to go to work 
for a very good software company might instead choose to become 
a science teacher. In order to do that, you have to pay people. 
You have to pay the educators. And we have to have a situation 
where there are not 30 children in a class or 50. We have to 
have closer to 15 or 16 kids in a class.
    And I admit we have to cut the dead wood. There are certain 
teachers that are not holding up their end of the bargain. And 
I know we have to negotiate with teaching unions and so on, but 
that has also got to be done.
    And then I believe strongly in national standards. And I 
will just tell you right now national standards have to include 
evolution. The underlying idea in all of geology, the 
fundamental idea, the big discovery in all of geology is plate 
tectonics. Plate tectonics is a great idea. It is fantastic. It 
changed the world.
    But the underlying idea in all of life science is 
evolution. Evolution binds everything together like nothing 
else. So we have to just reach agreement on that and move on. 
If you want to study things that are not evolution, just do it 
outside of science class.
    So in a few hours, NASA will launch the Kepler Mission 
which will look for terrestrial planets. These will be planets 
that are like the earth on other stars. These are places that 
my grandparents, these are very recent ancestors, even my 
grandparents could not imagine such places.
    And we are doing that not with an individual as Kepler was 
but with a society who believes in this, believes in spending 
its treasure on making discoveries about our place in the 
universe. Where did we come from? The oldest of human 
questions. And these are science questions.
    Now, as you know, I am the Vice President of the Planetary 
Society, a society started by Carl Sagan and a couple of his 
colleagues. And I am a big believer in planetary citizenship, 
that we are all together on this one world.
    But I was also born in the United States and I am a 
patriot. My father fought on Wake Island and spent 44 months in 
prison camp. My mother was a Lieutenant in the Navy and was a 
cryptographer. She worked on breaking the enemy's Enigma code.
    So this patriotism may come from the household I grew up 
in, but for my part, I want the next generation of biofuels, 
the next generation of high performance batteries, the next 
generation of flood and volcano monitoring systems, the next 
smart pasture farming operations, I want all of those things to 
be created here in the United States by our citizens so that we 
can lead the world and improve the quality of life for everyone 
everywhere on planet earth.
    Now, if we do not support science education, I claim that 
you or we will be the first generation ever in the United 
States history to leave the world worse than we found it. We 
will leave the world, the quality of life for our kids and 
grandkids lower than our quality of life.
    So I thank you for all you have done in the last few weeks 
to support science education and I thank you for listening, but 
we need to do a great deal more and we need to do it as soon as 
we can for the betterment of all human kind.
    Thank you very much.
    [Written testimony by Mr. Bill Nye follows:]

    [GRAPHIC] [TIFF OMITTED] T1219A.044
    
    Mr. Mollohan. Thank you, Mr. Nye.
    Mr. Pratt.

                      Mr. Pratt Opening Statement

    Mr. Pratt. Thank you. Chairman Mollohan, Ranking Member 
Wolf, and distinguished members of the Subcommittee, my name is 
Harold Pratt and I am testifying today on behalf of the 
National Science Teachers Association.
    I have been a very active science educator for 53 years and 
you will notice my hair has some of the same color that we 
revere so much. I am still active as a consultant and an author 
to this day and appreciate the opportunity to provide testimony 
about the state of science education in the United States.
    I would also like to thank this Committee and Congress for 
the increased funding for science and science education in the 
stimulus bill and the recent Omnibus bill in federal year 2009.
    It is important that Congress continues to fund ``America 
Competes,'' especially funding for the Education and Human 
Resources Directorate at the National Science Foundation so we 
can address many of the challenges that Bill and you are very 
aware of.
    Much of the science education research conducted over the 
past few years largely with NSF funding has been promising and 
productive. NSF-sponsored research on student learning 
summarized recently by the National Research Council tells us 
young children are capable of learning far more complex and 
abstract ideas than we previously realized.
    This and other NSF research has the potential to 
revolutionize the way we teach science and the way it is 
learned in our schools.
    Unfortunately, very little of this research finds its way 
into the majority of classrooms where it can have an impact on 
science learning. We have to do a much better job of 
disseminating and actively implementing the research findings 
in our classrooms so that it can be used to increase science 
achievement.
    A second challenge is the quantity and quality of science 
provided at the elementary level. Many people, many adults in 
this world do not realize that increasing the number of science 
and math graduates, which I know is one of the goals of this 
group and others, relies a great deal on the science we provide 
to our youngest learners.
    Unfortunately, many elementary schools have reduced the 
amount of science education their students are receiving or 
have even eliminated it altogether because of the pressure to 
show achievement in other subjects. Many elementary teachers 
are also ill prepared to teach science at this level.
    A third challenge is the lack of professional development 
provided to science educators. All teachers of science at all 
levels must have access to long-term, coherent, professional 
development so they know the science they are teaching, they 
understand how students learn science, and they can plan and 
deliver the quality science instruction.
    Unfortunately, again, many districts have been forced to 
cut back on providing funding for science teacher training. We 
hope that Congress can encourage school administrators and the 
federal agencies to invest more in the professional development 
of teachers.
    Science teacher education is also a concern. Last year, the 
National Science Board called for a review of teacher education 
programs and how well they provide science and the training in 
the subject that prospective teachers will teach.
    Improving science standards and assessments that Bill 
mentioned is another key issue at the state level and we look 
forward to the President's agenda in this area.
    Research from what we call the trends in mathematic and 
science studies, sometimes called TIMSS, and the NRC tell us 
the current state of science standards contains far too many 
topics, provide too much variation from state to state, and 
does not tell us what students need to learn.
    No discussion of quality science education would be 
complete without mentioning a high school science laboratory 
experience. Unfortunately, the news in this area is not good.
    In 2005, the NRC found that most students had a poor 
experience in the science laboratory. Teachers were not 
prepared to run lab activities. State exams did not effectively 
measure laboratory skills and the quality of laboratory 
equipment was widely diverse. Funding for ``The America 
Competes Act,'' including full funding of the Partnerships for 
Access to Laboratory Science Provisions, will help address this 
problem.
    Finally, as many of you probably have heard from your 
constituents, many, if not most, school districts are finding 
it hard to recruit and retain science teachers. Many schools 
have to compete with business and industry for high school 
science teachers. Research tells us that the teacher shortage 
in science education may be due in part to early exits because 
of the poor teaching conditions that exist in schools and the 
lack of administrative support.
    Mr. Chairman, although many of these key challenges need to 
be addressed at the local and state level, at the federal 
level, we would like to see additional resources for the 
National Science Foundation so the agency can continue to 
expand upon its research and development efforts in science and 
math education.
    As pointed out in recent reports a couple years ago, 
federal STEM programs at the federal agencies, including the 
agencies under the jurisdiction of this Subcommittee and the 
Department of Education, Department of Energy and Department of 
Defense, need to be better coordinated and focused in a 
systematic manner that first truly identifies the needs of 
teachers, schools, and districts so that federal dollars can be 
used to best address these needs.
    Like the science content standards in many states and the 
words that we have heard often repeated, the sum total of these 
federal programs are what I would describe as a mile wide and 
an inch deep. A collaborative effort to streamline and 
coordinate federal STEM programs can best be done by OSTP and 
will go a long way to address many of the challenges I have 
presented here today.
    Thank you. And I thank you for the opportunity to testify 
and I look forward and welcome your questions.
    [Written statement by Harold Pratt, Former President, 
National Science Teachers Association follows:]

[GRAPHIC] [TIFF OMITTED] T1219A.045

[GRAPHIC] [TIFF OMITTED] T1219A.046

[GRAPHIC] [TIFF OMITTED] T1219A.047

[GRAPHIC] [TIFF OMITTED] T1219A.048

[GRAPHIC] [TIFF OMITTED] T1219A.049

[GRAPHIC] [TIFF OMITTED] T1219A.050

                         Mr. Mollohan Questions

    Mr. Mollohan. Well, thank both the witnesses for their 
excellent testimony.

                           SCIENCE EDUCATION

    Both of you, in your respective ways, made the point that 
we had to approach this comprehensively and in a coordinated 
way.
    Mr. Nye made the statement right up front that they have to 
do everything all at once. And Mr. Pratt gave us a detailed 
listing of that and it might not have been totally inclusive, 
but it certainly was comprehensive.
    I would like to give each of you an opportunity just to 
elaborate on that notion we have to do everything all at once. 
I certainly agree with that. I think you have to do it from 
soup to nuts, from education, the science education, which is a 
college function obviously, and import it into the elementary 
schools, K through 12 and bring it forward.
    But I would like to hear you all talk, each in turn, talk 
about that notion.
    Mr. Nye. Let me say that you if you are going to get a kid, 
a student to have lifelong passion for science, it is generally 
agreed you have to get that passion before you are ten, before 
you are ten years old.
    Now, you can get in debates about maybe it is 11, maybe it 
is--I do not think it as late as 12, but there is no one--very 
few people would argue that you can get somebody to have a 
lifelong passion for almost anything by the time he or she is 
17 or 18.
    So this feature of the human brain or whatever that we get 
this passion when we are very young, we need to exploit or 
enhance or take advantage of. And this is the point that Mr. 
Pratt was making, that we have to really emphasize elementary 
science education.
    And this involves, the expression that everybody loves is 
hands on and it means if you--the old saying is if you want a 
kid to learn about magnetism, you have to just give the kid 
magnets and he or she will figure it out.
    But if schools do not have the resources for that, then 
where do they turn? Well, it has been shown to my satisfaction 
that about half of what you learn about science is learned what 
is called informally. And informal is the technical term that 
means outside of the classroom.
    But then what is outside of the classroom? Outside of the 
classroom might be something like the after school program. And 
in my opinion, the most effective informal education settings 
are where the person, the instructor, the educator, the person 
running the after school program is passionate. Wherever that 
person is enthusiastic about science, the thing is successful.
    And so as I tell teachers all the time, you should want to 
teach science because you have got props. You have got things 
that blow up. What is more fun than that?
    And so we have a situation, and then I am going to hand it 
over to you, Harold, in just a moment, is we have a situation 
where people who were not raised with scientific traditions are 
asked to teach elementary science and they are uncomfortable 
with it.
    But in my view, this is a great chance for teacher 
development because almost anyone who goes into elementary 
teaching is passionate, wants to influence young people.
    And so if we give them the tools to teach science, they 
will do an excellent job. But right now those tools are not 
very well distributed.
    Mr. Pratt. We do have to think comprehensively and I would 
add systemically. And let me explain what that means. We have 
to think about the system from A to Z.
    But first let me start with a negative just to set the 
stage in a way good teachers would not usually do. It is not 
simply developing high standards and rigorous assessments and 
then invoking penalties when the success is not met. And I 
think that may represent much of a model that is in the minds 
of both politicians and educators across this country today.
    So let me fill in the space or the gap between the 
standards and the assessment because that is where the work 
lies and that is where the support and the funding needs to be 
made, not to decrease the importance of strong standards and 
quality assessments, but to fill the gap, what I am going to 
call the gap between those.
    And, of course, it starts with teachers at university 
education. It is the model for teaching and learning that 
unfortunately gets replicated at K-12 by some very poor but 
improving, I must say, standards and examples of teaching at 
the university level.
    Mr. Mollohan. Will you say that again, please?
    Mr. Pratt. Yes. What happens is that teachers, particularly 
at the secondary level, but maybe to some degree at all levels, 
teach the way they are taught. So whether we like it or not, 
university teaching, and you know the worst case scenario are 
those huge freshman classes, you know, arenas of 350 students 
and a microphone with a professor standing behind it.
    Now, there are improvements and NSF is making efforts and 
there are some very good examples across the country where 
there is an attempt and you have heard from some Nobel Prize 
winners such as Eric Misor at Harvard and so on who have 
testified and written extensively about this, but unfortunately 
the number of those is fairly small.
    So what the classroom teacher faces then is very little 
teaching experience or modeling and they need the professional 
development immediately. Young teachers do not survive for a 
whole variety of reasons.
    Part of it is the lack of training. Part of it is the lack 
of support. Part of it is the poor teaching assignments they 
are given their first years because they are low on the totem 
pole, so to speak, on the seniority in the school district. 
They have poor instructional materials. In other words, they 
have materials that really do not help them understand what we 
call inquiry based teaching or teaching beyond the facts. They 
do not have the professional development support that they 
need. They often do not have an administrator who understands 
what quality science teaching is.
    So they hit a scene at the local school level where at 
least half of them drop out in the first three to five years 
simply because of a variety of reasons that just seem to pile 
up on them.
    So we need quality instructional materials. We need the 
professional development in the use of those materials. We need 
the support in terms of physical materials to teach with as 
well as the laboratories and facilities at all levels. We think 
of laboratories at the high school level. We do not have 
laboratories at the elementary level, but we need facilities 
that are inducive or conducive to teaching elementary science.
    And then, of course, we do need the support from the 
community. We need a standing for teachers that is well 
recognized and revered, if you will, at the local level. And we 
need time for them to teach elementary science.
    Then we need quality assessments that are consistent with 
those standards and the type of instruction, the goals of 
instruction. So we need research and development and the 
development of assessments that are consistent with what we 
know to be quality science and that the NSF research tells us 
is very productive and very successful.
    Mr. Mollohan. Thank you, gentlemen.
    Mr. Aderholt.

                         Mr. Aderholt Questions

    Mr. Aderholt. Thank you, Mr. Chairman. It is good to have 
our guests here today.
    Thank you both for being here.
    I would concur with you, Dr. Nye, that the Chairman and 
Ranking Member's gray hair does look very nice----
    Mr. Nye. It is fabulous.
    Mr. Aderholt [continuing]. And distinguished on them. I 
never mind my hair turning gray. It is the turning loose part 
that has always been a concern to me.
    So, anyway, it is good to have you here and thank you for 
taking time to come before our Subcommittee and to share your 
insight and your thoughts on science, an issue that is very 
important in this day and age.

                          NO CHILD LEFT BEHIND

    One of the things that you mentioned about the No Child 
Left Behind Act, and I think probably most everybody on this 
dais up here probably was here during that time, and I am not 
sure every one of us supported it, but we were here when that 
legislation came before us.
    Mr. Nye. It seemed like a good idea.
    Mr. Aderholt. Certainly there are few federal programs that 
are perfect. Matter of fact, any time that you have a 
government program that is so big and so vast as No Child Left 
Behind, it is going to be riddled with a lot of problems. And 
so I do not think anyone would disagree with that.
    I guess what I would be asking you, and this is just an 
honest question, you mentioned the fact that teachers have a 
lot of paperwork to do. What other ways do you think that we 
would need to revise No Child Left Behind or some goals that we 
need to look at when we do change, and we will be changing No 
Child Left Behind and making changes to it over the next 
several months? You know, what would you offer?
    Mr. Nye. Fewer standards and, if you will, more succinct 
standards that are achievable. And then you want standards that 
are achievable through hands-on education rather--this is the 
old question for any academic setting, lecture versus 
laboratory. This is an old saying.
    How much laboratory should you have versus lecture? And 
this is a good question in the college level, university level. 
But in elementary school, they really do not need any lecture. 
What you need is hands-on time when it comes to science 
education.
    And so from my understanding, there are many schools where 
science is not assessed at the elementary level, where it is 
not part of the standards. And this is especially true of 
astronomy. May I remind you 2009 is the year of astronomy.
    We are the first, the people living now are the first set 
of humans to realize that we live on a planet that is hardly 
different from many, many other planets and they are going to 
live through a time when earth-like planets are discovered 
elsewhere.
    And I mention this only because this is something that you 
should be aware of certainly before you are 12 years old, but 
right now we do not have a national standard in that one 
example. We do not have a national standard for that. And we 
could change that. That would be something, for example, we 
could change.
    And there are people that are expert on this. And what 
happens, it is my understanding, everybody wants his or her 
piece of the pie and, I mean, this is your business is 
compromise. But what we need is to let science be regarded as 
important at the elementary level. And I think that would be a 
fundamental change in No Child Left Behind from what I 
understand.
    Mr. Aderholt. Thank you.
    Of course, the President has repeatedly asserted that, as 
leaders and members on both sides of the aisle will attest up 
here in Washington, that no child's education can be fully 
maximized without significant involvement from the parents.
    And I am a parent of a five-year-old and a nine-year-old. 
And what would be your suggestions as far as fostering and 
furthering the science education outside the classroom when 
they are home, of course, other than watching episodes of Bill 
Nye, ``The Science Guy''?

                          PARENTS AND SCIENCE

    Mr. Nye. Well, that is fabulous. You are looking for a 
specific thing for you as a parent?
    Mr. Aderholt. Yeah. Just what would you----
    Mr. Nye. Let them mess around in the kitchen. And then as 
part of that, they have to clean it up. That has got to be part 
of the bargain.
    And so you can do things. One of the tenets, I am reluctant 
to say innovations, on ``The Science Guy'' show is we divided 
science into physical science, chemistry and physics, life 
science, which would be general biology, and then things about 
the human body, and then what I like to call planetary science, 
which is earth science and astronomy.
    And I claim if you just try to nudge kids into those three 
categories every month, you will have fun. And people will 
inherently learn science. Take food coloring and try to make it 
in the shape of a squid. That is not so easy, but squid do it 
with their ink every day or whenever they need to. I do not 
interview that many squid. I have spoken to them, but I have 
never really had a response.
    Then with regard to planetary science, you know, you can 
look at the moon all the time. And we strongly encourage you to 
make diagrams of the phases of the moon with a piece of soap 
scrape because you can--then the window gets cleaned at the end 
of the month too.
    And so I just encourage you to allow investigation, to let 
people, let kids make a mess and clean it up because you learn 
things about the--well, water is very important and you learn 
things about the nature of materials, like paper is different 
from plastic, metal is different from paper. You learn things 
about the world that if you are going to go on to be a 
scientist or engineer or if you are going to go on to be a 
legislator, you want everybody to be scientifically literate in 
this fundamental way, have respect for science.
    So I say let them mess around. That is a great question.
    Mr. Aderholt. Just briefly, in your opening comments, you 
mentioned the part about evolution and the importance of 
teaching evolution.
    Talk a little about that from your perspective and just 
expand a little bit about----

                               EVOLUTION

    Mr. Nye. Well, I get journals and reports about all the 
many lawsuits in the United States associated with people 
trying to ban or modify, ban evolution in science class or 
modify science to include things that were described by the 
judge in Dover, Pennsylvania as breathtaking inanity. This 
would be the notion that there is some scheme of thought that 
would be associated with a reasoning person believing the earth 
is, for example, 6,000 earth years old. To me, that makes your 
life really complicated.
    Where I went to school in New York State, you walk around 
and they are Silurian fossils. There are trilobites everywhere 
on the ground. You cannot miss them.
    So then to try to--this is only for example--to try to 
explain away the existence of a Silurian fossil through this 
complex nonphysical science completely outside of every-day 
experience to me seems just fantastically complicated and 
makes, in my experience, makes children very uncomfortable 
because the world becomes bewildering.
    Instead, if you want to study philosophy, and certainly 
some of the best ideas humans have ever had are in the Bible, I 
mean, I am right there with you, but this understanding of the 
notion of deep time and the fundamental reason we are so much 
more alike than we are different and the idea that humans all 
came from Africa and we migrated across the world and the 
reason we eat wheat and the reason some people have very light 
brown skin and other people have somewhat darker brown skin is 
all explained by this fundamental idea of evolution.
    If you try to leave that out, your worlds become so 
amazingly complicated when you are ten years old. It just is 
nonsensical.
    To go to some place like the Grand Canyon and look at layer 
after layer after layer and try to make sense of that, to look 
at the what is generally called the ring of fire, we have 
volcanos in Hawaii that were created one way, we have volcanos 
in Washington State, Oregon, northern California created in 
another way, and to try to make sense of that and the age of 
rocks and the radiation, the radioactive isotopes that lead us 
to make these inferences about the age of the world, to try to 
do all that using something other than science is just 
fantastically complicated. And I do not think it is good for a 
kid.
    And so, as I say, if you want to study philosophy and 
alternative ways or what Karl Sagen, my old professor, referred 
to as creation myths, that is a worthy study, but it is not 
what we have learned through the process of science.
    So wasting national resources debating an alternative to 
evolution, I think, is squandering our treasure.
    Mr. Aderholt. Do you have some of your colleagues that 
would disagree with that or, you know, some of your respected 
colleagues?
    Mr. Nye. Scientists?
    Mr. Aderholt. Yes.
    Mr. Nye. I never met one. Now, I have debated people who 
call themselves intelligent designers or believe intelligent 
design. And I have been completely unimpressed or how to say, I 
have been astonished at how they are willing to ignore 
everything they can touch and see.
    See, here is the problem. Here is what is out of our every-
day experience. When we look at a device like this remarkable 
phone, we know that it was designed by people. Everything in 
this room, everything, even-- are there are some plants here-- 
everything came out of somebody's head. Every shape, every 
color, everything was conceived by a person.
    So when we see remarkable systems that fit together like, 
say, in a forest where there are birds that live in this part 
of the tree, there are other animals that live in this part of 
the tree, the whole thing depends on these microbes that work 
in the soil, and the system seems to fit together perfectly, 
these people on, if I may, the other side assume or presume 
that there must be a designer associated with that.
    And at first, that seems reasonable, but that is not how 
evolution works. And these discoveries were made in the 18--
they might have been made long before that, but they were 
certainly documented in the 19th century. And so that is not 
how evolution works. Evolution works the other way. It is the 
bottom up.
    So, as we say, the bad designs are eaten by the good ones. 
And so if you live at any moment in history, it looks like it 
all fits together because if it did not, it had disappeared. 
This is quite an insight. It is remarkable.
    If you go to Dinosaur National Monument set aside in the 
Wilson Administration, that is some time ago, it is 
astonishing. There are more species there. There are species 
discovered every year. In this place that is century old, guys, 
people are out there digging every day. It is amazing.
    And so you can, as I always say, you can feel insignificant 
as this insignificant traveler in this time that is only going 
in one direction and you can feel that your thoughts and your 
actions make no difference at all.
    But then on the other hand, using our mind and the process 
of science, we can understand all that. And that is worthy of 
respect. That is a remarkable thing that humans who are hardly 
different from many other species extant today can figure all 
this out. That is worthy of something. That is worthy of 
celebrating. That is science.
    Mr. Aderholt. Thank you.
    Mr. Mollohan. Thank you, Mr. Aderholt.
    Mr. Serrano.

                         Mr. Serrano Questions

    Mr. Serrano. Thank you, Mr. Chairman.
    I am tempted to ask you a profound question, but I am also 
tempted to ask you, Mr. Nye, some basic questions, like why 
isn't my Blackberry working in this room.
    Mr. Nye. Could be the man.
    Mr. Serrano. Where do you keep your Emmys?
    Mr. Nye. I keep two of them on the mantlepiece and I keep 
five of them in a box.
    Mr. Serrano. And I have to----
    Mr. Nye. That is quite a thing. Thank you. That was a 
remarkable time. Thank you.
    Mr. Serrano. And we have a running gag in this Committee as 
to how long it takes me to bring up Cuba and Puerto Rico, so 
why isn't the little frog, the coqui, seen anywhere else but in 
Puerto Rico? And it made its way to Hawaii recently and the 
Hawaiians are complaining that it is a nuisance. For the first 
time, it sang somewhere outside of Puerto Rico and, yet, Puerto 
Ricans see it as the musical soundtrack to their lives on the 
island and for the first time, it made it there. And no 
scientist has been able to tell us why it only sings in Puerto 
Rico.
    Mr. Nye. Well, wouldn't that be worth knowing?
    Mr. Serrano. Yes.
    Mr. Nye. Wouldn't that be a fascinating thing to----
    Mr. Serrano. And that is why it leads me to my next 
question, to the real question now that I let the audience know 
you won a bunch of Emmys and----
    Mr. Nye. That is very nice. Thank you.
    Mr. Serrano. And you blame me for the problems with the 
Blackberry.
    Mr. Nye. Well, these devices are made by people and people 
make mistakes.

                     MINORITY AND SCIENCE TEACHERS

    Mr. Serrano. All I was trying to find out if Japan beat 
China in that game in the World Classic and I think they did.
    Seriously, we are honored to have both of you before the 
Committee. And as one of the few members of Congress who was a 
school professional, a teacher's aide, and after that a school 
administrator, a program administrator, I know exactly what you 
are talking about in terms of the lack of support that young 
science teachers get and the lack of importance placed on that 
part of the profession.
    Mr. Nye. Well, another job where everybody quit within five 
years, not to go, if I may, to another law firm to continue 
being, for example, a lawyer, but to go into a completely 
different profession, I mean, that is not a good thing.
    Mr. Serrano. That used to be the life span of a member of 
Congress, about three to five years in Congress.
    But I must tell you something you do not know. And that is 
as both of you were talking about the profession, there are a 
lot of young people here today and they were all nodding their 
heads. Now, they are the recipients of what those teachers have 
to offer. And when you were talking about the issues that 
teachers face, they were all agreeing with you, which brings me 
to a question.
    You know, African Americans now represent about 12 percent 
of the population and Hispanics represent about 15 percent, yet 
both of them are getting about 8.7, 8 percent respectively 
degrees in science and engineering fields.
    In addition to that, we have community colleges that have 
students participating in STEM programs or science, technology, 
engineering, and mathematics, which could help young people 
move on to a four year degree.
    So while you have been speaking in general terms and that 
is the best way to approach a lot of these things, my question 
is, is there something we could be doing to encourage certain 
segments of the society to move into these fields of study?
    Mr. Nye. Well, how much of that, what I would want to know 
is how much of that is associated with the wealth of the school 
district. You see, the PB&J, the passion, beauty, and joy of 
science is that whatever we discover in science is true for 
everyone.
    And I have, if I may, been preaching this for a long time, 
that if--the expression that was very popular ten or twelve 
years ago was at risk kids--if at risk kids are exposed to 
science, they can go into careers where their work is evaluated 
objectively.
    And so just like everything else that has to do with, if I 
may, African Americans and Hispanics, people of non-European 
descent, it takes time, that the traditions that go back, I 
guess, about four centuries are taking time to wipe out. But I 
am thrilled right now. I think everything is going to change. I 
think it is going to be a wonderful future.
    And so I say to at risk kids or kids from school districts 
that are not as wealthy pursue science because your work is 
objectively evaluated and you can excel. And you will almost 
certainly get a job that you love to come to every day, just 
like you.
    Mr. Serrano. And we do.
    Mr. Pratt.

                           ELEMENTARY SCIENCE

    Mr. Pratt. Elementary science is where I would start 
because you can get closer to the family and you can get closer 
to the home through elementary science.
    And just to pick a specific point and it is related not 
just to students of minority or unrepresented students, it goes 
for all students, is that when language development takes 
precedent over science, you get the image both in the minds of 
the student, the teachers, and the home that science is 
secondary.
    We know that science is a great avenue for language 
development and much of science and probably mathematics, too, 
is somewhat, I do not want to overstress it, is somewhat 
independent of language. In other words, it is universal. And 
many of the cognates of scientific terms, as we all know, are 
very much the same in various languages.
    Students can learn science from day one regardless of the 
language that they are operating in the rest of the school day. 
So we need to keep the science strong and extensive for those 
students because it sets a pattern, it sets a model, and it 
sends a message to the community as well as to the school. And 
I think it probably enhances their total education.
    So often we take a very narrow view of what should be the 
education diet of students who come in with what we call 
limited language proficiency and we say, you know, science has 
to wait.

                      ENGLISH AS A SECOND LANGUAGE

    Mr. Nye. Exactly. It has to go in parallel. In fact, one 
way to reach a person who English is a second language is 
through science. Very compelling study done in Nevada about 
this, and that this is a way to teach words is with these 
phenomena that you observe in science.
    Once again, I do not want to sound like a broken record. 
That may be an older reference. A skipping CD, an older 
reference, a tapping the double arrow to the left. But 
elementary science is what we can emphasize at a very 
reasonable price that I claim will change the world.
    Mr. Serrano. Well, we thank you for your testimony.
    Mr. Chairman, I have to congratulate you on the hearing and 
on these two witnesses. I think that this is an issue that has 
to be discussed, has to be debated. And as we move along to try 
to save the economy, we cannot lose sight of the fact that 
other things have to be done at the same time. And this is one 
of them.
    And I am going to take, Mr. Nye, your comment about the 
kitchen to mean that your next show will be on the Food 
Channel.
    Mr. Nye. We have talked a lot about the science of cooking 
to kids.
    Mr. Serrano. Exclusive.
    Mr. Nye. Yeah. That there are certain techniques and good 
laboratory skills are closely related to good kitchen skills, 
not to, how to say, expand this into two heavy a discussion, 
but learning not to spill things very much, learning to have 
your hands clean, learning what chemicals or what ingredients 
go in first and how to prepare them. It is very closely 
related.
    And just to talk some more about me, my mother who was, as 
I say, recruited, I am not sure you were here, was recruited to 
work on the enigma code because she was good at math and 
science. She strongly emphasized that, kitchen skills.
    Mr. Serrano. I was here at the hearing. I was not here when 
she was recruited. I was in Puerto Rico wondering if I would 
ever come to the U.S. and become a congressman.
    Mr. Nye. Well, it is great to see you.
    Mr. Serrano. Thank you so much.
    Mr. Mollohan. Thank you, Mr. Serrano.
    Mr. Honda.

                          Mr. Honda Questions

    Mr. Honda. Thank you, Mr. Chairman.
    I really appreciate your enthusiasm and the comments you 
make about the importance of teaching and science. And you are 
right. I taught kitchen chemistry and all I did was tell the 
youngsters that they understand what they are doing. We just 
put a different terminology on it.
    And so there are ways to make science interesting and--but 
I will make one clarification. It is easy in the front to teach 
youngsters from different language groups science, but they 
have to have comprehensible input. And so we need to use the 
language they understand best in order for them to formulate 
the concepts and then from there when they learn English 
better, they can speak about it in another language.
    But science is one of the best and most interesting ways of 
engaging a youngster in learning. And I think that you are 
right. Science is really basic in terms of understanding the 
world around us and appreciating both differences and 
similarities.
    And I am just fascinated with all the new information that 
comes out that tells us we are closer to each other, including 
the other primates, if we looked at our DNA. And so there must 
be something out there that is trying to tell us that we are 
all connected somehow.
    The enthusiasm is what I really want to hang on to and the 
experience about giving teachers support is critical. And I 
think that while we talk about supporting teachers and making 
sure that they are well-informed and well-trained, we need to 
remember that youngsters are the primary reason that we are 
there, that children, they are the goal and they are the reason 
that we are there as far as an educational system and that if 
we understand that youngsters only come to school with one 
currency, and that is time, that maybe we will be a little bit 
more serious as a society to make sure that the youngsters, 
that we as adults do not waste their time because we cannot 
take their time and bank it and then withdraw it later.
    And so we need to prepare both intellectually in content 
and also in approaching the youngsters in how they come to us. 
If it is language we need to use as an instructional tool for 
conceptual development, then that is what we need to do.
    And so I would urge us to look at as we struggle with the 
policies of science education that we remember the child is the 
purpose that we are there for and no parent regardless of what 
background they come from will ever condemn us for looking at 
youngsters in that way.
    I think you bring a lot of interest and smiles and things 
like that to science and to education, but I think that, in 
that skill and that ability and that opportunity that you have 
that we also, remind ourselves about the child, including the 
instruction, but the child and all the different ways the child 
comes to us and challenge ourselves to not only look at teacher 
instruction, but infrastructure of the classrooms and how we 
assess them. And that assessment is the end product. Curriculum 
is the treatment.
    So for assessing the child's achievement, if they do not 
achieve well, then we should be saying we failed, not the child 
failed, that the kinds of treatment that we provided the child 
or the assessment missed the boat.
    So with your vast exposure, the question I would like to 
ask both of you is in the realm of public education. Where does 
equity fit in terms of providing the kind of education we want 
for all our children and where are we on that debate of equity 
and where does that fit in terms of policymaking?

                           EQUITY IN SCHOOLS

    Mr. Nye. By equity, you mean from school district to school 
district or do you mean people from different backgrounds?
    Mr. Honda. It probably is all of that.
    Mr. Nye. Well, I would say this is where good national 
standards would help everybody. If we had good national 
standards that were not too burdensome, then this is a case 
where people at the local level can evaluate the kids who are 
coming to their school and address their needs individually and 
still have success at getting them excited about science, 
getting them to embrace science as an important part of their 
lives.
    So if I understand your question, it is empowering 
officials and teachers locally with guidance and, if I may, 
funding provided federally. And so this balance between local 
authority and national authority is what I think we need to 
work on and where I think No Child Left Behind had some trouble 
was requirements without the authority or the ability or the 
resources to meet those requirements.
    Mr. Pratt. You almost answered the question, but let me 
phrase it in my way and refer to your kind of description.
    Number one, I think we have to have equal expectations and 
that is where Bill is absolutely correct. The standards and 
assessment across this country in the name of federal 
legislation are not equal. They are too diverse. I mean, all 
you need to do is read the reports that six percent success in 
one district is a 94 percent success or state in another State. 
So that is not equity to begin with.
    But assuming we have that, and I think we can achieve that 
if we just have the political will to do it, then we have to 
think about the students themselves. And I think we have to be 
very careful of how we think and define equity. And we must 
think of equity not just as input or to use your word 
treatment, we have to think about equity of achievement or 
equity of output.
    And that means when the output is not what we would say is 
equal across all groups of students, then we have to upgrade, 
increase, improve, and I will use your terminology, the 
treatment, the instruction, the support, the time spent with 
those students. That is what we have to think about.
    So part of our problem is simply the inability to carefully 
and I think equitably, if you will, define equity, not as 
input, but as what students achieve or to put it in almost 
engineering terms, the output.
    Mr. Honda. Mr. Chair, if I may, the last comment or 
question, what if we assess each child at the age of three or 
whatever assessments we have at hand and funded each child 
accordingly, would that be equity?
    Mr. Nye. I think it is rhetorical. No. I mean, it does not 
sound like it.
    Mr. Honda. What would it----
    Mr. Nye. It is like, if I understand, it is analogous to 
one vote per person. You are saying you want----
    Mr. Honda. No. No. That is----
    Mr. Nye [continuing]. To give them a gain or----
    Mr. Honda. No. That is parity.
    Mr. Nye. Yeah. That is what I am saying.
    Mr. Honda. I am saying if you assess each child and each 
child is different, therefore each child needs different kinds 
of attention and resources, then there would be different 
amounts of money and efforts behind each child. And if that is 
the case, then are we meeting that child's needs, at least 
developing a road map for the child that is pertinent to that 
one child? If we go through each child, would that be 
considered equity?
    Mr. Nye. I would have to give that some thought, but this I 
can tell you. The so-called individual lesson plan, the ILP, 
has become a real burden for many teachers because there is an 
effect that may not have been anticipated where one student has 
an individualized lesson plan. His or her parents find out 
about it, his or her parents of another student find out about 
it and they want an individualized lesson plan for his or her 
student. And then it becomes a burden.
    So this is where once again--I am not sure I am addressing 
your question directly, but I will give us something to think 
about-- once again, we need standards that are useable for a 
very large number of students so that it is equitable.
    Mr. Honda. So it is burdensome for us to----
    Mr. Nye. Right now.
    Mr. Honda. No. Is it burdensome for us to understand that 
each child has different kinds of needs and developing an 
individual plan for each child is not necessary or does not go 
towards equity because it is burdensome on the system? Are we 
worried more about the system and the infrastructure and the 
cost of it or are we worried about figuring out what the child 
needs?
    It challenges us to, as a policymaker, to step outside the 
box and rather than being confined within the current 
structure, and I understand the current structure is that we 
end up having parents and school boards fighting for the best 
interest of the child and spending a lot of money, that is 
burdensome, and, yet, the time of the child moves on and on and 
on. We know good and well through the assessment what that 
child really needs, but we cannot afford it.
    Now I am asking a question, you know, should we be 
challenging ourselves as a society to find ways to make that 
affordable?
    Mr. Nye. Well, here is the thing. Think about your favorite 
teachers. They were passionate. And I claim that very good 
teachers had a feel or an intuition or perhaps it was 
cognitive, they thought about it and made notes, where they 
provided each child with an individual lesson plan, where they 
taught each, they still-- they taught--they do teach each child 
individually. Each child, they engage each child and they give 
that kid what he or she needs.
    What has happened right now, and I think we have an 
opportunity to make things better, is that intuition now has to 
be documented, it has to be spelled out, and records have to be 
kept. And that is costing the teacher the most precious thing 
he or she has, his or her time.
    And so that, I think, as I understand it, these are 
anecdotes from people I have spoken with over the last, let us 
call it, 12 years, this is something we could improve.
    Mr. Mollohan. Thank you, Mr. Honda. Thank you very much.

                  QUESTIONS FROM STUDENTS IN AUDIENCE

    Mr. Bonner has made an excellent suggestion, Mr. Bonner of 
our Subcommittee, who I will be calling on in just a moment, 
has made a suggestion that we have a lot of students here. They 
are particularly interested in this hearing. And we want to 
offer them an opportunity at Mr. Bonner's suggestion, which I 
think is an excellent one, to ask the panel a question.
    So I would invite the students here today on a piece of 
paper to write a question, one each to Mr. Nye and Mr. Pratt. 
And we will probably draw out of a hat, I am not sure exactly 
how we are going to do that, and ask the students' questions 
here.
    So I think it is an excellent suggestion from Mr. Bonner.
    Mr. Nye. That is fantastic.
    Mr. Mollohan. And we----
    Mr. Nye. Now, everybody, you could text it to me.
    Mr. Mollohan. Well, whoa, Mr. Nye.
    Mr. Nye. So you have used this technology, right, where 
the----
    Mr. Mollohan. Mr. Nye, I do not want, Mr. Nye, I do not 
want to lose control of this.
    Mr. Nye. I am sorry.
    Mr. Mollohan. I know you are high tech here, but I think--
--
    Mr. Nye. I think that is not appropriate. I think they have 
to go--this is the technology involving a tip and a paper.
    Mr. Mollohan. Thank you.
    Mr. Nye. Yeah.
    Mr. Mollohan. Thank you for your help. Thank you.
    Okay. So we invite students to do that. You do that. Then 
we will collect them and at the appropriate time, but in the 
middle of the hearing, we will not wait until the end----
    Mr. Nye. That is great. Thank you.
    Mr. Mollohan [continuing]. We will ask those questions.
    Mr. Bonner.

                          Mr. Bonner Questions

    Mr. Bonner. Thank you, Mr. Chairman, and thank you for 
accepting that suggestion.
    I am going to try to get my question out first and then 
tell you a little bit about why I asked it because a lot of 
times, politicians like to pontificate and then give you just a 
second to answer the question.

                      SCIENCE EDUCATION COMPONENTS

    Two things. What can we do to use the sources of young 
people today for information, internet, video games? When I was 
a child, it would be cartoons on a Saturday morning. But what 
can we do, and Mr. Nye certainly, Dr. Nye certainly has found a 
way to connect with young people, but what can we do to expand 
that?
    As Robert indicated, he is the father of two young 
children. I have got a 13-year-old daughter and a ten-year-old 
son and my son loves to play video games. And whether it is the 
Wii system or the Playstation III or whatever, what can we do 
to find video games that have a science education component 
that are also fun because to me, we have got to find a way to 
connect?
    Mr. Nye. Mr. Bonner, I did not ask you to ask that 
question, let the record show. But on Monday, the 9th of March, 
I start something I called Solving for X which is a series. 
Each segment is about four minutes where I show you how to do 
Algebra. And Algebra and science to me or math and science are 
intimately connected.
    And each segment is designed to appear on a small screen, 
on something that a modern student would have internet access 
to, often in a hand-held device. And you have to make 
production decisions associated with that.
    So I strongly believe in what is called the long tail. Are 
you familiar with the long tail where instead of many, many--
instead of, rather, a few television stations or radio stations 
now, it will be thousands, tens of thousands, even millions of 
sources on the internet?
    And so I believe that the resources available to teachers 
on the internet are only going to expand because many of these 
things are not that expensive to produce and people who are 
passionate about it will produce them.
    So the technology of education is really going to improve. 
And I look back, especially in physics class, at how wonderful 
the modern physics demonstrations are. I mean, we had good 
physics demonstrations, but the modern ones are just great. And 
this is through the advancement of technology.
    And so with that said, information distributed through the 
internet is going to be part of every kid's world, by 
information, I am sorry, educational information, educational 
materials is going to be part of every kid's world very, very 
soon.
    And with that said, there is no substitute for hands-on 
science. So as important as the resources are available for 
science teachers on the internet, we still have to have 
equipment in the laboratory where you touch things with your 
hands. We cannot let that fall through the cracks.
    Instead of film strips, which you no doubt enjoyed, movies 
where you had to get the kids from the AV Department to the 
film through there and there was still the one part that was 
burned because that is where the guy was upside down and it was 
just great and compelling, instead of that, these--and instead 
of even VHS tapes and instead of even DVDs, this will all be 
available on the internet. And so that will expand, but there 
is no substitute for hands on.
    And two more things. It is very important that we secure 
the internet. I know there is a lot of talk about that, but we 
cannot--our society is increasingly dependent on electronic 
communications. We have to make sure that that is always 
working.
    I mean, the electricity going out is to me as a guy who 
grew up in the United States is still kind of an embarrassment 
when the electricity goes out. But when the internet or 
electronic communications go down, it is going to be not just 
an embarrassment, it is going to be economic and in a sense 
educational disaster.
    So how many people, may I ask the Committee, how many 
people know Tex Johnston? Anyone familiar with Tex Johnston?
    So Tex Johnston was--I was a Boeing engineer for a few 
years and Tex Johnston was a Boeing celebrity. He still is. In 
1954, he took a 707, which is a larger airliner. In those days, 
it was before the 700 designations. It was the dash 80. And he 
flew over Lake Washington in Seattle where, the estimates vary, 
about a hundred thousand people gathered for something call Sea 
Fair, Seattle Fair. And he performed a barrel roll with a 707.
    I do not know how many airliners you have been on, but they 
very seldom perform rolls with those. And he landed. The bosses 
asked him, I am sure there were some expletives involved, Tex, 
what were you doing. And he said, first of all, I am selling 
airplanes.
    It was a very compelling demonstration. But then they asked 
him how did he know that this maneuver would work with such a 
large aircraft not really designed for inverted flight and so 
on. And he said one test is worth a thousand expert opinions.
    And so doing things for yourself once is worth being told 
about it a thousand times. And so with the internet, we can 
distribute this information. We will distribute algebraic 
sample problems, but you still have to do them for yourself. We 
still have to provide people the resources to do them for 
themselves.
    It was an excellent question. Thank you.
    Mr. Bonner. Since it was an excellent question, I will just 
stop at that one then.
    Mr. Nye. Thank you.
    Mr. Bonner. Thank you very much.
    Mr. Mollohan. Thank you, Mr. Bonner.
    We will have one more questioning and then we will--we are 
sorting through the students' questions now and then we will 
ask a student question.
    Mr. Fattah.

                            SCIENCE FUNDING

    Mr. Fattah. Thank you very much.
    Let me first say that I agree that I think things are going 
to get a lot better very soon. The President has said that 
science is going to be at the very front burner of the 
Administration's concerns around a range of issues.
    But our Chairman has done a great deal in the area that we 
are talking about this morning as Chair of this Committee. I 
think we have invested a great deal of money under the 
Chairman's leadership in trying to improve science education 
and to respond to some of these issues. And I want to publicly 
thank him for that.
    But whether the youngsters in, you know, west Philadelphia, 
in my district, or West Virginia, the Chairman's district, or 
in the Bronx or throughout the country, I mean, one of the 
challenges that we have is illustrated in your testimony this 
morning about the lack of content knowledge, particularly by 
teachers who are teaching children in some of our more 
disadvantaged school districts.
    And, you know, the wealth disparities between school 
districts, a lot of people say do not matter. It does not 
matter if we spend three times as much on one kid as another 
for 12 years, somehow they should all end up with comparable 
results.
    But the truth of the matter is that I think we know better 
and that it does matter. And the need for additional 
professional development, the need for teachers with improved 
content knowledge is important. The other reality is the 
physical plan itself. There are schools, you know, in our 
states that, you know, a science laboratory is not something 
that one can take for granted.
    A few years ago, the Washington Post ran a story and they 
talked about a group of kids in a large urban city who went out 
to the suburban school district to visit the campus and the 
kids from the suburban school came in and visited the campus of 
the school in the city.
    And they described these two circumstances in which at one 
school, there were these, you know, very nice science labs and 
all of the science and math. Faculty had advanced degrees. And 
they described the other school in which there was no 
microscope that worked and there was no, you know, no equipment 
of any utility and that none of the teachers teaching the core 
subjects of math and science had majored or minored in math or 
science.
    And you do not have to be a rocket scientist to figure out 
where one school was versus the other. I think we all know. And 
one of the real fallacies of No Child Left Behind is that it 
suggests that somehow we should get a comparable result when we 
do not have a comparable opportunity for our young people to 
learn.
    And so I think that this question of equity is important, 
but I wanted to talk a little bit about something else that was 
raised in your testimony, Mr. Pratt, about national standards.
    You know, we also operated under, for the entire country's 
history, you know, under the notion that somehow there is some 
local, you know, physics or biology or that somehow science 
taught in Philadelphia and Mississippi, somehow should be a 
different science than taught in Philadelphia, Pennsylvania.
    The push for national standards has always been fought by 
those people who say that, you know, we should have local 
control of schools and people at a local level can decide how 
smart or less than adequately educated they want their own 
children to be and that there is no national imperative, to use 
President Nixon's phrase, to worry about the quality of 
education.
    I think that now that we have arrived at this moment, we 
all know better and that we do need to have a set of national 
standards.
    But beyond that, I am interested in whether we could create 
a national model of what should be being taught at what grade 
levels, what kind of physical facilities should be available 
for the teaching of science, and what exact prerequisites 
should be for science education.
    And to conclude, where there are strict standards for 
science educators, like in Pennsylvania, they are enforced, but 
there is some selective amnesia. That is, when you get to a 
city like Philadelphia, what is done is applications are made 
for waivers from the teaching requirements so that they can get 
a warm body in the classroom because they cannot afford to hire 
a qualified science teacher under the state requirements of 
what that teacher should know and should be competent to teach.
    So we have this situation throughout the country. That is, 
we have requirements. They are waived in the situations in the 
schools where kids need the most help and they actually get the 
least. And we have to deal with the consequences.
    So I am happy that the Chairman had you come in today. I 
would be interested in your comments.
    Thank you.

                           NATIONAL STANDARDS

    Mr. Pratt. Well, several comments. I participated and was 
on the staff of the National Research Council during the 
development of the national standards in the mid-1990s and we 
listened to a lot of people at the community level, political 
level, as well as the educational level.
    One of the strongest segments of our community that 
supported the idea of national standards, which was very 
innovative in those days, it was just coming almost out of 
nowhere except for the work that that NCTM had done in 
mathematics a few years earlier, where what we might call the 
underprivileged, under-represented, the minority communities, 
those were the strongest supporters of national standards 
because they said at least we are going to get some attention.
    And part of what goes on, even though there are waivers, 
even though there are exceptions made either politically or 
administratively, at least we know what is going on now. We can 
identify the problem. That is the first step. Before that, we 
could not identify or we did not, we did not have the 
political, educational, or personal will to identify the 
problem.
    So I do not think that is the end of it. That does not 
solve it. I do not want to leave you with that impression, but 
at least we know now. And so we are hyperconcerned and aware of 
the learning gap and the problems of inequity in the districts 
across it because of standards and because of assessments.
    I think we have not pushed that far enough and that is why 
many of us believe that national standards and national 
assessments would help us become better informed and better 
aware of the problem. That does not mean we know how to solve 
it, but that at least is a first step in doing it.
    Mr. Fattah. I have paid a lot attention to school equity, 
adequacy issue over the years.
    Mr. Pratt. I am sure you have.
    Mr. Fattah. And it has been litigated in many states around 
the country. You know, if you go and look at the Arkansas case, 
there is an affidavit from a great teacher, name is Roy King, 
and he says that he is the entire science and math faculty at 
his high school of 200 kids.
    He did not major or minor in math or science. He actually 
got hired to be a gym teacher, a physical education teacher. 
And he makes 20 grand and he makes a few more dollars driving 
the school bus. He said he loves these kids, but they actually 
deserve a little bit better than they are getting. He has got 
20 textbooks for 200 kids. He has got four calculators and he 
has not seen a microscope in school. Now, this is what he 
affirmed to the court.
    And it is just a challenge for us to think about how we are 
going to get from where we are to where we need to go, you 
know, unless we create not just the aspirational standard but 
the resources and the political will to actually make sure that 
these kids get a fair shot at it because, you know, there is a 
lot of talent out there, but it is not going to be developed 
unless they find an inspiring teacher who is competent in what 
they are teaching and has the opportunity to mine those gems.
    Mr. Nye. Well, there has been a lot of talk about audacity. 
And I think this is the time to take an audacious step. And 
that is the United States is going to be the best at this. And 
if we make that part of our thinking, it will affect, in my 
view it will affect everyone. It will affect every educator, 
every administrator, every school board, every voter.
    And as you may know, I grew up in Washington and so I am 
sure they are all very nice people. I am sure they are lovely 
people, but I grew up kind of, if you will, hating the 
Baltimore Orioles. I am sure they are fine people. I say this 
is not my fault.
    But with that said, I have tremendous respect for the 
manager, Earl Weaver, who said if you play to win by one run, 
you are going to lose by one run. If we spend a lot of 
resources at your level mincing these details, I think we can 
get bogged down.
    If we all just decide that the United States is going to be 
the best in the world in math and science, we are going to 
graduate the best engineers in the world and we are going to 
lead the way, if we all decide that we are going to do that, 
then that will trickle down.
    I had a very limited exposure. I spent some time with 
several people who investigated the Columbia space shuttle 
wreck. And if nothing else, they found that you have to change 
things at the top to change things. You have to change things 
throughout the organization to change things. And those changes 
start at the top.
    So I think that if we just say we are going to be the best 
in the world, we are going to do whatever it takes to graduate 
the best engineers and scientists and we are going to start in 
kindergarten, maybe even pre-school and work our way up, we 
will achieve it.
    But if we say, well, we cannot do this or we cannot do that 
because this school district is concerned with this and this 
school--sooner or later, it will bog down. We have got to all 
decide this is worth doing.
    Now, I know we are all very, very concerned about the 
economic situation. That is all we talk about along with 
apparently the color of the President's hair. But I claim, and 
I do not think it is an extraordinary claim, that ten or 
fifteen years will be here before you know it, ten or fifteen 
years, about the time people are hoping to resolve this 
economic crisis for sure. Some claims are two or three years, 
but I think those are extraordinary claims.
    By the time that economic crisis settles out, we will need 
to lead the way. And that leadership in the developed world 
comes from technology. And that technology starts with 
elementary science education.
    I know these are easy things to say. But as you see, I 
really believe in it. And I think if we start right now from 
the top, we can change the world.
    Mr. Fattah. Thank you very much.
    Thank you, Mr. Chairman.

                           STUDENT QUESTIONS

    Mr. Mollohan. Ranking Member Wolf is next up. He has 
graciously deferred to the student question. So I am going to 
ask one student question and then I am going to give him the 
three that I have in my hand. All of them are really good and I 
would like to ask them all. And then he can ask one of these 
questions as a part of his.
    Perhaps we can, you know, be distinct in answering these 
questions. Of course, we have several of them, but I invite 
each of you to respond.
    The first question, and these all are really excellent 
questions, I mean, it is impressive, from our students in the 
audience, most specialized funding in science focuses on 
students who are behind. Do you think this should remain the 
focus or should funding go toward students who are interested 
in advanced learning?
    Perhaps first we should ask if you all agree with the 
premise of the question and then if you agree with the premise, 
do you think funding should be directed to advanced learning?
    Mr. Nye.
    Mr. Nye. I do not have the statistics on that, but I will 
say anecdotally if not the most funding, the most of a 
teacher's time and so the perception might be the funding is to 
what might be called distractions or trying to bring people up 
who have not been exposed to science from an early age, trying 
to catch them up certainly can take a lot of teachers' time. 
And that may lead to the perception that the advanced students 
are not getting their due.
    But I will tell you also from my personal experience that 
if you can excel in math and science, you will be recognized 
and you will find your way. So that is as we say in engineering 
susceptible to analysis. So I think we should look into that.
    Do you have knowledge of that, Mr. Pratt?
    Mr. Mollohan. Thank you.
    Mr. Pratt.
    Mr. Pratt. First, the premise. I mean, you know better than 
I do that their funding formula is based upon the economic 
level of the states and communities. So whether that is what 
the students intended, you know better than I do that there are 
formulas applied to virtually all flow-through money to states 
and to districts.
    Now, whether that should be a national priority is, of 
course, the question that we come back to when the equity 
question hits the table is where does the money come from. And 
somebody is always going to tell you if we put it in favor of 
this group in the name of equity or whatever the label may be, 
it probably has to come from some place else.
    We do not like the fact that there is a zero sum game when 
it comes to appropriations, but you know that far better than I 
do.
    So the question we have to grapple with is probably not so 
much at the individual student level, although we cannot lose 
sight of the importance of individual students, but ask the 
question as a country, what is going to serve us best, what is 
going to serve us best to educate to the ultimate degree a few 
elite students which seems to be somewhat the tenor of that 
question, I do not want to over interpret the question, or do 
we face the equity issue and think about all students because 
one of the premises behind the funding formulas of today is 
that we need more. We also need quality students. We need more.
    And if we do not, I hate to use the word harvest, but if we 
do not gain more graduates from all groups of the population, 
we are losing out as a country. We are losing out 
technologically. We are losing out socially. We are probably 
losing out competitively across the world.
    Mr. Mollohan. Two members have not had a chance to ask 
questions yet, Mr. Wolf, our Ranking Member, and Mr. 
Ruppersberger. We have a vote. That means we have 15 minutes. I 
think we can get both in.
    And I call on Mr. Wolf right now.

                           Mr. Wolf Questions

    Mr. Wolf. Thank you.
    I wish I had been here for the whole time. My district is 
right here and I have had constituents coming back and forth in 
my schedule, so I apologize.
    I have a number of questions. Maybe we will just submit 
them for the record.
    Two of the students' questions, I think, is very good. I 
think, Mr. Nye, maybe you triggered the one, but he or she said 
as an August 2008 engineering graduate, I declare myself an 
``expert witness.'' He said you mentioned burdensome standards. 
What good is a standard if it does not create a burden for a 
student to meet it, which I think is a very good question?
    Mr. Nye. Well, the burden is not the student. Yeah, the 
students have to work hard. When I was in school, we did a lot 
and so on. No. The burden is on the teacher. That is what I was 
referring to, where especially the elementary teacher right now 
is required to perform a lot of assessment, at least as I 
understand it from teachers themselves, required to perform a 
lot of assessment and that assessment and reporting in a way 
that does not enable the teacher to inspire kids.
    Mr. Pratt. I am not sure the reference to burden, but I did 
want to almost respond earlier when my colleague referred to 
the burden in the classroom when expectations are increased or 
when individual student needs are emphasized.
    I think we have to think of burdens or when we hear the 
word burden or we hear the word that I do not have the time or 
it is an unfunded mandate, we need to be sure that that is not 
really the case where an expectation is being laid upon a 
district and, therefore, teachers without the kind of support 
necessary to do it.
    So it may be an indicator that we need to pay close 
attention to. And we all have a tendency to kind of complain, 
if you will, and be overworked, I am sure, but I think there 
may be a signal there that we are not attending to. And that is 
the lack of support to carry out what is otherwise an 
excellent, excellent idea, but does demand more effort, more 
time, and, therefore, probably more money on the part of the 
district.
    Mr. Wolf. The other question, and, Mr. Nye, you mentioned 
No Child Left Behind. I am not an expert on education. Four of 
my five kids are in education and I am the parent of five kids.
    Without No Child Left Behind, the inner city schools are in 
decay. And I think the No Child Left Behind has helped. And if 
you look at some of the figures that have come out, 
particularly for inner city schools, they have made a 
tremendous difference.
    So how it should be, there should be more discretion, more 
flexibility, but there have been fundamental cities and places 
whereby the kids have been neglected for years. And I think 
those standards have made a difference.
    And in my own area, to a certain population, they have made 
a fairly good difference. But it should be more flexibility, I 
think.
    The other question is, our teachers are very passionate 
about science, but what can you do about most, and they 
underline most, of all our principals and administrators who do 
not get it? I think that is why many teachers do not stay in 
the profession.
    Mr. Pratt. As one who worked in administration in a school 
district for 32 years, they should be part of the professional 
development also. Do not just focus on the teachers. I mean, 
administrative support in a whole variety of ways, whether it 
be financial, moral, or educational is, critical. It is 
extremely critical.
    We all know that in the workplace, any place, the 
leadership, who you are working for, who you are responsible 
for sets the tenor for where you are, sets the level of 
expectation and the quality of what goes on in that workplace, 
whether it be schools or anything else.
    So let us not leave the principals and superintendents, if 
you will, out of the professional development equation when it 
comes to support.
    Mr. Nye. It comes from the top.
    Mr. Pratt. Yes.

                          DC VOUCHERS PROGRAM

    Mr. Wolf. Well, speaking, just to take an opportunity to 
put this on the record on the top, I listened to my friend from 
Philadelphia talk about the D.C., about the Philadelphia 
schools. I am a graduate of the Philadelphia schools. Let me 
just send a message to Mayor Fenty. And you said you were here 
in the District of Columbia.
    The District of Columbia, the Congress in its wisdom with 
Congressman Davis put in a voucher program for kids in the 
inner city to have an opportunity to go to other schools. Ten 
thousand are using that. To the credit of the Washington Post, 
they have editorialized twice against the Congress for 
abolishing and ending that.
    And, yet, the strange thing is Mayor Fenty, who has done a 
great job with regard to the new superintendent Rhee, I have 
been very impressed with her, Mayor Fenty has been silent as 
these youngsters are now going to be forced out of these 
schools that they have taken advantage of the voucher and have 
to go back into the district schools.
    So when you talk about the principals and the 
administrators, where is Mayor Fenty on speaking out on the 
issue of whether or not this should continue because 10,000 
kids are going to be forced out of their environment and the 
schools that they are into back into schools that may not be 
going very well.
    But I am going to have a number of questions that we will 
then submit for the record. And I thank the Chairman for the 
hearing and yield back, unless you want to comment on Mayor 
Fenty not speaking out on the issue.
    Mr. Nye. Well, if it is Nationals versus Phillies, I am 
Nationals.
    Mr. Wolf. The Phillies and Robert Roberts was a better 
pitcher than anybody on the Nationals.
    Mr. Mollohan. We have ten minutes or eight minutes 28 
seconds. Mr. Ruppersberger----

                      Mr. Ruppersberger Questions

    Mr. Ruppersberger. Well, I assume your----
    Mr. Mollohan. Excuse me just one second. I will ask the 
witnesses if they can stay, we have four votes, if they can 
stay until after we vote. And can you?
    Mr. Nye. Absolutely.
    Mr. Mollohan. Okay. That will run us a little past twelve. 
But I think it is really an important hearing and we want to 
ask a couple more students' questions. Then we have some 
questions we want to go through.
    Mr. Ruppersberger.
    Mr. Ruppersberger. I assume your comment about the Orioles 
is that you are a Yankee fan? Is that the case?
    Mr. Nye. No.
    Mr. Ruppersberger. But, you know, with Brooks Robinson and 
Frank Robinson----
    Mr. Nye. Oh, it was fantastic. They were a great team.
    Mr. Ruppersberger [continuing]. Boog Powell.
    Mr. Nye. They played with seven guys and still win.

              SCIENCE EDUCATION AND THE REST OF THE WORLD

    Mr. Ruppersberger. Not anymore. We are working on that.
    I also agree with Congressman Wolf. I think you have some 
great teachers and anybody in the teaching profession, I 
respect. And a lot of my family is in the teaching profession.
    But I think a good principal is so important. You can tell 
15 minutes into school and a lot of times, we do not train our 
principals and we do not have the right people there. But that 
is not what my question is.
    I am on the House Select Intelligence Committee and I Chair 
a Committee that oversees all of NSA, all the space program, a 
lot of the science issues. And this Committee has jurisdiction 
over NASA, by the way, from a funding point of view.
    And in my role there, and I have been to China and other 
parts of the world in the capacity of being on the Intelligence 
Committee, and, you know, China just about a year ago graduated 
over 600,000 rocket scientists, mathematicians and engineers. 
And because they are not a democracy, China can tell them, the 
smartest people, you go into rocket science, you go into this 
arena or whatever.
    If we are going to be the nation that we are now and that 
we need to be, and we are slipping in a lot of arenas, so we 
have got to deal with it, I work with NSA and some of the 
people on their board, Microsoft is on their board, some pretty 
good people, very successful companies, and want to create a 
concept right at NSA in the Baltimore region to create a STEM 
school starting in middle school, and this is what China is 
doing, and really develop people in the Baltimore region, 
testing children to come to a STEM school at NSA where they 
will be able to have excellent teachers but focusing in the 
arena of math and science, but also the inspiration of being 
near NSA and NASA, Goddard is right up the street.
    And we have been working with the State superintendent, 
Nancy Grasmick, I do not know if you know who Nancy is, and the 
other jurisdictions there, and wondering if you have any 
comments on-- and I guess you probably, Mr. Pratt, might be 
able to answer this, but either one--on where do we go?
    In other words, what--developing the curriculum for this 
type of operation and if it works, we want to take it to other 
parts of the country. This would be a pilot program.
    I have been talking to the Gates Foundation and Gates, Bill 
Gates about it, and they are very interested in getting 
involved, having some of the big business community, people in 
the business community that are interested in STEM and 
developing our math and science. But we have to start early.
    The subjects from K-12, that we want to start this in 
middle school. What do you think is necessary to lay the 
foundation and what type of curriculum should we pursue on the 
focus of what I have told you?
    Mr. Pratt. Well, there is a caution involved here. In some 
respects, the kind of curriculum is not that different than all 
students should experience. Maybe the rate and the level of 
abstraction, the age in which ideas are introduced can be 
modified based upon the special experience and motivation and 
ability of those students.
    But I think there is a caution here that we do not want to 
be too symbolic. We do not want to say we are doing this in the 
name of STEM for a few students and, therefore, we have, and 
you did not imply this, but we have solved the STEM problem.

                             PILOT PROGRAM

    Mr. Ruppersberger. We wanted the pilot program to take it 
throughout the whole country.
    Mr. Pratt. And it can set a model, but it also sets a model 
that sometimes is not the most appropriate because there is 
always the notion that that does not apply to my students. That 
is not the equivalent of what my situation is.
    We need model schools for the poorest of students both 
economically and student-wise. We need to know how to work with 
those----
    Mr. Ruppersberger. But you are giving me a macro approach. 
I am more interested, I am working with this project, and I 
would like to know what you would do to develop curriculum? 
What type of teachers? Would you bring people that do not have 
as much specialty in the area of actual teaching education and 
bring in some former people, rocket scientists, maybe bring an 
astronaut in, you know, because we are not getting the students 
to go into this field that we need to?
    One of the issues is to have this near NSA and to have them 
involved in an intern type situation that this will be their 
goal and their motivation. This is what China does.
    Mr. Pratt. Well, if you could find another host, I mean, a 
school full of Bill Nyes, you would solve the problem. But it 
is not just the astronauts. It is a combination of astronauts 
and teachers.
    Mr. Ruppersberger. No question.
    Mr. Pratt. It is a combination of curriculum. It is the 
kind of instructional materials. It is the laboratory equipment 
that is available there. It is the questions that are asked of 
the students.
    Mr. Ruppersberger. It is a possibility of paying teachers 
more than they would normally be paid in the system. That might 
be a focus of where we----
    Mr. Nye. If you want to attract----
    Mr. Ruppersberger. Yes, go ahead.

                     ATTRACTING QUALIFIED TEACHERS

    Mr. Nye. If you want to attract people who would otherwise 
go to NSA to teach in the school, I imagine you are going to 
have to pay them somewhat more than you would pay other----
    Mr. Ruppersberger. And that is why we want the business 
community involved, to help us in that regard.
    Mr. Nye. So along that line, if you want the very best 
science students to attend this school, I believe you have to 
start at the elementary level. You have to support elementary 
science education before you start this filter or sieve or 
selection process for these people to go into that school.
    Mr. Pratt. At the risk of keeping Major League baseball on 
the table, you need a farm team.
    Mr. Nye. Yes.
    Mr. Pratt. You need a development team at the elementary 
and middle schools.
    Mr. Ruppersberger. Well, we need to take this type of 
curriculum to the whole country. And there are some areas of 
the country that do have pretty successful, but a few----
    Mr. Nye. Well, Bronx Science.
    Mr. Ruppersberger. Bronx Science?
    Mr. Nye. Yes. That is----
    Mr. Ruppersberger. So you are a Yankee fan then, right?
    Mr. Nye. No, no, no, no. Heavens.
    Mr. Ruppersberger. I agree.
    Mr. Nye. No. But this is a very successful model, the Bronx 
School of Science, you know, where people in the New York 
school districts compete to go to a technical high school. But 
my claim is that you have to start before people are in high 
school. So if you want the best people in middle school, you 
have to start before.
    Mr. Ruppersberger. That is interesting because we debated 
that back and forth working with the superintendent of 
Maryland.
    Mr. Nye. I will claim you ask anybody who works at the NSA 
in a technical position, there are probably, I do not know, 
tens of thousands of these people, when did they want to be 
scientists or engineers, when did they want to be computer 
scientists.
    Mr. Ruppersberger. Most of them, very early, and I have 
had----
    Mr. Nye. I was going to say it is going to be before they 
are ten.
    Mr. Ruppersberger. Yes.
    Mr. Nye. And the example I always give you is ask your 
physician, ask your doctor when did he or she want to be a 
doctor. It was long before they were ten. They will tell 
stories, yeah, I was looking at plants.
    And just my own experience, I used to watch bees. And then 
I read in Ripley's----
    Mr. Ruppersberger. Then you got stung.
    Mr. Nye. I got stung many times, yeah. It has not affected 
me.
    I read in Ripley's Believe it or Not that according to 
aerodynamic theory, bees cannot fly. And even as a very young 
person, I realized that was a bad theory. Bees do really well. 
I mean, they outperform helicopters pretty much.
    And so this passion and this interest happened long before 
I was in sixth grade.
    Mr. Ruppersberger. That is a great point. I have learned 
something here today.
    Mr. Nye. Well, good. I have learned a great deal.
    Mr. Ruppersberger. Do you always wear a bow tie just like 
you are branding?
    Mr. Nye. Yes. I wear a bow tie for a couple reasons. They 
do not slip into your soup. They do not flop into your flask. 
And I----
    Mr. Ruppersberger. I like it. It looks good on you.
    Mr. Nye. Well, thank you. Thank you. And----
    Mr. Ruppersberger. You started with the Orioles and I am 
just trying to play with you.
    I am finished my questions. How much time do we have before 
the vote?
    Mr. Mollohan. I would advise the members of the Committee 
we have 17 seconds.
    Mr. Ruppersberger. Okay. I really want to thank you.
    Mr. Mollohan. And probably scientifically it is impossible 
to get over there.
    Mr. Ruppersberger. And I think what you do, you are right 
on course.
    Mr. Nye. Well, thank you.
    Mr. Ruppersberger. Keep doing it.
    Mr. Nye. Let us change the world.
    So we wait here while everybody votes?
    Mr. Mollohan. Yes. You can wait here, take a break. We will 
be back. We have four votes. The next three, I assume, are five 
minute votes? Five minutes votes. Probably 20 minutes----
    Mr. Nye. We will be here.
    Mr. Mollohan [continuing]. Before we get back.
    Mr. Nye. Sir, we are here.
    Mr. Mollohan. Thank you. We appreciate it.
    Mr. Nye. Thank you.
    [Recess.]
    Mr. Mollohan. I thank the witnesses for their 
accommodation. We will continue the hearing with Mr. Wolf.

                           STARBASE QUESTIONS

    Mr. Wolf. Thank you, Mr. Chairman. Just a couple of short 
questions.
    Are you familiar with the STARBASE Program at the 
Department of Defense, either of you? You are not?
    Mr. Nye. No.
    Mr. Wolf. Okay. Well----
    Mr. Nye. It is an education program?
    Mr. Wolf. It is an education program. We can----
    Mr. Nye. Does it have an acronym?
    Mr. Wolf. It is a premier educational program sponsored by 
the Office of the Assistant Secretary of Defense. It provides 
students 20 to 25 hours of stimulating experiences all on the 
sciences. It is geared toward fifth graders. It says focus on 
elementary students, primarily fifth graders. The goal is to 
motivate them to explore science, technology, engineering, 
math, STEM, as they continue their education.
    I thought you would have known. I think it was started by 
Senator Byrd, I believe. And we are going to bring it to my 
district. Well, why don't you look into it? We will get you the 
material.
    Mr. Nye. Did you say 20 to $25.00?
    Mr. Wolf. No. Twenty to 25 hours.
    Mr. Nye. Hours, oh.
    Mr. Wolf. Yes, it has to be done at a defense installation. 
And we are going to be doing ours at our Armory, but they do it 
at the Air Force Base in Martinsburg. Well, take a look at it 
and we will get you the material.
    The other one is your comments about the Jason Program? Are 
you familiar with the Jason Program?
    Mr. Nye. Yes, sir.
    Mr. Wolf. Yeah. Could you tell us a little bit. We have it 
in my district. They are now based out in northern Virginia. I 
have been very impressed with them and Dr. Bell. What are your 
comments.
    Mr. Nye. Well, to me, it is maybe the perfect example of 
informal science education. Informal being defined as something 
not in the classroom. So you might think of it being rigorous 
and stuff when you are kid in the Jason Program, but it is 
generally outside of the curriculum. And to my understanding, 
it is very successful.
    Mr. Wolf. Well, I think it is now part of the curriculum. 
We have it in a number of schools in my district.
    Mr. Nye. Well, that is good.

                                DR. BELL

    Mr. Wolf. Well, do you ever talk to Dr. Bell? Do you know 
if----
    Mr. Nye. I spent some time with him.
    Mr. Wolf. Yes.
    Mr. Nye. He is very gracious.
    Mr. Wolf. Yes.
    Mr. Nye. And you talk about a compelling guy.
    Mr. Wolf. Yes, he is very, very impressive.
    Mr. Nye. And he is a classic example of someone who is very 
passionate.
    Mr. Wolf. He is, he can excite kids.
    Mr. Nye. I know that this Committee is responsible for 
funding NASA. Dr. Bell really emphasized the importance of 
studying the ocean.
    Mr. Wolf. Yes, NOAA too. I do not know what this 
Administration's budget will show. The last Administration was 
not very, very supportive of it. And I just wanted to get your 
comments. I am glad you think it is a good program.
    The other two questions quickly, do you think there should 
be some legislative provision that is put into law saying that 
any company, scientific company, Lockheed Martin, Raytheon, 
Boeing, that has government contracts must have a number of its 
employees donating time in the schools, scientists, because we 
find out in northern Virginia when SAIC or a company has its 
people coming into the school with a real hands-on program, a 
robotic program, if you will, but they are all doing it on a 
voluntary basis?
    Do you think it would make sense to either give a tax 
credit or put in the government contract that if they 
participate in any government contracts, then--I mean, Boeing 
lives off of government contracts--that they have to have so 
many hours of their employees to go into the schools where they 
live and to teach?
    Mr. Pratt. I would strongly support that. I had some 
personal experience a few years ago in one of my earlier 
retirement positions. One of my jobs was to align up local 
scientists and engineers to go into elementary schools on 
somewhat of a regular basis to kind of give them a surge of 
elementary science, if you would.
    So my job was to find volunteers anywhere I could, at the 
university level, at the hospitals, and especially in local 
aerospace industry.
    One of the biggest problems we had was to get the release 
of engineers and scientists who had government contracts. It 
was just the opposite. They had to account for every obviously 
minute or hour and assign that to each project they were 
working on.
    And so the administration, the management was very 
hesitant, if not resistant, to any kind of release because 
there was no place to charge that time. So I would strongly 
support the idea.
    Mr. Wolf. If I could ask you to give me a letter to that 
effect, and what I will do is I will contact the Department of 
Defense. Maybe if the Chairman is willing, we could put some 
language in, but to sort of say, because I think many would 
like to do that and, yet, on a procurement basis, they have a 
difficult time, to say that if you are participating in any 
government contract, so many hours, if you will, going in 
practical in the classroom. So if you could give me a letter to 
that effect. Do you----
    Mr. Pratt. This is not recent experience, but I would be 
glad to do it.
    Mr. Wolf. No. But just saying how important that is.
    Mr. Pratt. Oh, support the idea, definitely.
    Mr. Nye. For example, sir, in NASA, we have a civilian 
space mission.
    Mr. Wolf. All right.

                      OUTREACH EDUCATION PROGRAMS

    Mr. Nye. You are required typically to have ten percent of 
the budget go to outreach education.
    Mr. Wolf. I did not know that.
    Mr. Nye. Well, it is quite common. Anyway, my point being 
it sounds like there is an opportunity here where they do not 
want your government to contract you or reluctant to release an 
engineer to go teach in school. And you will find many 
engineers who are very enthusiastic about this. Maybe there is 
a way to change the accounting so that that could be credited 
toward their outreach budget.
    Mr. Wolf. Well, let us look into that. But I would 
appreciate a letter validating as much as you feel comfortable 
doing.
    Mr. Pratt. Oh, yeah.

                  CHINA VS. U.S. IN SCIENCE EDUCATION

    Mr. Wolf. The same with you, Mr. Nye.
    The other, if you had to compare us with China, how we are 
doing in sciences in the schools, do you think we are doing 
very well, do you think we are kind of holding our own, or do 
you think we are in decline?
    Mr. Pratt. There was an article in Science Magazine, a AAAS 
publication, maybe two weeks ago, a little education form 
article that compared achievement in three or four different 
areas and content knowledge and showed us very far behind, very 
far behind, lacking----
    Mr. Wolf. Who was?
    Mr. Pratt. The U.S. compared to China. It was a simple sort 
of U.S. to China comparison.
    Mr. Wolf. We will get that copy.
    Mr. Pratt. There was one interesting, maybe not ironic, but 
one interesting finding about that. They tested in like three 
or four different very specific content areas, and I think in 
the physical sciences, engineering physical science. And we 
were very deficient, except their was one test on the 
scientific knowledge or understanding of or ability to 
understand the scientific enterprise.
    And that particular subtest, the two nations were very 
equal. A bit ironic, but it may say something about the nature 
of science in China more than it does say about science 
education in China where it is so strictly oriented toward 
strong academic performance with very little experience in 
science. It was not the well-balanced education that we value 
so much in this country.
    Mr. Wolf. Of course, they are moving so fast. How about 
you, Mr. Nye? Are we doing very well, we are steady, or we are 
in decline?
    Mr. Nye. Here is what I will say. I have only been to China 
once, but I will say that the people you meet, these are 
academics, astronomers, rocket scientists, they are very 
hopeful about the future. They are excited about the future and 
they are excited about their science.
    So whatever disparities exist now are only going to be 
exacerbated. They are only going to get worse. China, the 
country and the people there are very excited to lead the 
world. They are excited about the future.
    With that said, keep in mind that about half of the people 
in China as of a couple years ago have never made a phone call, 
never made a cell phone call, never made a phone call. And so 
the Chinese government is working very hard to provide people 
with a basic knowledge.
    And this might be part of why that content knowledge so 
called seemed to be ahead, whereas the basic understanding of 
science as a process was about even. It might be because they 
are hustling. They are working hard to get everyone caught up.
    Mr. Wolf. Yes. They are surging in the space program, we 
have been told. We have 90,000 people in the space program, 
government and nongovernment. They have over 200,000. And you 
cannot do that for a long period of time.
    I worry that our young people, many are watching more video 
games, probably spending more time on violent Grand Theft Auto 
video games that are absolutely horrible, and if you think I am 
right, say so, and not putting it into the math and the science 
and physics and things like that.
    Mr. Nye. Well, about the Chinese space programs, may I 
comment just a little bit about that?
    Mr. Wolf. Yes.
    Mr. Nye. Bear in mind, everybody, that the Chinese space 
program and the Indian Space Organization, ISO, both of these 
government bodies are going to send people to the moon. They 
are going to try to send people to the moon. And this is an 
opportunity for the United States science and engineering 
community to work with these emerging space faring nations.
    I have heard as Vice President of the Planetary Society and 
a science educator a concern that the United States cannot lose 
the next space race. And as I understand it, the space race 
would be to the moon. Well, the United States landed people on 
the moon 40 years ago.
    So in a sense, the United States has already done this. And 
it was a time when everyone in the world was involved. Everyone 
in the world celebrated the landing of humans on the moon.
    So this is an opportunity to use things like the 
International Space Station to engage these emerging space 
faring nations and we will do that, I claim, with young 
scientists and engineers. The young, the emerging scientists 
and engineers from both nations or all three nations can work 
together to explore space.
    Mr. Wolf. All three being?
    Mr. Nye. China, India, and the United States. These are the 
emerging space faring nations. With that said, I mean, the 
European Space Agency is a terrific thing. It is great. But 
they, it has not reported that it intends to send humans back 
to the moon.
    Mr. Wolf. Well, I agree with you, but I have got to end on 
this for the record because somebody might actually look at 
this.
    China is a dictatorial country that is persecuting its 
people. It has a large number of Catholic priests and Bishops 
in jail today being tortured, a large number, 30, about 30. It 
has a large number of Protestant Pastors.
    If you need a kidney, for $50,000, you can go there. They 
will take your blood type. They will go into the prison and 
they will shoot somebody. And for $50,000, you can have a 
kidney transplant.
    They have plundered Tibet. We know what they have done it 
for. They are spying against us and stealing our secrets and 
weapons. They have had cyber attacks against a large number of 
members of the Congress and also Committees.
    So go into this with your eyes open. They are not going to 
cooperate only. They are going to be taking. They are going to 
be taking things. With the other countries, I completely agree. 
But, you know, I think everyone has this warm and fuzzy panda 
bear feeling with the Chinese. They are potentially a direct 
threat. And if they ever gain whereby they can surge ahead, I 
agreed with you and you have taken a little bit away, we should 
be number one in everything that we do. I think that is the 
exact thing. Too much cooperation with China will be they will 
take.
    Now, I believe I hopefully will live to see the current 
Chinese government fall and there will be democracy. The 
Chinese people are wonderful people, absolutely wonderful 
people. The government itself is evil. And so to cooperate with 
the current government in space, they will take and they will 
not give us anything.
    But other than taking China out of that, yes, with India, I 
agree and with Europe, I agree.
    Anyway, I appreciate your testimony. I thank the Chairman 
for having the foresight for having these hearings.
    I think the thing that you said the most that I believed 
in, if you lose them by ten, you probably lost them because you 
never hear, oh, maybe never is an exaggeration, but of somebody 
going to UVA and majoring in history and in their sophomore 
year transferring into physics. I mean, it just does not 
happen. I think your point is well taken.
    Now, maybe that is where the thrust should be for the 
National Science Foundation and the Department of Education to 
really put everything, knowing that we are limited in 
resources, everything we possibly can first, second, third, 
fourth, and fifth grade with the idea if we capture them then, 
and I wanted to be a congressman when I was in third grade, and 
so I think your point is well----
    Mr. Nye. It was before you were ten, right?
    Mr. Wolf. Well, yes.
    Mr. Nye. That is remarkable.
    Mr. Wolf. Yes. I knew. They asked me and I said, and I 
stuttered very badly, and the class would laugh at me. They 
would say, you know, you cannot even speak, who are you going 
to be. I was in third grade in elementary school, Patterson 
Elementary School. And I knew what I wanted to be.
    Now, I ran in 1976. I might tell you, this is not for the 
record, your brother supported me, he said, when I ran. He said 
he voted for me. This is not for the record. I lost in 1976. I 
lost in 1978. I won in 1980 and barely won. So your brother may 
be partially responsible for me getting my boyhood dream.
    I yield back. Thanks.

                            AMERICA COMPETES

    Mr. Pratt. One follow-up comment, if you would, please, 
allow me. A pointed suggestion, if I may. ``America Competes'' 
seems to be very much in the minds of the legislature right 
now. Please look at it very carefully with respect to its 
support for elementary science. My assessment is it is being 
undervalued and that particular piece of legislation.
    Mr. Mollohan. Thank you.
    Mr. Wolf, I am not sure what good it was making those 
comments not for the record. We may still be on C-Span and we 
are being web cast anyway.
    So thank you.
    Following up on a couple of lines of Mr. Wolf's 
questioning, this whole question of inquiry-based education 
versus content-rich education and the balance between the two, 
I know I wonder, because I guess I was not exposed to inquiry-
based instruction much, so I appreciate in the sense of having 
experienced content-based science and math education, where 
does one end and the other begin? And how do you assess 
relative value and then, of course, where is the balance 
between the two? I mean, is China being successful with its 
approach and are we just ambivalent and searching for our 
approach?
    And both of your thoughts on that, Mr. Nye first, please.
    Mr. Nye. Well, the expression content rich is, I believe, 
another way of saying learning facts.

                         Mr. Mollohan Questions

    Mr. Mollohan. Yes, as I am using it, that is what I mean.

                            HANDS ON SCIENCE

    Mr. Nye. And then inquiry based is another way of saying 
hands on or experiment or demonstration based.
    Mr. Mollohan. Yes.
    Mr. Nye. And, of course, you need both. And I will say that 
at the elementary level especially, you have to experience 
nature and the world around you with your hands and eyes, with 
your senses. It is very important.
    But I also claim people talk about trivia contests and 
trivia games and so and so being an expert in trivia. I will 
claim that the more you know, the more facts you know, the more 
trivial facts, seemingly trivial facts you know, the more you 
know.
    And by that, there is a skeleton or a scaffold that forms 
in anyone's mind. As you learn about the world around you, you 
learn about the planets, about the size of the earth relative 
to the size of the moon to the sun, to the plutoid Pluto. You 
learn about the length of a DNA molecule relative to its width 
relative to a meter.
    And so these facts give you a complete picture of the 
world. And so you have to have content rich education and you 
have to have hands on education.
    But I believe, and now I will hand it to Mr. Pratt. I 
believe we have neglected both aspects of elementary science 
education. And that is why we are here.
    Mr. Pratt. It is one of the burning questions we are all 
trying to face. Unfortunately, I think the dichotomy somewhat 
expressed in your question is an unnecessary dichotomy and we 
would like not to do an either/or. Inquiry is a powerful 
learning process of getting to information content and facts, 
if you will. So they very much go hand in hand. I would cite a 
source that I think might be useful to even read into the 
record, is that the NRC published very recently, in the last 
eighteen months, a report called Taking Science to School. And 
in there they cited four major goals for science education. And 
they pointed out, Bruce Albertson in a very recent address to 
AAAS and in an editorial in Science Magazine about two months 
ago pointed out that we only meet one of those, and the other 
three are missing in our education. And I will just cite those 
for you, quote them.
    The first one he says we do a reasonable job of is to know, 
use, and interpret scientific explanations of the natural 
world. That is sort of the content of science. The other three, 
and in his address he put all four of these on the screen and 
then said, ``This is what we think science education should 
be,'' and then he, the next slide the last three were x'd out 
or crossed out, because he said they do not exist. And I will 
just cite those for you. To prepare students to generate and 
evaluate scientific evidence and explanations. To understand 
the nature and development of scientific knowledge. And to 
participate productively in scientific practices and discourse. 
So we can put labels on that and call it hands on science. We 
can call it, as we like to almost today, call it minds on 
science. It is all a part of science education. It is all a 
part of the total education of citizens of this country with 
respect to science. So we do not want to see the either/or. We 
want to see a combination of the two. And that is not to 
downplay the importance of knowledge. It is not to downplay the 
importance of facts. Facts have an important role in the 
context of larger what we call big ideas and in the larger 
context of how we learn them and how we apply them.
    Mr. Mollohan. You do not want either/or.
    Mr. Pratt. Exactly.

                           GOVERNMENT FUNDING

    Mr. Mollohan. Where is the--how to combine the two 
successfully? Where is the recommendation to policy makers on 
how to do that? Where is the recommendation that as members of 
Congress, or state legislators, or the executive branches at 
the federal and state levels, where is the how to? And, coming 
from the experts, if your policy makers would fashion your 
programs thusly and fund them at this rate, you would achieve 
this balance that would make science successful from 
kindergarten through twelfth grade.
    Mr. Pratt. Let me start with two or three dimensions. 
Again, going back a little bit to my earlier statement about 
the comprehensive, systemic approach to it. I mean, there are 
several dimensions. One is starting with a standard. And if you 
look at the current national science education standards, as 
well as the benchmarks from AAAS, they address those outcomes, 
those goals. Unfortunately, very few schools, you know, address 
all four goals. And one of the reasons for that is the 
instructional materials, call it textbooks if you will, in 
many, many cases do not address that broad perspective on 
science education. The curriculum materials developed with NSF 
funding literally for the last thirty or forty years are well 
tuned to those four goals. They were not always expressed quite 
that way. But if you go back and examine those materials you 
will find them very supportive. That is the kind of 
professional development to support the use of those materials 
and that type of instruction and those broad based goals are 
what we, when we say professional development that is what we 
want to see in the training of teachers and principals, to go 
back to a previous question.
    And assessment. One of the problems is the assessments. 
Part of it is because of the technology of assessment. And I 
mean our ability to write the items, our ability to, you know, 
to administer them. The ability to measure those somewhat less 
fact oriented parts of the equation are not well developed. But 
we need to develop better assessment items or abilities, tools 
I should say.
    Mr. Mollohan. See, when I hear what you are saying I hear 
you saying, ``It is out there as a study. It is out there as a 
recommendation.''
    Mr. Pratt. We know how to do it. It is part of the research 
I alluded to earlier from NSF.
    Mr. Mollohan. And we know how to do it.
    Mr. Pratt. We know how to do it.
    Mr. Mollohan. Well, let me ask the question this way. Is 
there any place out there where it is actually happening? A 
model, an example of a school system where they really have 
done what Mr. Nye said at the very beginning of his testimony, 
namely everything all at once. We are back to this. And then 
you went through almost defining the elements of what had to 
happen in order to do everything at once. I am back to that.
    Mr. Pratt. All right.
    Mr. Mollohan. Where is it happening? I mean, I think it 
would be extremely instructional not only to, at the federal 
level, but down to the superintendent level if there were some 
consensus about how to and perhaps, and you are saying 
everybody has these recommendations. If there was some 
consensus which could perhaps be arrived at more at looking at 
where it has happened than hearing about it could happen.
    Mr. Pratt. It is always risky to give examples. But I will 
cite some school districts, because I am reasonably familiar 
with some of the investigation of this. Not as thoroughly as I 
would like to be. And this is not necessarily exhaustive, so 
bear with----
    Mr. Mollohan. But do you agree we have to get down----
    Mr. Pratt. Oh, yes.
    Mr. Mollohan [continuing]. To this in order to implement.
    Mr. Pratt. I think if you looked, if you looked across the 
neighbor, so to speak, at two of your neighbors, Fairfax County 
in Virginia and Montgomery County in Maryland.
    Mr. Mollohan. Well Mr. Wolf looks at them pretty much all 
the time as he represents----

                         GRADE SCHOOL PROGRAMS

    Mr. Pratt. You will find some very strong, excellent 
programs. At the elementary level, Pasadena, California; 
Gilbert, Arizona; El Centro, California in Southern California. 
A district that is, like, 80 percent under, you know, low 
economic level students, Title I students. Excellent, excellent 
leadership by a superintendent down there. They have brought 
science and literacy education into one and improved the scores 
not only in science but in literacy and mathematics by 
emphasizing elementary science. I mean, there are others I 
could cite. I could even go back to my home district of 
Jefferson County, Colorado and say you would find some 
excellent programs there, particularly in the elementary 
science, but K-12. So there are a number of those around.
    One of the problems is that you can always find excellent, 
excellent schools. The challenge to school districts, to the 
educational community, is what we call scaling up. How do we 
really take it from a few highly qualified teachers using 
excellent materials under strong leadership with a principal, 
and scale that up, if you will, to every school district, I 
mean excuse me, every school and every student in the district. 
That is the challenge.
    Mr. Mollohan. That is a buy-in issue, is it not? I mean 
that is a, if you actually have the examples that are 
applicable in different circumstances, urban, rural, whatever 
the different circumstances you all would acknowledge or 
identify, that is a buy-in issue, is it not?
    Mr. Pratt. Well, I am going to go back----
    Mr. Mollohan. In my, in my, excuse me, and just to get it 
down to where I can really relate to your answer. In my state, 
it would be getting it down to the county superintendent, 
really. And then, in turn, down to the principal. But it would 
also be, if we are going to do everything all at once, it would 
also be getting it into the education schools to teach teachers 
to be inspirational and also fact training. How do you do that?
    Mr. Pratt. Well, as they say that is the $64,000 question.
    Mr. Mollohan. Well, that is the question really we are 
looking to have an answer to.
    Mr. Pratt. You need leadership, to back again. But part of 
the problem with leadership, a leader has to be knowledgeable. 
And a leader has to have some experience. And what we know 
about buy-in is that it does not necessarily come up front, 
pre-implementation, pre-application. Buy-in comes from 
carefully thought out application of what we have just been 
talking about, if you will, the innovation, the quality 
materials, and a careful, shall we say, observation and 
evaluation of those, and seeing the success of those. That is 
where buy-in comes. It is when a school district or a principal 
says, ``I am going to do this. I am going to support it. I am 
going to gauge what happens very carefully.''
    And when the success begins to happen, and it does not 
happen overnight. Another major flaw in our thinking often is 
it takes a matter of years. That is when buy-in comes.
    Mr. Mollohan. Mr. Nye.

                        LEADERSHIP IN COMMUNITY

    Mr. Nye. May I ask a question of Mr. Pratt? Those school 
districts you mentioned, have studies been done about the 
environment? That is to say, about what goes on in that 
community? In Pasadena, for example, you have the Jet 
Propulsion Lab. And you have Cal Tech.
    Mr. Pratt. More Cal Tech than Jet Propulsion Lab.
    Mr. Nye. Well, the one is run by the other. Then in, what 
was another example, Montgomery County is the high tech 
corridor, there. Fairfax County, a lot of aerospace, and there 
is a lot of defense contractors. In the case of El Centro, 
there is a naval station there, right? And the couple times I 
have been to El Centro the Blue Angels are flying around all 
day. I am not kidding. And so I wonder if the people in the 
community who choose to go into the school system as 
administrators and teachers, they have to be influenced by the 
community that celebrates or embraces science and technology. 
So perhaps part of our overall strategy should be to make sure 
that every school district is somehow influenced or affected, 
by a high technology business. I know there is a lot of concern 
about earmarks, when I was a consultant to the Department of 
Justice on a military airplane as an engineer, I noticed that 
the pieces for the plane were being made all over the place. 
And there may be great value to that. There may be great value 
to giving communities a high tech business that affects the 
school district. And that has got to be, that has to be 
susceptible to analysis. Do we know, do we have information 
about that?
    Mr. Pratt. I am not sure that question has been asked. But 
the question about leadership, both at the district level, 
superintendent and the curriculum office, as well as local 
principals. That has been studied fairly extensively. And so it 
is clear that leadership makes a significant difference. And I 
would, I could probably even cite names in each of these 
districts, both at the superintendent, if I, you know, thought 
about it well enough. At the superintendent level as well as 
the local, what we call the science coordinator level, the kind 
of job I had for most of my career. It is that level of 
leadership.
    Now, sure they gain from the nature of the community. We 
all know that the community makes a difference. But there are 
enough exceptions in that list, El Centro being one of them. I 
do not think the naval base had much if anything to do with the 
success down there.
    Mr. Mollohan. Well it would be interesting if you would, 
for the record, submit a list of those, and perhaps, obviously, 
and perhaps that would be very instructive. And perhaps we 
could, you know, follow up and see what is happening in some of 
those communities.
    We often hear when we talk about this, or talk with experts 
about this, of successes in community rich, or communities rich 
in technology activities, and people who work in those 
activities. That those communities, that there is a 
relationship between the quality of the math and science 
education. And that goes along with the recommendation that it 
is great to have scientists teaching science. I do not know 
what percentage of the country is so blessed, but lots of 
places in rural areas are not so blessed. So we have to 
overcome that challenge of having the expertise and that 
attitude in the community, and that value of science in the 
community and its education, and what it means imported 
perhaps, or substituted in these areas that are not in the way 
I am using this communities that are rich in technology 
activities.

                      MONEY FOR SCIENCE EDUCATION

    Mr. Nye. Well, I think we have a real opportunity with the 
internet. If we make sure that rural schools, rural school 
districts, have very good electronic information systems, it 
certainly seems that we could export this at very reasonable 
cost. I mean, this should be, this should be a straightforward 
thing to do. There are people, I am sure, who are experts on 
how to distribute this information in an economical way.
    Mr. Mollohan. Yes. Let me point out that this Committee in 
the stimulus package includes in NTIA $4.7 billion for 
broadband expansion into the rural areas. Having provided that 
funding, it is another thing for those rural communities to 
take advantage of that. Because it is, that is, I wish it were 
a straight line. It is very difficult. But we are going to work 
that issue because we recognize how important that is.
    Well, I am very interested in models or examples of where 
this balance has been achieved between what I am referencing as 
inquiry based and content rich class, and how you do that in 
different academic environments. Let me ask you, we fund NASA, 
NIST, and NOAA. All three of them have education programs. We 
fund those education programs here at the Committee. And they 
often go beyond the traditional classroom setting. We are 
trying to fund activities that seek out and prototype, if you 
will, these balances. And try to support programs that are 
taking powerful math and science into the classroom, and 
teaching teachers to teach in that environment. Do you have any 
comments about the role of these agencies, or any familiarity 
with the programs that these agencies are engaged in in 
promoting this? And words of support for those activities by 
these agencies and consequently our financially supporting 
them?
    Mr. Nye. Well from personal experience----
    Mr. Mollohan. Opportunity to advertise, actually, here, and 
advocate.
    Mr. Nye [continuing]. That is a lot of, that is a lot of 
what NASA does in its outreach, is talk about how great space 
exploration is. And to put it rhetorically, what is not to love 
about that? One of the most compelling moments of my life was 
when a man from NASA came to my elementary school in 
Washington, D.C. and dipped things in liquid oxygen. And then, 
thank goodness, he set them on fire. And it was spectacular. It 
was as though he were holding rockets in his hand. And I think 
the reason it made such an impression on me was he loved what 
he was doing. He was passionate about it. So if there are 
people in these organizations that are passionate.
    My grandmother in order to pay the mortgage on her house 
took boarders, people who would rent rooms in her house. And 
one of them is a man who is still alive who worked for, at that 
time, the National Bureau of Standards. And he would take me 
upstairs and show me things through his microscope, astonishing 
things. Worlds I had never seen. And the reason that he was so 
influential on me is because he loved what he was doing. So if 
we, if we can declare that it is okay, or that it is a worthy 
pursuit of these government funded organizations that have 
roles to play in space exploration, weather monitoring, or 
climate monitoring, maintaining standards in scientific 
excellence around the world starting here, we provide those 
people the means to send people, send their people into the 
community in informal science. I think that is a, a very small 
cost with enormous dividends.
    Mr. Mollohan. These agency programs in education, Mr. 
Pratt?
    Mr. Pratt. I have mixed feelings, mixed experience. That 
means good and bad, is what I mean by mixed. And the bad is not 
that they are low quality. The negative side, first, is that we 
have some very serious problems that you and other members of 
your Committee have alluded to. Or not alluded to, it has been 
specifically addressed. Whether it be poor cities, whether it 
be low economic, you know, areas, whether it be 
underrepresented students, it is the quality of science at the 
elementary level, the amount of science. We have some very 
serious education, science education problems in this country. 
And I do not think they are being squarely addressed by the--
call them mission specific, or agency specific--programs. That 
is not to say, you know, we should not fund those and so I have 
to be very careful that I do not say that they are misdirected. 
I do not----
    Mr. Mollohan. We should make them better.
    Mr. Pratt. But we should make them better, and we should 
find a way, it takes some effort. It involves a combination of 
educators and the scientists in NOAA and NASA and NIST, as well 
as NIH and others that are not under your purview.
    Mr. Mollohan. Well, let us start with your recommendation.

                          QUALITY OF TEACHERS

    Mr. Pratt. Exactly. That is why I spoke about a mile wide 
and an inch deep. They are excellent programs but if you look 
carefully at them they may not, and usually do not, address 
specific standards. And they do not address the school 
districts, and the quality of teaching that we should address.
    Mr. Mollohan. Could you give us an example----
    Mr. Pratt. I will give you one example.
    Mr. Mollohan [continuing]. Of what you mean and how it can 
be related to that? And how these programs could be so 
directed?
    Mr. Pratt. Well, examples can get me into as much trouble 
as they can be of value.
    Mr. Mollohan. Well, this is your chance to help us.
    Mr. Pratt. I know.
    Mr. Mollohan. So an example would be helpful.
    Mr. Pratt. Two months ago I responded to an announcement 
that a group related to NASA and with NASA funding was going to 
present an all day Saturday workshop on the Kepler program, the 
Kepler mission, which of course, if all goes well, will launch 
tomorrow morning. I attended that session at the University of 
Colorado in some very nice space facilities there. There were 
three excellent presenters, workshop leaders, three of them. 
There were eighteen of us in attendance. We spent most of the 
day on some excellent activities which helped me much better 
understand some fundamental astronomy of solar, possible solar 
systems in the rest of the universe, and added a little bit of 
my knowledge of astronomy. But if I were a classroom teacher, I 
would have had, you know, a poster and a few ideas to take back 
to my classroom, but I do not think it would have done me 
anything fundamentally for the quality of my teaching, or my 
knowledge in this particular case in astronomy.
    Now, I understand, and I got excited about, and I will 
watch the results of Kepler. And I understood a great deal 
about the criteria for the, how do you find a star that might 
possibly have an actual planet associated with it.
    Mr. Mollohan. I am not understanding your example. I mean, 
the population we are trying to target here is K-12 teachers. 
We----
    Mr. Pratt. Now, I was not a teacher, of course, but the 
people in attendance were classroom teachers.
    Mr. Mollohan. I see, okay.
    Mr. Pratt. Middle school, mostly middle school, well there 
was one elementary. Middle school and high school teachers.
    Mr. Mollohan. Give us an example of where it works well.
    Mr. Pratt. The Explorer program where NASA has moved to. I 
mean, after many years, I think, of trying to determine its 
effectiveness and to some degree measuring its effectiveness, 
it is my understanding, having kind of watched and been a 
slight part of this----
    Mr. Mollohan. Is the Challenger----
    Mr. Pratt. I have seen NASA take its money, much of its 
money, and say, we are going to sponsor, I do not know what the 
exact number is but one or two schools per state and 
systemically, systematically to use my terminology again, work 
with the staff of that school in order to improve the quality 
of science teaching in that school. Now, they will be using 
NASA personnel when available. They would be using some NASA 
materials. But it goes far beyond that. It addresses the broad 
issue of the quality of the teachers, the instructional 
materials, and possibly even the assessment in those schools.
    Mr. Mollohan. Well, that is very helpful. Thank you. Mr. 
Nye?
    Mr. Nye. So Mr. Pratt, may I ask it this way? You are 
saying in the example of the Kepler mission, it took all day 
but it might not have been taught, and it promoted space 
exploration and it promoted NASA. But it might not have been 
tied to the science standards. Is that what you are saying?
    Mr. Pratt. Well, more specifically not tied that closely to 
the needs of classroom teachers.
    Mr. Nye. Yes.
    Mr. Mollohan. Okay, thank you.
    Mr. Nye. So these very well intending people, but somehow 
coming from within the agency without being tied to the, maybe, 
national standards. They are not using the resources as 
effectively as we might.
    Mr. Mollohan. Like strategic planning, or relating to 
something?
    Mr. Nye. But bear in mind, passionate people doing, they 
are enthusiastic about their business.
    Mr. Mollohan. Yes.
    Mr. Nye. Right.
    Mr. Mollohan. There have been accounts in the press, and 
otherwise we hear of the lack of science and math college 
degrees among those teaching those subjects in primary and 
secondary schools. And then there is the idea that teaching, 
good teaching techniques, a teacher can teach anything. What is 
the current situation? And is there a growing trend for 
teachers to get degrees in the, majors in the fields that they 
are going to teach rather than majoring in education?
    Mr. Pratt. Definitely. University education programs in 
many, many cases are becoming five year programs. So you 
assume, you start with a student with an undergraduate degree, 
in this case in science or mathematics, but not restricted to 
those. And then to some degree in their senior year, but mostly 
in a first year following, a first year of graduate school, 
they would do their education courses, do their practice 
teaching, possibly even do an internship in a local school 
district. So I cannot give you stats across the country but 
that is definitely the trend. You see some excellent examples. 
University of Texas has something called UTeach where they have 
a very strong program in that direction.
    It is a trend, now. And remember that schools are filled 
with teachers who, you know, have been trained previously. So 
we have a long ways to go even though we may be, we may be 
improving the current state of undergraduate teacher education.
    Mr. Mollohan. I had a group of West Virginians, and they 
are in the educational community, visit me a couple of months 
ago with the, I want to get this right. With the notion that to 
the extent we are able to introduce IB courses into high 
schools we advance the number of youngsters who go into math 
and science. And I can see, obviously, that correlation is 
obvious. The issue of getting IB courses in schools that do not 
have them is another question. But first I want to ask, 
Newsweek's Challenge Index measures the percentage of seniors 
in a school taking AP and IB courses. What common practices and 
what common characteristics exist in schools with the highest 
percentage of participation in AP and IB schools?
    Mr. Pratt. There are several things. Number one, you have 
to have a highly qualified staff.
    Mr. Mollohan. Yes.
    Mr. Pratt. I mean----
    Mr. Mollohan. First and foremost, probably.
    Mr. Pratt. Yes. To teach college level courses.
    Mr. Mollohan. And if you do not have that----
    Mr. Pratt. That is right.
    Mr. Mollohan [continuing]. Forget it.
    Mr. Pratt. And it also means facilities, to echo back to--
    Mr. Mollohan. Yes.
    Mr. Pratt [continuing]. A previous concern.
    Mr. Mollohan. So when you are going around----
    Mr. Pratt. You also have to have----
    Mr. Mollohan [continuing]. Trying to promote that----
    Mr. Pratt. You also have to have quality science education 
at the previous grade levels so the students are prepared to 
take, so they can come into the high school or their latter two 
years prepared to take these courses. Those are the major 
ingredients. I think one other less tangible, and maybe not as 
well known, is that many schools are encouraging more students 
to take these courses without necessarily forcing them-- well, 
what should I say? Without measuring the success of these 
courses by the number of students who get threes or fours and 
fives on the test, and therefore quality to be exempt of, in 
other words, encourage them to take advanced level courses, IB 
and AP being the best examples that are available to most 
school districts. But saying, we want you to take this course. 
We know you may not do quite as well as the very top students 
and so we do not want to preselect you because of any reason. 
You know, because of the nature of your previous education, and 
so on. So giving more students a chance to show what they can 
do by motivating them in these courses, even though they may 
not take the, they may not result in the fours and fives. So 
being a little careful about assessing the success of these 
programs by the number of students who really do test out of 
college courses. And saying this is a good experience for many 
of our students. I will not say all students. But a much 
broader audience of students than in the past.
    Now they are, you also need to know that the nature of at 
least AP courses are being challenged by a number of folks. And 
the College Board is making some strides in improving the 
quality of the courses so that they become more than just 
content, to go back to our previous question, just content 
grinding courses. And that they become, that they have a 
broader set of goals for science education, or physics 
education, or biology education. So there is a bit of a 
backlash. Not so much about the fact that we should not have 
students taking advanced courses, but the nature of the course 
sometimes are so narrow.
    Mr. Mollohan. Well, that does not serve the intended 
purpose.
    Mr. Nye. Well, it is once again, if you are not prepared in 
elementary school----
    Mr. Mollohan. Yes.
    Mr. Nye [continuing]. You are not going to do well on the 
Advanced Placement test. And yet, a lot of people are taking 
the Advanced Placement test. There is peer pressure to take it, 
and there is pressure on the teacher to take it. But it is not 
clear that it really makes you an advanced student.
    Mr. Mollohan. Well, thank you all very much for appearing 
here today. I just think it has been an excellent hearing. And 
the information which we have had the benefit of your providing 
will be extremely helpful to the Committee. And perhaps as 
questions arise, specifically one thing or another, we can call 
on you all to give us direction. It has been a special hearing 
because of all the students that were here. So as we express 
appreciation to you I want to end on a student question to both 
of you, each respectively. And end on an inspiring note.
    When and how did you first become inspired? Mr. Nye?
    Mr. Nye. I do not remember. It was so long ago.
    Mr. Mollohan. That will be disappointing.
    Mr. Nye. Let me say a couple things, though. First of all, 
in the room today is my older brother. And my older brother 
came out one day with a chemistry set, which as I recollect was 
a Gilbert which was made by the same company that makes Lionel 
Trains. Fabulous trains.
    Mr. Mollohan. I remember those.
    Mr. Nye. Well there is still a whole, Mr. Chairman if you 
have extra income that you are trying to dispose of, the toy 
train industry will be more than happy to help you. With that 
said, he put two chemicals in my hand and made a third 
chemical. And it was the same chemical that I smelled when my 
mother cleaned the windows. Now, this was ammonia.
    Mr. Mollohan. Yes.
    Mr. Nye. And this was like magic. But I realized even very, 
very young, before I had the use of very many words, I realized 
that he knew what was going to happen. That with this mixture 
he could predict the future. And that to me, that has compelled 
me my whole life. And I am almost sure it was the same summer I 
became fascinated with bees.
    And then another moment that is unforgettable, I had a 
rubber band powered airplane, still made. I am not a 
stockholder or anything, but it is the Sky Streak made by 
Guillows. They are still made. And just if you are into this, 
it has no landing gear so it has much better thrust to weight 
ratio. And so I had inferred, watching fish, that if you were 
to bend the rudder of this aircraft it would turn. And not only 
would it turn, it would bank. That there was some coupling, as 
we say in math, between the roll and the yaw. And so I threw 
it. And I had lubricated it at my older brother's instruction. 
I lubricated the rubber band with soap, with dishwashing 
detergent. And the thing turned three times. And it came back 
to me like a boomerang. Just right to my hand, like in a 
cartoon. And I realized that you could make aircraft and steer 
them, and you could predict the future. And this, I guess, 
changed my life.
    Mr. Mollohan. That is a great answer. Mr. Pratt.
    Mr. Pratt. I always want to be in science. I can remember a 
second grade textbook, textbook, it was not hands on science. A 
textbook that stirred me. I remember astronomy in the sixth 
grade, Bill, when I suddenly realized there was, I could think 
beyond the immediate both time and distance wise. I guess that 
is one of the stages you go through.
    The real question that I will expand on, or modify your 
question, is why did I decide to teach? I went through 
undergraduate and had a major in chemistry and physics, one of 
the few people in the State of Oklahoma at that particular 
time. And I was all set to accept a job that was offered to me 
without even, without even an application at the R and D 
department at Phillips, Phillips Petroleum Company in 
Bartlesville, Oklahoma. And April of my senior year I was 
walking down the hall in the science building and the chemistry 
professor, my major professor, chemistry professor, came to me 
and he said, ``Harold, how would you like to teach school next 
year?'' And I said, ``You have got to be kidding.'' I said, 
``You have got to be kidding.'' Why would I do that? And in 
Oklahoma that would be half the salary I would get as a 
chemist. And he said, ``Well,'' he said, ``I just, you just 
seemed to be the kind of person that I think would be good in 
the classroom.'' He said, ``Why don't you come talk to the 
superintendent?'' So he took me down the hall and introduced me 
to the superintendent in a small school called Perry, Oklahoma. 
300 kids in a high school. And for whatever reason, I decided 
to teach.
    I got married and went, had to do something in the Army to 
fulfill my draft obligation. Came back and landed a job as a 
chemist making good money, soft money. I only worked from eight 
to five, and I went home, and I could do anything I wanted 
after five o'clock. And I had that job for almost two years. 
And I read one day, this was in 1959 to be precise. I read one 
day that the National Science Foundation, I hardly even knew 
who the National Science Foundation was, was going to fund 
teacher education through summer institutes in something called 
academic year institutes. And I said, ``You know, if the NSF 
and therefore the government is that interested in the quality 
of science education.'' I really, this was almost the way, the 
thought that went through. ``If they are that interested in 
science education then, you know, I think I will go back into 
teaching.'' And I did. And I found a job in Colorado, which is 
a little better than Oklahoma as far as pay and teaching 
conditions are concerned. And it was one of the best decisions 
I ever made. Because I took advantage of every opportunity the 
NSF provided, both me and my school district, to this very day. 
Because I have seen what that kind of money, that kind of 
support can do for individuals and can do for school districts.
    Mr. Mollohan. Well, thank you both for those inspiring 
answers and for your testimony here today. This Committee is 
privileged to have you appear, and we are benefitted by that 
testimony.
    Mr. Pratt. Well, thank you for the opportunity.
    Mr. Mollohan. Thank you both.
    Mr. Nye. May I say one more thing?
    Mr. Mollohan. Please.
    Mr. Nye. Mr. Pratt really reminded me why I wanted to be 
the Science Guy. And this is serious. I was working at a 
company in Redmond, Washington, which is before Microsoft was 
in Redmond, Washington. And I was a young man. I was 
volunteering as a Big Brother, United Way Big Brother, and I 
was also volunteering at the Pacific Science Center which is, 
it is like a museum but a science center is traditionally a 
place where you can grab stuff. So it is a little different 
business plan. And I was working for people who were, or seemed 
to be, obsessed with making a profit every quarter. This was a 
big focus. And they were, I guess for no better word, they were 
terrified of anything made in Japan. Anything made in a 
Japanese company must be inherently better, must have better 
patent protection, must be less expensive, must be better for 
any customer. And then I got involved in a thing where they 
were charging some of my work, and my colleague's work, to the 
Space Shuttle program when it was not really associated with 
the Space Shuttle program. And so I decided that I was working 
at a place that was really focused on the past. They were 
focused on the wrongs that had been done to them and their 
entitlement rather than the future. So I quit, October 3, 1986, 
approximately. And decided to try to influence the future. And 
I will say by and large it is very, very rewarding to try to 
influence the future. And I thank you again for taking so much 
time with us this morning and this afternoon. Thank you.
    Mr. Mollohan. Well, thank you for influencing the future 
and for, in a very informed way, influencing the Subcommittee. 
Thank you both.
    Mr. Nye. Thank you.
    Mr. Mollohan. The hearing is adjourned.

    [GRAPHIC] [TIFF OMITTED] T1219A.051
    
    [GRAPHIC] [TIFF OMITTED] T1219A.052
    
    [GRAPHIC] [TIFF OMITTED] T1219A.053
    
    [GRAPHIC] [TIFF OMITTED] T1219A.054
    
    [GRAPHIC] [TIFF OMITTED] T1219A.055
    
    [GRAPHIC] [TIFF OMITTED] T1219A.056
    
    [GRAPHIC] [TIFF OMITTED] T1219A.057
    
                                           Thursday, March 5, 2009.

   WHERE ARE WE TODAY: TODAY'S ASSESSMENT OF ``THE GATHERING STORM''

                                WITNESS

NORMAN R. AUGUSTINE, FORMER CHAIRMAN AND CEO, LOCKHEED MARTIN

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. The hearing will come to order. Mr. Wolf is 
tied up in a meeting right now. He will be here momentarily, 
but he has asked that we go ahead. So we will do that by 
welcoming our distinguished witness today, Mr. Norm Augustine. 
Welcome back.
    Mr. Augustine. Thank you.
    Mr. Mollohan. It is a pleasure to have you back as a 
witness before this Subcommittee. This week we have been taking 
testimony on the state of science in the United States, and 
roles of four research agencies in our jurisdiction, NASA, NSF, 
NOAA, and NIST, in the overall science enterprise. This morning 
we gained insight into K through 12 science education and 
science teacher preparation.
    Following the issuance of the ``Rising Above the Gathering 
Storm'' report there has been a bipartisan effort to double the 
fiscal year 2006 funding of NSF, NIST, and the Department of 
Energy Office of Science over ten years. The report recommended 
10 percent per year increases for these agencies. The stimulus 
funding provided in the American Recovery and Reinvestment Act 
of 2009 increased fiscal year 2009 funding for NSF by roughly 
50 percent and for NIST by almost 70 percent, while NASA 
science received a boost of about 8 percent, and NOAA received 
about 20 percent of its annual total.
    In two of our earlier hearings we have heard of the 
important contributions of NASA and NOAA to the overall science 
enterprise, particularly in the physical and Earth sciences. 
Balancing funding for these four agencies is a major element of 
our Subcommittee responsibilities. Now we want to check on how 
well federal funding and policy are addressing the 
recommendations contained in the ``Rising Above the Gathering 
Storm'' report, and to hear from the principal author of the 
report. Welcome, Mr. Augustine.
    Your written testimony will be made part of the record, and 
I see that you are prepared to make oral comments. So if you 
will proceed, and welcome again.
    Mr. Augustine. Well, thank you, Mr. Chairman, and thank you 
for this opportunity to appear. I should correct the record. I 
suspect that you gave me more credit than I deserve. There were 
twenty of us that worked on `` The Gathering Storm'' report. I 
was one of those twenty, although I did of course chair it.
    The status of ``The Gathering Storm'' report is the subject 
of some complexity because of the number and the variety of 
recommendations that were made. You and the Committee, I am 
sure, are well aware that the report was requested by a 
bipartisan group from both the House and the Senate. There 
were, as I have noted, twenty of us on the Committee that 
performed the report for the National Academies of Science and 
Engineering and the Institute of Medicine. The committee 
included university presidents, CEOs, former presidential 
appointees, several Nobel Laureates, K through 12 educators, 
and so on. I am proud to say that two of our members are now 
serving in the President's cabinet.
    If this hearing were to have taken place just two months 
ago, I could have easily answered the question of what has 
happened since `` The Gathering Storm'' report was written. I 
could have reported to you that a new graduate university has 
been founded with an opening day endowment that equals that 
which took MIT 142 years to build. I could have reported that 
200,000 students were studying abroad, mostly on government 
funding, mostly in science and technology. Or that a short term 
25 percent increase in R and D funding is underway. Or that a 
program was underway to make the country a nanotechnology hub, 
a global nanotechnology hub. Or that an additional $10 billion 
was being allocated to K through 12 education, or an additional 
$3 billion to the current effort on research.
    If I had done that I would have had to tell you that those 
actions were being taken by Saudi Arabia, China, the U.K., 
India, Brazil, and Russia, respectively.
    In the U.S. during that same period of time one of our 
national labs putting its research staff and other staff on a 
mandatory two day a month unpaid furloughs. Another one of our 
national labs began laying people off altogether. Our nation's 
contribution to the international program in nuclear fusion was 
reduced to what was called by DOE a ``survival mode''. Industry 
continued to spend three times as much on litigation as it did 
on research. And I would suspect many would be scientists and 
engineers, young people, were reconsidering their career plans.
    Fortunately your hearing is today and not two months ago. 
The stimulus legislation, I believe, will have an enormous 
positive impact in the areas of research, science, and 
education. I would like in the time that has been allotted to 
me to quickly summarize the two most recent status reports that 
have come out with regard to these two key areas, one being 
education and one being science, innovation and engineering as 
a package.
    The one that refers to education is the PISA report. I can 
never remember what that stands for but it is Programme in 
International Studies in something. They conduct standardized 
examinations at several grade levels in thirty different 
countries. The results were released about three months ago. 
The Washington Post described them as showing that we were 
stagnating in science. But there was one bright spot, which was 
fourth grade mathematics. Putting aside the fact that not many 
corporations hire fourth graders, there is another significant 
issue here if one does a little mathematics of their own. My 
calculations show that if we continue to ``jump forward'', to 
use the Post's words, at the pace we have the last ten years, 
we will catch up, for example, with Hong Kong in just eighty-
five more years, assuming they do not get any better. Clearly 
we are on a path that is not going to be adequate in terms of 
educating our people in math and science.
    The second study was conducted by the Information 
Technology and Innovation Foundation. Its results were just 
released. They studied forty countries and have dropped the 
U.S. to sixth place in its innovation capabilities. But more 
importantly, when they looked at the last decade and ranked 
Nations according to the progress made during that decade, the 
U.S. ranked fortieth, dead last.
    I would like as a final comment to make a personal 
suggestion, not part of `` The Gathering Storm'' report. It 
stems from the fact that there are about 15,000 independent, 
with emphasis on ``independent'', school districts in this 
country. As I have traveled around some of those schools, both 
in this country and in many other countries, I have been struck 
by the fact that there are some truly bright spots. Here and 
there you find people who are really doing things right. It 
would seem to me that it would be helpful to take some of the 
suggestions that have been posed and to disseminate them 
broadly so that they could be replicated. To do so I think it 
would be useful if the Congress and the President were to 
appoint a commission, involving educators, but not headed by an 
educator, to survey what are best practices? What are those 
bright spots in the U.S. and abroad? What are their 
ingredients, how can we replicate them? And what are the common 
features that they have? This is something that each individual 
district cannot reasonably do. But they could certainly benefit 
from it.
    Mr. Chairman, that concludes what I had to say in my 
opening remarks. I would be happy to take questions.
    [Written testimony of Norman R. Augustine follows:]

    [GRAPHIC] [TIFF OMITTED] T1219B.001
    
    [GRAPHIC] [TIFF OMITTED] T1219B.002
    
    [GRAPHIC] [TIFF OMITTED] T1219B.003
    
    [GRAPHIC] [TIFF OMITTED] T1219B.004
    
    [GRAPHIC] [TIFF OMITTED] T1219B.005
    
    [GRAPHIC] [TIFF OMITTED] T1219B.006
    
    [GRAPHIC] [TIFF OMITTED] T1219B.007
    
    [GRAPHIC] [TIFF OMITTED] T1219B.008
    
    [GRAPHIC] [TIFF OMITTED] T1219B.009
    
    [GRAPHIC] [TIFF OMITTED] T1219B.010
    
    [GRAPHIC] [TIFF OMITTED] T1219B.011
    
    Mr. Mollohan. Well, what was the bright spot?
    Mr. Augustine. The bright spot was fourth grade arithmetic, 
where we improved.
    Mr. Mollohan. And is that by way of emphasizing all of the 
unbright spots?
    Mr. Augustine. I think that is what the media was doing, 
yes.

                         SCIENCE AND EDUCATION

    Mr. Mollohan. Well, that is a bright spot because that is 
the grade that some of the witnesses have identified as the 
point where interest in science and math drops off unless it is 
strategically nurtured from that point forward. So at least we 
have a good point, or a trending toward a good point, to pick 
up and to think about.
    Well let me ask you if there are any bright spots with 
regard to NSF and maybe NIST, and the Department of Energy 
Office of Science, those three agencies that were targeted for 
doubling. And I think we, just recently with the stimulus 
package, assisted in that goal. Are you able to comment 
specifically on the trend lines in those agencies? And are 
there any positive signs coming out of that?

                      NATIONAL SCIENCE FOUNDATION

    Mr. Augustine. I think there are. I think, for example, 
that NSF is truly a national asset. The things that make NSF 
particularly strong, in my judgment, include the fact that a 
good part of its staff comes in for a few years, contributes, 
then leaves--and then a refreshed staff comes in. I think it is 
particularly important at NSF that they rely heavily upon peer 
review for their grants. I have been amazed at NSF's ability to 
tackle a diversity of challenges. You may recall, Mr. Chairman, 
some years ago, I guess eight or nine years ago, I chaired the 
Commission on Antarctica, where it was decided to build a new 
station at South Pole, this is an incredibly difficult 
logistics undertaking . . . sort of the last thing I would 
expect an organization of scientists to be good at. And they 
did, in my judgment, a marvelous job. I think there are many 
bright spots, both in terms of management capability and in 
terms of NSF's use of funds.
    I think that other agencies also have their bright spots as 
well. One of the brightest is a potential one at DOE, ARPA-E, 
which of course your bill has funded, and I think will fill an 
important need if it is properly implemented. The latter is 
important. We learned a lot of lessons with ARPA and what made 
it, or DARPA, what made it successful. Hopefully we can apply 
those same lessons at ARPA-E. I believe Secretary Chu is well 
qualified to do just that.
    I think you mentioned NIST. Of course, NIST is renowned for 
its expertise in the specific areas with which it deals.
    Perhaps I should mention at this point that the National 
Academy study sought to find a centerpiece to bring together 
the various recommendations it made. We wanted to find a 
centerpiece that permeated the many issues that affect our 
country. A centerpiece was extremely important; a centerpiece 
that resided in the area of principle concern. In our view, 
that was the physical sciences, engineering and mathematics . . 
. Just as, for example, the Manhattan Project in World War II, 
or the Apollo project after Sputnik. We chose energy as our 
centerpiece. In so doing it was not that we thought the NIH or 
NASA or the DOD or NIST were less important. It was just that 
they did not happen to directly fit our particular centerpiece. 
So we just did not talk much at all about them. I should 
emphasize that point.

                       THE GATHERING STORM REPORT

    Mr. Mollohan. Well, talk about that a little more. Dr. 
Cicerone when we asked him why NASA science and NOAA science 
were not included in `` The Gathering Storm'' report, his 
notion of it, without going into any detail, was that the 
report was of high quality but quickly done and felt that 
perhaps those accounts just were not looked at. Is that the 
case? Or tell us why science in those agencies was not 
addressed?
    Mr. Augustine. I think that is certainly part of the 
explanation. I hesitated to mention that factor because it 
sounds like an excuse, sitting where I sit today and having had 
responsibility for ``The Gathering Storm'' report.
    Mr. Mollohan. Well, I do not want you to misunderstand. 
Believe me, Dr. Cicerone had nothing but praise for `` The 
Gathering Storm'' report. But he was just thinking that, maybe 
that was the direction understood to go, and in the time frame 
that is the direction you went.
    Mr. Augustine. Yes. We found ourselves with ninety days to 
do the report.
    Mr. Mollohan. Yes, and that is the point.
    Mr. Augustine. Which frankly we welcomed because we all had 
other things we had to do in life. Also, we thought that if you 
cannot get ideas in ninety days you are not likely to get them 
in 900 days.
    Mr. Mollohan. Yes.
    Mr. Augustine. So we were very comfortable with that 
notion. The available time was certainly a factor. We did not 
have time to fill out the entire pattern. But in my mind the 
more significant thing was that we tried to pick a centerpiece, 
we picked energy. DOD, and to some extent NIST and NOAA and 
NASA, although having some connection, it is nowhere near as 
direct as NSF and DOE.

                       SCIENCE ISSUES AT AGENCIES

    Mr. Mollohan. Well, let us talk about science, if we might, 
just in these agencies. The stimulus package does give them a 
shot in the arm, so to speak. And for those that are the 
subject of your report, I think the stimulus pretty well put 
them back on a ten-year track where they were before. Is that 
enough? I mean, are we doing in NSF and NIST what should be the 
baseline upon which we consider future increases? There have 
been some who have indicated you need to be careful with that. 
You need to be careful it is not ramping up too quickly, and 
they cite NIH. That ramping up too quickly creates instability 
in the, and ups and downs cause problems that ripple through 
those programs. So we are looking for balance. And if you 
cannot do it in specific numbers or percentages, maybe you can 
talk to the issue of balance generally. And if you can talk 
with us specifically, that would be great in regard to NSF and 
NIST, and indeed the Department of Energy, although we do not 
fund it.
    Mr. Augustine. It is an important issue. We compared the 
investment in this country with investments in other countries 
in science using many different measures. Unfortunately many of 
these are input measures, although we also looked at a few 
output measures. The input measures we looked at included 
percentage of the GDP, which is a particularly important 
measure because it gives an indication of what you have to 
support, how big the train is that this engine has to pull. 
Investment per individual, per capita; investment in absolute 
terms. We looked at trends within this country of spending. The 
conclusion we arrived at was that for at least five years it 
would be appropriate to spend at the maximum rate at which we 
could spend efficiently. At the end of five years, stop, take a 
look at what we got for our investment. Also look ahead and see 
what others have done and what the requirements might be.
    So the question boiled down to, ``what can you spend 
efficiently?'' This is not without controversy. But as we 
looked at our academic system, including the number of 
researchers available in key areas, the facilities available, 
and most importantly, the overall ability to efficiently absorb 
and manage fund increases. There is certainly some level that 
there will be waste. We saw the NIH's efforts had taken five 
years. That is about 14, 13 percent increase a year. So we 
proposed 7 years, which is about 10 percent a year. That looked 
to us to be an appropriate round number. It may be eight, it 
may be twelve, I candidly would not know. But it is like 10 
percent.
    Mr. Mollohan. I see.
    Mr. Augustine. We felt that amount could be efficiently 
spent. We said, set out for seven years, but spend at the 
maximum rate that you could efficiently spend at, then stop and 
take stock of where we are.
    Mr. Mollohan. So we are a couple of years from that point, 
although we are continuously taking stock of that.
    Mr. Augustine. Yes. Obviously you would need to be 
assessing each year how things are going. But we are several 
years away from any assessment because during the first two 
years we did not accomplish much--to be very candid.
    Mr. Mollohan. After the hearing started Mr. Aderholt was 
the first person in the room. Mr. Aderholt.
    Mr. Aderholt. Yeah, I just stepped out. Go ahead and 
recognize----
    Mr. Mollohan. Okay. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. Welcome back.
    Mr. Augustine. Thank you.

                           SCIENCE EDUCATION

    Mr. Honda. You know, the last time you were here we were 
discussing the issues that were brought out by your work on `` 
Above the Gathering Storm.'' And in your written testimony 
here, this is the third year post-report. A couple of years ago 
you said that there was no changes that were evident in the 
outcomes of student achievement between `` Gathering Storm'' 
and `` Nation at Risk.'' And so that started me to think. But 
at that meeting I also asked you a question about innovation 
relative to education, and here in your concluding paragraph 
you said there are a couple of things that the two most recent 
studies bearing on America's evolving position with regard to 
key ingredients of the 21st century, competitiveness, 
education, and innovation. Now I asked you the question, how 
difficult would it be to teach innovation? You and the other 
person that was with you sort of said, `` Well, it is pretty 
difficult because it is something that is innate in folks.'' Do 
you still hold that opinion?
    Mr. Augustine. I still hold that opinion. It is difficult 
to teach innovation, Mr. Honda. But I think that an environment 
can be created where students could learn it. And I believe one 
can promote that learning, which I guess is called teaching. 
But in terms of just laying down a set of rules, which I have 
actually tried to do, that you should follow is inadequate. 
Innovation requires more than that. I think it requires 
experience. It also requires an educational curriculum that 
permits creativity. For example, I have visited schools in both 
Singapore and the People's Republic of China. They too are 
concerned that their educational systems, which by most 
measures are as fine as you can get. They are concerned that 
they do not provide for innovation, for initiative, for 
creativity. And they are trying to do something about it.
    Mr. Honda. Right.
    Mr. Augustine. When you try to promote innovation it means 
proposing challenges to a person that they have to meet. It 
means permitting them to fail occasionally, and not to have the 
punishment for failure be inordinate.
    Mr. Honda. Okay.
    Mr. Augustine. It has to encourage people to take risks.
    Mr. Honda. Okay.
    Mr. Augustine. To think out of the box.
    Mr. Honda. Okay.
    Mr. Augustine. And, when someone comes up with an idea that 
is contrary to the accepted belief, if they are roundly 
criticized for that they are not likely to be very good 
innovators. It takes a nurturing environment.
    Mr. Honda. But you just introduced about five or six 
teachable kinds of behavior, and that you can create an 
environment so that you can observe this creativity. And it 
seems to me that when I visit the high tech offices in IBM and 
Lockheed Martin, and you look on the walls you have all your 
engineers that have an expression of all the number of patents 
that they have. Most of them have one or two. Some do not have 
any. But every once in a while you have spikes. Now, one would 
conclude that they must be pretty creative, thoughtful, 
innovative. And it would seem to me that one could talk to them 
and ask them questions and sort of elicit the kinds of insights 
they may have, and then take this and convert that into, maybe 
I should not say instruction material, but, incorporate that 
into instruction so the youngsters will be encouraged to be 
creative. It is like asking youngsters, so what will the world 
be like if your eyeballs were at the end of your fingertips? 
How would things change? And my students would say, well, I 
cannot pick my nose or I will not be able to see. Or I could 
wait for girls and just do this around the corner. But that is 
another way of thinking.
    So for a person like yourself it seems to me that one would 
sort of look for other people that would help us go through 
this initiative looking at innovation, and then find ways to do 
that. Because if innovation is key to competitiveness, and you 
can recognize it, it seems to me we should be able to distill 
it into discrete kinds of environments or behavior that can be 
replicated in the classroom so that we can have youngsters 
practice it. We say we want critical thinkers. How do we know 
we have critical thinkers? It is the way they think and they 
ask questions. And so I would ask that you, you know, sort of 
cogitate that again because I think that this is one of the key 
things that we need to look at in order to, you know, close 
that gap that we are all looking at.
    My last question, Mr. Chairman, would be this. How would 
you define the term equity in the context of public education? 
And what would it look like for each child? If we are assessing 
youngsters with assessment tools, and then we are judging 
whether they are successful or failures, if we do not do it 
right in the beginning with a child then are we not determining 
whether the system has failed, that we failed them, rather than 
anything else? And where does rigor play in this when we 
compare ourselves to other countries?
    Mr. Augustine. You always ask very difficult questions.
    Mr. Honda. But I do not have that much chance to talk to 
you.
    Mr. Augustine. Regarding the question of equity, I have not 
thought a great deal about that, to be candid. If I were on the 
spur of the moment to try to define what would be equity, it 
probably would be something like being certain that we have a 
system that affords every child the opportunity to maximize 
their ability to contribute.
    Mr. Honda. Sure.
    Mr. Augustine. Unfortunately, we do not do that today in a 
lot of areas.
    Mr. Honda. Is there a reason why?
    Mr. Augustine. I think there are many reasons. Many of them 
come down to economics. I am a Regent of the University System 
of Maryland. I spent a lot of time recently with regard to the 
broad issue you raise. American universities lose about half 
their students along the way. A good part of those are because 
there is a chasm between what it takes in this country to get a 
high school diploma and what it takes to succeed as a college 
freshman, particularly in science, engineering, and math. The 
youth may have that diploma, but they are ill prepared to take 
on college work because of poor quality K through 12 education. 
That is one big problem.
    The other large problem is a financial one, that a lot of 
our students have to drop out for financial reasons even though 
they are performing fairly well. Also, holding jobs part time 
makes it even more challenging to perform well academically. I 
think those are all ingredients to the issue.
    If I might, I would like to come back to your question 
about innovation. Ironically, I think we are very good at 
innovation in this country. I think it is one of our strong 
suits, particularly in our universities, where critical 
thinking is the coin of the realm. It is not only welcomed but 
it is encouraged. In the company I had the privilege of 
leading, when I was there I think I had about 80,000 scientists 
and engineers working for me, I would be very confident that 1 
percent of them got 90 percent of the patents for us. As you 
say, there are those spikes. We have to find the people who can 
produce those spikes and give them the opportunity to create. 
In science, the same people write the articles over and over. 
The same people come up with the new ideas. Those people are 
the treasures that will keep the rest of us employed.
    Mr. Mollohan. Thank you, Mr. Honda. Ranking Member Mr. 
Wolf.
    Mr. Wolf. I thank you, Mr. Chairman, Mr. Augustine, 
welcome. I apologize. I have been apologizing to the witness. 
Governor Baliles was in my office and we were working on a 
project, and I just could not leave. And I wanted to be here.
    One, I want to thank you for what you did on the Gathering 
Storm. If there was any bright spot, that was the--that was the 
only bright spot. I quickly went through your testimony. And it 
looks like you are really not that optimistic. Is that a fair 
statement, or do we want to just summarize what I think I know, 
what I may not know?
    Mr. Augustine. I think, Mr. Wolf, I would characterize----
    Mr. Wolf. Are we doing better, or even, or worse than you 
thought--hope we would do?
    Mr. Augustine. The question is what we are doing better, 
even, or worse?
    Mr. Wolf. Yeah, compared to when you did the Gathering 
Storm----
    Mr. Augustine. The Gathering Storm----
    Mr. Wolf [continuing]. The great report. Now where are we?
    Mr. Augustine. I think I would say that with regard to the 
stimulus legislation, one robin does not make a spring even 
though it is a fairly--a robin on steroids, I guess you would 
say. Or maybe you wouldn't say that here! But my belief is that 
you have taken an immensely important first step. I am much 
more optimistic than I was two months ago.
    I think we have continued to lose ground over the last 
three years relative to our competitors abroad. I think that 
one of the challenges is that we didn't get ourselves into this 
predicament overnight. Unfortunately, we won't get out of it 
overnight.
    As the Chairman points out, we are talking about 
influencing fourth graders that 15 years from now will have a 
Ph.D in science. If what we do is put a big spike in the system 
and don't follow it up, I don't mean we have to have a spike 
every year, but we need to follow it up. If we don't, I think 
we will make many things worse, because if we put a lot of 
money into research and don't have researchers, that money will 
either go abroad or it will be wasted. Follow up is critical.
    But, Mr. Wolf, I am always optimistic. I am much more 
optimistic than I was two months ago. But I still think that we 
are in a very vulnerable and exposed position.
    Mr. Wolf. Well, I don't know that--you know, I don't think 
I am that optimistic. Is there a reporter here from the ``New 
York Times''? Is the reporter here from the ``Washington 
Post''? Is the reporter here from the ``Wall Street Journal''? 
Is the reporter here from the ``Chicago Tribune''? I mean, it 
is just not being covered.
    Also I think part of the problem is that giants--you are 
one of the few giants that have really kind of left. The giants 
have left the field. I can't really think of many giants in the 
business community anymore. And when they speak really carry 
such tremendous weight. I think you do. There are still a 
number, but not to the degree that it used to be.
    And the concern that I have, and we are trying to do 
something about it, is the country is broke. We are absolutely 
broke. We have run out of money. And Jim Cooper and I, 
Congressman Cooper, a Democrat, we have a bill in. We can't get 
it out of this institution. This is the most political, 
partisan institution. I have served for 28 years that I have 
ever been in. I mean, it is very, very. And so each side is 
looking to how they can make the point against the other side.
    And so we have a commission that puts every spending 
program on the table, Medicare and Medicaid, Social Security, 
and tax policy, and does it in a way that say we don't do that 
so we can have a tsunami in the country. But if we do do it, we 
can have a renaissance in this country. We can create more 
jobs, put more money into math, and science, and physics, and 
chemistry, and biology, and cancer research, and research on 
autism, and research on Alzheimer's, and just kind of to change 
America.
    And we are having a hard time moving it. We have the 
support. David Broder supports it. David Brooks supports it. 
David Walker supports it, Pete Peterson. But we can't get it 
out of this place. We just can't get it out.
    They are not having enough problem in China. I mean, they 
are moving ahead and doing things. So I don't know that I am as 
encouraged that you would be. My wife and I, we have five kids 
and we have 13 grandkids. We are going to have another one. We 
just got a call two nights ago. I think that is going to be a 
very bleak situation unless some fairly dramatic thing is done.
    So, one, I would hope you would speak out for our 
commission with Walker, and with Peterson. And Business 
Roundtable supports it, NFIB supports it, the Concord Coalition 
supports it, Senator Rudman, Republican/Democrat, totally 
bipartisan. We can make sure we have the resources to kind of 
focus and put it in here for the future for these young people 
that are here. That is the first thing.
    Secondly, the staff said that you recommended that we 
should have a commission or an advisory group that goes around 
and looks at some of the best things that have been done.
    Working with the Chairman, you know, we will work with you. 
I think I am going to offer that amendment here. I am going to 
offer that in the markup, or however the Chairman wants me to 
do it, or on the floor. And I think you should give us some 
ideas. Should this be a fast--a six-month turnaround? I mean, I 
don't think we have to have a two-year commission. And so we 
can look at some of the best things. There are a lot of good 
things going on at Thomas Jefferson High School in Northern 
Virginia. A lot of good things going on around the country.
    If you could give us how you think it should be crafted, I 
will offer that amendment. You tell me what you think the 
necessary resources should be. If you tell me who you think 
should, not names, but types of people that should serve on it, 
I will offer that. And we will call it the `` Augustine 
Commission to Bright Sunshine One'' rather than `` Gathering 
Storm One.''
    So we will try to do that. I will do it whether it passes 
or not, we will find out. I am also going to send you the 
material that we have on our--on our commission to get--to get 
control where we are, so we do have those resources.
    I mentioned the other day, I forget what witness, two 
months ago I was on the train. I took the train from Washington 
to New York City. Have you ever done that?
    Mr. Augustine. Many, many, many times.
    Mr. Wolf. The next time you do it, don't read your book and 
don't read the paper. You can sit on either side of the train. 
And look at the factories. They are closed.
    Mr. Augustine. I have observed that.
    Mr. Wolf. Graffiti is on the side of the wall, MS13 
graffiti. The windows are broken. The weeds are growing. In 
fact, some of the weeds are growing out of the windows. And you 
come through my old neighborhood. I am from southwest 
Philadelphia and South Philly. You go right through my old 
neighborhood. There was the largest General Electric factory I 
think in the world was there. It was GE switch gears. It is 
gone. You go back to my old neighborhood, the stores are 
boarded up. The factories have been broken into by drug 
dealers. You know, they don't make anything. And there is that 
bridge, the sign on the bridge, up in Trenton.
    Mr. Augustine. ``Trenton Makes, The World Takes.''
    Mr. Wolf. Yeah. What does Trenton make anymore? It should 
say the world makes and Trenton takes. And so we want to do 
this commission similar to yours. But we want to mandate that 
Congress has to vote on whatever the recommendations are.
    I mean, I think if we could have had Gathering Storm with 
base closing commission language that would have required that 
Congress to vote up or down. Then it will force, because, you 
know, a lot of the people in this business, they love to give 
the speeches in the Rotary. They love to say, you know, 
America's best days are yet ahead. And the sun has barely begun 
to rise. And yet on some of these things that will make 
America's best days ahead for my grandkids and your grandkids, 
we are not kind of--we are just not kind of doing it.
    So I want to thank you for your effort, too. We will offer 
that if you can be in touch with my office. I think you would 
have a fashion.
    And the last question is I would ask you, as I have asked 
others, how do you think we are comparing to doing in 
comparison today? And interesting, every member of the Chinese 
bureau is an engineer, every single one. How do you think we 
are doing in comparison? If this were a footrace, a race which 
we are in, a race of a wonderful country--my grandparents came 
here from another country, a wonderful country that has had 
great opportunities. That has probably put in 80 percent of the 
food into Darfur. That is doing amazing things to help people 
around the world, in competition with a country, China, that 
has Catholic bishops in jail and plundering Tibet.
    How do you think we are doing in comparison to what I 
call--as Ronald Reagan gave that speech, the `` Evil Empire,'' 
as I call a very evil government. How are we doing, America our 
country, in comparison to China today?
    Mr. Augustine. To use your footrace analogy, we had the 
good fortune in this country of starting out years ago with 
about a 20-yard lead in the 100-yard dash. It is probably more 
of a marathon now. But we started out with a good lead, and we 
have been gradually consuming that lead.
    Today, I think we are still very much in the race. But we 
are losing ground rapidly. I don't think we are yet at the 
tipping point, but I think we are getting close. By tipping 
point, I mean to where it is very difficult, if not impossible, 
to turn things around.
    I think that your comments about bipartisanship, or 
nonpartisanship, or whatever, if there is anything in the world 
we should be able to agree upon, it is educating our children 
and creating jobs for our people and not just scientists and 
engineers, but for everyone. Maybe that is the reason we have 
been able to keep this process, this particular issue, fairly 
nonpartisan.
    Probably there are many in this room besides myself for 
whom education made all the difference in their lives. I was 
the first in my family to go to college. I was the second to 
attend high school. But there was a chance to go to college. 
Many people paid my way whom I have never met. That totally 
changed my life, and hopefully any contributions I might have 
been able to make along the way.
    We must pay attention to education and creating jobs 
through science--that is where jobs get created today. Fifty to 
eighty-five percent of the GDP growth is attributed to 
advancements in science and engineering. That is why I think 
those fields are important.
    And, Mr. Wolf, I would be honored to work with you on 
putting some meat on the suggestion that I made to create a 
commission. I think it is a six-month commission.
    Mr. Wolf. Will you serve on it?
    Mr. Augustine. I am not looking for a job, but yes.
    Mr. Wolf. Oh, yeah. Well, it is not going to be a----
    Mr. Augustine. Yes.
    Mr. Wolf. Okay, good.
    Mr. Augustine. Yes.
    Mr. Wolf. We will drop it in and keep you----
    Mr. Augustine. Two stipulations, sir. One is that I not be 
paid and the other is that I don't have to fill out all 10,000 
forms you have to fill out whenever you do anything for the 
government.
    Mr. Wolf. Okay. We will be in touch and work with you.
    Mr. Augustine. The effort will take about six months.
    Mr. Wolf. And thanks for your--thanks for your----
    Mr. Augustine. Thanks for your kind words.
    Mr. Mollohan. Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman. Thank you for being 
here today. You talked about the major challenges that still 
remain. And one of the things that you mentioned in your 
opening remarks and in your written statement that was provided 
is that the one-time injection of funding would actually be 
counterproductive. Now, obviously, I mean, you can--there is a 
lot of obvious reasons why that would be the case.
    What is some other--I mean, just--I would like for you to 
just talk a little bit about that. When you put that into your 
statement what you were thinking and what your thoughts are. 
Like I said, it is obvious that that would be the case. Just 
expand on that a little bit.

                             MAJOR CONCERNS

    Mr. Augustine. I would be happy to do that. I think there 
are two major concerns. The first is that we don't have the 
capacity to spend the money; that we encourage a lot of young 
people to study science and math and become researchers, and 
when they are done with their education there is no money to 
fund research. Research in this country is going to have to be 
funded largely by the federal government.
    Industry has all but withdrawn from the research endeavor, 
basic research, because of the pressures of the marketplace, 
the near term, ``what did you do last quarter?'' We see the 
demise of great research institutions like Bell Labs, or the 
shrinking of Xerox research, or Dupont, or many great research 
facilities.
    Government is going to have to pick up more of the load. 
Given those circumstances, the question gets to be what the 
government is going to be able to afford to sustain. And there 
is an additional problem with the so-called one-time stimulus. 
And that is the fact that there is a limit on how much one can 
efficiently spend; how much one can manage.
    When you are dealing with long-term problems like 
education, like research, they have time constants of 10 or 15 
years, whereas the Congress' time constant tends to be one or 
two years. In business it's one quarter. So what do you do with 
those long-term issues? I think that you just have to be 
prepared to sustain whatever it is you start.
    I think that big injections that aren't followed up 
probably will be wasteful.
    Mr. Aderholt. When you were discussing with Congressman 
Wolf about your optimism and various other things, a couple of 
times you mentioned that over the last two months you have been 
encouraged, immensely encouraged. I just was curious about 
that. What in the last two months has taken place and is giving 
you encouragement?

                               EDUCATION

    Mr. Augustine. I think the commitment of the Congress and 
the President to putting substantial funds in the stimulus 
package for science and education, in a non-trivial amount, is 
very encouraging. But I wish it had been more, frankly. I think 
education didn't get the emphasis that I would like to have 
seen it receive.
    I am afraid the way much of the education money is going to 
be spent would not have been the way the Gathering Storm 
Committee would have proposed. That is not entirely the case, 
but much of it I think is that way.
    So my encouragement is really attributed to one thing, and 
that is the commitment of the President and the Congress to 
doing something about this problem. If that could be sustained, 
I think we can turn this situation around. I don't think we are 
anywhere near hopeless . . . yet.
    Mr. Aderholt. But, of course, with the stimulus package to 
a large extent it is a one-shot thing.
    Mr. Augustine. Yes.
    Mr. Aderholt. But you are still encouraged even with that.
    Mr. Augustine. I am. I think it is a great first step. I 
think what we need to do now is make research and education a 
part of the regular budget process and make sure we follow up. 
It has to be institutionalized.
    Mr. Aderholt. Thank you, Mr. Chairman. Thank you.
    Mr. Mollohan. Mr. Serrano.
    Mr. Serrano. I am going to ask you the same question that I 
asked this morning.
    You were laughing at the microphone, or am I asking the 
same question I asked this morning?
    Mr. Honda. Not just ready.

                         DIVERSITY IN EDUCATION

    Mr. Serrano. We always speak in this country a lot about 
diversity. But diversity does not mean, in my opinion and the 
opinion of most, not just making sure everybody gets a fair 
break, but inviting certain members of certain communities to 
participate in areas they usually don't participate in.
    So for instance, when you look at numbers, statistics, you 
find out that 12 percent of the population is African-American 
and 15 percent, roughly, is Hispanic. And yet eight percent of 
people getting degrees in math and science are from these 
communities.
    Other than the general approach to have more people 
participate in these kinds of endeavors, should we, should the 
Congress, should business, should the Administration be doing 
anything special to invite young people to consider this area?
    Mr. Augustine. I am glad you asked that. I think we have an 
overall problem in this country where in the midst of this 
period of burgeoning science and technology, we are graduating 
20 percent fewer engineers than we did 20 years ago. We are 
graduating 32 percent fewer U.S. citizens with engineering and 
science Ph.D.s than we did ten years ago. And part of----
    Mr. Serrano. Excuse me, when you say ``fewer U.S. 
citizens,'' is that because we are graduating folks that are 
here from other countries?
    Mr. Augustine. We are graduating 32 percent fewer U.S. 
citizens with Ph.D.s in math, science, and engineering from 
U.S. universities. Within that subset, there is an even more 
dismal situation. About 20 percent of the engineering degrees--
I happen to be an engineer, so I am more familiar with that, go 
to women. The percentage that I have seen for African-Americans 
and Hispanics is more like six percent or so, which is vastly 
disproportionate to their numbers in our society.
    If we are going to compete with other countries that have 
populations four times the size of ours, where a great 
preponderance of the people that go to college and study math, 
science, and engineering, we can't afford to handicap ourselves 
by not having half of our population on the playing field.
    Not to consume too much of the time you have for your 
question, it has been mentioned that we lose these people, the 
people who could be great scientists and engineers, by the time 
they are in fourth grade. One of the problems, maybe not a 
problem but a challenge, is that science, engineering, and 
mathematics involve a very hierarchal learning process. It is 
heavily dependent on mathematics. If you didn't take algebra, 
you can't study trigonometry. If you didn't have trigonometry, 
you can't take calculus. You can't just jump in and say I am 
going to take complex variables and skip the rest. That is 
quite different from what it takes to go to law school, or 
medical school, or many other professions.
    This decision point is very early in life. Unless we can 
interest women, African-Americans and Hispanics to get over 
that critical fourth grade point, they will probably have 
forgone the opportunity to ever become science engineers, or 
mathematicians.
    I am not positive of the following numbers, but they are 
close. If you take 1,000 children in this country in first 
grade, by fourth grade 650 of them will be considered to be 
non-proficient in math. Now, once you fall behind in math you 
usually don't catch back up. A few do, but not many. If you go 
to eighth grade, it is 290 are left out of the original cohort 
of 1,000. If you examine 12th grade, it is 170--of which, 
happily, about 150 start college in a technical field. About 
half of these drop out of the field before they get their 
degree. So you wind up with just a small part of what you start 
with.
    To your point, Mr. Serrano, we have to find a way to 
interest young children, particularly Hispanics, African-
Americans, and women in engineering, math, and science.
    My experience dealing with young people is that there are 
two things that really turn them on. That is dinosaurs and 
space. We are short on dinosaurs, but we have science. Somehow 
we beat that out of children fairly early on.
    Mr. Serrano. And I appreciate your answer, especially 
coming from you, because this morning we had a great hearing 
where we heard from scientists and a person representing 
teachers who teach science. But it is always the business 
community, where you come from, that says you are not preparing 
people.
    So your message, in my opinion, resonates well, because it 
is a message that, as it gets included in the Chairman's 
reports from these hearings, is basically telling the 
educational system you have got to prepare more people for me. 
And you are not preparing the people for me.
    And you are leaving out, in answer to my question, a 
certain segment of the community. And you are right, you 
can't--you know, it is what I used to say years ago. And I am 
not the only one who said it. You know, you help somebody along 
with a special college program or dollars in their pockets so 
they can go to school, you are going to get that back a million 
times, if you are only looking at dollars, once they start to 
work. You are going to get it back the first year most likely, 
or the second year, the third year, whatever.
    And so I appreciate your answer. I thank you for your 
testimony today, for your being with us today. And like I said, 
I especially appreciate it, because as a former CEO of such a 
prestigious corporation, your words have to be heard, because 
it is your part of society that is saying send us people that 
can do the work. And as long as no one is left out, then it 
makes a lot of sense, so I thank you for that.
    Mr. Augustine. Thank you.
    Mr. Mollohan. Thank you, Mr. Serrano.
    Mr. Augustine, I was pursing a line of questioning. And I 
wanted to get to your thinking about extending the doubling 
recommendation for NSF and NIST and the Department of Energy 
Office of Science. What do you think about extending that to 
NASA Science?
    Mr. Augustine. I should----

                          SCIENCE AT AGENCIES

    Mr. Mollohan. Let me ask you first of all, is there 
anything intrinsically different about science done at NASA 
than science done at NSF, or NIST, or Energy?
    Mr. Augustine. I suspect there may be some differences, but 
I don't think any of them are terribly profound. One of the 
curious things about science is that one never knows where the 
applications will be. You may be doing something at NASA that 
has an important application at NIH and vice versa.
    The NSF properly puts a great deal of emphasis on work done 
by others. NASA tends to do more in house. But I don't think 
there is any huge difference intrinsically.
    Mr. Mollohan. Okay. We have had witnesses earlier in the 
week, Dr. Cicerone and Dr. Fisk, former Associate Administrator 
of NASA for Science. Not surprising that he would support the 
doubling of the NASA science budget, but he did. And Dr. 
Cicerone expressed sympathy too.
    So let me ask you first what do you think about the notion 
of putting NASA science on the same track that NSF, and NIST, 
and Department of Energy Office of Science are on, that is 
doubling within the seven-year period?
    Mr. Augustine. As you noted, the Gathering Storm Committee 
really did not consider that. But my personal view would be 
that even not having looked at it in the detail we looked at 
the ones we did cover as recommendation, it would be a very 
appropriate thing to do.
    Although it is not one of your Committee's 
responsibilities, we didn't mention the Department of Defense, 
which when I was a young engineer, was a primary source of 
funding for science. In my career, NASA provided much of the 
generic information and knowledge that we needed in the 
corporate world. NASA had always had its technical notes and 
technical reports. There was a library where you could go if 
you wanted to know something NASA was your source of 
information. Actually it was called NACA then.
    I am not able to present a very factual case. My intuitive 
feeling is that money efficiently invested in science and 
education on talented people is probably about as highly 
leveraged as any investment I can think of.
    Mr. Mollohan. Were those references, your NASA references, 
you are testifying about, were they coming from NASA science or 
from aeronautics?
    Mr. Augustine. It was aeronautics in those days.
    Mr. Mollohan. Well, comment on the NASA funding in 
aeronautics, in the aeronautics accounts, if you will.
    Mr. Augustine. NASA's funding of aeronautics has over the 
years been neglected. NASA used to provide the basic knowledge 
that you needed in this country to design airplanes. Today that 
is being left largely to the companies that are involved. NASA 
still does important work in aeronautics, but as we all know, 
NASA has shifted a great deal of its attention to space over 
the years. And while I am certainly not opposed to that, I 
think it is unfortunate that aeronautics has been neglected to 
the degree it has.
    Mr. Mollohan. Is it more than unfortunate? Does it have 
competitiveness consequences? You know, at some point we really 
are going to get down to funding these accounts. And 
aeronautics has been neglected. Everybody has been concerned 
about that. Ranking Member Wolf, when he was Chairman, 
routinely increased funding for aeronautics as it came from the 
President's request for reasons that we would like you to 
elaborate on.
    Mr. Augustine. The spending that has been neglected for 
NASA in aeronautics has important competitiveness consequence.
    Mr. Mollohan. Still today?
    Mr. Augustine. Still today. It is a cumulative consequence. 
When one builds a new airplane, one draws upon what has been 
learned over the years. Today, corporate America is having to 
do more and more of that work on its own. As you will recall, 
it wasn't too many years ago we had four companies building 
large commercial jet aircraft. Today we have one. And, 
arguably, it is not the most prominent one on the planet any 
more. In that arena, NASA could help a lot.
    There also is a military consequence. The DOD is 
historically very reluctant to invest in research. Were it not 
for the Secretary there today, we wouldn't have seen the 
increase we did see last year. And so as we reduce spending at 
NASA on aeronautical research, it impacts national security as 
well as commercial competitiveness.
    Mr. Mollohan. So NASA aeronautics research basically looks 
at fundamental research that industry doesn't do or isn't 
doing? What is lost here? Why shouldn't the private sector pick 
up its own research? And what is lost? What has been lost?
    Mr. Augustine. I think that the----
    Mr. Mollohan. Why, because NASA isn't doing in aeronautics 
what it did previously?
    Mr. Augustine. One of the characteristics of research is 
that the benefits often do not accrue to the entity that 
performed the research or the investor that paid for the 
research.
    In the arena we have been discussing, the books I used if I 
wanted to know the lift and drag characteristics of a wing, for 
example, NASA (NACA) had whole books with different kinds of 
wings. You could find a wing that had the properties you were 
seeking. It was kind of a catalog. You could look it up, as the 
saying goes.
    Now, one thing industry could do if it could afford to, 
would be for each company to produce its version of that book. 
But it would be a terribly inefficient way for us to compete 
with other nations and each other. First of all, the companies 
couldn't afford to do it. But even if they could, they would 
run two or three cases for wings to see what looked good for 
their immediate interest. The rest of the options would never 
be cataloged or looked at. It is this fundamental knowledge 
that NASA could bring.
    Mr. Mollohan. NASA is not doing that now?
    Mr. Augustine. To a much lesser degree. And I use that only 
as an example. Today there----
    Mr. Mollohan. Yes.
    Mr. Augustine [continuing]. Are of course alternatives. You 
have computer programs that address many issues.

                         AERONAUTICAL RESEARCH

    Mr. Mollohan. Is that kind of aeronautical research being 
treated differently around the world? Are countries around the 
world for their industry doing disproportionate basic research 
in aeronautics that we are not doing?
    Mr. Augustine. I think it comes back to the model, the way 
our country is operated. In China, the government basically 
performs aeronautical research. In Russia, the country 
basically performs aeronautical research. In Europe, in my 
judgement, the companies are heavily subsidized through Airbus. 
Airbus, if I am not mistaken, initially went 25 or 30 years 
without making a profit. There are very few companies in this 
country that can do that. It was kept afloat by their 
governments. Airbus has built quality products. There is no 
question about that. The question is the appropriate role of 
government.
    Mr. Mollohan. Let me get back to my line of questioning. 
You commented on NASA science and recommending that it included 
in those agencies that the science research should have doubled 
funding within that seven-year period.
    What about research efforts at NOAA?
    Mr. Augustine. I think much the same arguments apply, 
whether it is NOAA, or NIST, or NIH, each for different 
reasons, perhaps. But as we all know, NOAA performs a terribly 
important function. They probably have saved tens of thousands 
of lives over the years through the weather forecasting they 
have made possible. NOAA is very dependent upon basic research.
    Not having looked at NOAA specifically, my answer would be 
that increased research funding at NOAA is a very good 
investment up to the point at which one can no longer 
efficiently spend that money, either because of limitations on 
facilities, management skill, or the availability of 
researchers.
    Mr. Mollohan. Did Gathering Storm make judgments about what 
our competitiveness position would be if we were to commit to 
this doubling track? In other words, would we be where we 
should be with our foreign competition if we were to follow 
that directive?
    Mr. Augustine. I must confess that our assessment was 
largely judgmental. And the reason for that was in part, time. 
But perhaps more importantly, we don't know what others are 
going to invest in the next five years.
    If we look at the trends in China, if they could maintain 
that trend, which I doubt that they can now, we are obviously 
struggling to maintain our position. I think if we had 
implemented the Gathering Storm recommendations, we could have 
stayed ahead of China for a longer time. But China is, I think, 
going to have to be spending less money in this arena as well. 
That may help us.
    Mr. Mollohan. Would it be a fair summary of your testimony 
to say that you are recommending that the Gathering Storm 
recommendation, with regard to NSF, NIST, and the Department of 
Energy Office of Science, be made applicable to NASA science 
and to NOAA research, NASA research and science and NOAA 
research and science, that they be included in that doubling 
recommendation, number one?
    Mr. Augustine. That would be my personal view. The one 
caveat is to be certain that the money could be spent 
efficiently.
    Mr. Mollohan. Right. And that is a word that either Dr. 
Cicerone or Dr. Fisk, I can't remember, using. I hear your 
testimony suggesting that at some point, I think you said maybe 
five years and maybe today is the right time, to reset, to look 
at and see how that recommendation relates to the real world, 
to how it impacts our competitive position vis-a-vis our 
foreign partners. Do I hear you recommending that?
    Mr. Augustine. Yes, you do. I think that it is important to 
assess whether we are getting what we thought we were going to 
get. What have our foreign competitors spent? How are they 
doing? And what can we afford?
    To do this before a five-year period is probably not very 
meaningful. Clearly one wants to monitor progress. But for any 
significant assessment, even five years is fairly short, 
because the results of research take so long to appear.

                    OVERSEAS FACILITIES INVESTMENTS

    Mr. Mollohan. We have had three years of Gathering Storm. 
So we will have something to look at, certainly with those 
agencies. Of course we struggled actually to double. I would 
say maybe we are just fulfilling that promise now. But it seems 
to me personally that this is a particularly appropriate time 
to look at that and to reset, which is the process we are 
involved in, because this Administration seems so intent on 
really fulfilling that commitment as well as rededicating 
itself or dedicating itself to a new commitment in science and 
research. And I am sure that has to make the community feel 
better out there about it.
    And I can tell you we are going to be intent on looking 
hard at that as we make judgements about how we fund these 
accounts. These observations by you are really--are really very 
reinforcing.
    One more question before I refer to the Ranking Member. 
International collaboration, we are doing a lot of that. And, 
again, Dr. Cicerone particularly talked about that. And as a 
part of that, he made the point that we are investing in 
science facilities overseas.
    Is that good news/bad news? Just first of all, before I 
follow on with that, what is your thought about that trend? Is 
it a trend? And what is your thought about it if it is?
    Mr. Augustine. It clearly is the trend. Science in recent 
years has become very much an international collaborative 
process. In terms of facilities, it is a trend that is well 
underway.
    Mr. Mollohan. Is that a good thing or a bad thing?
    Mr. Augustine. Yes.
    Mr. Mollohan. Yes?
    Mr. Augustine. Speaking as an American who cares about 
creating jobs primarily in America, not at the expense of 
others, if others could elevate themselves, that is all the 
better----
    Mr. Mollohan. Yes.
    Mr. Augustine. I am concerned about creating jobs for 
Americans. And among the things that have led to many 
breakthroughs in science have been facilities. Those facilities 
are becoming increasingly costly, some of them measured in 
multi-billions of dollars.
    Given those circumstances, would I prefer that America had 
its own facilities? In my day it would have been giant wind 
tunnels. Today it is linear accelerators and other things of 
that type.
    Yes, I would prefer that we have our own facilities in this 
country just for us. But I also recognize that that is not 
practicable. To duplicate facilities around the world is like 
repeating them among companies. Facilities are used for basic 
knowledge. Duplication of costly facilities isn't appropriate. 
It wastes too much money.
    I think we have to have internationally run and paid-for 
facilities. That, of course, raises the question, have we given 
away the advantage that we had hoped to derive? The answer is 
yes, we have given away part of that advantage. But you can 
afford to go it alone, an idea which I dismiss because if one 
isn't a participant, then one is left out of the world's 
scientific knowledge base. And it is so important that one have 
access, at least at the same early time as others, to new 
knowledge. The half life of scientific knowledge is very short.
    One of the members of Gathering Storm Commission was Craig 
Barrett who ran Intel. He told us that on the last day of any 
fiscal year, Intel's revenues come 90 percent from products 
that didn't exist on the first day of that same year. So if you 
can get to the marketplace six weeks faster than your 
competitors with basic scientific breakthrough, that is a big 
deal competitively.
    Even if you don't start out with a five-yard lead, at least 
you don't want to start out with a five-yard lag. It becomes a 
race of how quickly can your engineers take that new knowledge 
and turn it into products and services that people want. And 
how quickly can the entrepreneurs and innovators get those 
products and services into the marketplace.
    Mr. Mollohan. When my round comes back I am going to ask 
you if you would enumerate any of those facilities and 
technologies that you think are critical to keep here in the 
United States. But I will give you a chance to think about 
that.
    And I call on Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman. I don't know that I have 
a question. I have been writing notes here. But, you know, I 
drive a Ford Escort Escape. It is a hybrid. I can't afford a 
Mercedes. Have you seen the film, `` I.O.U.S.A.'' ?
    Mr. Augustine. I am familiar with it. I have talked to 
David Walker on the subject.
    Mr. Wolf. Yeah.
    Mr. Augustine. But I have not yet seen it.
    Mr. Wolf. Yeah. We are broke. And when I listen to some of 
the witnesses, if it was just a question of us buying another 
printing press, I think we could fund that right away and get 
more paper from. And we could just create more money. But we 
are broke. And in the film it shows us in comparison to China. 
In essence, we are borrowing money from the Chinese, so we can 
compete with the Chinese.
    And there is something wrong here. And I know a lot of 
politicians don't want to say anything about it. But there is 
something wrong. I think it is fundamentally depressing that we 
are having to rely on the Chinese. Even Hillary Clinton went 
over to China the other day and didn't want to offend the 
Chinese, because we need them to buy our paper. I mean, they 
were hauling people away when she was over there. But she 
didn't want to raise those issues--cases, because--and in the 
film `` I.O.U.S.A.'' it shows that.
    And you may remember this, although you were young and in 
college, the British and the French invaded the Suez. And 
General Eisenhower, President Eisenhower then, told them to get 
out, and they refused. And Eisenhower said, `` Dump their 
paper.'' And in two weeks, three weeks they broke down quickly, 
because economically they were being pretty much controlled by 
us.
    And so I just see it. And in the film it says that in the 
year 2030, every dollar that comes in will either go to 
Medicare or Medicaid, Social Security, or interest on the debt, 
nothing else. Not for math, not for cancer research, not for 
the inner-cities, not for education.
    This year the projection is the deficit is going to be 
$1.75 trillion and some figure it go to 1.8 to 2. And deficits 
of a half a trillion for as long as the eye can see. Moody's 
said we lose their triple-A bond rating. You are a businessman. 
I mean, what that means for our country. We lose our triple-A 
bond rating in 2012. Now Iceland just went down the tubes. 
Lafayette I think did the same thing.
    I mean, we would move to paper. Government paper will be 
junk bond status. So as we talk about the funding, which I am 
all for, but the Bureau of Prisons need more money, because we 
have more people in prison than any other country. And 
something is wrong that we are not having rehabilitation 
programs. We need more money for cancer research, for autism. I 
mean, a parent with an autistic child, we should be doing 
something. I mean, we just have so many needs. But there is no 
way to pay for it.
    And so as I listen to you. I just finished reading the 
other night this book, `` Colossus,'' by Niall Ferguson. Have 
you ever read any of his stuff?
    Mr. Augustine. I have heard of him, but I have not read any 
of his works.
    Mr. Wolf. Yeah. He says if this country crumbles, and he is 
a Brit so he sees it from outside, it will crumble from within. 
It will not be the foreign power with the military that it will 
be.
    And so I worry about the work ethic. I was telling another 
witness that this summer down at Nags Head everyone was from 
Russia, all the young students who work were from Russia. Last 
year at Avalon everyone was from Bulgaria. Where were the kids 
from Buffalo? Where were the kids from Fairfax? Where were the 
kids? I always worked in the summertime and my kids did.
    And so I just think some fundamental big issues. And it is 
like the Simon and Garfunkel song, `` The Boxer.'' A man hears 
what he wants to hear and disregards the rest. I think as a 
nation we are just disregarding some of the fundamentals.
    So I agree with everything that every witness has said. And 
I want to thank the Chairman for having these hearings. But I 
guess if I were 40 I could pretend I don't see the things the 
way that I do. But I am now 70. And I have these grandkids and 
these kids.
    Dietrich Bonhoeffer, you remember Dietrich Bonhoeffer. He 
was marched from the Flossenberg Prison and hung as the Western 
artillery was--he said, `` A test of a moral society is what 
kind of future it leaves for its future generations.'' And I 
think we are failing that.
    Our inner-city schools are in decay. And the prison system 
doesn't work. And we are not putting enough into cancer 
research. We are not putting enough into autism. We are not 
putting enough into finding a cure for Lyme disease. We are not 
putting enough into cancer.
    And I think we have some fundamental entitlement programs 
that we just got to deal with. And I am just saying this, you 
don't have to answer any of it, as you cast votes up here in 
this institution, the DCCC has a group over there ready to 
slash and burn you the next day. And my party has one over on 
my side. And so the first person to cast a vote that looks like 
they are trying to give more money for this and takes it from 
something else, your political career, ooh.
    And everything is 24-hour news network. And as I said in an 
earlier hearing, the ``New York Times'' said it was so 
important to say that Obama was turning gray, but they didn't 
cover Pete Peterson's press conference yesterday showing that 
56 percent of the people think we have to deal with our 
economic crisis.
    So I hear you, I thank you, and I thank all the others. But 
I think we all have to come back to the taproom question that 
is down here that I tell my grandson, Kaleb, working on a 
Saturday morning. I just bought him a roto-tiller. What am I 
going to tell Kaleb? How in the good Lord's name are we going 
to pay so Kaleb can live a life like you lived and I lived?
    And I think, frankly, this institution--and I was--I was 
just as critical. I am waiting to hear this side begin to go 
after their Administration the way that I criticized the Bush 
Administration. Paulson brought us to economic ruin. Paulson 
frankly fiddled while Rome burned. And I say Hillary Clinton 
had one--Secretary Rice had one of the worst human rights 
policy we ever had. And so I say it about them.
    And I want to hear what--but can we all just--when we get 
it out, come together to see in a bipartisan way, because the 
American people are thirsty to see Republicans and Democrats to 
come together and do what is right for this country, which may 
very well be very controversial. Henry Hyde in his book that I 
read about two weeks ago said, `` Every member ought to know 
what they are prepared to be defeated for.''
    And so we need giants like you that are rapidly leaving the 
field to begin to speak the truth to people up here and to 
everybody else. But everything you say is great. But I just 
come to the bottom line, how are we going to pay for it? And do 
you have any solutions?
    Mr. Augustine. As you know, I share your concerns. If this 
were a meeting in Spain in the 16th century when Spain was a 
global power, I suspect that their citizens would have thought 
Spain would continue to be a global power. By the 17th century 
it was France, by the 19th century it was Great Britain, the 
20th century the United States. Well, the others are not global 
powers anymore. A nation can lose that position.
    I think we are playing with fire in this country in terms 
of losing our position. I think that is a very real danger. It 
comes down to priorities. As I talk to people around the 
country, they feel a lot like you do. People are scared to 
death. Ride with a cabdriver.
    But I think that it is a matter of priorities. I clipped 
out from ``USA Today'' two articles last week. I want to be 
very careful how I portray the second. One was from the front 
page. It listed four items, each with very strong adjectives: 
the stock market was at new low, the federal deficit at new 
high. Just devastating things. The fourth, however, was a 
baseball player who had just signed for $40 million for two 
years. He explained that he had to accommodate the fact that 
the economy was poor. If that is representative of our 
priorities, then we will no doubt have great baseball teams. We 
just won't have jobs for most of our citizens.
    The second--not to carry on too long here, Mr. Chairman--in 
``USA Today,'' there was a full-page ad about a week ago. It 
listed several hundred children--high school graduates, high 
school seniors--who had done terrifically academically. I took 
just the first 20 to do a sampling. Of that 20, 15 had names 
that were distinctly Asian. These are U.S. high schools, the 
best students we have got. Fifteen were distinctly Asian, one 
was distinctly Indian, and the other three were European-
descent sounding names.
    Now that is not a very scientific survey, but until the 
rest of us begin to give some of the attention to education 
that our Asian community has, I think we have big problems. 
There is an example, a bright spot right there in this country 
that the rest of us could learn from.
    Mr. Wolf. Well, I agree. In closing, I agree with you. 
Thanks for your service. We will do that thing we talked about.
    And lastly, I do believe the American people are actually 
ahead of this institution. I think they are ahead. They are 
ready, and they are prepared to do whatever it takes, because 
every--do you have children?
    Mr. Augustine. I have three grandchildren and a daughter.
    Mr. Wolf. Wouldn't you die for your children?
    Mr. Augustine. Absolutely.
    Mr. Wolf. You would die. You would do anything for your 
children or your grandchildren.
    Mr. Augustine. Die for them in a minute.
    Mr. Wolf. And I think America is ready. And I think the 
failure of this institution is that we are not prepared to do 
what is necessary for them. But I do believe the American 
people are far ahead of us. And I think they are just 
thirsting.
    You know, my best friend in Congress, he is a Democratic 
member, Tony Hall, we still do everything together. We didn't 
vote together on a lot of issues but some we did. But we do 
everything together. And I think people want to see this place 
come together and do some of these things. And if we did some 
of these things that were tough, and jumped, and linked arms, 
and jumped off the bridge together, I think it would be the 
American people would support it.
    But thank you very much.
    Mr. Augustine. Thank you.
    Mr. Mollohan. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. Do I have ten minutes, 
about ten minutes?
    Mr. Mollohan. Mr. Honda, proceed.
    Mr. Honda. Okay. It has been an interesting discussion. And 
I think we probably went over a lot of things that were the 
result of our past actions that we have taken, whether they 
were sound or not sound. But, you know, we are probably faced 
with one of the fiscal issues that is a result of past 
decisions that we have made here in Congress.
    But having said that, you know, I have a sense that there 
was some sense of uplift in terms of expectations. And I heard 
you mention things like we need more basic research, which we 
used to cut, and cut, and cut. Now we are in the mode of trying 
to put that back into effect so that all of our agencies that 
are geared towards doing research, which we need, to continue 
the discovery of new information, new knowledge, and then be 
able to use that, including the need to cover the expense of 
helping these new ideas to go to commercialization.
    I heard that, because we need to help mind the gap. 
Hopefully, that gets some consideration so that we can make 
that investment. And realize some of the outcomes of that, 
because, as you said, two or three percent of the population we 
are in decides that technology produces about 95 percent of the 
income.
    And I think that when we focus in on the things that we 
need to do, we might see some sense in that list of youngsters 
you mentioned. And to me it is not a surprise. And that 
probably a lot of those youngsters come from families who are 
recent immigrants, who look at, trying to make sure that they 
make something of themselves through education. But there is no 
magic in what they do, because the same thing that recent 
immigrants from Europe had done, it is called hard work and 
rigor.
    Mr. Augustine. Exactly.
    Mr. Honda. And so I suspect that, because our smaller 
population compared to India and to China, the gross numbers we 
look at should be probably adjusted and looked at in terms of 
percentages rather than just gross numbers, because of course, 
you know, the population has got a billion and a half. It is 
going to have a little bit more--the graduates in different 
areas. Perhaps their attainment of their--the quality of their 
instructions may be different. But that is why I think that we 
are going to stay ahead.
    But we can't afford not to--rigorously look at how we can 
continue to be ahead in terms of education and be innovative. 
And I think that that is another message you gave us.
    So you mentioned that something happens to our youngsters 
after third grade. Maybe we ought to focus ourselves on what is 
it that we do to kids. And what is it that the structure does 
to kids after third grade? Because you are right, children want 
to come to school. Because there is a study that has been done 
that some people take the third grade graduation or their 
attainment academically. Based upon that, they predict how many 
prisons they are going to need in the future. It is pretty 
dismal.
    So I think that, maybe we could pay some attention to--what 
is it that we do or we don't do at that place? And I think it 
is pretty astute that, some of our actions in terms of outcomes 
that it is quarterly rather than long term. We need to probably 
shift our similar thinking and not think too much about the 
shareholders of a corporation but the return on investment we 
want to make to how much we are going to make and put that into 
research and everything else that will play out longer. And I 
think that in that thinking, the shareholders of that arena are 
citizens and our children and doing the right thing as 
policymakers.
    You know, I think that a lot of the things that you have 
laid out are pretty important. And I guess the conclusion I 
come up to is that all these things that we talked about are 
related. And when we in this Congress talk about trade, I think 
it determines what immigration--it impacts everything that we 
do in terms of education or any other policy that we have in 
this country. So maybe as policymakers we have got to be 
careful in how we view things.
    And so the enemy is not external. Pogo said it, ``We met 
the enemy, and the enemy is us.'' And so maybe we ought to be 
internally thinking, because if we depend upon China for, 
balancing our books, then maybe we ought to think about how not 
to go into deficit a lot. And right now we have to in terms of 
the economy. We need to infuse it now. And so there are a lot 
of reasons why things happen. And putting negatives or 
positives to it, I think we just look at how do we improve the 
things that we do.
    So I appreciate your presence and your thoughts. Let me 
wind up my part. The Gathering Storm report that you made, made 
several recommendations and observations regarding our 
immigration policy at that time. The immigration policy was 
aimed at keeping our world's best and brightest students or 
visiting professors coming to this country to go to school here 
or to be part of our workforce.
    Now given the current economic times and the challenges we 
think we are faced with, has your--what is your thinking now on 
the immigration behavior? And what recommendations would you 
make that would be helpful for our society and for our economic 
well being?

                            FOREIGN STUDENTS

    Mr. Augustine. Mr. Honda, at the time we had prepared our 
report, there was, as you know, a strong reaction to 9/11 which 
made it very difficult for foreign students to come to this 
country and even more difficult to stay here after they 
completed their work, I would submit that America's science, 
and engineering enterprise, particularly the research aspect of 
it, would barely function without the foreigners who come to 
this country. Of the scientists under the age of 40 with Ph.D.s 
in the U.S. workforce, a little over 40 percent are foreign 
born. We are highly dependent upon people coming here and 
staying.
    Fortunately, we still have the best universities in the 
world, and this attracts people to come here. But many of our 
policies drive them out of the country. And that is an 
unfortunate policy that we need to correct.
    In terms of what needs to be done, our Gathering Storm 
Members had a number of meetings with the prior Secretary of 
State with regard to the post-9/11 issues, most of which have 
been resolved in terms of the short-term issue.
    Our recommendation in the longer term is that every person 
getting a Ph.D. in math, science, or engineering, or another 
critical skill in this country who is not a U.S. citizen, would 
be permitted to stay in this country an additional year to seek 
employment--assuming that they were reputable and could obtain 
the papers in terms of the risk they might present. At the end 
of that year if they were able to obtain a job in this country, 
which most probably would find relatively easy, they would be 
given priority to become citizens if they wished to do so. They 
would in any event be given a green card so they could stay in 
this country and work. If we would do that, we think we could 
turn around a lot of the loss of talent that we are beginning 
to see.
    Mr. Honda. The push back on--back on discussion. It 
generally ends up like well these folks take jobs away from our 
people. How would you respond to them?
    Mr. Augustine. Yes. I, of course, hear that a lot. My 
answer would be that these individuals do not just consume 
jobs, they create jobs for us. The more bright people you can 
have in a country or in a company, the better off you are going 
to be. If one looks at the companies in Silicon Valley, a 
disproportionate number of them were created by people that 
were not born in this country. There are some wonderful 
quotations by some of them to the effect that if their families 
hadn't been permitted to come here 20 years before, their 
company wouldn't be in this country, it would be in India or in 
China or perhaps wouldn't exist at all.
    Mr. Honda. Yes.
    Mr. Augustine. I think that for every job that is lost 
because someone comes here and takes that job, there are ten 
jobs that are created because somebody brilliant comes here and 
starts an Amazon or an Intel. There is a long list of those 
companies that were founded by non-citizens.
    Mr. Honda. I appreciate that. I represent Silicon Valley. 
And my son graduated from UCLA with a degree in aerospace. I 
went to his graduation. And this is how I saw it. If you looked 
at the graduating class, it was maybe three or four hundred 
students screaming. And they all had black hair, because I was 
way back in the bleachers. And I asked myself is this one of 
these examples where we have a lot of folks competing for slots 
that are limited. A lot of them may be immigrants. And are they 
taking slots away from other students, which is another 
argument that we hear? My conclusion is that they may be 
competing for these slots. This is a graduate program.
    But the other question is are we building sufficient 
universities, and state universities, and colleges to keep up 
with the demand? And the answer is no, because the time that--
going about with the late 1970s to the current time, we built--
we broke ground on two new campuses in California, one the 
University of California and one a state college. And we built 
something like 10 or 11 prisons.
    There is something wrong with that picture. And I think 
that in this country we have--I still have a lot of faith, and 
admiration, and hope in this country, because if you look at my 
own community, my parents wanted us to be doctors and lawyers. 
They were disappointed when I became a teacher.
    But every generation wants their kids to be something. But 
each generation seems to have an opportunity to have greater 
choices. And I think that this is what young people are seeing 
that they have got greater choices other than just being 
scientists and technologists. We have sports, which is, another 
avenue for people. But we have other fields, performing arts 
and things that reflect a higher level of society that the 
human person can express themselves.
    But we don't want to lose our focus on the importance of 
what science and technology brings to every citizen, that we 
should teach every child how to think, how to be critical, and 
how to make decisions. That in itself is important. And we are 
not doing a good job with that.
    So I really appreciate this discussion today, because it 
has helped solidify some of my thinking. And reinforce some of 
the things that I think are truth. But we have to be as 
policymakers clear on everything that we do and responsible to 
the future. And so, thank you very much.
    Mr. Augustine. Thank you.
    Mr. Mollohan. Thank you, Mr. Honda.
    Mr. Serrano.
    Mr. Serrano. I will pass.
    Mr. Mollohan. Thank you. Well, have you had an opportunity 
to think about what facilities are crucial or what programs are 
crucial to keeping within the United States as we consider 
international collaboration, which I guess is an increasingly 
happening thing?
    Mr. Augustine. Yes. I am afraid I was listening. Apparently 
I wasn't thinking about the question.
    Mr. Mollohan. Well.

                          RESEARCH FACILITIES

    Mr. Augustine. I will try to respond. Certain areas in 
science stand out as being particularly important to be strong 
in. The information technologies would have to be one. 
Nanotechnology would certainly be another. Biotech would 
probably be at the top of the list. The pervasiveness of the 
breakthroughs in biotechnology are just astounding, from 
building computers to producing energy, to producing plastics, 
to feeding humans, to medical advances and so on.
    I would probably mention some of the medical fields, cancer 
research and the likes because of the impact they have on all 
humanity.
    One of the challenges of answering--trying to answer the 
question you asked is that one is invariably wrong. Typically 
we have missed the big breakthrough that suddenly shows up and 
that we never anticipated. I suspect that I will continue our 
record in that regard.
    In terms of facilities, when one visits world-class 
facilities, for example CERN in Switzerland and France or 
Biopolis in Singapore, and then visits the better facilities of 
this country, it is like going back 20 years. We are far behind 
the best of the best.
    We have an overall problem of aging facilities. That makes 
it difficult to attract people to science, to encourage foreign 
students to come here. By this I mean enough room in a 
laboratory, instrumentation, the mundane things that it takes 
to perform science. But I also mean the big science. The 
biggest of all is probably the linear accelerator. That 
inevitably will be an international program because of its 
cost. And I don't have any problem with that.
    Regarding some of the advanced computing capabilities, I 
think it is important to maintain a lead not only for the 
impact on science but the impact on national security and 
intelligence.
    Those are the areas that to me stand out. I suspect people 
who live in the world of facilities probably could answer 
better than I.
    Mr. Mollohan. Well, Mr. Augustine, thank you very much for 
your testimony today. And in the same breath, let me, again, 
thank you for your service. As the Ranking Member noted, you 
are an exceptional corporate citizen who has been relied upon 
disproportionately to many others. And I know that has been in 
and of itself a service by you to the country.
    I look forward to working with you in the future. If there 
are any thoughts that you have that you would like to put on 
paper, you know, after this hearing, we would certainly 
appreciate the benefit of them.
    Thank you so very much for your testimony here today.
    Mr. Augustine. Thank you, Mr. Chairman, and your Committee 
for the leadership you are providing in this area. It is 
greatly appreciated.
    Mr. Mollohan. Thank you.
                                           Tuesday, March 17, 2009.

                    STATUS OF CLIMATE CHANGE SCIENCE

                                WITNESS

DR. SUSAN SOLOMON, PH.D. NOAA EARTH SYSTEM RESEARCH LABORATORY

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. The hearing will come to order.
    Welcome. Good morning, Dr. Solomon, and welcome before the 
Commerce, Justice, Science, and Related Agencies Subcommittee. 
We appreciate your coming today to provide your perspective on 
the status of the scientific understanding of climate change 
and predictions.
    As those responsible for appropriations for the federal 
agencies with the largest budgets for climate change science, 
NSF, NASA, NOAA, we want to ensure that we provide appropriate 
support for improved understanding, monitoring, and prediction 
of climate change.
    We also have responsibility for virtually all civil earth 
observing satellites, both research and operational.
    We have had to confront major cost overruns in the NOPE SS 
Program and additional requirements appear likely given the 
anticipated need to support operational climate predictions and 
monitoring.
    In our hearings this week, we will explore the role of 
satellite data in observing climate change. Our second and 
third hearings will focus on examples of ongoing satellite 
observations of land vegetation, ice sheets, ocean and 
atmospheric properties, and what is required to sustain these 
critical environmental records.
    Our final hearing will look forward to the future of 
satellite climate observations and the relationship between 
NASA and NOAA, between research and operations, and how that 
may be a help in controlling future costs.
    Today we look forward to establishing a foundation for our 
satellite considerations by gaining more understanding of 
climate change and the requirements its study and observation 
place upon the programs in our jurisdiction.
    Dr. Solomon, your written statement will be placed in the 
record. And before I ask for your oral testimony, I recognize 
our distinguished Minority leader, Mr. Wolf, for any comments 
he may have.
    Mr. Wolf. I do not have any. Thanks.
    Mr. Mollohan. Dr. Solomon, as I said, your written 
statement will be made a part of the record and you proceed as 
you will. Thank you.

                    Opening Statement by Dr. Solomon

    Dr. Solomon. Thank you very much. Thank you for the 
opportunity to talk to you today.
    I would like to summarize the state of knowledge of climate 
change science. I will base that mainly on IPCC's 2007 reports 
as well as other assessments by the U.S. National Academy of 
Sciences and the U.S. Climate Change Science Program.
    I would like to describe my view of key advances in 
understanding that have occurred since the reports were issued 
as well.
    Warming is unequivocal. That is evident in independent sets 
of measurements that all attest to the long-term changes in the 
climate. Among those are increases in global average surface 
air and ocean temperature, widespread loss of snow and ice, and 
rising global average sea level.
    We actually chose to express that finding in unusually 
strong language during the IPCC report process and that is 
because we have so many different sets of data that all 
document changes in a variety of observables.
    Last year, 2008, is estimated to be the tenth warmest year 
on record since observations began to be systematic about 150 
years ago and that shows that global warming is still apparent 
since the IPCC report was finished.
    It is clear that the primary driver of climate change is 
increased carbon dioxide, which is produced by fossil fuel 
burning, and to a lesser degree by deforestation. Today's 
levels of carbon dioxide are about 385 parts per million parts 
of air and that is unprecedented in more than half a million 
years of data from ice cores.
    In the past few years, since we completed the IPCC report, 
the rate of increase of carbon dioxide has been faster than 
ever observed in the instrumental record and that is due to 
increased global fossil fuel use.
    By the end of the 21st century, carbon dioxide 
concentrations could become as high as 1,000 parts per million 
if emissions worldwide keep increasing at the type of rates we 
saw in the last decade, which were about two percent per year. 
And with a sustained level of 1,000 parts per million of carbon 
dioxide, an average day would be about ten degrees Fahrenheit 
warmer than today.
    Heat waves as bad or worse than the worst current heat 
waves would become common. Decreased rainfall would be expected 
in parts of southwestern North America, west Australia, 
southern Europe, and both northern and southern Africa. We have 
much higher confidence in that now than we did a few years ago.
    Droughts comparable to a dust bowl would be expected to 
occur in all of those places. Fires would become more common in 
those places and fire frequency would also be expected to 
increase in many places that are dependent on snow pack for 
their water supply, such as much of California.
    Glaciers and snow pack that provide water to at least a 
billion people in Asia would disappear. Insect pests would 
become more common, which would damage crops as well as 
forests. In short, it would become a very different world.
    All of those impacts are based on physical processes that 
are well understood and represent pieces of the science for 
which the confidence is very high indeed.
    I would now like to very briefly talk about some key 
uncertainties. As the world warms, land and ocean uptake of 
carbon dioxide decreases and there is some evidence that large 
amounts of carbon could be released from melting permafrost in 
the Arctic.
    Those feedback processes are very uncertain, but they have 
the potential to substantially enhance future carbon levels. We 
need a much better understanding of the cycling of carbon.
    But carbon dioxide is not the only thing that is causing 
our climate to change. It is the largest factor, but it is not 
the only one. Mitigation efforts directed at other climate 
change agents such as reduction in soot, ozone, or methane 
could have very useful co-benefits for air quality and related 
health effects. And it is really the suite of driving agents 
and options that needs to be considered.
    Climate change is not limited to warmer temperatures. It 
extends to water, storms, sea level rise, snow pack, heat 
waves, flooding, fire, and really much more. So improvements to 
numerical modeling, process studies and analysis and monitoring 
will all be needed to provide the kind of information required 
for many decisions, especially local adaptation decisions.
    Improved numerical simulation at smaller scales is a 
pressing issue in research. Networks to monitor how climate is 
changing are generally considered to be barely adequate. Some 
are in danger of being lost altogether.
    Measurements of rain, snow, clouds, humidity, tropical and 
mid latitude storms, solar radiation, aerosols, and many 
greenhouse gases are all examples of key areas for monitoring 
and process studies.
    Increasing carbon dioxide increases the acidity of the 
oceans through very well-estimated chemistry and the increases 
in acidity have the potential for vast effects on marine life 
and ocean ecosystems. We do not understand that very well at 
all at the moment.
    The sea level rose by about six inches in the 20th century. 
How much will it rise in the future? Well, expansion of warming 
water and melting of small glaciers are well understood and 
they can be expected to produce up to three feet of sea level 
rise within about two to three centuries. That is enough to 
inundate many small islands and regions such as Florida.
    But there is a wild card in the sea level problem, a third 
process that is very poorly understood. That is rapid flow of 
ice from Antarctica and Greenland. There is evidence for 
locally rapid ice flow, but it is not yet possible to integrate 
that contribution over the full size of the ice shape to 
quantify the total contribution to sea level rise. It could be 
on the order of a few meters over centuries, but it is very 
uncertain.
    Those are a few of the questions facing the nation and the 
world as the climate continues to change. There is much that we 
do know. There is also much that we do not know.
    Thank you very much for the opportunity to speak with you 
today.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1219B.012
    
    [GRAPHIC] [TIFF OMITTED] T1219B.013
    
    [GRAPHIC] [TIFF OMITTED] T1219B.014
    
    [GRAPHIC] [TIFF OMITTED] T1219B.015
    
    [GRAPHIC] [TIFF OMITTED] T1219B.016
    
    [GRAPHIC] [TIFF OMITTED] T1219B.017
    
    [GRAPHIC] [TIFF OMITTED] T1219B.018
    
                       ATMOSPHERIC CARBON DIOXIDE

    Mr. Mollohan. Thank you, Doctor. We do appreciate your 
coming to speak to us.
    You said somewhere in the early part of your testimony, I 
think, if I understood it, that today's levels of 
CO<INF>2</INF> in the atmosphere are the highest that they have 
ever been since the presence of mankind, did I understand you 
to testify, already right now?
    Dr. Solomon. The highest they have been in half a million 
years. And depending on how you define mankind, that certainly 
exceeds, I think, any definition of mankind. You know, Cro-
Magnon man has been on the planet for I think about 30,000 
years. So half a million years is way past the Cro-Magnon man. 
It is way past neanderthals. It is a long way back.
    Mr. Mollohan. And you know that from ice core samples?
    Dr. Solomon. Yes. The little bubbles that are trapped in 
the ice are analyzed to provide the amount of carbon dioxide. 
And that has been done both in Antarctica and Greenland. And 
one of the things that is really nice is having both of them. 
You can go back quite a ways, over 100,000 years with both of 
them, and see the same kinds of things.

                             SEA LEVEL RISE

    Mr. Mollohan. Uh-huh. Well, sea level rise looms large as 
perhaps the most significant consequence of global warming and 
this rise is predicted by the Intergovernmental Panel on 
Climate Change to be between .6 and two feet in the next 
century.
    And as you testified, does that predicted range include the 
effects of major decreases in ice sheets or is it simply due to 
the thermal expansion of world oceans? And you in your 
testimony, part of your uncertainty was the impact of ice 
sheet. If you would elaborate on that for us, please.
    Dr. Solomon. The IPCC was able to quantify certain terms 
that contribute to sea level. One of them, as you said, is the 
thermal expansion of the ocean. That is well understood. When 
you make a cup of tea, you see the water expand and that 
happens in the ocean as well.
    But that is not the only term we were actually able to 
quantify. We also include the effect of the loss of small 
glaciers worldwide, so glaciers in the Andes and Europe and 
Alaska and places like that. That term was also included.
    We have a number of other small terms that I will not go 
into, but you are absolutely right. The key term that we simply 
do not have enough information to quantify is the melting of 
the great ice sheets of Greenland and west Antarctica.
    And the physics is poorly understood, but what we know is 
that we see rapid ice flow on those ice sheets. So it is fast. 
It is impressive. I am sure you have all seen photographs of 
it. But it is not understood well enough to be numerically 
simulated in terms of how it will behave in the future. We just 
do not know how it is going to behave in the future.
    Mr. Mollohan. Are there any predictions out there for the 
west Antarctic ice sheet or the Greenland ice sheet?
    Dr. Solomon. There is more information for Greenland and 
there is an estimate that suggests that if all the variables 
are pushed to their limits, we could see a change of about two 
meters by 2100. So that is, I think, a fair estimate of the 
upper limit from Greenland.
    Mr. Mollohan. Just from the Greenland ice sheet melt?
    Ms. Solomon. Yeah. I believe that may also include thermal 
expansion. I believe that may be that person's best estimate of 
the total upper limit range. I would have to check that, but I 
am pretty sure that is true.
    For west Antarctica, I think the numbers are much less 
certain. That kind of analysis has not been done there. The 
real problem is we see these things happening locally. We know 
they are very important locally, but we do not know how 
important they are integrated across the ice sheet and we do 
not know how they are going to behave in the future.
    There is some evidence that you may see transients where 
you get a fast, rapid flow for a little while and then it 
stops. So it is really quite difficult to project. We just do 
not understand the physics well enough.

                      DEFINITION OF GLOBAL WARMING

    Mr. Mollohan. Okay. Now, there are a huge number of people 
in the world who, or it seems like there are a huge number of 
people in the world who suggest that this is natural phenomena 
and whether man is contributing to it or not. I am not sure 
whether they dispute that, but they do suggest that the world 
has gone through these cycles without the contribution of human 
activities. And, therefore, I suppose, I do not want to speak 
for them exactly, but perhaps they just say it is inevitable 
and not that it is good or bad, but that it is inevitable.
    First I would like for you to define for us what is global 
warming and then relate the impact of that to climate change 
and its consequences. What is global warming, the phenomena of 
global warming, the chemical or the whatever?
    Dr. Solomon. Well, I----
    Mr. Mollohan. If you can do that for us in a way we can 
understand, that would be extremely----
    Dr. Solomon. I will try. I will try.
    Mr. Mollohan [continuing]. Helpful.
    Dr. Solomon. I would say that global warming is the change 
in our planet's climate that is being induced by the things 
that people do. So it is mostly carbon dioxide increases, also 
other terms like soot, methane. There are a number of different 
things that are contributing to that.
    I think perhaps what is really underlying your question is 
how do we know this is unusual.
    Mr. Mollohan. No. Really the first thing that is underlying 
my question is what is the phenomena. You have got sun coming 
in. It is in some way being affected by CO<INF>2</INF> 
concentrations. That is somehow, as some of the experts have 
tried to explain to me, reacting in ways that is creating heat, 
that is infrared, and it is bouncing back up, that it cannot 
get out. And, therefore, the heat cannot get out and, 
therefore, really assume that we could understand it if you 
were to elaborate on it.
    Dr. Solomon. Okay. You are absolutely right. The sun is the 
primary source of heat to the earth. We all know that from 
going to the beach. The sun is what heats the earth. The earth 
tries to cool off by radiating in infrared.
    And if you have ever seen, for example, night photographs, 
infrared photographs that people sometimes use, for example, in 
hunting and such things, you can appreciate that all objects 
have a temperature and then they radiate their energy in 
infrared.
    Basically what carbon dioxide and other greenhouse gases do 
is to keep some of that energy in, so it keeps it from escaping 
out to space. All the other planets do that. I should say all 
the planets that have atmospheres do that just as our sun does.
    And one of the things that I think is really a very 
beautiful illustration of global warming is, or at least of the 
greenhouse effect, I should say, is the fact that Venus has a 
greenhouse effect, too, because it also has an atmosphere. And 
that keeps Venus much hotter than it would otherwise be.
    In fact, one of the reasons Venus is hotter than earth is 
not so much that it is closer to the sun. It is actually 
because its atmosphere has a tremendous amount of carbon 
dioxide and also some sulphur compounds that all contribute 
to----
    Mr. Mollohan. So----
    Dr. Solomon [continuing]. Its greenhouse effect.
    Mr. Mollohan. So there is----
    Dr. Solomon. When you put in--sorry.
    Mr. Mollohan. No, no. I am sorry. You go ahead.
    Dr. Solomon. When we put in carbon dioxide into our 
atmosphere by our activities making that gas, which is a major 
greenhouse gas on our planet, 30 percent higher than it has 
been in half a million years, that is causing the planet to 
warm up along with some other factors, but it is the main one. 
And the net result is a temperature that is about a degree, 1.3 
degrees Fahrenheit----
    Mr. Mollohan. So it is fair or accurate or useful to see 
CO<INF>2</INF> as a catalyst and a compound in the atmosphere 
that inhibits the radiation of heat back out of the earth and 
so the increased levels of CO<INF>2</INF> exasperate this 
process so that less heat, more CO<INF>2</INF>, keeping more 
heat into the atmosphere in the earth and, therefore, creating 
an increase in temperature? And that is a phenomena we have not 
seen during the age of mankind?
    Dr. Solomon. That is correct. It traps the energy. 
Absolutely.
    Mr. Mollohan. Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.
    Doctor, welcome.
    What of the causes, if you had to break it down percentage 
manmade and not manmade or manmade and natural, how would you 
break that down?

                        CAUSES OF GLOBAL WARMING

    Dr. Solomon. That is a good question. The manmade causes of 
the enhanced temperatures that we have now is mostly carbon 
dioxide to the tune of, I believe, about 60 percent of today's 
global warming. Methane also contributes. The 
chlorofluorocarbons and their replacements, hydro fluorocarbons 
and hydro chlorofluorocarbons also contribute. Nitrous oxide 
also contributes. So there is sort of a range of other gases 
that contribute as well, but it is roughly 60 percent carbon 
dioxide, a small amount from soot also, which is again manmade.
    The natural forcing agents are two. There is the sun which 
if it gets brighter can cause some warming. But we have good 
measurements of how bright the sun has been since at least 1979 
and it has contributed very little over the period, at least 
since 1979.
    So I think a fair number on that, I do not have it in my 
head. I am sorry. But it is certainly less than ten percent, I 
think, is a fair statement.
    Volcanos actually cause cooling and we have had a number of 
volcanos over the last 30 years or so. They only cool for a 
little while, for a few years. So they have actually worked, 
though, to cause a slight cooling effect.
    So the volcanos and the sun are the natural terms. They are 
quite small. The overwhelming cause of what we are seeing today 
is certainly manmade chemicals, particularly carbon dioxide, 
but also some of these other chemical agents.

                      SOLUTIONS FOR GLOBAL WARMING

    Mr. Wolf. And what do you see as the solution? We hear 
stories of cap and trade. I have an article here from the 
Washington Post that was on June 26th of a year ago. It said 
with regard to global warming, it said the answer--this is by a 
gentleman, maybe you know him, an adjunct professor at the 
Copenhagen Consensus Center, Bjorn Lomborg. Does that name ring 
a bell, L-O-M-B-O-R-G?
    Dr. Solomon. Yes.
    Mr. Wolf. What do you think of him? I do not know anything 
about him.
    Dr. Solomon. I have never met the man.
    Mr. Wolf. But that is not an answer. I never met Lincoln 
and I think he was one of the greatest Presidents that we ever 
had.
    Dr. Solomon. Indeed. Indeed.
    Mr. Wolf. And Washington and Jefferson. So what do you 
think of him?
    Dr. Solomon. I have read his books. He has some useful 
points to make and some of his points, I think, are not as 
useful. I am not prepared to give you a complete review of his 
work at the moment. He certainly has received a lot of 
attention for his studies. He has also, I think, been censured 
by the Danish Academy of Sciences.
    Mr. Wolf. For?
    Dr. Solomon. That is probably all I can tell you.
    Mr. Wolf. For what?
    Dr. Solomon. Scientific misconduct, I believe, was the 
words they used.
    Mr. Wolf. Can you supply that for the record, so I can see 
what it is, or just send me a copy?
    Dr. Solomon. I will certainly look up what the Danish 
Academy of Sciences----
    Mr. Wolf. What he says in here is the answer is to 
dramatically increase research and development so that solar 
panels become cheaper than fossil fuels sooner rather than 
later. Imagine if solar panels become cheaper than fossil fuels 
by 2050, we would have solved the problem of global warming.
    But what is your thought about the idea of putting more 
money into research and less into cap and trade as a solution?
    He also goes on to say the economists have, they have 
pointed out that a better response than cutting emissions would 
be to dramatically increase research and development on low 
carbon energy such as solar panels and second generation 
biofuels.

                    SEPARATION OF SCIENCE AND POLICY

    Dr. Solomon. There are a lot of different opinions on what 
we ought to do about this issue. I am not an economist and I 
cannot judge what would give us the fastest result for an 
improved climate. There are those people who argue that strong 
investment in technology would pay off so well that nothing 
else should be required. I am not an expert enough to----
    Mr. Wolf. Well, what do you feel between cap and trade and 
this concept of greater investment? What do you think has the 
best opportunity for----
    Dr. Solomon. Boy, if I knew what to do, I would be happy to 
tell you, but honestly I think it is just so difficult to 
project the future of economic problems that I am at a loss to 
know what----
    Mr. Wolf. I think, though, frankly, there may be some 
exceptions, but my sense is most Congressmen do not know what 
to do either. And if you do not know what to do, I think I 
would say there probably are not any Congressmen that really 
know what to do.
    And I think the scientific effort, and I think it has to be 
scientifically driven, is very, very important. So I think that 
it is important to put together a group of people like 
yourself, but men and women who we have the respect in for to 
sort of come up with some solutions.
    The real danger is you could move ahead and into a 
particular area and then find out that that is not the way to 
go and have spent a tremendous amount of money and have a major 
impact on the economy.
    Would you agree with that?
    Dr. Solomon. Yeah. I think those comments are all fair. I 
think that the issue that to me is particularly important is 
that we not attack the science basis because we do not like the 
policies.
    Mr. Wolf. I agree. No. That is what I said.
    Dr. Solomon. Policies are----

             INTERNATIONAL GROUP TO LOOK AT CLIMATE CHANGE

    Mr. Wolf. To put together a group of men and women who are 
experts in the field, well respected to come up with a proposal 
or an idea, rather than this being a political issue to be a 
scientific issue.
    Dr. Solomon. Yeah. I do not disagree with that either. But 
I think it is important to recognize that there is the question 
of how much climate change we think we are prepared to accept 
and at what point do we begin to take actions because we have 
to weigh the concerns for our economy against the concern for 
issues like droughts and heat waves and the number of people 
whose lives will and livelihoods will be damaged.
    The Framework Convention and the Kyoto Protocol all 
certainly recognize the importance of weighing the damage to 
the environment along with the damage to the economy.

                       INTERNATIONAL COOPERATION

    Mr. Wolf. How significant is it that China participate in 
whatever is done?
    Dr. Solomon. China's emissions today are about the same as 
ours, so----
    Mr. Wolf. Well, according to an article here, I would like 
to get your comment on it, it was in today's Washington Post, 
and when I was reading, eating my breakfast, I saw, thinking of 
this hearing, that said, this is in page A4 of today's 
Washington Post, countries importing Chinese goods should be 
responsible for the heat trapping gases released during 
manufacturing.
    A top Chinese official said yesterday, Li Gao, G-A-O, 
China's top climate negotiator--do you know him?
    Dr. Solomon. No.
    Mr. Wolf. Said any fair--this is the country that has 30 
Catholic priests in jail and have a lot of Protestant Pastors 
and has plundered Tibet and is spying on us, but he said any 
fair international agreement to curb the gases blamed for 
global warming would not require China to reduce emissions 
caused by goods manufactured to meet demands elsewhere.
    Then it goes on to say, according to the Associated Press, 
which I think would differ, but China has surpassed the United 
States as the world's largest emitter of greenhouse gases. 
About 15 to 25 percent of its emissions are generated by 
manufacturing goods for export.
    So this article, I do not know what they base this on, says 
that China has surpassed us. But what are your thoughts about 
Mr. Gao's comments that China should not be blamed for global 
warming and that they should not be required to have to deal 
with it, only the country that the exports are going to?
    Dr. Solomon. Well, they probably have surpassed us slightly 
in the last couple of years, but I think it remains to be seen 
how the current economic downturn will affect their emissions 
for last year, say, compared to ours.
    So, yes, they have surpassed us, but, you know, they have 
not surpassed us by a country mile. They may have surpassed us 
a little bit. And I think the adjustments that are happening 
have yet to be realized for any nation as far as emissions go.
    Mr. Wolf. We are closing factories faster than opening 
them. They are opening them and we are closing them. So I think 
that is the direction.
    So, again, a comment, how important is China in the 
participation of solving or dealing with the problem of global 
warming? Could you successfully deal with the issue, whatever 
the solution may be, without having China as a participant?
    Dr. Solomon. It is clear that the developing country 
contribution in the future is very likely to be large. There 
are five and a half billion people living in the developing 
world, only a billion in the developed world. We produce about 
ten times more carbon dioxide per capita per year than the rest 
of the world. We still produce about four times as much per 
capita as China even. Even though their total amount is larger 
than ours, because they have so many more people, we are 
producing four times more than they are per person.
    So clearly if everybody produces in the way that we 
produce, the planet is going to get very hot very quickly and 
that is the decision that is the political one of how you get 
everybody involved because if you do not, it seems quite clear 
that we are going to have a planet that is hard for us all to 
live on.
    Mr. Wolf. But you seem reluctant to say the word China. I 
ask again for the third time, how important is it to have China 
participating in whatever the solution may be when good and 
decent scientists come up and convince the world of this? How 
important is it for China to be an active participant?
    Dr. Solomon. It is important for China to participate. It 
is also important for India in the long run to participate. It 
is because there are so many people in those parts of the 
world, it is important that we all do this together, I think. 
Otherwise, we are going to have a hot planet.

                      RESPONSIBILITY FOR EMISSIONS

    Mr. Wolf. The last question is, would you agree or disagree 
with his comments where he says that countries importing 
Chinese goods should be responsible for the heat trapping gases 
released? As you are putting together a solution, would the 
country responsible be that taking the imports or would it be 
the country that is manufacturing?
    Dr. Solomon. Well, I guess I do not see how the idea of 
charging the country who takes the goods would actually work. 
And I read the Post this morning also and that was a comment 
made there.
    It is clearly a value judgment how you decide to implement 
any of these agreements. And I think that is where the science 
ends and the politics begin. My values are not any better than 
anybody else's, but I would hope I might have more to 
contribute on the science.
    Mr. Wolf. Last question is, would it make sense to put 
together a high level group of international people, well 
respected of a lot of different political viewpoints to sort of 
come together and looking both at the science and as to how you 
then deal with it from an economic issue to make sure, because 
obviously if you are in Kenya, the poverty rate is so high 
versus if you are in, you know, London, it is in a different 
perspective, to begin to take the political out of it and begin 
to sort of develop a consensus for the world?

                                  IPCC

    Dr. Solomon. I think that is a good point. The United 
Nation's Framework Convention does try to do exactly what you 
are talking about. The Intergovernmental Panel on Climate 
Change helps provide the science information for that----
    Mr. Wolf. But I think that there are many people that 
really do not believe the United Nations is very balanced. I 
mean, on votes with regard to human rights and religious 
freedom, generally the human rights and religious freedom fail.
    China has pretty much intimidated the rest of the U.N. so 
they are doing nothing with regard to the genocide in Darfur. 
The U.N. has stood by and allowed the genocide to take place in 
Rwanda. So the U.N. is not really the group, I think. I am 
talking about an international group of respected outside of 
the U.N.
    Dr. Solomon. Well, to some extent, that is the kind of 
thing that the Intergovernmental Panel on Climate Change 
already does and it does so under the auspices of the World 
Meteorological Organization. There is also U.N. involvement. So 
if you wanted to create an alternative entity that went 
completely out of the U.N., I suppose that would be an option.
    Mr. Wolf. What are your thoughts about it?
    Dr. Solomon. I think it is clear that IPCC has functioned 
quite independently over the years. I think we can point to the 
process that produces the reports that we have established as a 
useful one. It still will not answer the question of political 
action.
    I honestly believe that separating the science basis for 
what you do from the value judgments that enter into a 
political decision is a healthy way to go. So I would frankly 
hesitate to have them all together as you are describing. I am 
not sure what the best political system or the nonscience part 
would be because that is outside of my expertise.
    Mr. Wolf. Thank you, Doctor.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Wolf.
    Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.

                         RATE OF CLIMATE CHANGE

    In recent months, some scientists have suggested based on 
new data that the climate is warming faster than the last IPCC 
report predicted. I know a full review has to await the IPCC 
reports again, but what do you think of the new data? Do you 
find it worrying? Is it too early to tell? What kind of 
research would bring more certainty to the projections?
    Dr. Solomon. The types of things that are happening faster 
include evidence for melting on Greenland seems to be going 
faster, west Arctica also. There is evidence that the loss of 
ice from those places is becoming enhanced.
    The rate at which carbon dioxide increased in the last few 
years has also been faster than before. And, finally, certainly 
a very key thing is that the retreat of sea ice in the Arctic 
has been faster, actually faster than anyone imagined and 
faster than the models predicted. So 2007 set a new record low 
for the extent of sea ice covering the Arctic Ocean.
    The warming itself, the temperature changes on the ground 
have actually not been faster than previously. So I think there 
is a little bit of confusion among the different factors.
    But I think they are all still, all those things taken 
together are still well within the type of totality that would 
justify saying there are aspects of the climate system that are 
changing faster and there are different time scales for things 
like the ice and the atmospheric temperatures.
    So I think it is fair to say that we are certainly seeing 
many aspects of climate change that are happening faster than 
we expected, not all, but many.
    Mr. Schiff. And what are the theories as to why we are 
seeing greater acceleration in the extent of the ice as opposed 
to, you mentioned, on land, the indications of warming are 
slower than projected? What are the theories about why that has 
been true?

                     OCEAN TEMPERATURES AND WARMING

    Dr. Solomon. The ocean temperatures have a big role to play 
in holding back surface temperatures from warming worldwide. 
And we happen to be in a La Nina phase where the ocean in the 
Pacific is relatively cold. We are coming out of that now, so I 
think things will probably change in the coming year.
    But when the ocean temperatures are cold, you also see 
temperatures on land that are cold, particularly in the Pacific 
sector, which is why our part of the world has been rather on 
the cold side.
    Ice is responding in part I think to more the history of 
what temperatures have done. Particularly Greenland has a very 
slow time scale to melt. It just takes a long time. So you are 
seeing the accumulated impact of the many years of warm 
temperatures as far as the Greenland melt goes, whereas, let us 
say, for temperatures in the U.S., you are much more seeing a 
slight moderation of the warming trend because of the cold 
ocean temperatures.

                             TIPPING POINTS

    Mr. Schiff. There has been a fair amount of discussion of 
the, you know, the tipping point. How indefinite is that 
science? I mean, how in terms of the melting of the ice caps, 
for example?
    There is a cyclical phenomenon or a synergistic phenomenon 
where the more that melts, the more it increases the capacity 
to melt more. What are the limits of the science in that area 
in terms of determining, you know, when they may be gone for 
good?
    Dr. Solomon. Yeah. The changes in Arctic sea ice certainly 
are one of the most dramatic things that has led me to start 
wondering about tipping points. I have been a little bit 
reluctant to do so for a long time because I am trying to be 
very balanced in the way I look at this problem.
    But indeed the fact that sea ice has retreated so fast in 
the Arctic in 2007, 2008, many people actually thought it would 
recover in 2008, it did not. It was almost as low in 2008 as it 
was in 2007. So we may very well have pushed the Arctic past 
its tipping point into a different state in which it is going 
to be much warmer all the time and have much less ice every 
year. We will not know that yet for a few years, but I think it 
is clear that that signal sort of is emerging.
    I think the other thing that is emerging is the way that 
changes in rainfall are probably being affected by climate 
change. The increasing evidence for drying in the Mediterranean 
and in the U.S. southwest and Australia is beginning to, I 
think, start to make a case for having perhaps passed the 
tipping point there as well.

                      ORBITING CARBON OBSERVATORY

    Mr. Schiff. A number of the other witnesses we have had 
have talked about the loss we suffered with the failure to 
launch the orbiting carbon observatory. Do you have any 
thoughts in terms of is there another way to get that science 
or do we need to do a do-over?
    Dr. Solomon. Wow, that is really a tough one. It would have 
been a great experiment. There is no doubt about that. I am, I 
think, less qualified than some of the people that are going to 
talk to you later in the week to evaluate the extent of that 
loss relative to other things that you are looking at. So I 
really would ask you to accept that I am just not expert in 
this.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Schiff.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.

                       INTERNATIONAL COOPERATION

    Dr. Solomon, thank you for being here. You are probably no 
stranger to being a witness to different committees.
    Having heard a lot of questions and reading up on this 
issue of climate change, global warming, flash points and all 
that sort of stuff, moving our country to work with other 
countries and overcoming some of the barriers, obstacles to 
cooperation, and in the light of all the other issues that we 
throw out there, which seems to distract us sometimes from the 
main focus of getting together and start working together, if 
you were able to readjust our perceptions and some of our 
notions about ourselves and other countries in this whole 
debate, what are some of the things you would tell us to set 
aside or what are some of the things you would say to focus on 
for the benefit of the future? I know it is unscientific, but--
--
    Dr. Solomon. No. It is actually----
    Mr. Honda [continuing]. You know, part of the thing about 
our human dynamics is that we allow certain things to get in 
our way in really addressing the human issues of us moving 
forward.

                 SCIENTIFIC CONSENSUS ON CLIMATE CHANGE

    Dr. Solomon. I agree. It is a very important thing to 
consider the human issues. And if I may, I would like to say a 
few things that are perhaps more general.
    And they are that I think we have gotten to the point where 
we are starting to lose sight of all the things we actually 
understand well about climate change.
    Mr. Honda. Yes.
    Dr. Solomon. We have gotten so much into a shouting match 
about, you know, is west Antarctica going to melt tomorrow. And 
I am not suggesting for a minute we should not talk about 
risks. We absolutely should talk about risks and issues of high 
uncertainty.
    But I also think we should not forget that there are a 
large number of things that we actually know very well, where 
we have measurements that show what is happening already. We 
know that there is very likely a human contribution to those 
changes. We understand the physics and we can predict the 
future.
    When it comes to some of these risk issues like, you know, 
will the permafrost melt and the methane be released, very 
important issue, but we just cannot get our arms around it 
quantitatively.
    So I think that if you are interested in overcoming 
barriers and bringing people together, developing a consensus 
that many people in the country can and the world can agree on, 
we should really be emphasizing a bit more all those aspects of 
climate change that are well understood, are very important, 
and we will do things to the planet that are unlike anything 
that has ever happened before.
    And by that, I mean very quite rightly, Mr. Chairman, 
happened before while human beings were here because obviously 
we can go back three million years to a different planet that 
was, you know, we can go to Venus, too, and that is a different 
planet, but----

                 OBSTACLES TO INTERNATIONAL COOPERATION

    Mr. Honda. So when you say we, who are you talking about? 
Just folks on this country or are you talking about an 
inclusive we? If it is inclusive, what are the barriers of 
moving, coming together?
    And then I guess the other question is, when we understand 
all these things to be true, the scientific and everything 
else, is that held by all parties like India and China, let 
alone ourselves?
    So I guess I am moving towards what are some of the 
obstacles to arriving to yes, arriving to cooperation so that 
we can start developing common interests, trust, and, you know, 
without saying that, you know, these other human things do not 
exist. We still have to overcome it.
    And I was just wondering what would you say to us? You all 
ought to be doing this or think about this or these are the 
barriers and let us get real, you know? What are some of those 
admonitions that you would have for us?
    Dr. Solomon. Well, I think science is certainly a common 
basis that is valued in all countries. That is why IPCC has 
been, I think, so helpful to negotiators. It is not just Europe 
and the United States that are interested in understanding the 
science. Certainly China and India also want to know what the 
facts are. That gives you a basis to then discuss things.
    I think, though, it is very clear that this problem has 
barriers to overcome that extend beyond science, that do 
involve human values. And as I said to Mr. Wolf, I think it is 
helpful to recognize where one starts and the other begins, 
where science stops and values begin when you try to design 
policies, I think is clearly one of the things that will help 
us.
    There are major issues of what some people like to call 
international equity involved here because the developed 
countries have produced so much of the carbon that is already 
in the atmosphere. So it is now the turn of the developing 
countries and they would ask for some kind of system that is 
fair. And so jointly, we have to decide what we think is fair.
    I think that the U.S. certainly has a lot to offer in terms 
of technology and technology transfer. I think those kinds of 
activities can really help because the more that we can assist 
other countries to emit less, to not be as inefficient in their 
use of energy as we once were because we have learned to be 
much more efficient over time, we can provide those 
technologies. That is the kind of thing that we can bring to 
the table in a useful way.
    And certainly the efforts to produce new renewable energy 
sources, make them cheaper, make them more efficient, to the 
extent that we can share that with other countries will help to 
promote a sense of harmony and overcome the barriers as you 
called it.
    I do not know if that is where you are trying to take this 
question, but----
    Mr. Honda. Through the Chair, it seems to me that there are 
a lot of things we do not know about the other countries and 
what their conditions and priorities are, but I suspect that 
they care about their children and their future.
    I suspect that they have policies that they have not been 
able to implement as we have policies that we have not been 
able to implement or have oversight on.
    But given all those things, it seems to me that we have 
people all around the world of good will who understand that we 
have to work together and that this word called cooperation is 
going to be a baseline and how do we get there. And I guess 
there has to be some give and take.
    Israel and the Middle East have shown us that we can 
develop a process of confidence building mechanisms. We do not 
have one yet in this arena. It seems that we are worried about 
competition. We are worried about all this stuff that would be 
meaningless when we cannot breathe.
    And so, all these things, these flash points we talk about, 
they all could happen at once like the permafrost and the 
emergence of CO<INF>2</INF> and methane in volumes that we will 
never be able to handle if we do not get in front of it and 
anticipate these things.
    And these things do not occur linearly. They are all going 
to happen at once and if we do not as leadership demonstrate 
that willingness to do that, then who will? And so, the lack or 
failure of political leadership is not an option.
    And so it seems that we have to sort of look for that 
common ground and look at diplomacy and, understand that all of 
us have different priorities and different conditions in our 
own country. We have one thing in common and we need to solve 
this problem together. And we could give and take and share.
    And so I was looking for a response from a scientist who 
would speak not only from hard evidence but also from the human 
factor that really moves or stops progress.
    Dr. Solomon. Well----
    Mr. Honda. And being real candid.
    Dr. Solomon. Yeah.
    Mr. Honda. Because I do not want you to leave here and say 
I should have said.
    Dr. Solomon. No. No. I see where you are going and I think 
I may have covered some parts of that earlier. I certainly 
agree that it is very clear that the whole world has to 
participate or let us say virtually the whole world has to 
participate in order for this to work.
    One of the things that from a science point of view is 
particularly concerning to me actually is that just to 
stabilize carbon dioxide levels, we would have to reduce 
emissions by about 50 percent within the next few decades and 
by 80 percent not long after that just to stabilize it.
    So the problem is that we are putting carbon dioxide into 
the atmosphere so much faster than nature can take it away, 
that we have completely overwhelmed the system. And so we have 
got to reduce it enormously.
    How do we do that? How do even we, the United States, 
reduce by 80 percent let alone developing countries who are 
emitting very little now and would like to emit more, would, of 
course, like to develop? How do we as a whole planet reduce our 
emissions by 80 percent while 80 percent of the people on the 
planet continue to develop?
    So that is the way I like to put it. But you will notice I 
always put it scientifically. I do not make emotional 
statements. I am really trying to keep the science separate 
from the issues of values and politics because I think that the 
more we do that, the better chance we have for all nations of 
actually agreeing on something.
    But 80 percent is a big number when 80 percent of the 
people right now are very poor in the world.
    Mr. Honda. Last comment through the Chair, Mr. Chairman. 
When folks developed the nuclear bomb and things like that, 
they realized that they had a human responsibility to say 
something also in its use and sometimes they did not speak up 
quickly enough.
    And so the opportunity to educate along the lines of human 
motivation and the things that make us human and the scientific 
information that makes us powerful, wisdom has to fall into 
there somewhere. And I guess the wisdom of your experience and 
insights is what I was looking for.
    Thank you.
    Mr. Mollohan. Thank you, Mr. Honda.
    Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.

                         REDUCTION OF EMISSIONS

    Thank you, Professor Solomon, for coming all the way to 
Washington to be with us today and share your experience with 
us.
    I wondered, if I could, to make sure I understood your 
testimony to Mr. Honda that in order to stabilize the 
CO<INF>2</INF> levels, just to stabilize them where they are 
today, that the world would have--is it the world would have to 
reduce CO<INF>2</INF> emissions by 50 percent or just the 
United States?
    Dr. Solomon. The world.
    Mr. Culberson. By 50 percent within what frame of time?
    Dr. Solomon. A few decades at most.
    Mr. Culberson. Meaning 20 years?
    Dr. Solomon. At most.
    Mr. Culberson. Thirty years? Twenty years. So by 2030?
    Dr. Solomon. Roughly.
    Mr. Culberson. And 80 percent by 2050?
    Dr. Solomon. By 2050.
    Mr. Culberson. What level of industrial production would 
that--the United States would need to return to a level of 
emissions that would be the equivalent of at what stage in our 
history?
    Dr. Solomon. I do not know that number off the top of my 
head.
    Mr. Culberson. That is a real important number.
    Dr. Solomon. But, of course, the idea one might have is not 
to reduce our activity, but to do it in a different way using 
alternative energy sources, for example.
    Mr. Culberson. Right. Well, then let me ask it this way. 
Assuming today we are consuming in the United States oil, 
petroleum products at a certain level that is 100 percent, 
considered today 100 percent, what level of today's level of 
consumption of oil would we have to reduce U.S. consumption by 
2030 in order to achieve a 50 percent reduction in carbon 
emissions?
    Dr. Solomon. I guess about 50 percent.
    Mr. Culberson. Okay. And what level of production and 
petroleum consumption, petroleum products would we have to 
reduce by 2050, 80 percent?
    Dr. Solomon. Again, the same figure. Of course, you could 
do more potentially with other types of reductions as well.
    Mr. Culberson. Right.
    Dr. Solomon. So, you know, you could reduce methane.
    Mr. Culberson. Sure.
    Dr. Solomon. You could reduce tropospheric ozone, you know.
    Mr. Culberson. Right.
    Dr. Solomon. There are other places where you could look 
for things that you could----
    Mr. Culberson. And you include all petroleum products, not 
just--I mean, obviously the petrol chemical refining industry 
includes plastic, making plastics, almost everything in this 
room. Production levels would have to be reduced by 50 percent.
    Dr. Solomon. You are certainly illustrating very well why 
this is an extremely difficult problem.

                 INTERNATIONAL CARBON DIOXIDE EMISSIONS

    Mr. Culberson. Right. And Mr. Honda is exactly right that 
China, for example, has to participate. And I certainly wish 
they would. It would be wonderful if they would, but it is an 
objective fact that they will not and they have indicated they 
are not signing on to any carbon treaty. I have seen no 
indication.
    I am looking at an article from the February 8th edition of 
the Journal of Science, an article on sustainable development, 
page 730. China has one of the largest coal reserves in the 
world and coal accounts for 67 percent of its primary energy 
use.
    And China is currently bringing, Committee members, two 
additional coal fired power plants to the electric power grid 
every single week.
    And by 2030, Dr. Solomon, the article concludes that China 
will be emitting as much carbon in 20 years as the entire world 
does today, but they will not sign on to any of the carbon 
treaties. So they are not helping at all.
    In fact, this is an article from the February 9th edition, 
February 9, 2007 of the Journal of Science, page 812, talking 
about capturing carbon.
    And they point out in the article, Mike, that the, quoting 
from the article, the major coal producers, Russia, China, and 
India, have been unwilling to sacrifice short-term economic 
growth. They just will not do it. So they are not going to 
participate----
    Mr. Honda. Would the gentleman yield for a second?
    Mr. Culberson. Sure. You bet.
    Mr. Honda. Since you mentioned my name, it seems that 
Congress in its current form is willing to do that and we had a 
chance since the Kyoto Protocol and somehow as a nation, we 
refused to participate too. And there were reasons and 
motivations. But I do not think that that should hold us back. 
We should move forward.
    Mr. Culberson. You know, Mike, you raise a good point.
    Mr. Honda. So thank you.
    Mr. Culberson. No. You raise a good point, my friend, about 
the importance of getting the whole world to become involved. 
And I do hope the Chinese participate. You are exactly right, 
because the problem is so big and the Chinese emissions are so 
huge. Bringing two new coal fired power plants on line every 
week, that literally by the year 2030, China is going to be 
emitting as much carbon as the entire world.
    So they are a vast producer of carbon dioxide, the largest 
in the world, right, Professor Solomon?
    Dr. Solomon. Yes. Well, actually, maybe not. I think some 
of the Middle Eastern countries like----
    Mr. Culberson. Bypassed them?
    Dr. Solomon [continuing]. Qatar, United Arab Emirates.

                          CARBON SEQUESTRATION

    Mr. Culberson. Right. And I am sure those guys are going to 
sign right up on Kyoto or whatever. I mean, they are going to 
be zero help.
    I mean, we just have to assume, Mike, and you raise a good 
point, that these guys are not going to help much and that if 
we leave this burden entirely on the United States, I mean, we 
are talking about either radical--and everyone on the Committee 
knows how passionate I am about nano technology. I am convinced 
that nano is going to revolutionize everything that we touch.
    And I think nano technology holds the promise of giving us 
a lot of the technology that you are referring to. And 
certainly the United States can make great strides.
    But with the facts that the Chinese, the Indians, the 
Russians, the Middle Eastern countries are probably not going 
to help, they are not going to sacrifice economic growth, that 
is an objective reality, in order to help reduce carbon 
emissions.
    Therefore, what I am leading you to, Dr. Solomon, is that 
we need to look to, in the meantime, if the goal is to reduce 
carbon, we need to look to technologies to sequester carbon is 
probably one of the better alternatives in the short term to 
remove carbon from the atmosphere in a significant way because 
then the United States is helping the entire planet; would you 
not agree?
    Dr. Solomon. Yes. And let me just clarify. When I said the 
Emirates, I meant per capita.
    Mr. Culberson. Okay.
    Dr. Solomon. Not total.
    Mr. Culberson. But it would be carbon----
    Dr. Solomon. But, yeah.
    Mr. Culberson. Carbon sequestration would be a good way to 
go, right?
    Dr. Solomon. Carbon sequestration would in principle allow 
you to continue to burn coal and put the carbon back in the 
ground.
    Mr. Culberson. And we need to work on the technologies, 
Mike. And, I mean, I am with you. We have got to work on this 
technology and nano technology literally will allow us to make, 
for example, the electric grid, to carry electricity 
ballistically without any resistance to store electricity.
    Mr. Chairman, I can wrap this up in about two months, Mr. 
Chairman, if I have time. I have two minutes?
    Mr. Mollohan. Go ahead.
    Mr. Culberson. Thank you, sir. You are very indulgent.
    Mr. Mollohan is one of the most gracious Chairmen there is. 
He gives us plenty of time, particularly me. He gives me a lot 
of rope because I tend to go on a little bit. Thank you, guys, 
for the patience.
    But I am leading somewhere specifically because NOAA, and I 
really admire the work that you all do, I in looking at carbon 
sequestration techniques, this same article in the February 
9th, 2007 edition of Science points out that the uptake of 
carbon dioxide by the ocean combined, this is a direct quote, 
Mike, combined with dissolution of marine carbonate will absorb 
90 percent of the carbon released by human activities.
    You would agree with that? The ocean is the largest single 
carbon sink on the planet?
    Dr. Solomon. In the long run, yes.
    Mr. Culberson. Right. And that a cubic yard of mid ocean 
water contains less life as a general rule than a cubic yard of 
Sahara Desert sand. That is why the ocean is so clear.
    And that whenever there is a dust storm over Africa, the 
way, you know, the good Lord has designed the earth to balance 
these things out, the dust storm blows dust over the ocean. The 
plankton bloom and there is vast reductions in carbon dioxide, 
tremendous emissions of oxygen.
    And what I am driving you towards is that is it not true 
that we have seen that there is significant potential in 
fertilizing the ocean with iron to enhance the growth of 
phytoplankton as a way to sequester carbon rather dramatically; 
is it not? And Woods Hole Institute has been one of the leaders 
in this research.
    Dr. Solomon. There have been some studies of that effect. 
You are quite right. It is possible to do it. What is not 
completely clear is how long you keep the carbon in the ocean 
doing it that way. To what extent it comes right back out is 
one question. Another one is how much you also get of other 
things like N20, nitrous oxide.
    Mr. Culberson. Right. There has not been much research. Not 
much research has been done.
    Dr. Solomon. It is certainly a possibility.
    Mr. Culberson. Right.
    Dr. Solomon. But it is not one that is proven.
    Mr. Culberson. My time is so limited, I am going to close 
with another question and I hope I get a second chance.
    But, Mr. Chairman, I wanted to ask Dr. Solomon because our 
Committee, something I brought to the Committee's attention, 
and I would like to pursue, Mr. Chairman, with the Committee's 
support, that we direct some funding to NOAA for you to do the 
research to tell us what would be necessary in terms of 
sequestering carbon in the ocean using iron fertilization and 
in particular nano particles of iron oxide because all the 
research has been done using iron sulfate and that creates 
acid.
    And the nano particles of iron oxide would be taken up much 
more readily by the phytoplankton and the iron oxide would not 
create an acid situation because, of course, the absorption of 
carbon by the ocean raises the acidity level and, therefore, if 
you use iron oxide, you would not have the acidity problem.
    So would you, if I could, and my final question, my 
Chairman is gracious with the time, would you be agreeable to 
and could you do that research if this Committee directed some 
funding to NOAA for the specific purpose of telling us what, 
how much would be, what type of iron fertilization would be the 
best, how much carbon could the oceans take up, and what the 
side effects would be?
    Dr. Solomon. Geo engineering is certainly one of the things 
that people are doing research on. Iron fertilization is one 
option. There are other options that personally I think ought 
to be pursued as well. You are exactly right.
    Mr. Culberson. Personally, I am not asking your personal 
opinion. I am asking could NOAA do the research?
    Dr. Solomon. I really cannot speak to that. I certainly 
could not do it personally.
    Mr. Culberson. Oh, you could not?
    Dr. Solomon. It is not what I do. It is not what I do as an 
individual scientist.
    Mr. Culberson. Your focus is not carbon sequestration?
    Dr. Solomon. That is right.
    Mr. Culberson. Okay. But NOAA is certainly capable of doing 
the research. You have got other divisions.
    Dr. Solomon. I imagine NOAA has some capability in that 
area as do others.
    Mr. Culberson. Thank you very much, Mr. Chairman, for your 
indulgence.
    Mr. Mollohan. Thank you, Mr. Culberson.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    First of all, welcome again.

                   LOCAL EFFECTS OF RENEWABLE ENERGY

    You talked a little bit in your testimony about 
reengineering and the concern as we move aggressively in terms 
of, hopefully aggressively in terms of renewable energy, wind 
and solar, about perhaps that there are issues still to be 
looked at in terms of the impact of wind power particularly and 
the uses of wind and whether there would be climate changes or 
issues to be concerned about.
    Could you expound on that a little bit?
    Dr. Solomon. Yes. It is very interesting that just the 
presence of the wind turbines when you have a lot of them in a 
given area, you create a lot of turbulence. And there are 
environments in which local meteorological changes have been 
observed like fog, you know, and changes in the stability of 
the atmosphere are pretty serious issues.
    So I am not suggesting that we should not pursue those, but 
there are things that would need to be resolved in choosing the 
places where it could be done without disturbing the 
environment too much.
    Mr. Fattah. Yes. I am a big fan of proceeding aggressively 
in this direction but obviously we do not want to cause more 
harm as we go forward. So I was very interested. Now, is there 
research that is being done now, looking into the question of 
the impact and how site locations might be best? I mean, for 
instance, Texas is moving aggressively in terms of wind 
generation and there are other places throughout the country. 
Is there now data informing those decisions as we speak? Or is 
this a new area of research that we need to invest in?
    Dr. Solomon. It is a new area of work. I think there is 
more and more research directed at trying to understand this 
issue in various parts of the country, not only for wind but 
also for other activities, like biofuel, and what the water 
demand to do biofuels is, how it could be met. So I think in 
all the areas of mitigation science there is a similar need for 
research to understand the environmental consequences of any of 
those mitigation activities. And yes, it is an area people have 
worked on for a long time but clearly more and more people are 
starting to work on these questions now.
    One of the big problems we have is actually not having 
models that have enough spatial resolution to really get down 
to the level that you need to get to to really study a lot of 
these things. And people are developing ways to get around 
that, basically, by using sort of nested approaches and things 
like that. But it is a very active research area.
    Mr. Fattah. Active at NOAA? Or over at the Department of 
Energy? Or where?
    Dr. Solomon. Both, I think it is fair to say both.
    Mr. Fattah. And is there cross fertilization in this 
research effort?
    Dr. Solomon. Yes. I think there is an emerging effort at 
cross fertilization. And, again, because it is a new area there 
are not a lot of people working on it yet. But I think there 
will be more and more. It is one of those things that has to 
develop.
    Mr. Fattah. Well, I want to, and you also mentioned this 
notion of reengineering relative. Can you talk a little bit 
about the general, beyond when, the other areas that need to be 
looked at in terms of the notion around reengineering? Because 
you mentioned solar, you mentioned sun redirection, and so on.

               EFFECTS OF ALTERNATIVE ENERGY DEVELOPMENT

    Dr. Solomon. Yes. I mean, I think we do not really know. If 
we begin to build solar rays so massive that they would, they 
would be working to provide the enormous demand for energy. So 
that energy would be going into the solar system rather than 
into the ground, as it would otherwise be doing. The local 
meteorological impacts of that, I think, are something to just 
take a careful look at and make sure it is understood. I think 
from the global point of view it is, you know, it is clear that 
it is not a huge problem. But locally, you know, when you are 
concentrating the energy, yes, yes. So that is one of the sorts 
of things.
    I think the biofuels we have a lot of questions. I mean, 
one obvious one is when you begin to use the available land to 
grow biofuels instead of food what are the impacts on food 
security are a serious issue. But the other one is what about 
the demand for water? And another one is what about the 
emissions of nitrous oxide, if you are going to fertilize all 
of that stuff. There are side gases that can be released. So 
the whole question of scientific understanding of the side 
effects, if you want to call them that, of all of these 
alternative energy approaches are, I think, merit our 
attention.

             INTERNATIONAL COOPERATION IN CLIMATE RESEARCH

    Mr. Fattah. Now lastly, you are connected with a number of 
the international scientific organizations, London, France. To 
what degree internationally is there collaboration and around 
these types of research points?
    Dr. Solomon. There is actually a lot of collaboration 
internationally. There obviously could be more and I think that 
pulling in the developing countries more and more is something 
that everyone would like to do in research and in the 
scientific endeavor in general. But the number of joint 
projects, joint experiments, joint satellites, all of those 
things, has gone up enormously in my career in science, anyway. 
And I think that is a very encouraging thing.
    Mr. Fattah. And last question, so there has been no, like, 
post-9/11 challenges relative to research related work that you 
are involved in, in terms of sharing of information and the 
like?
    Dr. Solomon. Well, I mean, the world has gotten a little 
bit harder to get around in in the post-9/11 era for all of us, 
as we know. And it has occasionally caused some problems. I 
think it is not at a level that is really impeding the kind of 
science communication that we need to have. And I very much 
hope that continues.
    Mr. Fattah. Thank you, Mr. Chairman.

                  ICE SHEET MELTING AND SEA LEVEL RISE

    Mr. Mollohan. Thank you, Mr. Fattah. Just to get a clear, 
crisper answer on the record to the question that I was asking 
before yielding, what is the probability that the West 
Antarctic Ice Sheet could float or melt, or that the Greenland 
Ice Sheet could melt by 2050 and by 2100? And what would be the 
consequence of the sea level rise?
    Dr. Solomon. I can answer the second part of the question 
better than the first part. If West Antarctic were to 
completely melt it would produce about five meters, or about 
fifteen feet, of sea level rise. If Greenland were to 
completely melt it would produce about seven meters, or about 
twenty-one feet of sea level rise. So those are enormous 
numbers.
    We have not got the science to tell you what the 
probability of that happening by 2050 or 2100 is in either 
case. I cannot give you a probability. We have reasons to 
believe that probability is small. But it is not zero, and we 
do not know what it is.
    Mr. Mollohan. Well, the phenomena is in process, is it not? 
The melting of the West Antarctic Ice Sheet and the Greenland 
Ice Sheet?
    Dr. Solomon. We see local, rapid, and very impressive 
movement of ice in both of those places. But it is local. And 
we just do not know how much more we could get integrated over 
the whole ice sheet as the planet gets warmer. I guess----
    Mr. Mollohan. What does that mean? Say that again?
    Dr. Solomon. We see effects in particular places but it is 
very hard to extrapolate that to know what is going to happen 
over the size of the Greenland Ice Sheet, which is an enormous 
chunk of ice. But we just do not know enough to extrapolate 
from our local measurements to Greenland as a whole.
    We do know that the last time the Earth was warm, warmer 
than it is today, which was about 130,000 years ago, the polar 
regions were about three to five degrees warmer then than they 
are now. Which is about what they might get to by, say, late 
century. Two to four meters of sea level rise occurred. So sea 
level rise rose, went up by about that level. We do not know 
how fast that happened. It may have taken many hundreds of 
years or it may have been fast. We just do not know. But we do 
know that when the Arctic was warm and the Antarctic was warm 
130,000 years ago sea level was two to four meters higher than 
it is today.

                        REGIONAL CLIMATE CHANGE

    Mr. Mollohan. Looking at a recent consequence of climate 
change, in assessing ozone depletion the science community 
started with global average predictions. But experimental 
evidence, some of it from your own measurements in Antarctica, 
I am advised, led to a focus on a regional change, the ozone 
hole. In assessing climate change, what environmental factors 
should be viewed regionally and what globally?
    Dr. Solomon. The ozone hole, I think, was a compelling 
thing to many people because it allowed them to see a pattern 
of change. Not just a global change but a regional change, as 
you say. And I think some of the factors in climate change that 
we now are seeing in a very useful, regional way are, 
particularly those having to do with rainfall where although we 
have a fairly small change in rainfall globally averaged there 
is a pattern where some places get drier and other places get 
wetter. And we are seeing that both in data and in models. It 
is, I think, also well understood from the point of view of the 
way the physics work. It would be nice if, you know, the dry 
places got wetter and the wet places got drier. But 
unfortunately it is exactly the opposite. So it is particularly 
a place where the regional changes are very important. And our 
own Southwest U.S. is one of the places where we are beginning 
to see this. So rainfall is a very big one.
    The other issue, of course, is the Arctic where we expect 
to see the largest warming and we are seeing the largest 
warming. And we are seeing massive retreat of the sea ice 
extent, which is even faster than we expected. So the Arctic 
will be becoming more and more a different world. It is causing 
things like coastal erosion, because the absence of the sea ice 
means that the beach is no longer as protected as it used to 
be. So there are big problems with coastal erosion in 
Greenland, sorry in Alaska, I meant to say.
    The other thing that I think is very interesting from a 
point of view of regional change is snow pack. The nice thing 
about ice and snow is it is either ice and snow or it is not. 
So it is a very clear threshold. And because temperatures are 
warmer on mountain ranges all around the world what we are 
seeing is that on average it does not snow as much at low 
altitudes. So the snow line is moving up. And the amount of 
snow sequestered on the mountain at the end of the winter is 
reducing. So it is not as available to melt and provide water 
the following summer. And that sort of thing in California, in 
the Cascades, in the Rockies, in Europe in the Alps, is 
beginning to be a very, very clear regional signature of 
climate change. So those are some of what I view as the really 
clear regional patterns of climate change that are of concern.

               RESPONSE OF GREENHOUSE GASES TO REDUCTIONS

    Mr. Mollohan. Emissions of chlorofluoromethanes, the major 
contributors to ozone depletion, have been banned for many 
years. But I am advised that the ozone hole still occurs and 
full recovery of the stratospheric ozone layer is decades away. 
Well, once human emissions of greenhouse gases from whatever 
country or from whatever source are greatly reduced, how 
rapidly will climate change respond?
    Dr. Solomon. It is very much dependent on the type of gas 
that is reduced and how long its lifetime in the atmosphere is. 
There are some greenhouse gases that are increasing because of 
human activities that do not live very long in the atmosphere, 
and a good example of that is tropospheric ozone. If you want 
to call it smog you can, but it is more of a global smog. That 
stuff only lives a short time. So if we were to stop the 
emissions that were causing it then the smog would go away 
fairly quickly and the climate would respond fairly quickly, 
time scale of a few years or so.
    In the case of methane the lifetime is about ten years. So, 
again, if you reduced emissions, and we have seen some evidence 
from reduced emissions from things like mining, activities like 
mining where people are starting to tighten up those 
activities, that should, in principle, give you a climate 
response rather quickly, time scale of a decade or so.
    Carbon dioxide, on the other hand, lives a very long time 
in our atmosphere. Most of it lives longer than a hundred 
years. There is a fraction that gets removed quickly, but that 
is a small fraction. Most of it hangs around for a very long 
time. And in fact, some of it will still be here even in a 
thousand years. So about 20 percent, actually, of what we are 
producing of carbon dioxide will still be in the atmosphere a 
thousand years from now, which is a long time.
    The climate changes from carbon dioxide actually only, 
well, let me see if I can explain this. Carbon dioxide has a 
unique effect in climate because not only does it take a long 
time for it to go away, the time scale at which it is going 
away is matched very closely by the time scale in which the 
climate can actually respond. So what ends up happening is that 
the temperatures are essentially irreversible. The increases in 
temperature are essentially irreversible once you have cranked 
up the carbon dioxide. You can crank the carbon dioxide back 
down, but the warming actually remains nearly constant for 
about a thousand years. It is essentially irreversible. And the 
reason is because there is a bit of a time lag associated with 
the oceans. That is the fundamental problem here. And it causes 
the temperature that we get as carbon dioxide increases to be a 
little bit less than what its equilibrium value would be. And 
then it causes the temperatures to stay just about where you 
got them to for many hundreds of years. So the two things work 
together. The oceans and the carbon removal work together to 
keep the temperatures almost constant for about a thousand 
years or more. So we can only crank that dial one way. We have 
to decide how far we want to crank it.
    Mr. Mollohan. Well, you may have spoken to my next question 
but let me ask it. In the context of different nations' 
responsibility for climate change Dr. James Hansen has pointed 
out that the excess carbon dioxide in the atmosphere today has 
come primarily from countries that have been industrialized for 
decades or more, and that the full effects of these past 
emissions have yet to occur. Can you explain this and to what 
extent did you just explain it in your last answer?
    Dr. Solomon. That is related to that thing I just 
discussed. Even if we kept carbon dioxide and all of the other 
climate forcing factors constant, the atmosphere would continue 
to warm by about a half to .6 degrees Celsius, or let us say 
almost a degree Fahrenheit. And most of that would happen in 
the next century. And the reason is that right now the ocean in 
a sense is lagging the atmosphere. You can kind of imagine 
that, you know, air that absorbs a certain amount of heat. But 
the ocean being much colder is lagging behind. If we kept the 
concentration of everything constant the ocean would have a 
chance to catch up, and then the atmosphere would in turn also 
get a little bit warmer. So that is the factor that Hansen was 
referring to. And that also has a role to play in the 
irreversible climate change that I was talking about before. 
So, yes, this is linked to my previous answer. But it is about 
a degree of further warming.
    Mr. Mollohan. Okay. Thank you, doctor. Mr. Wolf.

                             DEFORESTATION

    Mr. Wolf. Thank you, Mr. Chairman. Two questions, doctor. 
How significant in impact is clear cutting in Brazil and 
around? And also here in the United States. And is there a 
formal program with regard to planting of trees, encouraging, 
and formal programs that can sort of ameliorate that, or 
balance it out, or whatever? But can you talk about the impact 
of clear cutting? How much that is making a contribution, and 
also how do you deal with that other than just stopping it? But 
can you make up the difference?
    Dr. Solomon. Deforestation accounts for something like 15 
to 20 percent of the total carbon emissions, and the rest of 
from fossil fuel burning.
    Mr. Wolf. And where is most of that clear cutting being 
done?
    Dr. Solomon. Mostly in places like Brazil. A lot of it is 
in South America. Some is in Indonesia. I do not have off the 
top of my head the full list but those are the main ones.

                     DEFORESTATION & CLIMATE CHANGE

    Mr. Wolf. And by having an aggressive program of planting 
trees, wherever it may very well be around the world, how 
significant can that be with regard to----
    Dr. Solomon. Certainly----
    Mr. Wolf. Is there one for one? Or is it a mature tree 
versus a tree that is only five years old? Is there any kind of 
balance there?
    Dr. Solomon. Well, that is a good question. I am not sure I 
can give you a very quantitative answer on it. Certainly 
avoiding deforestation, or replanting, are really two different 
things.
    Mr. Wolf. Right.
    Dr. Solomon. Right? So replanting would slowly give you a 
significant effect. If we were to plant as much as we possibly 
could I think some estimates have it that we could offset I 
think about 10 to 15 percent of today's carbon emissions. But I 
would have to check that to be absolutely sure.
    Mr. Wolf. I guess what, I was not clear, too, like out in 
Oregon and places like that, for every tree they cut they 
generally plant one or two or three, Weyerhaeuser, the 
companies, whatever it may be. How significant is it, such as a 
tree that is cut, say at, a twenty-five year old tree, versus 
putting several new seedlings in that are one or two years old. 
Is there a, is the fact that it is growing whereas the other 
has kind of stopped its growing, making a different insofar as 
the impact? Or is it, how does that balance out? And maybe you 
cannot answer that, maybe you should just check for the record. 
But do you follow what I am saying?
    We put a new seedling in, okay, we have a Christmas tree 
farm and we cut the tree, the trees are beginning to stop 
growing at a certain age. It still is growing but not to the 
spurt that you get, versus we put brand new seedlings in, they 
grow about a foot a year. The growth is more aggressive, there 
are more trees, but they are smaller. Is there a trade off 
there? Or does that have a balance? Does that make, have----
    Dr. Solomon. Yes. The young trees grow faster, exactly, 
than the old trees.
    Mr. Wolf. Right. And do they make a greater impact on----
    Dr. Solomon. So, yes, the more you replant the more you can 
actually have a positive impact.
    Mr. Wolf. Yes, but----
    Dr. Solomon. But it depends on what happens to the wood in 
the old tree.
    Mr. Wolf. Right. I understand that. But, I mean, how can I 
put this, one for one, is the fact that the tree is growing 
aggressively having a better impact on global warming than a 
tree that is mature, and old, and is not growing very, very 
much at all? Is there a balance, a trade off, a difference? Do 
you get more with that new seedling after five years than you 
do with a tree that is thirty-five years old?
    Dr. Solomon. Sure. In principle, the young trees certainly 
grow faster. And there are varieties of trees that are the 
fastest growing that are used in places that are trying to do 
reforestation projects to help the carbon budget.
    Mr. Wolf. Now is that being looked at? Are there any 
programs down in, say, Brazil and Indonesia that are 
aggressively looking at that?
    Dr. Solomon. Yes. The danger, of course, is that you have 
to decide how much you want to encourage deforestation of old 
growth forests in order to----
    Mr. Wolf. Well, I was not thinking of cutting one for one. 
I was thinking taking areas that have now been plundered and 
stripped. I mean, we have strip mines down in West Virginia and 
in Pennsylvania that they are coming in a putting trees in that 
are making a tremendous, positive difference. I mean, looking 
to reclaim, if you will.
    Dr. Solomon. Yes. Reforestation is certainly a very active 
area that is being looked at.
    Mr. Wolf. I mean, is that one of the recommendations that 
the international panels are looking at? Or is that just sort 
of an afterthought? Or is it something aggressively people are 
saying to do, to push? Are there formal programs pushing that?
    Dr. Solomon. IPCC does not recommend anything and we do try 
to avoid pushing anything. But there are numbers in our reports 
for how much you can actually achieve with that kind of an 
approach. It is one of several options that can be a good one.

                                ETHANOL

    Mr. Wolf. Okay. A last issue is what impact do you see this 
having on the world, you know, ethanol? Some are saying it is 
10 percent, and would like to go to 15. What impact does all 
this have on the issue of hunger in and around the world? Do 
you see this taking place, say, five, ten, fifteen, twenty 
years from now?
    Dr. Solomon. Yes, it is a big issue how much food 
production is potentially going to be affected by increases in 
biofuels.
    Mr. Wolf. And how about the climate issue, too? What impact 
is that going to have? You talked about drought earlier, on 
food supply around the world in ten, fifteen, twenty years? I 
mean, we have had a famine in Ethiopia in 1984 and the world 
was electrified. The famine came again in the mid-nineties. I 
mean, they have not done very much. They have not done very 
much reforestation. They have done very, very little. So people 
have died because of that. What impact will this have on 
particularly third world countries and the poor with regard to 
this, enough food supply?
    Dr. Solomon. Clearly, it is going to make it more difficult 
to grow food in those regions that are going to see less 
rainfall. And especially developing countries where all of the 
agriculture is rain fed, in Africa in particular. They do not 
have irrigation like what we have. So climate change is 
projected to have a very significant impact on the world's 
ability to grow food, particularly in the developing world.
    Mr. Wolf. Okay. Okay, thank you, Mr. Chairman. Thank you.
    Mr. Mollohan. Thank you, Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. Sorry I am late. I 
was attending another hearing, and Happy St. Patrick's to all. 
Doctor, we have an unwritten rule around here and a rule in the 
House, where we usually do not speak to the audience. We speak 
to our witnesses and to each other. Sometimes we do not listen 
but that is what we try to do. But I cannot help but notice the 
number of young people that are in this room right now behind 
you. And it seems that when I was their age I do not remember 
this many ice storms, or floods, or these kinds of things 
happening which are so horrible, not only in our country but 
throughout the world. My question to you is, was it always this 
bad but we did not have CNN, and Fox, and the internet to tell 
me about it in thirty seconds after it happened, or has it 
gotten worse? Or is it a combination of both?

                        SEVERE WEATHER & CLIMATE

    Dr. Solomon. I would say it is a bit of a combination of 
both. There are some of these things that happen very 
infrequently, and they are always impressive when they do, so 
there is always a temptation to say, ``Uh-huh, that must be 
global warming,'' which is probably not always correct. But the 
example you gave of flooding I think is a particularly 
interesting one. We are seeing clearly that we are seeing more 
rain falling as heavy rain now compared to light rain than we 
used to see. We are seeing that worldwide. We understand it 
physically. It is exactly what we expect. So instead of having, 
you know, just a little bit of light rain, the same amount of 
moisture might fall but more of it is going to fall in those 
big, heavy events. That, obviously, will contribute to 
flooding. So I think that it is pretty clear that that is an 
example of the kind of thing that you can hold up and say, 
``Yes, we understand that. That should be happening and we know 
why it is.''
    Other things are a lot more difficult to say. Not all kinds 
of extreme events are due to climate change. But heat waves, 
another good example where we are seeing more frequent and more 
intense heat waves. So there are certainly many different kinds 
of climate change that are different now than they were for the 
young people in this room.
    Mr. Serrano. I remember something interesting. I was 
interviewed recently by PBS and they asked me what is the 
greatest accomplishment of the Puerto Rican community in New 
York City, and I said adjusting to the weather. And it threw 
them for a loop. And I remember in March of 1950 arriving in 
New York and it seemed to me that it stayed around, it stayed 
colder longer in New York City than it stays now. Or at least 
it felt that way. Yet, it seems that we have less, not as many 
frequent snowfalls but when they fall, they fall with an 
intensity that they did not fall before. Now, again, am I 
imagining this? Is this CBS and CNN, you know, pounding it into 
my head for 24/7? Or has that also changed?
    And my last question has to do with an ongoing gag in these 
committees, how long before Congressman Serrano mentions Cuba 
or Puerto Rico? And the question is, are we looking at a day 
when climate change will not have us know areas as we know them 
now? The tropics will become colder, and the north will become 
warmer?
    Dr. Solomon. The last one is pretty easy. I think there is 
no evidence that the tropics will become colder.
    Mr. Serrano. No evidence?
    Dr. Solomon. Everybody is going to become warmer. But the 
high latitudes will become warmer to a greater degree than the 
low latitudes. So tropical places will warm, just not as much 
as higher latitudes. And the highest latitudes in the Arctic 
will warm most of all.
    Your other question was about more snow and more heavy 
snow. That kind of goes along with what I said about rainfall. 
I said rainfall, but I really meant precipitation. And you are 
right. There is every reason to believe that we are seeing on 
average more snowfall and more heavy snowfall, particularly in 
the Arctic. I think it is a little harder to say for New York 
but it is probably just emerging from the noise, from the 
variability.

                           FUTURE GENERATIONS

    Mr. Serrano. Yes. Do I have a few seconds here, Mr. 
Chairman? And my last comment or question has to do with the 
folks that are in the room, and it has to do, according to my 
question here, with third graders. And you might have answered 
this already. If you walked into a room, a classroom of third 
graders, or you went into some of the classrooms where some of 
these younger people may be attending these days, without the 
gloom and doom scenario that you do not want to present, nobody 
wants to present, what would you tell them about what is in 
store for the future? And I know this is an unfair question, in 
twenty-five words or less to tell me, you know, what would you 
tell them they can do?
    Dr. Solomon. Well, I guess the first thing that I would 
tell them is that their world will be different from the world 
that any previous generation had experienced, because their 
climate will have been changed by human beings. Sometimes when 
I am making a joke I tell them that this is a really good thing 
you can blame on your parents, and they like that. But I think 
the real interesting thing here is that this is such a 
challenge to society. It is such a challenge for us as a world, 
as a planet, to figure out what we are going to do about this, 
that they do have an opportunity to be part of a change which 
will go down in history as one of the most important things 
that we ever decided to do. One way or the other. We are either 
going to decide to keep emitting at current rates, and make the 
future world dramatically different from the past, or we are 
going to make some decisions that will slow it down and 
possibly stop it. And that is an incredibly important set of 
decisions.
    When you think about the fact that they geography of the 
planet that we see right there on the wall behind us will be 
potentially made different by the actions that we are doing 
right now. We will either bury or not bury a lot of islands. We 
will change the shape of Florida, or not change the shape of 
Florida. We will----
    Mr. Serrano. That is inviting to some people, you know, 
but----
    Dr. Solomon. Well, I thought Florida might be of interest 
to you, sir.
    Mr. Mollohan. What happens to Puerto Rico?
    Ms. Solomon. Probably, it depends on, you know, it is not a 
pretty picture for island nations. And, you know, the drought 
issue, and the accompanying desertification. If you look at 
that map and you see the, you know, the Sahara, and you think 
about what is really happening is the Sahara is expanding 
northward into Southern Europe. That is what I mean when I say 
those places are going to get drier. And you look at our 
country, Southwest U.S. will begin to look like, you know, the 
middle of Mexico, the very dry regions of Mexico. So it is, it 
is a change the likes of which the world has never seen.
    Mr. Serrano. Mr. Chairman, thank you. And just a thought. 
You know, we spend a lot of time in this country talking to 
other countries about how they should behave in terms of their 
form of government. And that is okay for us to do that. But I 
wonder if we should not evoke just as much energy talking to 
other countries about trees, and about water, and about the 
air. Because at the end of the day it does not matter if you 
are a socialist, a communist, or a Democrat. If the world looks 
the way the doctor is telling us the bigger issue may be the 
world and not the form of government it has within that 
country. Thank you.
    Mr. Mollohan. Thank you, Mr. Serrano. Mr. Honda.

                         CLIMATE CHANGE METRICS

    Mr. Honda. Thank you, Mr. Chairman. We touched a little bit 
on flashpoints. And the discussion about the impact of the 
possibility of the permafrost softening up, the impact of the 
bacteria action creating CO<INF>2</INF> and methane, not 
knowing when that happens, decoralization, seeing the corals of 
the ocean now disappearing because of other kinds of 
activities. And seeing all this, anticipating all of these 
things happening, how would we as a nation and as a globe 
create a calendar of events, looking at checkpoints, 
milestones, and coupling that with the lack of progress or 
progress? Is there a way that we can measure and have a metric 
going on that will show us the impact of every policy that we 
do? And its dynamics on this thing we call global warming, or 
climate change? Because none of this happens in a linear 
fashion, you know? We all impact something in another way.
    And one thing that we have not talked about is diseases. 
How the impact of diseases will be enhanced, or will occur in a 
greater, maybe in an epidemic fashion if we do not pay 
attention to this global change? And the change of our 
environment to a warmer climate? What kinds of metrics should 
we be looking at to develop so that the sense of a tick, tick, 
tick time bomb in our own beings will affect our behavior and 
our sense of urgency?
    Dr. Solomon. Well, you mentioned coral reefs and they are 
also one of the things that I think is a good metric. We are 
already seeing damage to coral reefs. We will probably see a 
lot more in coming years. The issue of ocean acidification is a 
big issue for coral reefs as well as temperature changes. So as 
the carbon dioxide acidifies the ocean the coral reefs are 
getting hit from all sides. The way that is affecting other 
marine factors is also something that I think is a metric we 
ought to be looking at. Things like the viability of fish, the 
populations of fish and how they are likely to be affected.
    Human disease is a really important factor as well. I am 
not sure there is an easy metric there. But the one that seems 
to be the most obvious is that because of increases heavy 
rainfall there are increases in experiences of cholera and 
other waterborne diseases in the developing world. So those are 
the kinds of things that certainly are of great importance to 
look at.
    You know, the difficulty in a sense with climate change is 
that the wider you look the more you find. There are so many 
different things. In my own part of the world in Colorado one 
of the things that really concerns me are the changes that we 
are seeing in our pine forests, which are beginning to be 
attacked by pine beetles in a way that seems to be more intense 
than it ever was before. It is hard to know because we have 
seen pine beetle outbreaks in Colorado before. But we are 
seeing it much more extensively now. And in British Columbia, 
just a little to our north, I think it is more clear that the 
pine beetle devastation there is being caused by global 
warming.
    So almost wherever you look you can find a metric that will 
matter to the people who live in that place. And it is really 
the diversity of effects in climate that I think makes it hard 
for some people to get their minds around. It is hard to find 
that universal, single factor. But I guess again I keep coming 
back to it. If I had to name the ones that concerned me the 
most it is part, number one is rainfall, and the way that that 
is affecting our ability to grow food, and the way it is 
affecting ecosystems is probably going to be huge. And I think 
we are already seeing it. You mentioned coral reefs. I would 
maybe broaden that to biodiversity hotspots in general around 
the world. And that could include the pine beetle, for example. 
Human disease is another one but much more difficult to 
quantify.
    Mr. Honda. Thank you.
    Mr. Mollohan. Thank you, Mr. Honda. Mr. Culberson.

                  SEA LEVEL RISE AND ICE SHEET MELTING

    Mr. Culberson. Thank you, Mr. Chairman. And Dr. Solomon, 
forgive me for interrupting you earlier. My time is so limited 
that I have to try to bore in quickly. You testified a moment 
ago, I thought I heard you say that the, if the Greenland Ice 
Sheet were to melt entirely the ocean levels would rise by how 
many meters?
    Dr. Solomon. Seven meters.
    Mr. Culberson. I am sorry?
    Dr. Solomon. Seven.
    Mr. Culberson. Seven meters. And Antarctic was fifteen 
meters?
    Dr. Solomon. Five.
    Mr. Culberson. I am sorry, five. Okay, five, Antarctic. All 
right. And the erosion, or reduction in the Greenland and West 
Antarctic Ice Sheet cannot be attributed entirely to global 
warming. There is an interesting article I picked up in the 
October 3, 2008 of Science that points out that the, they have 
got, quoting from the article, ``two new studies point to 
random wind induced circulation changes in the ocean, not 
global warming, as the dominant cause of the recent ice losses 
in Greenland and the West Antarctic Ice Sheet.'' The scientists 
doing the study said conclusively, quoting from the article, 
``In Greenland, at least, you are going to have trouble blaming 
this on global warming, says glaciologist Richard Alley of 
Pennsylvania State University in State College.'' He points out 
in the article that the losses long puzzle glaciologists 
because the atmosphere of the glaciers did not seem to have 
warmed enough to trigger the ice losses and that they went back 
and looked at the records of fisheries researchers. They had 
recorded bottom temperatures off Southwest Greenland from 1991 
to 2006. And they traced the influx of, the ocean apparently 
became much warmer, Mr. Chairman, during this time frame. And 
the scientists traced the influx of ocean warmth back to the 
atmosphere over the North Atlantic. And quoting from the 
article again, ``An abrupt weakening of winds due to a natural 
phenomenon known as the North Atlantic Oscillation drove more 
water from the Irminger Sea near Iceland, around the tip of 
Greenland, up onto the shelf and under the ice. And that 
triggered the ice loss. So we cannot, is that not true? These 
studies are valid?
    Dr. Solomon. I do not disagree with any of that. That is 
why----
    Mr. Culberson. Okay. So you cannot attribute the loss in 
ice in Greenland, in particular, to global warming?
    Dr. Solomon. That is why we did not put a number for how 
much further sea level rise you might see in 2100 due to the 
Greenland Ice Sheet in the report.
    Mr. Culberson. Right. I just want to be sure----
    Dr. Solomon. That is exactly----
    Mr. Culberson [continuing]. Because your answer to the 
Chairman's question----
    Mr. Fattah. Would you let the witness finish her answer?
    Mr. Culberson. I am sorry, certainly. Yes, ma'am?
    Dr. Solomon. I do not disagree with any of that. As I said, 
it is really hard to extrapolate from what we are seeing now to 
know how much sea level rise from the whole ice sheet to 
expect. I fully agree that that is an issue.
    Mr. Culberson. Right. But I want to make sure that the 
Chairman and the Committee, because your answer to the Chairman 
was that it, as I understood your answer, was that the loss of 
ice in the Greenland Ice Sheet was due to global warming. And I 
just want to make sure that the Chairman and the Committee 
understand that it is, in the case of Greenland in particular, 
they have shown conclusively it is wind induced oscillations.
    Dr. Solomon. I think----
    Mr. Culberson. Driving warmer water up underneath the 
sheet.
    Dr. Solomon. I think there is good evidence that some of it 
is due to global warming. There is good evidence, also, that in 
the last few years the wind system was unusual and probably 
contributed to some of the losses.
    Mr. Culberson. Right.
    Dr. Solomon. So I think it is a bit of both.
    Mr. Culberson. Right. I just think it is important for 
clarification, Mr. Chairman, that we do not attribute it 
entirely to, and there is no question CO<INF>2</INF> is at, as 
the, another interesting article I picked up points out, and 
this is from the October 24, 2004 Journal of Science, that 
current atmospheric CO<INF>2</INF> levels, Mr. Chairman, are 
higher than they have been for the last full 130,000 years. I 
am not diminishing that at all, Mr. Fattah and Mr. Chairman, 
and Dr. Solomon. It is higher than it has been for tens of 
millions of years. And over the next 100 years, the article 
states, without substantial changes in energy technology or 
economic development atmospheric CO<INF>2</INF> concentrations 
will rise to 800 to 1000 parts per million, as you have 
testified. This rise, quoting from the article, Mr. Chairman, 
``this rise represents a spectacular, uncontrolled experiment 
that humans are performing on the earth,'' and that the 
paleoclimate record may provide the best guess as to what may 
happen as a result.

                         OTHER GREENHOUSE GASES

    Very briefly, they point out at the end of the Eocene era 
50 million years ago there were palm trees growing in Wyoming, 
and there was no permanent ice cap, ice sheets at either pole. 
And that this is astonishing, I think it says in here, yes, 
``deep water ocean temperatures more than ten degrees warmer 
than today.'' So there is no question what we are seeing today 
is an unprecedented increase in the levels of CO<INF>2</INF>, 
and clearly CO<INF>2</INF> is the primary source, the primary 
greenhouse gas. However, it is not the only greenhouse gas. Is 
that not correct? I mean, methane also has a pretty dramatic 
impact in increasing atmospheric temperatures, does it not? 
Methane?
    Dr. Solomon. Methane's increase is about, contributing 
about a third as much as carbon dioxide to today's warming.
    Mr. Culberson. Right. I think they call it the reflective, 
the radiative forcing of non-greenhouse gases contribute an 
additional one watt per square meter of temperature increase 
compared to CO<INF>2</INF>, which is 1.6. So you are exactly 
right. It is about a third.
    I wondered if I could, Mr. Chairman, also to follow up. Dr. 
Solomon, you said that the earth will see essentially a one-
half to one degree increase in global temperatures even if 
CO<INF>2</INF> remains at current levels, and that that 
temperature increase is irreversible with carbon dioxide levels 
remaining at their current levels. That was your testimony a 
minute ago?

                          CARBON SEQUESTRATION

    Now, that is not entirely accurate because it is not, the 
CO<INF>2</INF> levels are not irreversible. I just, we just 
established for the record that 90 percent of the carbon 
dioxide removed from the atmosphere is removed by the ocean, 
and that you agreed it is proven scientifically, we have got a 
number of studies that show that you can fertilize the ocean 
and remove dramatic amounts of carbon dioxide. So we can 
reverse the levels of carbon dioxide in the atmosphere with 
ocean fertilization, carbon sequestration techniques that are 
well established. Woods Hole, the scientist that does this says 
that if you give him a tanker of iron ore he will give you an 
Ice Age. And one of the things I really want us to pursue, Mr. 
Chairman, is to get some research done on this. Because it, I 
think we should certainly do the research on carbon 
sequestration since it is possible to remove dramatic amounts 
of carbon dioxide from the atmosphere by fertilizing the ocean. 
We want to make sure it is done properly using, and I think you 
are going to find carbon nanoparticles, nanoparticles of iron 
oxide as the most effective way to do it. And that NOAA is 
perfectly suited to do this research. But that before we launch 
on a program, as the witness has testified, to cut petroleum 
consumption in the United States by 50 percent by 2030, which 
Mr. Barton tells me would drive the United States back to the 
output levels of 1920. And certainly we are going to have new 
technology. But I think in light of the recession and the 
economic difficulties we are facing it is not a good idea to 
pass legislation driving American industrial production back to 
the levels of 1920 at a time of potentially an economic 
depression. Before we launch into that, Mr. Chairman, I want us 
to, if we could, seriously explore carbon sequestration using 
fertilizing the ocean with nanoparticles of iron oxide before 
we drive America back to the industrial production levels of 
1920.
    Mr. Mollohan. Well I----
    Mr. Culberson. That is where we need to go, right, Dr. 
Solomon? Forgive me, Mr. Chairman, if I could just get her to 
comment on that.
    Dr. Solomon. If I may just clarify. Yes, in the absence of 
ways to take the carbon out of the atmosphere, in the absence 
of geoengineering to remove the carbon, the warming is 
irreversible. But you are right, if you could remove the 
carbon, that is a different story.
    Mr. Culberson. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Mollohan. Well, we are going to leave the remedies, the 
substantive remedies to the authorizing committees. But what we 
are doing here today, and what the gentleman is helping doing, 
is laying a good scientific foundation for our decisions with 
regard to funding of various programs. And also research into 
promising technologies and techniques that address the 
problems. Mr. Fattah?
    Mr. Fattah. Thank you, Mr. Chairman. I am basically done. I 
do not, I am not taking issue with what was said. I do want to 
clarify the record, however, because I think the Chairman just 
asked you what level would we have in terms of a rise if there 
was a melting in terms of the ice sheet. And when my colleague 
rephrased it I think he put it in a different context. But the 
important point is, I think, that the issue needs to be, you 
know, at the very forefront. And both in terms of how to slow 
emissions and to slow the issue of the loss of trees, which is 
also a compounding issue in terms of this problems. But also to 
think more clearly about what we could do about reengineering, 
also, and to foresee any problems that may happen as we go 
about combating this significant challenge.
    But I do want to thank the Chairman for the hearing, and 
thank the witness. Thank you.

                     U.S. PARTICIPATION IN THE IPCC

    Mr. Mollohan. Thank you, Mr. Fattah. The Intergovernmental 
Panel on Climate Change is by definition an international 
effort. And this is critically important because all nations, 
as has been pointed out here today in various questions from 
various members of the panel, because all nations are being 
asked to participate in decreasing the emission of greenhouse 
gases. To what extent is the U.S. climate community providing 
leadership in the IPCC process? And is this important to the 
quality and success of the IPCC assessments?
    Dr. Solomon. The U.S. has been among the key contributors 
to IPCC from its inception, I think, in 1988. We have made 
major contributions to all three parts of the panel's work. So 
science, the impacts and vulnerability, also the mitigation 
studies. I think it is fair to say that IPCC's success owes a 
great deal to the research and the researchers in the U.S. And 
I am very pleased to have been able to be part of that.

         INTERNATIONAL COOPERATION ON EXCHANGE OF CLIMATE DATA

    Mr. Mollohan. What is the state of international 
cooperation in the acquisition and provision of climate data?
    Dr. Solomon. That has actually improved quite a lot in 
recent years, but there is more to do. Maybe ten years ago or 
so there were countries that were really keeping their data 
very close and were not willing to share it with the 
international organizations that distribute it, or with other 
countries. But a large number of those have been brought in 
now. And a lot of that has succeeded because of efforts of 
scientists who meet with other, with their colleagues in other 
countries, and discuss the value of the data, the reasons why 
the data needs to be freed up. And so it has really had a lot 
of success, I think, in freeing up the data and making it more 
available. There is more that needs to be done, but a large 
improvement has happened in about the last five to ten years.

            EFFECTS OF IPCC ASSESSMENTS ON CLIMATE RESEARCH

    Mr. Mollohan. Having led the production of Volume I of the 
2007 IPCC Report, which you did, how does production of these 
assessments affect climate change research and the climate 
science community?
    Dr. Solomon. Well I think the influence on research is very 
interesting. When we work on these assessments it does, I 
think, enrich us as researchers. It gives us a broadened view 
of our science. And I think it is fair to say that very few 
people finish an experience of working on that kind of thing 
without feeling that they have learned a tremendous amount that 
has helped them in their own work. It is also, I think it is 
fair to say, a way to be ambassadors of science to scientists 
in other countries and also to the public. It allows us to do 
some things that really are very unique in the regard of 
capacity building across the scientific community 
internationally.
    It is also, though, incredibly demanding and it does take a 
lot of time away from doing one's own research. It is probably 
right about at the limit of the amount of effort that people 
can devote to it. It has been very popular so people have asked 
for more and more products. And while that has been helpful it 
has gotten to the point where it would be difficult to do more.
    I think the other thing that I want to mention is the 
importance of keeping the research design separate from the 
assessment. One wants to keep the science independent. And one 
does not want to have the assessments drive the science too 
much. And they do not. The way it is currently formulated there 
is a very careful and strong separation between the doing of 
research, the funding of research, the type of thing that you 
do, of course, and the assessment activities. And I think that 
separation is healthy all the way around. But it is important 
to know what the users want and that is an aspect of it as 
well.
    Mr. Mollohan. Dr. Solomon, I have a few more questions even 
in this line of questioning and then some to submit for the 
record other than that. But we are getting to the witching hour 
and I want to make sure every member of the panel has two 
rounds of questioning. And Mr. Schiff has returned so I am 
going to yield to Mr. Schiff. Mr. Schiff.

                   LOCAL EFFECTS OF RENEWABLE ENERGY

    Mr. Schiff. Thank you, Mr. Chairman. I will be very brief. 
I just have one follow up question on your written testimony. 
You mentioned that new questions arise regarding some of the 
alternative sources of energy, such as how a large solar or 
wind array might modify local climates. I have heard arguments 
made about this, and I apologize if one of my colleagues has 
already asked you about this. But I am interested to know, you 
know, what the state of knowledge is on this. Some of the 
opponents of renewable energy claim that the wind towers are 
going to cool, or may raise temperatures by taking the energy 
from the wind, and the solar arrays may have a reflective 
impact adverse to global warming. What do we know? And what 
additional methods of gathering data do we need to get good 
answers to those questions?
    Dr. Solomon. Yes, it is a very difficult question because a 
lot of the effects are extremely local, or associated with the 
presence of the array in a particular region. So you are really 
drilling down to a level of understanding of the meteorology 
that is, at least in the long term, how it is going to change 
in the long term, is very hard for us to quantify.
    Mr. Schiff. Is even a large, a very large solar array, I 
mean, just by way of background, I may have mentioned this at a 
prior hearing, I was very encouraged visiting an organization 
called Idealab out in my district that spins off a lot of new 
high tech companies. They spun off a company called eSolar 
which will open a solar power plant in a couple of months that 
will, for the first time, through a combination of technology 
that tracks the sun's movement and concentrates sunlight on a 
smaller surface area, produce electricity through solar cheaper 
than you would through natural gas, which I think is a real 
milestone. It will be the first basically non-subsidized solar 
energy. You do not need to subsidize something that is already 
cheaper than the alternative.
    But even with a--and these are scalable--they can be small 
or you can scale them up large. But even with a large solar 
array, does it really have a demonstrable impact even on the 
local climate?
    Dr. Solomon. It depends on the environment, as far as the 
local climate goes. I think you are exactly right that on the 
large scale, you know, the effect on global climate can readily 
be calculated and it is not big. But when you put something 
really concentrated in small region it merits a little bit of 
attention, at least, as to, you know, how big of a local 
perdivation might this be. And I think we have to look at those 
kinds of things carefully. Case by case could be certainly 
quite different. I am afraid I cannot give you a general answer 
on that.
    Mr. Schiff. I mean, how would it even, scientifically how 
would it even work? I mean, how, let us look at a wind farm. 
What, are you reducing the force of the winds because you are 
taking the energy from the winds, and therefore downwind you 
have less energetic winds? And is that the impact you would be 
looking at?
    Dr. Solomon. I think one of the main concerns with wind is 
the fact that it stirs up the nighttime boundary layer. So 
normally at night the lowest layer of the atmosphere becomes, 
you know, quite stable. But when you have a lot of these big 
wind turbines in a concentrated region you can actually stir 
that up, and really change the local meteorology. So, as I 
understand it, that is one of the questions to look at. Whether 
that is a problem or not, you know, lots of places it probably 
would not be.
    With the case of solar, you know, you are absorbing a great 
deal of energy that would otherwise be hitting the ground in 
that area. How much of a local change that produces, and 
whether that is an issue or not is, again, the kind of question 
that I think people are really trying to ask in a very careful 
way, project by project. It is only, I think, to say that we 
cannot afford to ignore side effects, just as I would be 
concerned about the ability to geoengineer and be sure that 
everything was fine before we understood everything, I think we 
also have to at least devote some attention to what the 
alternatives might do to us.
    Mr. Schiff. Thank you, Mr. Chairman.

                           CLOSING STATEMENT

    Mr. Mollohan. Thank you, Mr. Schiff. And Dr. Solomon, thank 
you so much for your testimony here today. We appreciate the 
benefit of what has been very expert testimony. Your taking 
time to do that and your contribution to this issue generally 
are very much appreciated. We look forward to working with you 
in the coming days and weeks and months on these issues. We 
will turn to you for advice in the future if that is all right. 
And most immediately, we will turn to you for comment on some 
questions that members may want to submit for the record. And I 
know that I certainly want to. You have laid a great foundation 
for the hearings to come this week and, again, we are very 
appreciative of your testimony and your appearance here today. 
Thank you.

[GRAPHIC] [TIFF OMITTED] T1219B.019

[GRAPHIC] [TIFF OMITTED] T1219B.020

[GRAPHIC] [TIFF OMITTED] T1219B.021

[GRAPHIC] [TIFF OMITTED] T1219B.022

[GRAPHIC] [TIFF OMITTED] T1219B.023

[GRAPHIC] [TIFF OMITTED] T1219B.024

[GRAPHIC] [TIFF OMITTED] T1219B.025

[GRAPHIC] [TIFF OMITTED] T1219B.026

                                         Wednesday, March 18, 2009.

               CRITICAL SATELLITE CLIMATE CHANGE DATASETS

                               WITNESSES

DR. ANTONIO BUSALACCHI, PH.D, UNIVERSITY OF MARYLAND
DR. TOM KARL, PHD, NOAA CLIMATE DATA CENTER

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. The hearing will come to order. Our Ranking 
Minority Member Mr. Wolf will be along shortly, but he has 
asked that we proceed. So good afternoon, Dr. Busalacchi.
    Mr. Mollohan. And Dr. Karl. I have a son named Carl. 
Welcome before the Committee on Commerce, Justice, Science and 
Related Agencies. We appreciate your coming today to help us 
understand the requirements for long term satellite 
observations to support the understanding, prediction, and 
monitoring of climate change and the specific characteristics 
required of the systems that provide them.
    Requirements for precision, accuracy, calibration, and 
continuity influence cost, but meeting these requirements is 
critical to getting value from investments in Earth 
observations. For example, the just enacted Omnibus 
Appropriation for Fiscal Year 2009 provides $74 million to 
restore two climate instruments to the payload of the NPOESS 
satellite, and $150 million to accelerate development of Earth 
observation satellites recommended by the National Research 
Council. In addition, the resulting data must be preserved; it 
must be managed, and made available for analysis.
    We have asked each of you to focus on the critical insight 
into climate change contributed by particular sets of satellite 
observations, together with ground-based, ship, aircraft, 
balloon, and buoy instruments.
    Dr. Busalacchi, we have asked you to cover oceans data, an 
example of which is displayed on the wall behind me. Satellite 
remote sensing has proven quite helpful in oceanography even 
though the penetration of electromagnetic radiation into ocean 
water is limited. Dr. Karl, you have dedicated many years to 
leading the National Climate Data Center with its treasure of 
atmospheric data. We have asked you to cover atmospheric 
observations and the role and requirements of climate data 
systems.
    Your written statements will be made a part of the record. 
And let me welcome you, thank you for taking time, traveling 
distances, to be with us today. We very much appreciate the 
opportunity to have the benefit of your expertise. We will be 
referring to it as we process this appropriation bill. And we 
look forward to your testimony. As I mentioned, your written 
statements will be made a part of the record and Dr. 
Busalacchi, why do you not proceed?
    Dr. Busalacchi. Thank you, Chairman Mollohan.
    Mr. Mollohan. Because if I wait for you to be second I 
might forget how to pronounce it.

                           Opening Statement

    Dr. Busalacchi. Very good. Thank you, Chairman Mollohan, 
members of the Committee. Thanks for this opportunity to 
testify before you this afternoon. I am Dr. Tony Busalacchi, 
Director of the Earth System Science Interdisciplinary Center 
and Professor of Atmospheric and Oceanic Science at the 
University of Maryland. I also--go Terps! I also serve as Chair 
of the Joint Scientific Committee for the World Climate 
Research Program. And I will use my time today to summarize the 
key role of oceanographic satellite observations in advancing 
climate understanding and prediction.
    Satellite measurements have revolutionized our 
understanding of ocean circulation, marine biology, and 
interactions with the atmosphere. I am often asked the 
question, ``If we cannot predict our weather more than a week 
in advance, why should one believe we can predict future 
climate?'' The answer to that question rests within the ocean, 
for it is the thermal inertia of the ocean, that is the longer 
time scale at which heat moves within the ocean relative to the 
atmosphere, that enables climate forecast from seasons out to a 
year in advance with the realistic prospect of extension to 
years and decades. On longer decadal to centennial time scales 
it is climate change that brings new risks to marine life due 
to ocean warming, changes in circulation, sea level rise, and 
acidification from increased atmospheric carbon. Yet, many of 
the measurements needed to monitor and predict such changes are 
now at risk because of budget constraints and the lack of a 
national strategy to sustain them.
    Of all the ocean climate variables, sea surface temperature 
is the most important as it is the one variable that couples 
the ocean surface to the atmosphere. Going back to the late 
1970's, sea surface temperature has been provided by orbiting 
infrared radiometers and complemented more recently by 
microwave passive radiometers. Ocean surface temperature is one 
of the most important indicators of global climate change and 
is used in a wide range of ocean climate studies, from that of 
the Gulf Stream in the Atlantic to El Nino in the Pacific 
Ocean. This climate data record, spanning thirty years, has 
been calibrated, validated, reprocessed with surface 
observations from ships, buoys, and drifters.
    In contrast to the meteorological observations used to 
initialize a weather forecast, the construction of such climate 
data records has unique requirements for instrument 
characterization, calibration, stability, continuity, and data 
systems to support climate applications. Space based climate 
observations are not a mere extension of those used to monitor 
and forecast the weather.
    Since 1992 high precision radar altimeters, beginning with 
the U.S./France TOPEX/Poseidon mission, have been monitoring 
changes in sea level. Sea surface topography is not only a 
proxy for the amount of heat stored in the ocean, but much akin 
to the highs and lows on a weather map, provides valuable 
information regarding the global ocean circulation. Monitoring 
the heat stored in ocean eddies is also providing new insights 
as to how heat content can lead to hurricane intensification, 
as was the case with Hurricane Katrina. Unfortunately at the 
present time the U.S. has not yet secured the next series of 
the follow on radar altimeters known as Jason 3.
    A different sort of radar instrument, the scatterometer, 
provides crucial information regarding ocean surface wind speed 
and direction that forces worldwide ocean currents. By 
measuring how a radar signal is backscattered off the sea 
surface of the ocean, a synoptic view is provided of the 
surface wind velocity. These data have yielded new insights 
into the exchange of heat and momentum between the atmosphere 
and the ocean.
    Important information on ocean biology is obtained from the 
color of the ocean, as you see right behind you. This estimate 
of marine biomass can be related to how and where the marine 
ecosystem takes up and sequesters carbon. The first worldwide 
continuous monitoring of ocean color did not begin until 1997 
with the launch of the SeaWiFS mission. In fact, that picture 
was produced by my lab at Goddard when I was the lab chief for 
that project. This class of global ocean color observations has 
continued to the present day with the MODIS sensor on the NASA 
Aqua satellite. Yet once again, unfortunately the continuation 
of such a data record is in serious jeopardy due to degraded 
performance specifications with the VIIRS sensor scheduled for 
the forthcoming NPOESS Preparatory Project.
    While great strides have been made in satellite 
oceanographic research we face some fundamental challenges in 
making the transition from research to sustained operations. 
Last year I chaired the National Academy's ``Panel on Options 
to Ensure the Climate Record for the NPOESS and GOES--R 
Spacecraft.'' This study was in response to a NASA and NOAA 
request for a follow on report to the decadal survey in Earth 
science that focused on the recovery of lost climate 
measurement capabilities resulting from the Nunn-McCurdy 
process. In the decadal survey it was noted there is a lack of 
clear agency responsibility for sustained research programs, 
and the transitioning of proof of concept measurements into 
sustained measurement systems. In our NPOESS study we 
recommended that our nation needs a deliberate, forward 
looking, and cost effective strategy for satellite based 
environmental monitoring. In conclusion, the nation requires a 
coherent strategy for Earth observations which provides for an 
operational climate monitoring and prediction, scientific 
advances, and the continuation of long-term measurements. The 
nation deserves such a strategy.
    Thank you for the opportunity to appear before you today on 
this important topic. And I am prepared to answer any questions 
you may have. Thank you.
    [Written statement by Antonio J. Busalacchi, Jr. Ph.D., 
Chairman, Joint Scientific Committee, World Climate Research 
Programme follows:]

[GRAPHIC] [TIFF OMITTED] T1219B.027

[GRAPHIC] [TIFF OMITTED] T1219B.028

[GRAPHIC] [TIFF OMITTED] T1219B.029

[GRAPHIC] [TIFF OMITTED] T1219B.030

    Mr. Mollohan. Thank you, Dr. Busalacchi. Dr. Karl.

                           Opening Statement

    Dr. Karl. Thank you, Chairman Mollohan, and good afternoon 
other members of the Subcommittee. My name is Tom Karl. I am 
the Director of NOAA's National Climatic Data Center. And I 
have also been asked to lead NOAA's Climate Services.
    First off, I just want to express to you how honored I am 
for asking me to really talk about the role satellites can play 
in the climate change arena, in particular climate data 
records. This is extremely important for us. I emphasize the 
word can, because satellites can play an extremely role but it 
is rare that satellite data that is rapidly produced for 
weather products and derived from satellite sensors directly 
are rarely useful for climate change issues. Rather, what is 
required is an ordered series of sophisticated technical 
processes developed through decades of scientific achievement. 
That is what is needed to convert the raw satellite sensor 
records that we receive into something we call climate data 
records. I will be using that term frequently, so if you do not 
mind if I just call it CDRs that is what I will mean by 
shorthand for climate data records.
    As defined by the National Research Council a CDR, or 
climate data record, is simply a timed series of measurements 
of sufficient length, consistency, and continuity to determine 
climate variability and change. In practice, CDRs or climate 
data record development requires careful integration of 
archived data from many different satellites and sensor 
designs. And this is supplemented with non-satellite observing 
system data, as Chairman Mollohan indicated during his 
introductory remarks.
    Most experts agree that a climate data record, CDR, must 
extend over multiple decades to unambiguously discern changes 
in climate. With shorter periods climate signals or effects can 
be misinterpreted or altogether masked due to normal 
environmental variability, changes in instrument 
characteristics, changes in the behavior of the instrument over 
time, changes in satellite orbits. One thing is clear, CDR 
development cannot be constrained to single satellite missions.
    But CDRs indeed are required for studying climate change. 
In its fourth assessment report in 2007 the IPCC, the 
Intergovernmental Panel on Climate Change, stated in its 
consensus opinion on the state and likely future changes of the 
Earth's climate that there were a number of confident 
conclusions that could be made in that report, but there were 
also notable exceptions. And those were often linked to the 
quality of the data from which the IPCC had to work with. So 
clearly limitations in datasets are extremely important in 
terms of our understanding of climate change.
    The real challenge in developing climate data records 
suggests that now we do have significant information latent in 
our data archives. There is a number of recent CDR successes, 
Dr. Busalacchi mentioned a few of them, related to important 
issues. And I can just name a few that, I got into more detail 
in my written testimony. Changes in important aspects of the 
climate, like hurricane intensity. If you remember a few years 
ago there was a major controversy between the differences in 
the rates of warming at the surface, and that in the upper 
levels of the atmosphere as measured by satellite and measured 
by surface measured changes. Changes in vegetation have been 
well demonstrated to be extremely important in terms of using 
satellite data and climate data records.
    So based on these studies, the World Meteorological 
Organization, National Research Council, the Climate Change 
Science Program, the Global Climate Observing System, numerous 
other authorities, have increasingly called for a comprehensive 
CDR program derived from a set of forty-four essential climate 
variables. And today there really is some great urgency to 
begin this work before the launch of NPP and NPOESS, 
particularly in light of the massive amount of data that these 
two systems will be generating in the near future.
    So thanks to about fifty years of satellite weather 
observations and more than thirty-five years of computer 
compatible archived data, we can now construct a comprehensive 
set of global CDRs. NOAA has archived data from forty-one polar 
orbiting satellites and fifteen geostationary satellites. NASA 
and other national and international agencies have complemented 
these data with more than fifty other Earth observing 
satellites. NPOESS and NPP promise to sustain even more 
detailed and comprehensive observations in coming decades. 
Since most satellites carry multiple remote sensing 
instruments, the grand challenge in CDR development is to 
scientifically stitch together all these data from different 
sensors and different satellites.
    This morning I am pleased that I will be able to describe 
NOAA's new CDR initiative, developed in coordination with NASA. 
Over the past two years NOAA and NASA have worked on a 
coordinated interagency solution to develop and sustain climate 
data records. Thanks to the efforts of this Congress and the 
continued support of satellite sensors and CDRs in the 2009 
American Recovery and Reinvestment Act, NOAA will begin to 
implement its part of the program. This will include harvesting 
mature research technologies and applying them to decades of 
archived satellite data. Further, NOAA will continuously extend 
the resulting CDRs using current and future satellite 
observations, including those from NPOESS and NPP.
    Given the unique knowledge and extensive experience 
required to develop world class CDRs, NOAA will largely execute 
its program through competitively selected experts in academia, 
industry, nonprofits, NOAA cooperative institutes, and other 
federal agencies. We will work to ensure that the community 
knowledge gained through state of the science research 
programs, such as NASA's Earth Observing System, is captured 
and incorporated into NOAA operations. NOAA will complement 
these developments by upgrading its world class data archive 
and access systems.
    Indeed, keeping up with the sheer volume of the data from 
existing and planned satellites is critical for NOAA's 
scientific data stewardship. NOAA is currently operating and 
continuing to develop its comprehensive large array data 
stewardship system, otherwise known as CLASS. This will provide 
the information technology necessary to support the CDR program 
among other programs, and programs like the Climate Data 
Modernization Program continue to make older previously 
inaccessible data available for analysis.
    So in conclusion there is no question that significant 
climate change information is currently embedded in the world's 
archived satellite datasets. NOAA and its partners are now 
embarking on a comprehensive, systematic, and sustained CDR 
effort to really help unleash the potential of these data from 
the past, present, and next generation of operational 
satellites to inform the nation about ongoing and future 
climate change. Thanks.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1219B.031
    
    [GRAPHIC] [TIFF OMITTED] T1219B.032
    
    [GRAPHIC] [TIFF OMITTED] T1219B.033
    
    [GRAPHIC] [TIFF OMITTED] T1219B.034
    
    [GRAPHIC] [TIFF OMITTED] T1219B.035
    
    [GRAPHIC] [TIFF OMITTED] T1219B.036
    
    [GRAPHIC] [TIFF OMITTED] T1219B.037
    
    [GRAPHIC] [TIFF OMITTED] T1219B.038
    
    Mr. Mollohan. Thank you, Dr. Karl. Dr. Busalacchi.
    Dr. Busalacchi. Yes.

                         GAPS IN SATELLITE DATA

    Mr. Mollohan. Earth Observing Satellites currently flying, 
Terra, Aqua, and Aura, are all now beyond their design life. 
The last of the NOAA polar orbiting environmental satellites 
has been launched and there are only a few defense 
meteorological satellites awaiting flight. A major shift is 
coming with the long delayed NPOESS satellite series. Gaps in 
data and shifts in instrument capabilities have the potential 
to disrupt the climate record. Will the MIS instrument on 
NPOESS provide continuity in microwave imaging of the oceans, 
extending the data records from the special sensor microwave 
image, SSM/I, flown on the DMPS satellites? And how will other 
changes in available microwave measurements affect 
oceanographic research? For the record.
    Dr. Busalacchi. So the first part of your question speaks 
to this need for national strategy. Right now, the ad hoc mode 
of one sensor after another, so we really have not between the 
agencies, NASA and NOAA, developed this sort of joint strategy 
where these missions need to be planned ten, twenty, thirty 
years into the future.
    Now specific to the issues with respect to SSM/I and the 
continuation there, first of all the NPOESS series will 
continue the SSM/I, what is known as the DMSP series of 
satellite observations for things like sea ice concentration, 
atmospheric water vapor concentration. So that is relatively 
secure. One of the pending problems is a sensor called AMSER on 
Aqua, which does all weather sea surface temperature. This is a 
sensor that sees through clouds. The long history of sea 
surface temperature retrievals going back to the late 1970's, 
as I said, is an infrared technology which cannot see through 
clouds. So this C-band, or it is in kind of the six gigahertz 
range, this C-band technology is on Aqua right now. And as you 
alluded to, Aqua is on sort of its last legs. It may last two 
or three more years, and it may end within the next couple of 
years.
    Then we have a gap and not until about 2012, there is 
another AMSER-type sensor on the Japanese platform called GCOM. 
So we have a potential gap there between, of about four years 
where we may not have any all weather sea surface temperature 
until the first MIS sensor, which is being designed but is 
still not cast in stone. The design for the sensor is still not 
cast in stone for this all weather capability in 2016. So the 
critical gap is this all weather sea surface temperature 
capability that we may have a problem with at around 2010 or 
so.

                    STATE OF CLIMATE DATA COLLECTION

    Mr. Mollohan. Dr. Karl, summarizing the status of data 
collection, where do you feel really good about it and where do 
you think we really need to pay attention to it?
    Dr. Karl. Well, thank you for that question. I am very 
pleased, because this is the first time we have actually been 
able to have a formal program for what I described as climate 
data records. And I am actually feeling good that this is a new 
opportunity for NOAA to treat data from satellites uniquely 
different than what we have done in the past. Before we 
processed it very quickly to produce weather forecasts. And 
that was our primary motivation and goal. Now today, formally, 
we are saying the agency is recognizing the value of these data 
for looking at long term and shorter term climate variability 
and changes. So I am feeling pretty good about that from the 
standpoint of it is going to encourage important scientific 
data stewardship in the agency that will actually transcend the 
agency. Because we are actually recognizing there is a lot of 
information beyond NOAA itself that we want to build on and 
leverage. I think the program that we have set up is going to 
do that. So I am feeling pretty good about that.
    There are other areas where there is still quite a bit of 
work that we have to worry about, anticipate. One can imagine 
in the future as we have petaflop computing capability readily 
available to us we are going to be involved in producing 
climate data records. We are also at the same time ingesting 
all of the other data that we are receiving. Some of the 
important questions that will be asked will be requiring us to 
integrate these data, both the model data, the observational 
data, both from satellites and the climate data record program. 
And so it clearly, we will really have to think hard and strong 
in out years as to how these rapidly growing data volumes can 
be made easily accessible. And we will have the infrastructure 
necessary to move them around the country as rapidly as 
possible.

                           DATA ACCESSIBILITY

    Mr. Mollohan. And I would think meaningfully accessible. I 
mean, just thinking about the volumes of data, the historic 
data, and I want to ask you about that. But combined with the 
contemporary data in all the different ways it is coming down. 
It mean, just think about it. We have had testimony here, we 
are doing winds, and temperatures, and ice melt rates. I mean, 
it is a mind boggling, massive amount of data. And to retrieve 
it and capture it meaningfully, and store it, and then begin 
managing it in a way that can be manipulated and extracted for 
meaningful purposes. Where are we in that? Do we have the 
systems? Do we have the capability? And to what extent is data 
being extracted, I suppose selectively or however, and useful, 
and how far do we need to go? What do we need to do in order to 
achieve those goals?
    Dr. Karl. One of the things that is absolutely critical, 
clearly the infrastructure of the systems is undoubtedly you 
cannot do without. Before I head in that direction let me just 
say through the U.S. Global Earth Observing System Program, and 
its international geo-component, we have worked cooperatively 
with all the agencies to ensure that when we actually talk 
about building new data systems we really think about it in 
terms of, and I hate to use these acronyms, but service 
oriented architecture approach. But simply, that is a short way 
of saying we want to build systems so that it is very simple 
for each of the agencies to link together their software, what 
they already have available, what they have already invested 
tons of manpower and dollars in, and be able to link it 
together in a way in which we all develop on agreed upon 
standards. And so I think that process is really critical. And 
I am encouraged to see a lot of cooperation among the agencies 
there.
    But critically, one needs systems then to be able to store 
the data and transport the data. Certainly the capability of 
the so-called Internet II, very, very important. We are finding 
in our data center increasingly the requests for data, large 
volume data from, we have a different suite of users. One suite 
are the academic, research types and they want as much data as 
you can send out to them. The other equally important user, in 
fact in some cases a far greater number of users, want data in 
bite size nuggets that they can digest because they are 
actually wanting to use it for practical problems. And so the 
real challenge is to figure out how in these systems we can 
serve the whole spectrum of users out there. And that is where 
the systems have to work with the user requirements, and the 
people who were actually designing the software, and the 
scientists who are actually helping to understand the data, 
have to really keep these two goals in mind. And I think that 
is sometimes where we often find that maybe we can do a better 
job from the standpoint of trying to think about systems that 
are as flexible as possible in that regard.
    Mr. Mollohan. Well, bring the Committee up to date and 
start from the beginning. We have had EOS and we have had 
EOSDIS. And the distribution systems for, is that the 
beginning? Or where are we with regard to satellite data? Where 
did we begin----
    Dr. Karl. We actually began, we had in NOAA something 
called the satellite active archive. And it was from our 
agency's standpoint, it was very tailored toward people who 
were experts in satellite usage. And so the formats that you 
would get would be very unique. Few people could deal with 
them. And so the limited use of satellite data that we have in 
our records was largely due to that.
    EOSDIS came and said, ``We are going to serve all the users 
from kids in grammar school to senior level researchers.''
    Mr. Mollohan. Which was a NASA program?
    Dr. Karl. It was a NASA program.
    Mr. Mollohan. So they were going to, and are, I assume, 
bring the information down, distributing it to different----
    Dr. Karl. Sectors.
    Mr. Mollohan [continuing]. Computer or data centers, by 
sector, and then manipulate the data and make it accessible out 
of those centers. So where are we with that? Is that the right 
architecture for today and for the future? And where should we 
go from there?
    Dr. Karl. Well, you know, I think that certainly the 
architecture that NASA used was very appropriate for, remember 
they were looking at their specific missions. And so they were 
developing responses to the particular missions they have. For 
what we are trying to do in NOAA, our architecture is going to 
have to combine both the in situ, the historical data, as well 
as the modern data. And so, when we look at our architecture, 
the way we are trying to envision this is to have data centers 
that are equally complementary, but that can back up data from, 
for example, if one data center went down, you would not even 
notice it as a user because you could pick up data from another 
data center. And so our approach is to have redundancy in our 
system. But that we would have centrally located a couple of 
hubs that would have comprehensively all the data.
    Then in terms of community of researchers that we work 
with, they would store data that they would be working with, 
but we would want them to, after a certain point in time, 
document what they have done, be able to upload it to the 
central hub, so that we would have the documentation. We would 
be able to go back and retrace the steps that they did to 
correct the data, develop the climate data records. So our 
architecture is one in which you might think of it a little bit 
in the way of spoke and hub.
    Mr. Mollohan. I want to follow up a little bit with that on 
the next round. But Mr. Ruppersberger?

              RESOURCES FOR WEATHER AND CLIMATE PREDICTION

    Mr. Ruppersberger. Thank you. The issue of, first, 
basically you are saying that the satellite is clearly the best 
resource that we have to help you to predict the weather? You 
talked about the oceans, I have heard both of your testimony. 
But what is the best resource you have? Is it satellites?
    Dr. Busalacchi. I would say for monitoring and prediction, 
you cannot say that there is just one----
    Mr. Ruppersberger. Busalacchi, right?
    Dr. Busalacchi. Busalacchi.
    Mr. Ruppersberger. Busalacchi.
    Dr. Busalacchi. One best technology. You actually need the 
combination of both satellite observations and in situ 
observations. Each have their own inherent strengths and 
weaknesses. So we need sort of a combined approach. So I will 
not say that satellites are the best because they have 
deficiencies, they also have strengths. So it really needs to 
be this coordinated approach. I would say in the past we have 
been going down two tracks that have been parallel. We have had 
the in situ, or ground sea based observations. We had the 
satellite observations. We need to start bringing them 
together, and integrating them, and designing, again, that is 
part of this national strategy I was alluding to. Bring 
together the strengths of both sorts of measurement 
technologies.

                   LONG-TERM STRATEGY FOR SATELLITES

    Mr. Ruppersberger. Well, you know, the issue that I think 
you are saying, you are loud and clear, is that we need a long-
term plan. That is step one. And it is good news that, I hope, 
that we are not into science, so we can deal with science and 
what the conclusions of science are and not idealistic issues 
that are out there. So that is going to help, I hope. So we 
need to put a plan together.
    But we are appropriators. We have to make decisions on 
priorities, on what we spend and what we do not spend. 
Satellites are extremely expensive, as you know. And you have a 
three-way competition, the way I see it, between DOD 
intelligence, and then NASA, and then NOAA with NASA. And what 
I do not see, and that needs to be developed, it seems that 
everybody, each one of those entities wants to have their own, 
they want to own their own, especially the Department of 
Defense. And that probably goes back in culture or whatever. 
But, you know, we just do not have the money for all of it 
anymore. And what I think, when you are developing a long term 
plan, there are certain things that the intelligence community 
are not going to give you. They might help you, but they are 
not going to give you. But there might be other things that 
they can. And I think there has got to be from your side, the 
scientists' side, a lot of communication and negotiation on how 
you can take advantage of these satellites that are up there to 
protect our national security. And yet use it also, because 
weather is part of our security and our national security. It 
is not about the bad guys coming in, it is about weather and, 
you know, as you know, and you have seen with Katrina and in 
other areas.
    And I would like to know if you have had any conversations? 
Do you agree with my premise, that there needs to be more 
cooperation? Because I think in the end, when it comes down to 
who is going to get what, it is going to be DOD first, 
intelligence second, and you all third. And we just cannot. And 
even with NASA itself, there is just too much duplication of 
effort. Too much money spent. And now with cybersecurity out 
there, and we kind of know that we have been attacked on a 
regular basis, you know, with other countries on the cyber 
issue, there is just too much out there not to have a plan and 
to be involved. Could you please comment on my comment?
    Dr. Busalacchi. Sure. So clearly, there needs to be better 
definition of the roles and responsibility amongst those three 
or four parties that you described. In our NPOESS experience we 
saw front and center the problems with once you get beyond 
weather. So there clearly is continued opportunity for 
coordination on the weather front across DOD, NOAA, and NASA. 
And problem with the NPOESS came when we came to climate 
because, as I said, there are these unique requirements for 
climate above and beyond weather. Now if we can----
    Mr. Ruppersberger. And weather can be used by DOD, too, so 
that----
    Dr. Busalacchi. That is right. So weather, I think, is 
manageable. Where some extra effort needs to be made is for the 
climate sensors, because climate is not high, in the past has 
not been high. It is gaining greater priority within the DOD.
    Mr. Ruppersberger. Weather kind of changed World War II, 
did it not?
    Dr. Busalacchi. Right now, and climate is becoming a 
national security issue with respect to vulnerable areas 
overseas. I will defer to Tom.

                 INTERAGENCY COOPERATION ON SATELLITES

    Mr. Ruppersberger. But what I want to hear, if you can 
answer this, is there an effort, ongoing effort, is there a 
negotiation going on between those three entities?
    Dr. Karl. I can mention, I actually can bring this issue a 
little bit higher from where I am coming from, from this 
climate data record perspective. The value of that program is 
to try and look at all the assets that are out there, and to 
make silk out of a sow's ear in some respect. From the 
standpoint of many of these instruments that have been put on 
satellites have not been put up there to measure climate change 
and variability. They have been put up there to do other 
things. That does not make them ideal to monitor climate. But 
there is value, there is information there, that we want to be 
able to make use of.
    That discussion, I think, is going on not only amongst the 
agencies. I know I have spent the last couple of years and many 
meetings with my NASA colleagues and some of my other 
colleagues in other agencies, talking about how we can best 
look at the past data and put together the best climate data 
records. But also, this discussion is going on internationally 
among the scientific community. Global Climate Observing 
System, there is a number of documents that talk about look at 
the same essential climate variables that we have identified in 
the Climate Change Science Program strategic plan, trying to 
identify how we could best go about coordinating this 
internationally, and put together a coordinated effort to 
produce the best information we can have about climate change.
    Now, that is not quite the same as saying, you know, what 
is it that we need in the future? There are other groups, there 
is a Committee for Earth Observing Satellites, that are looking 
at internationally what each nation is bringing to the table. 
And, of course, we are represented by more than NOAA and NASA 
and all of our space agencies.
    So there are discussion at that level that are taking 
place. And I will admit this is not an easy problem and I think 
you raise an extremely important point.
    Mr. Ruppersberger. One of my suggestions will be clearly we 
have to emphasize a plan. There needs to be, I mean, I chair 
the Technical and Tactical Committee on Intelligence, which 
when I finish I am going to go down and have a hearing in that 
regard. And I know that there is a lot of play now between the 
intelligence community and the DOD. And where there is 
duplication of effort, again, wasting money. And believe me, 
the money is not there so somebody is going to be hurt and I 
think it might be you.
    Another suggestion I have, too, when I asked you the 
question I did it on purpose. You know, what are your 
priorities? And you said, well, satellites is just one of them, 
you have another one. I do not want you to change your answer 
because that is a good answer and that is a scientific answer 
based on your research and conclusions. But I would emphasize 
how important that the satellites are, because you are fighting 
for that money against intel and DOD right now. Okay? Thank 
you.
    Mr. Mollohan. Thank you, Mr. Ruppersberger. Mr. Serrano.

                   OCEAN HEAT CONTENT AND HURRICANES

    Mr. Serrano. Thank you, Mr. Chairman. Dr. Busalacchi, in 
your testimony you stated that monitoring the heat stored in 
ocean eddies is also providing new insights as to how upper 
ocean heat content can lead to hurricane intensification, as in 
the case with Katrina. Was this something you knew prior to 
that? Or something you picked up after you studied the data? 
And either way, can it lead to helping us predict what is going 
to happen in the future?
    Dr. Busalacchi. Thank you for the question. Prior to 
Katrina, clearly we recognize that the atmosphere and the ocean 
is coupled. But specific to this intensification of Katrina, it 
was after the fact when studies were done looking at the track 
of Katrina compared with the satellite altimeter data that 
showed this warm blob of water in the Gulf of Mexico. That is 
now leading to improved hurricane models that are much more 
coupled between the atmosphere and the ocean, and have this 
feedback between the atmosphere and the ocean. So that is 
leading, as a result of this sort of retrospective analysis, to 
increased forecast skill and studies of intensification for the 
hurricane problems.

                INTERNATIONAL COOPERATION ON SATELLITES

    Mr. Serrano. To both of you, I noticed you mention the 
international community. And I am always interested in knowing 
what role our foreign policy plays into these issues. When you 
say the international community, does that include nations that 
we may not have good political relations with? I mean, like, do 
we deal with Iran? Do we deal with Cuba when it comes to issues 
of climate change?
    Dr. Busalacchi. Our best success stories for satellite 
climate studies are our friends and partners, France, Japan, 
Brazil, India. These are great success stories. Germany as 
well, great success stories.
    Given the budget challenges, I think it really is 
reasonable to be going down this path, a partnership approach. 
But it has been our historical friends.
    Mr. Serrano. Okay. But are we allowed? Does our government 
allow you to sit at the table with countries we don't have a 
relationship with when it comes to dealing with these issues? I 
always wonder if we----
    Dr. Busalacchi. In an international forum?
    Mr. Serrano. Right.
    Dr. Busalacchi. We are allowed to sit with our colleagues 
from some of the nations you mentioned. But there are 
restrictions with respect to any exchange of technology. The 
discussions are all within papers that have appeared within the 
peer review literature. That is the level of the discourse.
    Mr. Serrano. So if you see something approaching a country 
that we are not crazy about, you are not at liberty to tell 
them there is something coming your way?
    Dr. Busalacchi. I don't deal with that sort of prediction.
    Mr. Serrano. Or are they not at liberty to tell us 
something is coming our way?
    Dr. Busalacchi. That is correct.

                          COOPERATION ON CDR'S

    Mr. Serrano. Okay. Dr. Karl, in reading your testimony, I 
was impressed with the tremendous challenge that you confront 
as you seek to convert raw material, sensor data into climate 
data records, CDRs as you said. I thought they were rewritable 
CDs you were talking about, the CDRs or recordable CDs.
    In your statement you stated that CDRs that are not 
developed using multiple approaches and multiple satellite and 
earth-based observing systems are often problematic. As you 
move forward with this important project, do you foresee 
difficulties with getting this necessary cooperation on 
multiple fronts? It seems that you will not only need 
cooperation across agencies, but perhaps even with other 
governments in order to successfully use this information, 
which somehow a little bit touches on my prior questions.
    Dr. Karl. No. In fact, I have a story I can tell you why 
this is important, and why I think it actually can work and has 
worked in the past.
    We had an issue a few years ago where we had two--it first 
started off with one group trying to calculate from satellites 
what the change in atmospheric temperature had been since 1979. 
And in their published reports there were error bars put on, 
you know, how good they thought they could do. And then we had 
another independent group use a slightly different approach. 
And they published papers in their error bars. And their error 
bars didn't--when you overlap the changes that they both 
thought were occurring, they didn't overlap. And their error 
bars didn't overlap.
    And so the question was well who could you decide which was 
right and which was wrong? Because there was many, many papers 
written both defending the techniques that were being used. It 
wasn't until a number of other groups using slightly different 
approaches and other measurement approaches, not only 
satellites but in-situ data that we actually got to be able to 
really understand what the air structure was, how far we could 
go in terms of doing an analysis.
    And in the end, just recently there was a paper published 
showing that right now we think we truly do understand what our 
limits of certainty are and be able to tell you--being able to 
tell you what the changes in tropospheric temperature have been 
since 1979, because we have had multiple groups looking at it 
independently using satellites, using in-situ data. So I think 
that is--that is an example why we think it is really important 
to have multiple approaches using multiple observing systems.
    And I think the cooperation comes in this business that we 
are in, there is a tremendous drive by scientific teams to try 
and probe as deeply as they possibly can. So if there is any 
possible way of looking at data that people might not have 
thought of before to look at, they really push the envelope if 
you provide the encouragement and the resources for them to do 
that. And that is why I am so excited about the CDR program, 
because I think it does offer us an opportunity to encourage 
that kind of exploration that perhaps we might not otherwise 
have gotten.
    Mr. Serrano. And how often? You have an example, but is 
this is a common occurrence of NOAA agreements?
    Dr. Karl. No agreement tends to be a common--I will give 
you another example.
    Mr. Serrano. It sounds like the U.S. Congress.
    Dr. Karl. No comment on that. Hurricane intensity is a very 
important topic. You know, are hurricanes becoming more 
intense? And we have had a flurry of papers over the past 
number of years talking about whether you could discern from 
the data and how you could discern changes. We have got in-situ 
data. We have data that hurricane centers, both our hurricane 
center and the Pacific Hurricane Center, one by Japan, one by 
Australia, have tried to make their best estimate about 
hurricane intensities. And, of course, the procedures have 
changed over the years.
    So the question comes in are those data really climate data 
records stitched together in an appropriate way? Probably not. 
But you have got a number of individual research teams looking 
at that. But then recently we have been able to encourage them 
to take a look at the satellite data. And what would you get if 
you objectively compiled the satellite data.
    So we have stitched together a number of geostationary 
satellites, because the advantage of geostationary satellites 
is they are always looking at the same spot. And hurricanes 
don't go up so far to the poles that we will miss them, like 
you would have with the polar orbiter. You would want to have a 
polar orbiter if you had something important going in the 
poles.
    But in any case, there has been a number of other teams 
that have looked at these satellite data. We have helped them 
reprocess that data. And we are finding some very interesting 
confirmations. Differences in the rates of trends about things 
like hurricane intensity. Confirming, yes, we are seeing some 
increase in hurricane intensity since 1979, 1983.
    The next step is okay, is that linked to increases in sea 
surface temperature? Is that linked to any of the anthropogenic 
changes we have seen? Those are other questions. But you can't 
even begin to answer those questions without having the basic 
data to start out with.

                       SEVERE WEATHER AND CLIMATE

    Mr. Serrano. Mr. Chairman, in closing, this reminds me of a 
question I think I asked yesterday or the day before. I seem to 
remember when I was much younger that it didn't seem like the 
weather was so severe. So is it that the weather has gotten 
worse or is it that CNN and Fox can give it to me live with 
pictures right there with the reporter being blown away by the 
wind. And the answer I think was a little of both. But you say 
that you have noticed increased intensity since 1979 or so?
    Dr. Karl. And I agree with you. It is a little of both. In 
fact, there was a report that the Climate Change Science 
Program, inner-agency program--NOAA led a report that we 
released last spring called ``Weather and Climate Extremes and 
the Changing Climate.''
    And depending on the kind of weather and climate extreme 
you look at, what you have said, Mr. Serrano, is exactly right. 
For example, tornado frequency. You know, we are able to spot 
those much better today than ever before. And if you look at 
the raw numbers, you can be pretty much deceived.
    For some of the other aspects of climate extremes--sorry 
about that, some of the other aspects of climate extremes, that 
is not the case. And things like heavy downpours, there is very 
good evidence now that we are seeing an increase in heavy 
downpours in this country and other countries.
    And it is very important, because it has important 
implications for infrastructure development, things of culverts 
in terms of runoff, flooding of basements, that kind of thing.
    Mr. Serrano. Oh, thank you. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Serrano.
    Mr. Fattah.

                            CDR DEVELOPMENT

    Mr. Fattah. Thank you, Mr. Chairman. Dr. Karl, to the best 
that I can understand this in layman's terms is that there is a 
lot of data that has been collected over the last 50 years from 
satellites. And even though they weren't up there necessarily 
looking at climate change, this data could be from an empirical 
basis, very helpful in terms of trying to quantify what exactly 
is going on.
    So you are in pursuit of this information. This is the CDR 
program now.
    Dr. Karl. Right.
    Mr. Fattah. In this stimulus package, we funded both 
climate sensors and this--in this effort that you are involved 
in. Can you give the Committee a sense of how far along you are 
going to be able to go with that appropriations?
    Dr. Karl. Yeah. I can tell you we actually have a list of 
how many climate data records we think we could actually 
produce from the existing set of sensors we have out there. And 
the list is about a hundred or so. That is quite a number. And 
the cost of--you know, if you look at what is the average cost 
of doing a climate data record, it is a couple of million 
dollars.
    And then there is also--you have to be able to sustain 
that, because you want to make sure that, you know, year after 
year you are able to update. And that cost is, you know, not 
the same amount as the up-front costs, but it is a significant 
fraction to continue those climate data records.
    So, you know, you can do that math. And you can see that 
this is a great start. But it is something that we will 
certainly have to sustain if we want to look at that entire 
list.
    And I should say that list was derived from this agreed 
upon set of essential climate variables from which there is--
the next step further, for example, I gave you the hurricane 
example, hurricane intensity. Hurricane intensity is not really 
one of the essential climate variables. But we think it is 
pretty darn important. But it is derived from things like cloud 
information and derived from winds which are an essential 
climate variable.
    So that is why that list of 44 is a little bit larger when 
we look at how many we think we could actually get.

                       CLIMATE DATA MODERNIZATION

    Mr. Fattah. These data archives, I assume a significant 
number of them are accessible. Are there others that are not 
assessible for non-financial reasons?
    Dr. Karl. Yeah. We have something called a Climate Data 
Modernization Program. And we are trying to make as much data 
as possible computer accessible. And simply because there are 
still paper records, we actually--believe it or not--are still 
getting punch paper tape, 15-minute precipitation measurements 
from 2,000 sites that we have across the country. These are 15-
minute rainfall data, which are extremely important in terms of 
trying to measure rainfall intensity. So as part of the Climate 
Data Modernization Program, we are taking those punch paper 
tapes and actually converting them to something digital that we 
can use on computers.
    So the answer is yes. There is data out there that were not 
accessible. But through the Climate Data Modernization Program, 
we are trying to make those accessible.
    Mr. Fattah. It sounds like something like hanging chads or 
something.
    Dr. Karl. That is pretty close, pretty close.
    Mr. Fattah. Let me thank both of you for your testimony. 
Thank you, Chairman, for hosting this hearing.
    Mr. Mollohan. Thank you, Mr. Fattah.
    Mr. Serrano. Do you think we could ask for a weather report 
for the Phillies, Orioles, and Yankees opening days?
    Mr. Mollohan. You can ask any question you want, Mr. 
Serrano.
    Mr. Fattah. Whatever the weather, let me just assure the 
gentleman from New York, the Phillies are the World Series 
champions. And we intend to retain that honor.
    Mr. Serrano. Just remember 26 World Series championships.
    Mr. Mollohan. Stop. Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman.
    I always regret when I am late to a panel, because you are 
half way through your testimony. And you have already answered 
a round of questions. And I am always embarrassed when I have 
to ask the same question that you have answered three times. So 
if this has already been asked, let me apologize.

                      SATELLITE DATA & HURRICANES

    As I have asked the previous panel earlier today though, I 
think I am the only member of this Subcommittee who lives along 
America's Gulf Coast in Mobile, Alabama. So first of all, thank 
you for what you do to help us better understand bad weather, 
especially hurricanes, better prepare for them, and get a 
better handle on what impact that we have globally and 
certainly here in this country might have in terms of 
connection to bad weather.
    In answer to Chairman Serrano's question about whether it 
is that we know more, whether it is that we are having more 
information presented to us, I tell you, there is certain 
weather reporters from the Weather Channel that when they show 
up in your backyard, you want to get out of there. That is the 
warning signal that you are waiting on to know that it is time 
to evacuate.
    And I also think it is important. We don't say enough 
thanks, those of us from Louisiana, and Mississippi, and 
Alabama, and Florida, and Texas to thank the American people, 
not only for the work that you all do, but also for the 
generosity of the American people in time of a hurricane. 
Katrina being the good example, 90,000 square miles, hundreds 
of millions of dollars that came in to help.
    But my question is this. You said in your written 
testimony, Dr. Karl, that researchers at NOAA's National 
Climate Data Center spent four years carefully merging and 
intercalibrating a patchwork of data from 29 geospacial 
satellites, both U.S. and foreign, to develop a CDR to 
facilitate efficient global analysis of hurricanes and go on to 
discuss that. The panel earlier this morning suggested that we 
may see one meter rise, because of the melting of the ice over 
the next century that could have an affect on beach erosion. It 
could certainly have an affect on hurricanes.
    But based on your work over the last few years, what would 
you anticipate that we could look at over the next few years? 
Over the next century seems so far away for most people. But we 
are going to be coming into hurricane season in just a few 
months. And more importantly over the next few years as 
communities discuss maps, and rebuilding, construction code, 
and other things that we seem to have more control over, based 
on your knowledge and data, what are some of the things that we 
could anticipate and look forward to or dread that might be 
just over the horizon?

                             SEA LEVEL RISE

    Dr. Karl. Yeah. I can tell you, you have identified an 
interest--a topic that is of great interest to NOAA. And we 
have had considerable discussions especially recently. I will 
give you an example with the Governors of the coastal states 
talking about this very issue of sea level. And exactly the 
same issue that you raised there is concern for, you know, what 
should the long-term strategy be. But there is a near term and 
an immediate strategy.
    And one of the things that I can tell you that NOAA is 
talking very seriously amongst the climate interests and our 
coastal interests is issues related to what we could bring to 
the table in terms of helping to develop, for example, a sea-
level prediction system that would incorporate not only a tidal 
type of information that you have, but information about what 
we have available from expectations on global climate change, 
our capabilities with respect to storm surge modeling.
    The key issue here is to try to tie that kind of 
information together. We have got a lot of very important 
individual pieces. Tying it together is the challenge right 
now. We have been engaged with discussions with USGS about this 
very issue. And part of the reason these issues come up also is 
we do these assessments. And you may have seen there was 
assessment recently from the Climate Change Science Program on 
sea-level rise. And they focused on the mid-Atlantic area.
    But if you go and look at that report, you would recognize 
although there is a lot of good individual pieces of 
information we have, tying it all together is the real 
challenge. And I think that is an area that we have some 
potential. And so you say what could you look forward to in the 
future? Hopefully that will be an area we will be able to say 
more about in the future.
    The interesting thing about tides, in sea level, is when 
you look at the short term, people certainly recognize storm 
surges and hurricanes have a big effect. But even the patterns 
of wind flow during certain times of the year will change the 
sea-level rise that we are measuring from tides in substantial 
ways.
    So if you look on the East Coast and Carolinas, an October 
storm is much more devastating than an April storm, because of 
the prevailing wind patterns. But anyway, good question.
    Mr. Bonner. Well, again, thank you for being the unsung 
heroes on many occasions. I have had the opportunity to call on 
you late at night on a Saturday or early in the morning on a 
Sunday and get information that was helpful to our Governor, 
and our mayor, and others to try to get information out to the 
community so that we could get people out of harm's way. So on 
behalf of all the wonderful people who work there, please 
accept our thanks.
    Thank you, Chairman.
    Mr. Mollohan. Thank you, Mr. Bonner.

                     DEFINITION OF RADAR ALTIMETER

    Dr. Busalacchi, tell the Committee what is a radar 
altimeter?
    Dr. Busalacchi. A radar altimeter for me remains one of the 
most remarkable pieces of engineering for me. This is a 
technology we use to monitor and measure sea-level rise, as was 
just mentioned. We have been having these precise radar 
altimeter measurements going back to about 1992. But in simple 
terms, it is very much like the speed gun in a police car. 
Except this time the speed gun is orbiting 1,300 kilometers 
above the surface of the earth. It is measuring changes in sea 
level to a few centimeters.
    So that is like standing here on the steps of the Capitol, 
pointing this speed gun down to Jacksonville, Florida, and 
measuring changes in the Saint Johns River to about one inch. 
So I continue to be amazed by the technology. In fact, 
technology then that allows us to measure sea-level rise on a 
global basis. But then with respect to Representative Bonner's 
question, have a better understanding of the regional changes 
in sea-level rise going into the future.

                      DEFINITION OF SCATTEROMETER

    Mr. Mollohan. What is a scatterometer?
    Dr. Busalacchi. A scatterometer is another radar 
technology. This time you send down a radar pulse to the 
surface of the ocean. And you know when you look at the ocean 
or a lake and you see those little ripples, well those ripples 
get bigger and bigger based on the strength of the wind. And so 
how the radar is back scattered off these ripples tell us 
something about both the strength and the direction of the 
wind.
    So that is how we measure global wind velocity. So that is 
what we use into our climate models for the ocean. But it has 
also proven to be--even though it is more of an oceanographic 
sensor, a very useful sensor and retrieval for marine weather 
and for improving hurricane forecasts.
    And so that is one of these areas where we have technology 
that has been in place since about 1999. We have not secured 
the next generation of sensor. And I know NOAA is in active 
discussions with Japan, for example, to provide a follow-on 
sensor for hurricane prediction, extreme weather, and for 
climate predictions.

                      CURRENT STATE OF INSTRUMENTS

    Mr. Mollohan. That prompts the question are the instruments 
that we are using, these two instruments, are they adequate to 
today's capabilities for climate change and operational 
purposes?
    Dr. Busalacchi. Very good question, sir. I would say for 
the global problem, the scatterometers and altimeters, that 
have technology of fifteen to seven years, they are adequate. 
But now when you speak to operational oceanography, and getting 
back again to Mr. Bonner's question, when you start coming into 
the coastal zone, this class of the older technology does not 
have the resolution to get us to within 25 kilometers.
    So these new sensors, as mentioned in the decadal survey, 
the extended ocean conductor wind measurement for--it is a 
scatterometer measurement. We can get within five kilometers of 
the coast. The surface water ocean topography sensor, which 
will get us closer into the coast for sea level, that is the 
next generation of sensors that I believe need to be put in 
place to continue the global scale but as we get into the 
coastal scale and operational oceanography. What we would call 
the combination between blue water, open ocean, and brown 
water, the coastal ocean. It is these next generations of 
sensors. They are going to be needed to get us closer to the 
coast and get to these more regional specifications that we 
need.
    Mr. Mollohan. Where are we in the development, and 
construction, and deployment of these new sensors?
    Dr. Busalacchi. So these sensors, both of those that I 
mentioned, are in the middle tier of sensors recommended for 
the decadal survey. So they are slated nominally for 2013 to 
2016. And Tom is better to speak to what the thinking is with 
the know with respect to scatterometers.
    So the next generation of sensors, again, looking at least 
five years from now I would say.
    Mr. Mollohan. And will they be on line soon enough to 
provide a continuity of information?
    Dr. Busalacchi. No. That is where there are some potential 
gaps for both the continuation of the altimeter and 
continuation of the scatterometer. Those are some serious 
issues where we may be at a point where we would have a gap.

                  GAPS IN ALTIMETER AND SCATTEROMETER

    Mr. Mollohan. What kind of gaps respectively?
    Dr. Busalacchi. For altimeter we have the Jason-2 sensor up 
there now. It was launched last year. Nominal lifetime about 
three or five years. So this is the first time--this is about 
the third series of altimeters. The first time that an 
altimeter is up and we have not yet secured the follow-on 
altimeter. So we may be faced with a gap of several years.
    And scatterometry, as I said, the QuikSCAT sensor was 
launched in 1999. It is on its last legs. So in that regard it 
is almost too late.
    Mr. Mollohan. So how do we accommodate those gaps? And what 
do we do about it being too late with regard to gathering the 
information that is necessary to get----
    Dr. Busalacchi. Well, one is to keep our fingers crossed 
that the present sensors continue. So, again, that is not the 
best way to have a strategy.
    Mr. Mollohan. It doesn't sound very scientific.
    Dr. Busalacchi. That is correct. But in all fairness, our 
NOAA colleagues have been in deep discussion with EUMETSAT, 
which is the operational arm that manages weather satellites in 
Europe, with respect to this Jason-3 satellite. But yet it has 
not yet been secured. And as I alluded to, NOAA has been under 
discussion with Japan with respect to a follow-on 
scatterometer.
    Mr. Mollohan. And how adequate are these measures?
    Dr. Busalacchi. So the Jason-3 is the--would be the 
continuation of this global measurement.
    Mr. Mollohan. Yes.
    Dr. Busalacchi. So that would continue the sea-level rise. 
This issue of heat content. But it won't get us close to the 
coast. So that is where we need this SWOT mission.
    Mr. Mollohan. Yes.
    Dr. Busalacchi. Similarly, the discussions with Japan for 
the follow-on dual frequency scatterometer would continue the 
present class of scatterometer observations. But, again, it 
won't get us close to the--close as the decadal survey extended 
ocean and vector wind measurement mission would.

                         GAPS IN DATA FOR CDRS

    Mr. Mollohan. How important or significant is the gap or 
the lack of information with regard to our understanding of 
global climate change?
    Dr. Busalacchi. This speaks exactly to the issue of climate 
and data records. Where a break in a climate data record--once 
it is broken, you can't replace that record. So, again, it is 
not the same as weather. So that is, again, to reiterate, all 
part and parcel need for the strategy so that we don't have 
gaps in the record. We don't have these uncertainties. Is there 
a mismatch in the record, because their gap is a result of new 
technology or is it a result of a geophysical change in the 
earth system?
    Mr. Mollohan. Dr. Karl, do you have a comment on this?
    Dr. Karl. I think Tony's described the situation very 
adequately. What I would add is there are some things for which 
you cannot ever make up a gap. And there are other things where 
you have got ancillary measurements. And it certainly increases 
your errors, because you are going to have to do some infilling 
in ways that you might not otherwise want to do.
    And I will bring up an example. And that is the TESIS 
instrument. This is measuring the total amount of energy from 
the sun. We have been doing that for 29-30 years now. And if we 
have a gap there, there is no way we can recover, because we 
can't do this any other way. And why that is so important, 
particularly when you are trying to understand anthropogenic 
climate change, if you have got this missing component. How 
much energy is coming from the sun? So what is causing climate 
change? Is it changes in the sun, or is it changes in what 
humans are doing?
    So that is an area where there are some things where if we 
have a gap, there is just no way out of it. We are essentially 
starting over, because if you miss five years and begin to 
measure again, our measurements aren't good enough right now to 
say we can absolute measure the amount of energy from the sun. 
But we can do, and we have these overlap, stitch together these 
records.
    For some of the other areas, it is certainly not ideal. But 
I will give you an example. If we can't get into the coast with 
an altimeter, the next generation of altimetry measurements, 
then you are stuck with relying on only tide gauges. And tide 
gauges are--you know, we don't have tide gauges everywhere 
along the coast.
    So there are stop-gap measures. They are nearly not as 
satisfactory as one would like to do with next generation 
instruments. And especially kind of the questions that Mr. 
Bonner asked, you can address them, but not as well as you 
would like to.

                    NATIONAL CLIMATE SERVICE AT NOAA

    Mr. Mollohan. I may come back to this after votes. But I 
want to be sure to get this into the record. There is a whole 
lot of discussion in the last short period about the formation 
of a national climate service in NOAA. So a couple of questions 
about this, please.
    How would operational requirements for satellite data 
change if monitoring climate were to become a NOAA mission? And 
how would land measurements be included?
    Dr. Busalacchi. That is a great question. And I might put a 
preface there. As you know in Jane Lubchenco's testimony, she 
indicated that her intent was to form a national climate 
service, maybe comparable to what we have got in terms of a 
national weather service ready.
    The important thing for us is that as Tony mentioned 
earlier this afternoon, we actually then will have a voice at 
the table when we are developing the requirements for future 
generation satellites. So that the climate instruments aren't 
looked on as a second cousin so to speak. So I think that will 
have an important change in terms of how we view the kinds of 
instruments we put up and the expectations of those 
instruments.
    And the other area that I think is going to be extremely 
important for climate is we just talked about is the need for 
overlap and be able to project. And you can never view this 
perfectly. But for those instruments that are critical for 
continuity, where would we place our priorities for an overlap 
so that we could stitch together the records, which is a little 
different than the continuity, for example, for weather 
observers. If you are missing one day, you are out of weather 
forecasts for a day that are as high quality as what you had 
previously. If you miss a day in climate, you may find you are 
making some really difficult work for yourself ahead in terms 
of trying to observe the climate record.
    So that will be important, the continuity, the kinds of 
things--the ways in which satellites are launched, their 
orbits, their calibration procedures, before they are launched. 
Their calibration during operation are fairly stringent for 
climate. They are certainly important for weather. But usually 
for climate, the stringency for calibration and accuracy are 
significantly higher.
    So those would be important ways in which the change from 
the standpoint of land products, land is absolutely critical 
for understanding the climate. Just in the ocean is critical. 
But you can't understand what is happening to the climate 
system without the land components.
    There are all kinds of products that have been derived from 
instruments like this long instrument we have had, the Advanced 
Very High Resolution Radiometer, AVHRR, to the next generation, 
or it was MODIS. And now we are going through VIRS. We would 
expect those products to continue, in fact, grow for climate 
purposes.
    Mr. Mollohan. Well, would the laboratories of the current 
ocean atmospheric research organization be distributed among 
the different NOAA services?
    Dr. Karl. That is a great question. And it one of the 
things that as soon as Jane Lubchenco comes on, we are going to 
be talking about how her vision of a national climate service 
fits into some of the goals and principles that we have drawn 
from a number of reports that have been written. The Academy of 
Science just released two reports related to delivering better 
climate change information from the Climate Change Science 
Program. Another one is about betters ways of informing us 
about climate change decisions. A report by Dr. Busalacchi's 
working group to our Science Advisory Board on the benefits and 
challenges of various options for developing a climate service.
    So we drew on all this information trying to put together 
some principles and guidelines and NOAA could follow. And we 
are looking forward to being able to brief Jane Lubchenco, Dr. 
Lubchenco, and explain to her what issues are at stake and how 
she would like to go forward.
    Mr. Mollohan. Thank you, Dr. Karl.
    Dr. Busalacchi, do you have a comment on those questions?
    Dr. Busalacchi. Certainly given what we have been doing 
with NOAA. I think from on one hand, a scientist's perspective, 
but also looking at some of the work we have been doing with 
assessing what users needs are of climate information. It is 
actually quite gratifying to seeing the government now 
seriously going down this path of the national climate service. 
And so it is very gratifying.
    And then looking at these different models with respect to 
the land data, I think some of the architecture that we spoke 
of with NOAA is these sort of partnership approaches, 
federation approaches, NGO approaches that would sort of expand 
the disciplines: atmosphere, ocean, land. In order then they 
could support NOAA as a lead agency for a national climate 
service but in partnership with the other agencies that have an 
important stake such as NASA, USDS, Department of Agriculture, 
et cetera.
    Mr. Mollohan. Thank you.
    Mr. Serrano.
    Mr. Serrano. I have no questions.
    Mr. Mollohan. Mr. Fattah.
    Mr. Fattah. We have a vote, Mr. Chairman. And I thank you. 
I have a few questions for the record about this gap and what 
we may do about it.
    Mr. Mollohan. Okay. Mr. Bonner, I think we have a few 
minutes. We have got 333 members who haven't voted if you have 
some questions.

                INTERNATIONAL COOPERATION ON SATELLITES

    Mr. Bonner. Just two quick follow-ups. And, again, it may 
be in your testimony. Forgive me if I don't see it. Who are 
some of our leading global partners that we rely on for 
satellites and for this type of information?
    Dr. Busalacchi. Japan, France, Germany, Canada, Brazil. Our 
leading nations where we have enjoyed very strong equal 
partnerships over the past 20 years or so in this game.
    Dr. Karl. And, you know, there is a list of--right now we 
are working quite closely with Korea with their GPS radio 
occultation measurements, which are another way to try and get 
us better information on about what is going on very high up in 
the atmosphere.
    Quite frankly this job is one in which it really behooves 
to work closely with our international partners, because, 
again, we talked earlier about climate data records, having 
multiple looks at it, bringing together different sensors, 
different designs. It really makes a system more robust.

                       NOAA AND SCIENCE EDUCATION

    Mr. Bonner. And then just one follow-up. And maybe you all 
are not the right people to post this question to. But under 
the Chairman's leadership, we have had many people over the 
last several weeks come in and talk about the importance of 
science education, math education, and how we are struggling 
with that here in this country. Many countries seem to be doing 
a better job. I am fortunate that the only state school, it is 
a residential campus, one of only 13 in the nation for high 
school, for math, and science, is in Mobile where I live.
    I guess my question is what is NOAA doing to reach down? We 
are talking about needing to develop next generation technology 
and equipment that will help us. What is NOAA doing to reach 
down to young people at elementary, certainly middle school and 
high school, to get them to think about perhaps a career that 
might take them through your service?
    Dr. Karl. Now that is a great question. And I think NOAA 
has participated in an inter-agency process here. Two years ago 
we published something called a climate literacy guidebook. And 
I think that is going to be updated here very, very quickly. We 
have worked with other organizations like the American 
Meteorological Society to try and encourage interests, 
particularly if you capture, as you say, the primary school and 
the younger children with an imagination that this is actually 
an exciting opportunity.
    I also serve as President of the American Meteorological 
Society this year. And one of the things that I am always 
excited to see is support. NOAA supports numerous post-
doctorate and doctorate candidates through graduate 
fellowships. And the quality of the candidates I see is pretty 
amazing.
    But the challenges are far beyond what we have ever had in 
the past. And it really is important that we reach out. And I 
know NOAA, Dr. Louisa Koch, who runs our education program and 
NOAA, is actively engaged in this and has some very good ideas 
to try and bring this out more formally.
    Mr. Fattah. Mr. Chairman, since encouraged by you, let me 
try to----
    Mr. Mollohan. Sure, sure.

                  PARTNERSHIP WITH JAPAN ON SATELLITES

    Mr. Fattah [continuing]. Get my questions in right now.
    You almost sounded like you were on this side of the table. 
You have referred twice to we are in the discussions with Japan 
about trying to deal with the gap. Just in terms of the global 
capabilities here, does that mean that unless Japan cooperates, 
that is, I assume sends up a new satellite, or gives you 
access, or gives NOAA access to data, that is the only way 
feasible to not have this gap?
    Dr. Busalacchi. In the near term, that is correct. We won't 
have that. And even then that is in 2016, that particular 
mission.
    Mr. Fattah. So are those discussions going well? You can't 
comment? You don't know?
    Dr. Busalacchi. I would have to defer to my NOAA colleague. 
That is in NOAA.
    Dr. Karl. Yeah. And I can say that this issue comes up not 
only with Japan but with all the countries. We have engaged 
stridently with the international community about free and open 
data exchange. And that is an issue that is of vital importance 
to not only this country but other countries. Our policy in the 
U.S. has always been to provide our data freely and openly. You 
know, if there is a cost of sending tapes, you know, certainly 
that is involved in the charge. But----

                         GAPS IN SATELLITE DATA

    Mr. Fattah. But this is a 2016 launch?
    Dr. Busalacchi. The second GeoComm would be 2016. That is 
correct.
    Mr. Fattah. Okay. So we don't have any other capacity by 
2016 then to solve this on our own if we had to.
    Dr. Karl. Unlikely.
    Dr. Busalacchi. And that is why I will read it again. Hence 
the need for such a strategy.
    Mr. Fattah. Well, that is enlightening. Thank you.

                           Closing Statement

    Mr. Mollohan. Let me ask my colleagues. You are just 
covering a series of questions that I wanted to cover. Just a 
few nuances that I think you could address. We could submit for 
the record. There are a couple of other questions for the 
record.
    Mr. Serrano, Mr. Fattah, do you need to come back? I was 
going to ask you gentlemen to stay. Because we covered that and 
we can submit a couple for the records, we have got a series of 
eight two-minute votes. And then we vote to recommit. We won't 
be back until almost 4:00. So I think it is better to thank you 
all very much for appearing here today. We ask you to be 
responsive to some questions that we are submitting for the 
record that we surely will have.
    And we most assuredly appreciate the good work that both of 
you do. We understand how important it is. We are beginning to 
understand how it all fits together. And we want to 
increasingly understand that. We can't do that without your 
expertise. And we want to be responsive and help you all do 
your job. And you are helping to lay a good scientific factual 
basis for us to consider appropriations.
    So thank you for your appearance here today. Usually I 
would give witnesses a chance to sum up and say what they 
haven't said. But perhaps you can submit that for the record if 
you need to do it. Thanks so much for your appearance here 
today.
    The hearing is adjourned.

    [GRAPHIC] [TIFF OMITTED] T1219B.039
    
    [GRAPHIC] [TIFF OMITTED] T1219B.040
    
    [GRAPHIC] [TIFF OMITTED] T1219B.041
    
    [GRAPHIC] [TIFF OMITTED] T1219B.042
    
    [GRAPHIC] [TIFF OMITTED] T1219B.043
    
    [GRAPHIC] [TIFF OMITTED] T1219B.044
    
    [GRAPHIC] [TIFF OMITTED] T1219B.045
    
    [GRAPHIC] [TIFF OMITTED] T1219B.046
    
                                          Thursday, March 19, 2009.

         CLIMATE SATELLITE REQUIREMENTS, NASA AND NOAA PROGRAMS

                               WITNESSES

DR. BERRIEN MOORE, PH.D., CLIMATE CENTRAL
DR. RICHARD ANTHES, PH.D., UNIVERSITY CORPORATION FOR ATMOSPHERIC 
    RESEARCH

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. The hearing will come to order.
    Welcome, gentlemen. Good to see you today.
    Dr. Moore and Dr. Anthes, welcome before the Appropriations 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies.
    Well, we appreciate your coming today to help us understand 
the requirements for long-term satellite observations to 
support the understanding, the prediction, and monitoring of 
climate change and the specific characteristics required of the 
systems that provide them.
    Requirements for precision, accuracy, calibration, and 
continuity influence costs, but meeting these requirements is 
critical to getting value from investments in Earth 
observations.
    Both of you have wonderful backgrounds in these areas, and 
we really appreciate your coming before the Committee this 
morning to share that with us.
    For several budget cycles, this Subcommittee has been 
wrestling with cost growth, schedule slips, and payload 
descoping of the NPOESS Program. Traditional wisdom says that 
one should be able to control two of these three factors, but 
in this disastrous case, control of all of them has been lost.
    To restore essential climate change scope, the just enacted 
Omnibus appropriation for fiscal year 2009 provides $74 million 
to restore a clouds and radiation sensor to the NPOESS 
Preparatory Program and a second copy of this instrument and a 
complementary solar instrument to the payload of the first 
NPOESS satellite.
    $150 million is provided in the 2009 Omnibus and $400 
million in ``The American Recovery and Reinvestment Act of 
2009'' to accelerate development of Earth observation 
satellites as recommended by the National Research Council, as 
you well know.
    To gain the benefit of flying the suite of climate 
instruments and satellites, the nation needs effective data 
systems and centers, numerical models capable of simulating 
these and other data, and an organizational structure to engage 
the research data provider and user communities.
    Information products must be developed and provided for use 
on regional to global scales and covering time spans from the 
seasonal to the multi-decadal.
    Dr. Moore and Dr. Anthes, we look forward to gaining your 
insights as we work to ensure that the nation has a credible 
climate change research and operational program to complement, 
guide, and inform the major investments being made in 
transformative energy technologies, infrastructure, and policy. 
And continuity, we understand, is very important.
    Your written statements, gentlemen, will be made a part of 
the record. Before I call on you for your oral presentations, I 
would like to call on our Ranking Minority, Mr. Wolf, for his 
comments.
    Mr. Wolf. Well, thank you, Mr. Chairman. I do not really 
have any comments.
    I am going to digress just for a moment because I see that 
Dr. Moore is from Princeton, correct?
    Mr. Moore. Not part of the University.
    Mr. Wolf. But you live in the Princeton area?
    Mr. Moore. Yes.
    Mr. Wolf. I know this is off the subject, but as a 
scientist, I had a bill in that deals with the whole issue of 
Lyme Disease and everything else. And I have talked to a lot of 
people in the Princeton area.
    What are your feelings on the whole issue of Lyme Disease? 
Are you concerned about it when you go out and are----
    Mr. Moore. That is interesting. And this is off----
    Mr. Wolf. Yeah. You can just maybe, so we do not take----
    Mr. Moore. What is striking to me was that from my previous 
post at New Hampshire, I had a small staff of six or seven. Two 
out of the six or seven had Lyme Disease.
    As soon as I moved to Princeton, I went into a hardware 
store and the very first thing he said to me, he said beware of 
Lyme Disease.
    Mr. Wolf. Yeah. Well, maybe what we can----
    Mr. Moore. And it is a very serious problem, I think, 
throughout the northeast.
    Mr. Wolf. Well, what we might want to do, if I can be in 
touch with you, I have a bill in with Congressman Smith. We set 
up an independent analysis to see, but I just thought I would 
just raise it because when I have been up in the Princeton 
area----
    Mr. Moore. Very serious.
    Mr. Wolf [continuing]. Yeah, the deer fences. In my area, I 
had a Lyme Disease conference several months ago, and I thought 
25 to 50 people, but 300 people came. They all had Lyme, 
chronic Lyme.
    So, anyway, welcome, and I will be chatting with you about 
that. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mollohan. You are welcome, Mr. Wolf.
    Gentlemen, if you will proceed with your testimony.
    Mr. Anthes
    Mr. Anthes. Okay. Sure.
    Well, Mr. Chairman and Ranking Member Wolf and members of 
the Subcommittee, thank you for inviting me to testify on this 
important subject of NASA/NOAA relations.
    It has been said that the Earth is covered two-thirds by 
water and one-third by Academy reports on NASA/NOAA relations 
and the transition to research observations.
    Mr. Mollohan. I caught that in the last paragraph.
    Mr. Anthes. So I am pleased to add to that one-third and 
maybe mitigate against sea level rise.
    So, anyway, I am Richard Anthes, Rick Anthes, and I am 
President of the University Corporation for Atmospheric 
Research. This is a consortium of 73 research institutions and 
research universities that manages the National Center for 
Atmospheric Research or NCAR on behalf of the National Science 
Foundation.
    And I want to bring us back to the vision statement in the 
NRC Earth Sciences Decadal Survey which I co-chaired with my 
colleague here on my left. And I am not going to read the whole 
thing, but basically it says that understanding this complex 
planet and how it supports human life and how humans are 
affecting its ability to do so in the future is one of the most 
challenging intellectual problems facing humanity. And it is 
also one of the most important challenges for us as we seek to, 
as a society, to achieve prosperity, health, and 
sustainability.
    So addressing these societal challenges, both the 
intellectual ones and the practical ones of how we coexist with 
the rest of life on the planet and how we address issues 
related to sea level change, shifts in storm tracks, and, 
hence, severe weather, precipitation, droughts, heat waves, 
water availability, and so on; the key to understanding these, 
addressing these challenges requires a coherent program of 
sustained earth observations. And I emphasize coherent and 
sustained, neither of which we have today.
    And then we need the models to make sense of all of these 
different data from satellites, from ground-based sensors, from 
aircraft, and so on. We need models to make sense of these 
observations and to predict into the future not only weather 
but also climate.
    NASA and NOAA are the leading agencies responsible for 
global observations and prediction models and it is important 
to make sure that these agencies have well-defined missions and 
responsibilities and are adequately resourced to meet these 
essential national needs.
    Yet, the present federal agency paradigm with respect to 
NASA and NOAA is obsolete and nearly dysfunctional. In spite of 
the best efforts by individuals in NASA and NOAA, and I in no 
way am critical of the people, the present leadership of NASA 
and NOAA, the obsolete paradigm has NASA developing and 
demonstrating new observational techniques and measurements and 
then transitioning these technologies to NOAA or sometimes DoD 
for use on a sustained multi-decadal basis.
    Well, why is this not working? The traditional focus on 
research to operations neglects the need for long-term earth 
observations in favor of emphasis on weather forecasts. And as 
a weather forecaster from a long time ago, I have nothing 
against weather forecasts or improving weather forecasts, but 
it is not sufficient.
    The focus only on weather observations leads to the neglect 
of measurements that have very high climate value but low 
direct support for weather forecasting. So our ability as a 
nation to sustain climate observations has been complicated by 
the fact that neither NASA nor NOAA have the mandate and the 
required budgets to do so.
    So while funding for earth sciences fortunately is 
improving thanks to the economic stimulus and to the fiscal 
year 2009 enacted budget and the proposed fiscal year 2010 
budget, as far as I can see at the high level, we are still 
short for what is called for in the Decadal Survey.
    And NOAA certainly does not have an adequate budget for 
sustaining needed weather observations, much less climate 
observations.
    So the first step, the Decadal Survey, which gets a lot of 
attention on the 17 missions, we had another recommendation in 
there that as far as I can tell has been neglected.
    We recommended that the White House Office of Science and 
Technology Policy, OSTP, in collaboration with the relevant 
agencies and in consultation with the scientific community 
develop and implement a plan, a real plan for achieving and 
sustaining global earth observations.
    And my one take-home message from my oral testimony that I 
reiterate the importance of this recommendation and urge its 
implementation in the new Administration.
    I thank the members of this Committee for your stewardship 
of the nation's scientific enterprise for many years, for 
holding these hearings, and I commend you for supporting the 
more robust funding for earth sciences in the recent fiscal 
year 2009 appropriations process.
    [Written testimony by Richard A. Anthes, President of the 
University Corporation for Atmospheric Research follows:]

[GRAPHIC] [TIFF OMITTED] T1219B.047

[GRAPHIC] [TIFF OMITTED] T1219B.048

[GRAPHIC] [TIFF OMITTED] T1219B.049

[GRAPHIC] [TIFF OMITTED] T1219B.050

    Mr. Mollohan. Thank you, Doctor.
    Dr. Moore.
    Mr. Moore. Mr. Chairman, Ranking Minority Member Mr. Wolf, 
other members of the Committee, thank you for inviting me here 
to testify today.
    My name is Berrien Moore, III, and I am Executive Director 
of a new nonprofit in Princeton. It is a sporting time to leave 
a University and go to a new nonprofit in this economy.
    I appear here, however, as Chair of the Committee of Earth 
Studies of the Space Studies Board of the National Academy. I 
endorse what my colleague, Dr. Anthes, had said about the 
Decadal and about the recommendation calling for the plan. And 
I would like just to speak informally about my written 
testimony.
    First of all, regarding the budget, we have been very 
appreciative, the scientific community, for the near-term 
budget actions, but satellites are developed over a five or six 
year period. And what I have seen is that there has never been 
an adequate out-year budget that would really allow one to 
implement the recommendations in the Decadal Survey.
    And I do not know what the out-year budget for 2010 is for 
earth science, but I have read about what the NASA out-year 
budget is for NASA and I am worried.
    The second thing in addition to the resources in the out-
years, there is this question of controlling costs. I think we 
have got to find a way to control costs better. I am not 
certain what those techniques are and how we might do it, but I 
do know it is a serious problem.
    I have some thoughts about that that we can talk about 
later. Now, let me deal with the question of climate and the 
nature of the climate problem.
    First of all, it is a very serious societal issue. Let me 
just mention two or three things.
    Carbon dioxide emissions are up 40 percent from 1992. 
Nineteen ninety-two is the year of Kyoto. So rather than 
winding back emissions to 1990 levels as suggested in Kyoto, we 
are up 40 percent.
    Secondly, sea level rise is increasing twice as fast as 
expected. Summertime Arctic Sea ice is decreasing far faster 
than any model had predicted.
    That brings me to the issue of how do we approach this 
problem of climate. We fundamentally have to approach the issue 
of climate, which is a long-term issue, with very sophisticated 
computer models. And they involve, as Rick Anthes just 
mentioned, more parts of the earth's system than just weather 
forecasting.
    A weather forecasting model really only needs sea surface 
temperature. It does not need to know anything about ocean 
circulation to forecast tomorrow's weather. But as you start 
looking out 10, 20, and 30 years, more parts of the earth's 
system come into play.
    Now, this poses a very real problem. How do we validate a 
projection out 30 years? With weather models, we validate it 
every day and if we do not like the model or the modeler, we 
can fire them. But how do we do this with climate models?
    And there is a very interesting technique that is emerging. 
We take various modes of climate. The most popular, the most 
well known is El Nino or La Nina. These are the two climate 
modes that start in the western Pacific Ocean and they actually 
ripple all the way around the planet. But how well do our 
climate models predict El Nino and the patterns of El Nino?
    Now, with this, you do not want to just talk about what 
happens in the western Pacific. You want to see how well do the 
climate models catch all of the dynamics of an El Nino 
condition. We know that it affects rainfall over Brazil. It 
affects air mass transports over Indonesia. It affects sea 
surface temperatures off of Africa. It affects California 
weather.
    How well do we catch the whole system? Well, in order to 
know what the whole system is doing, we have to have earth 
observations of sea surface winds, of precipitation, of 
vegetation cover, the things that would be affected by El Nino.
    Well, you do not just have to worry about El Nino. There 
are other patterns. There is something called the North 
Atlantic oscillation and this is something that has a ten year 
periodicity. It changes every ten years.
    So we can go back to the last 20 years of climate records, 
satellite observations, and see how well did we capture the 
North Atlantic oscillation. And this then becomes a fundamental 
test for our models in the way in which we look to the future.
    Let me just conclude with one set of observations that I 
think are particularly relevant given the recent failure of the 
orbiting carbon observatory to make orbit. This is something 
that I know quite well.
    In fact, in 2000 and 2001 when I was at the University of 
New Hampshire, I competed against the orbiting carbon 
observatory. I suggested an alternative way of doing it using 
lasers. The orbiting carbon observatory was going to use 
reflected sunlight off of the planet to determine how much 
CO<INF>2</INF> there is in the atmosphere.
    The value of that determination is one could actually work 
backwards. You look at how much CO<INF>2</INF> there is in the 
atmosphere. You look very carefully around the planet. And 
there are slight differences. The biggest difference is there 
is more CO<INF>2</INF> in the northern hemisphere than there is 
in the southern hemisphere. Why? There is more industrial 
activity in the northern hemisphere.
    Well, it turns out there are east/west differences also. 
And if you look very carefully, you can work backwards to where 
is the CO<INF>2</INF> coming from and where is it going to. The 
orbiting carbon observatory was to make those observations. 
Unfortunately, it did not make orbit.
    So what do we do in the future? Well, one thing we know for 
sure we are going to be measuring greenhouse gases and gases 
like CO<INF>2</INF> from now on, at least for the next 100 
years. Therefore, we best get on with it because we absolutely 
must understand where is carbon dioxide coming from, where is 
it going to.
    The other that I would like to mention because you raised 
it, Mr. Mollohan, it is very fortunate that we are going to fly 
the CERES, the C-E-R-E-S, this is the cloud and radiation 
instrument, and the total solar radiance measurement.
    Why? Well, the solar radiance measures go look at how much 
energy is coming from the sun. So that is what is coming into 
the system. The CERES instrument looks at the planet and 
determines how much of that solar energy is reflected off the 
top of the atmosphere, how much enters the atmosphere, and then 
how much later comes out not as solar energy but as heat. That 
is the energy budget.
    And greenhouse gases like what I just mentioned with 
CO<INF>2</INF>, what the greenhouse gases do is they change 
that equation ever so slightly. So with the total solar 
radiance and the CERES instruments, we are beginning to monitor 
the earth's radiation budget which is the fundamental thing.
    My testimony mentions also what the Decadal Survey laid out 
for more detailed measurements of that budget, but I will 
conclude here and simply say that we face some very real issues 
with this question of climate. It is a serious and legitimate 
scientific problem and it is an important societal issue. We do 
not have the observational capability to adequately address 
this problem.
    Thank you very much.
    [Written statement by Berrien Moore III, Ph.D. Executive 
Director climate central Princeton, New Jersey follows:]

[GRAPHIC] [TIFF OMITTED] T1219B.051

[GRAPHIC] [TIFF OMITTED] T1219B.052

[GRAPHIC] [TIFF OMITTED] T1219B.053

[GRAPHIC] [TIFF OMITTED] T1219B.054

[GRAPHIC] [TIFF OMITTED] T1219B.055

[GRAPHIC] [TIFF OMITTED] T1219B.056

[GRAPHIC] [TIFF OMITTED] T1219B.057

[GRAPHIC] [TIFF OMITTED] T1219B.058

[GRAPHIC] [TIFF OMITTED] T1219B.059

[GRAPHIC] [TIFF OMITTED] T1219B.060

[GRAPHIC] [TIFF OMITTED] T1219B.061

[GRAPHIC] [TIFF OMITTED] T1219B.062

                             CLIMATE CHANGE

    Mr. Mollohan. Thank you, Dr. Moore.
    Thank you both.
    Let me pick up with both of you and either of you can 
answer. Well, Dr. Moore, since you ended your testimony with 
this, why don't you just pick up the first answer.
    This whole week, we have had excellent testimony, and if we 
were not impressed before the hearings started at the beginning 
of the week, we certainly are now about the seriousness of the 
phenomena of global warming and the drivers, particularly 
CO<INF>2</INF> emissions from human activity, which impressed 
upon us the importance of the Orbiting Carbon Observatory.
    So I would like you to talk a little bit about that--more 
why it was so important and the gap it bridged and what we are 
relying upon now and what we can substitute or how we respond 
to the failure of the launch and then when we are looking 
forward, what do we rely upon in the future.
    Mr. Moore. All right. First of all, I want to be very clear 
that I did as I said. I competed against it and so I had in 
some sense an interest in this topic.
    As I mentioned, what the Orbiting Carbon Observatory was 
going to do is to measure very precisely the differences in 
CO<INF>2</INF> concentration around the planet. And those 
differences directly reflect where CO<INF>2</INF> is coming 
from and where is it going to. We know that a lot of 
CO<INF>2</INF> is absorbed by the oceans. Some goes back into 
regrowing forests.
    You cannot make that measurement what scientists call in 
situ. There is no way you can go out and adequately measure 
CO<INF>2</INF> exchange at the surface of the ocean. It is 
impossible.
    Mr. Mollohan. And I do not want to interrupt you, but I 
want to be interactive with you on this. So we are talking 
about CO<INF>2</INF> from any source?
    Mr. Moore. Right.
    Mr. Mollohan. So you would have identified it coming from 
stationary sources, you would identify it coming from mobile 
sources, and the OCO would identify not only the source but its 
distribution after it emanates from the source? Is that----
    Mr. Moore. Yes. But I think most importantly, it would at 
fairly large regional scales say how much CO<INF>2</INF> is 
coming off of that region and how much is going back into that 
region. And you really get the net and you get that, I think, 
with OCO probably would have been able to get maybe monthly 
means, maybe weekly, but I think probably monthly at a regional 
scale.
    The finer you can make that measurement and the more 
densely you can make that measurement, the better you are at 
being able to get back to finer spatial scales and finer 
temporal scales.
    I mentioned that OCO worked off of reflected sunlight. 
Essentially it almost measures the greenhouse effect. That is, 
it looks at how much sunlight comes in and some of that 
sunlight is absorbed by CO<INF>2</INF>. And then as the 
sunlight is reflected back off the planet, it measures that. 
And it essentially can measure by the fact that CO<INF>2</INF> 
absorbs energy how much CO<INF>2</INF> there is in the 
atmosphere, but it requires sunlight.
    So that means it makes no nighttime measurements and it 
makes no measurements in the high latitudes like over Moscow in 
the wintertime because there is just simply not enough 
sunlight. It makes no measurements over very cloudy conditions 
because you are not sure about where is the sunlight coming 
from. It is bouncing off of clouds.
    But it was going to make a real contribution. I think to go 
forward, we would probably go forward with an active instrument 
which was not really ready. That is what I suggested in 2000, 
but I probably was overreaching.
    But by now in 2009, I think it would be logical to take the 
next step in which case now you take a laser and you shine the 
laser down, not damaging anything, on the wavelength that 
CO<INF>2</INF> absorbs energy. So in some sense, you take the 
sun with you. And that way, you would make measurements day, 
night. You make them over the high latitudes in the wintertime. 
You make them off the tops of clouds. You make them between the 
clouds. But we have to get on with that.
    The Decadal Survey recommended a mission. It is called 
ASCENDS. I will not bother you with the acronym. It is just 
easier to remember ASCENDS. And that is the second tier of 
missions. And this takes me right back. We are not even on a 
path to implement a third of the Decadal Survey because of this 
lack of out-year monies. And, therefore, ASCENDS is not in that 
first third.
    Mr. Mollohan. It is in the second third; is it not, Dr. 
Anthes?
    Mr. Anthes. Well, let me first say why these high 
resolution global measurements of CO<INF>2</INF> are useful 
from my point of view.
    You have all seen the Mauna Loa record.
    Mr. Mollohan. The what? I am sorry.
    Mr. Anthes. The Mauna Loa record in Hawaii that shows the 
Keeling curves as one of the most fundamental benchmark 
observations we have ever taken. And it shows how the carbon 
dioxide has been going up gradually, up and down with the 
seasons, up and down, but there is a clear upward trend. The 
ups and downs are because Mauna Loa is in the northern 
hemisphere.
    And so in the summer, when all the plants are taking up 
CO<INF>2</INF>, the actual CO<INF>2</INF> goes down in the 
northern hemisphere, but then it goes up in the next winter 
when the plant activity is not as active. And then it goes down 
again the following summer. So you can see ups and downs 
seasonaly, but the trend is unmistakably going up. Nobody, not 
even the most skeptical global change, global warming person, 
denies this Mauna Loa record.
    But the Mauna Log record is a global measurement and it is 
way up in the atmosphere. It is an average. It does not look at 
where the CO<INF>2</INF> being emitted over China is, where the 
CO<INF>2</INF> emitted over the U.S. is, the southern 
hemisphere.
    So we need these observations on the regional basis and 
every day so that, number one, we can verify models, verify, 
check our models, make sure our models of the carbon cycle are 
working correctly because if they are not showing higher 
CO<INF>2</INF> concentrations over China, for example, or the 
East Coast of the U.S., then there is something wrong with the 
models.
    We also need it, too, for checking the effectiveness of 
policies. If we try to limit CO<INF>2</INF> emissions somehow, 
we need to know whether these policies we enact are being 
effective.
    And so these are two reasons why we need this spatial 
distribution and temporal resolution, to check our 
understanding of the carbon cycling models and to verify 
treaties, if you will, to know where the major emissions are. 
So that is why we need them.
    Now, the orbiting carbon observatory had a lot of positive 
things. Number one, it should have been up there right now. 
ASCENDS is going to be, even under the best scenario, eight, 
ten, twelve years in the future. So there is going to be a huge 
gap in this needed capability.
    ASCENDS and OCO are different technologies. As Berrien 
mentioned, OCO is passive. You do not need an active laser. So, 
therefore, it is cheaper and perhaps more useful for long-term, 
monitoring.
    However, OCO does not observe anything during the night. 
And the active technology does get observations during the 
night. So we are always faced with these tradeoffs. The 
different technologies have advantages in some areas and 
disadvantages in others.
    I understand that NASA is looking at the pros and cons of 
redoing OCO, relaunching an OCO. I think that process is very 
good and I support it. They will be looking at the pluses and 
minuses of, doing another OCO versus, say, looking at other 
satellite systems that are up there now or moving ASCENDS up in 
the queue.
    I think that is a good process and you need objective 
experts looking at the pros and cons of these things.
    Mr. Mollohan. What about relying on foreign instruments?
    Mr. Anthes. Well, if the foreign instruments can do the 
job, that would be okay, but let me say how would you like to 
rely on foreign governments to defend the U.S.?
    Mr. Mollohan. How would you like to rely on foreign 
governments to get your humans into space?
    Mr. Anthes. Exactly. So, you know, I think that the U.S. 
needs some capabilities----
    Mr. Mollohan. We have done it before.

              COOPERATE AND COLLABORATE WITH OTHER NATIONS

    Mr. Anthes. I know, so I think this brings up a really good 
question about how much we cooperate and collaborate with other 
nations. We need to do as much as we can and we do. We have 
many good collaborations with the European Space Agency, 
Brazil, Japan, even countries which are not that closely----
    Mr. Mollohan. But your point is we should do it?
    Mr. Anthes. We have got to have a minimal----
    Mr. Mollohan. It is so important that we should do it?
    Mr. Anthes. We have got to have a minimal capability. You 
would not rely on another country for weather forecasts.
    Mr. Mollohan. Right.
    Mr. Anthes. And we should not rely on them for climate 
forecasts. We have to have your own, at a minimal level, at 
least at a sustaining level, and then rely on the other 
observations of other countries to fill in the gaps. But we 
have to have a bare-bones capability on our own in my opinion.
    Mr. Mollohan. Okay. Bottom line question, what do you 
recommend----
    Mr. Anthes. I have been waiting for----
    Mr. Mollohan [continuing]. If you have a specific 
recommendation?
    Mr. Anthes. I would recommend waiting for the NASA full 
evaluation.
    Mr. Mollohan. Okay.
    Mr. Anthes. I think there are pros and cons and I hesitate 
to be----
    Mr. Mollohan. Fair enough. Thank you.
    Mr. Wolf.

                         NEW NASA ADMINISTRATOR

    Mr. Wolf. Thank you, Mr. Chairman.
    Just to follow-up, when will that be? There is no NASA 
Administrator. There is no NASA Administrator on the scene. The 
gentleman who was speculated to be, there is now speculation 
that he will be the special envoy for Darfur. So he went from 
NASA to Darfur in about two months.
    And so when? Who is doing this? Who has the responsibility? 
Will they act before there is a new Administrator? When is the 
expectation that this will be decided?
    Mr. Anthes. Well, the study is underway right now being led 
by the Earth Sciences Director at NASA, the study for whether 
to do OCO or not. Who makes that decision, I suppose there is 
an acting Administrator.
    I think a NASA Administrator is needed as soon as possible, 
if that is your question. But I think the studies are going on 
and hopefully when the study is done, we will have a NASA 
Administrator. But I take your point. We need a good NASA 
Administrator.
    Mr. Moore. In that regard, I think the technical issue--I 
certainly support what Rick Anthes said about having--let this 
process going forward, evaluating the pros and cons, but if the 
decision is to refly OCO or if the decision is to advance the 
active mission, there is going to need to be--that has a 
financial implication. And I do not believe that there is 
adequate funds in the current budget to execute either of those 
decisions.
    And in that sense, Mr. Wolf, I concur that the technical 
issue could be evaluated at the scientific level, but there is 
a policy and financial issue that probably is above that pay 
grade.
    Mr. Wolf. Well, I am not optimistic about the future of 
having the resources in the sense that our country is broke. I 
mean, we are broke. It seems that the Congress does not know it 
and no one else knows it, but everybody knows it. It is sort of 
like what are we doing.
    Today my staff just showed me an article. A UN panel will 
next week recommend that the world ditch the dollar as its 
reserve currency in favor of a shared basket. Well, that would 
be disastrous. We lose our triple A bond rating, according to 
Moody's, in year 2012.
    And it just seems to be kind of, the headlines today, the 
fed bails out another 1.2 trillion, and the speculation is that 
the deficit that will come out tomorrow, CBO's figures come out 
tomorrow, that the deficit for this year will be $2 trillion.
    And when I see some of this money going out, if we could 
only put it in science and math and science and physics and 
chemistry and biology and cancer research and research on 
autism and research on Alzheimer's and the things that really, 
you know, help the nation and, yet, it just seems, you know, I 
do not know if it is going to be the money.
    And everyone has testified since, and I commend the 
Chairman for having these hearings, everyone has said it has 
been great for the stimulus and they are looking forward to the 
money and what will it be on the out-years.
    You know, I just, unless there is a--maybe what my mom and 
dad taught is that, you know, you do not have to save. Maybe 
you can just go down to the Bureau of Engraving and just print 
money and get a lot of paper and a lot of ink and just keep 
things running and running and running.
    And I have always thought it was a zero sum game, but 
apparently maybe--so I think there are going to be some long-
term problems.
    I have a bill in with Congressman Cooper. We put it in 
yesterday. There were 26 Republicans on the bill and 26 
Democrats. Interesting, but we hear that there is no 
bipartisanship in this place and here it is probably 
happenstance that we had 26 and 26.
    If we put every spending program on the table and set up a 
bipartisan commission, but also to look to make sure that we 
have the funding for things that you are talking about--did you 
take the train down?
    Mr. Moore. Yes.
    Mr. Wolf. When you go home, are you taking the train home 
today?
    Mr. Moore. Yes.
    Mr. Wolf. Do not read the paper for about two hours. Go 
through my old neighborhood up in Philly. When you go by there, 
all the factories are in decay. Just look at the factories all 
through the Maryland area and Pennsylvania. They are all 
closed. The windows are broken. The graffiti all over. The 
trash has been dumped all along there.
    You must get off at the Trenton stop. You know the sign on 
the bridge, Trenton makes, the world takes. For the record, 
what does Trenton make? It does not make anything. It has a 
violent MS13 gang problem.
    So economically we need to put more money into the things 
that you are talking about and have a renaissance for this 
nation to do precisely what you are recommending. And, yet, I 
fear that the way this situation is going with regard to the 
spending that there will be additional tremendous spending, but 
it will not be in the area that what you all talk about. And 
for our children and grandchildren, it will not be very, very 
bright.
    Doctor, this problem was around for a good while on the 
coordination. And should this Committee put legislative 
language in requiring that there be one office that coordinates 
between NASA and NOAA or do you develop in the White House--and 
the White House Office on Science, I think, is relatively 
ineffective.
    I do not know how many people. Does anyone know how many 
people are in the office down there? They actually recommended 
in the last Administration that their budget be cut. I think 
they are down to a handful of people. Does anybody here know 
how many are in the office? Do you know how many are in the 
house? Are you with the office?
    Ms. Shanley. No, but I thought there were about 40.
    Mr. Wolf. Forty. Yeah, 40. And then two years ago, 
Marburger recommended that it be cut, cut, reduced, cut. Maybe 
we need a National Security Council, but a Science Security 
Council, not necessarily in the White House, but sort of to be 
the coordinator because when you do have scarce resources, you 
have to make a decision, you know, as a business or an 
individual what are you going to do, and one to advocate for 
the sciences, but also to be able to make these decisions.
    Would that make sense? So we are not solving the world 
problem, but this problem, should this Committee put language 
in recommending that there be a mechanism established within 60 
to 30, 90 days to deal with this issue because this issue is 
not new? It has been going on when the Republicans had 
Congress. I was on this Committee and it was still a problem 
then.
    What do you think should be done? Should we legislate in 
the appropriations bill something to require the coordination 
and what do you think about the concept of having a Science 
Security Council that can coordinate this, because we do now--
Secretary of State does international relations, but we have 
the National Security Council that sort of coordinates these 
between with regard to the different agencies. So it is really 
two questions and if both of you have any thoughts.
    Mr. Anthes. Well, I hate to recommend legislation without 
thinking more deeply about it. But, you know, we recommended, 
the Decadal Survey recommended that OSTP develop a plan.
    Mr. Wolf. And has that been done?
    Mr. Anthes. No.
    Mr. Wolf. And how long has the recommendation been on the 
table?
    Mr. Anthes. Well, 2007, so two and a half years or 
whatever.
    Mr. Wolf. That is like Waiting For Godot. You remember that 
play, Waiting For Godot? Godot never shows up.
    Mr. Anthes. Well, I think from what you are saying and what 
I have heard is that OSTP needed to be strengthened, not 
diminished. And I think there is hope that under this 
Administration OSTP will be strengthened and can take this on.
    But there are probably a variety of ways that this plan can 
be developed, but we really do need a thoughtful national plan 
to sort out the roles of NASA and NOAA on long-term sustained 
climate observations.
    Mr. Moore. I think that we recognize that there is a 
mismatch between the responsibilities and capabilities of the 
different agencies and that sometimes the largest of ideas like 
climate can fall through the smallest of cracks in Washington I 
have discovered. And sometimes the smallest of ideas will not 
fall through the largest of cracks. I have never quite 
understood what happens.
    But clearly we have got to get the house in order, the 
government in order in terms of handling this question of 
climate and earth observation. We do not have it in order.
    Mr. Wolf. And how long has it been a problem?
    Mr. Moore. Oh, I think for at least a decade.
    Mr. Wolf. And sometimes you have to give one person the 
responsibility. If everyone's job is to take the trash out, no 
one takes it out.
    My sense is it may not be a bad idea for the Committee to 
put language in directing the Administration to have a 
mechanism to kind of coordinate.

                        CHINA AND GLOBAL WARMING

    Okay. I think there are a couple of other questions. The 
other question, with regard to global warming, how much of a 
factor is China and how successful can we be in resolving the 
problem, however it should be resolved, without having the 
active participation of China and also India, but particularly 
China?
    Mr. Moore. China passed the U.S. in terms of total carbon 
emissions about 18 months ago. So as a country, they are the 
largest emitter now on the planet. Their per capita emissions 
are still much lower than our per capita emissions. But as a 
nation state, they are the largest emitter right now.
    That is I think primarily for two reasons. They have had a 
very rapidly growing economy and, hence, an energy system that 
has been expanding. And the primary source of electrical power 
is coal. And coal produces more CO<INF>2</INF> per energy unit, 
so it is a less efficient fuel, if you will, than natural gas. 
So their----
    Mr. Wolf. I heard they put a new coal power plant when I 
was there in July every week to----
    Mr. Moore. Every week, right. I think it is about every 
week with a 300 megawatt power plant was coming on. But I am 
not positive about that. But they are the largest emitter. It 
is a very intensive economy. It is based on a large electrical 
power plant growth employing primarily coal.
    Now, what could be done if there are ways in which we are 
going to address carbon either with cap and trade or with a tax 
or some regulatory means, then I think it will encourage 
technologies to offset that CO<INF>2</INF> emission.
    And one of my dreams, and perhaps it is just a dream, is 
that the U.S. leads the world in carbon capture technology and 
then we have something to export other than McDonald's.
    Mr. Wolf. Does it make sense insofar, and, Doctor, I want 
to get to you too----
    Mr. Moore. And I would like to see that built in Trenton.
    Mr. Wolf. Yes. Well, I agree. Does it make sense to do a 
cap and trade or does it make sense to do--there was an article 
in the Washington Post by a fellow from Denmark, I forget his 
name now, that we, rather than doing that, put more money into 
research and development.
    Do you recall the gentleman's name? Bjorn. Either of you 
may know of him. Is he controversial in a good sense? I mean, 
Brad Pitt is controversial. I mean, is he credible?
    Mr. Moore. I do not think so.
    Mr. Wolf. You do not think so. Okay.
    Mr. Moore. No.
    Mr. Wolf. Well, his recommendation says more money into 
research and development to have green technologies----
    Mr. Moore. I think that is legitimate. In looking at his 
full portfolio of ideas, I find many of them suspect and they 
change rapidly.
    Mr. Wolf. Are you familiar with that idea that he----
    Mr. Moore. But I think the idea of plowing money into green 
technologies, we ought to be pushing very hard in my view on 
renewable resources, solar, wind. I mean, the United States has 
a wind belt right across the middle of the country.
    I think one of the challenges for our technology is as we 
go to alternative energy systems, we have to restructure the 
electrical grid so that it can handle these types of energy 
sources that may come on and go off.
    Mr. Wolf. I want to give the doctor a chance at it, but you 
did not answer the other question of how--you talked about 
China, but can you solve the problem without China being an 
active participant? No, Dr. Moore. They will not pick up your 
nodding. You have to actually verbalize.
    Mr. Moore. I think you have to have all of the major 
emitters involved.
    Mr. Wolf. Okay. And the very problem is we have begged 
China to deal with the issue of Darfur and rather than solving 
the issue, the genocide in Darfur, they are developing genocide 
in Darfur by selling weapons to the Janjaweed and to the Sudan 
government that is doing the terrible things.
    And we have genocide that has been going on for five years. 
China goes to Darfur and says what they are going to do is 
build a new embassy and a palace for Bashir who has been 
indicted by the ICC.
    So I guess the point I worry about is you can talk about 
these things intellectually, but China, and if you--have you 
been there lately?
    Mr. Moore. Yeah. Yes.
    Mr. Wolf. You can see. I mean, they are pulsating. Their 
economy is just--and I see no indications that they are going 
to slow down because if they do, they are worried they are 
going to have riots in the street and the government will be 
overthrown. And they have great unemployment out in the rural 
areas. So I think they are going the other way. And so I think 
without having something, whatever it is, that they participate 
in would be very difficult.
    Doctor, do you have any comments?
    Mr. Anthes. Well, let me just be brief because Berrien said 
it, but let me just summarize it in my own words.
    No, the U.S. cannot solve CO<INF>2</INF> emissions, 
greenhouse gas emissions by itself. I think we are roughly a 
quarter of the world's emitters. Nevertheless, that does not 
mean we should use this as an excuse to do nothing.
    Mr. Wolf. I agree.
    Mr. Anthes. We should----
    Mr. Wolf. But look at the other side, though. How 
significant is China and then a little bit India in the 
solution?
    Mr. Anthes. Well, they are big. They are a very big part. I 
think we can lead the way in reducing or leveling off our 
emissions, in a way that will not hurt the economy by investing 
in renewable energies that we can then export to countries like 
India and China. So I do think we need to set an example by 
doing the right thing, and at the same time doing the thing 
that is right for us, which is getting into the development of 
renewable technologies that we can create jobs and then export, 
and help solve the other countries' problems as well. So it is 
not, it is not an either/or situation. I think we can do right, 
and do right by us.
    Mr. Wolf. But you are saying that we do need China and 
India to participate?
    Mr. Anthes. Absolutely.
    Mr. Wolf. Because if you have a cupboard and there is mice 
in the house, and your half of the cupboard you clean every 
night. You put Mr. Clean in, and very clean. The other side of 
the cupboard is China, and they just put in crumbs, and candy, 
and do not put the lid on the cake. The mice are coming. I 
mean, you can keep it as clean as you want to be on your side 
but, and so I think we need to make sure that they are 
participants. And I really see them not being willing to. And I 
really worry that what we may very well move on, that this 
could become such a political, I would hope that the whole 
issue of global warming is really resolved by the scientists 
and not by the politicians. We see how great the politicians 
were at solving the AIG problem and they are all on television 
now saying that they did not know what was in it, and this and 
that, and that. I mean, I think we need scientists, real 
scientists, people who are honest, ethical, decent, moral who 
are basing their decisions on science to come up with some of 
the solutions. And then I think there needs to be pressure, 
both from a positive and a negative, on China. Chinese people 
are wonderful people. I mean, they want freedom. They are 
thirsting for freedom. And so, perhaps this government will 
collapse and we will see freedom in our lifetime, the way of 
the Berlin Wall. But to make sure that China participates. And 
also, we cannot forget India. We respect and understand how 
they want to participate and have opportunities for their 
people, but we also want to make sure that they do it in an 
appropriate way and are participants. And let us hope that if 
we bring the, do you want to say something?
    Mr. Moore. Yes, very briefly.
    Mr. Wolf. We bring, because I am getting ready to offer an 
amendment to this bill to change the sign over the river to 
say, ``The world makes and Trenton takes.'' So I will hold off 
on that amendment to see if we can get Trenton to buy the place 
to put them, but.
    Mr. Moore. I would prefer the sign to say, ``Trenton makes 
and the world buys,'' rather than takes. Two things about this 
carbon dioxide problem that are very, very important and why 
this Earth observation is so critical. In order to stabilize 
the concentration in the atmosphere of CO<INF>2</INF>, and my 
testimony talks to this. If you stabilize the emissions, and we 
are far from that. Suppose you could stabilize magically, we 
wave a wand and tomorrow the emissions stabilize. The 
concentration in the atmosphere would keep right on going up. 
In order to stabilize the concentration in the atmosphere, 
which is what everything is really all about, you have got to 
drop emissions by 80-plus percent. So this is a, and we are 
going in exactly the opposite direction as a planet. So in 
order to stabilize the concentration in the atmosphere you have 
got to pull the emissions way down.
    Secondly, once you stabilize the emissions in the 
atmosphere, climate will not instantaneously stabilize. We have 
already kicked off a set of changes in the climate system, such 
that even after stabilizing the concentration in the atmosphere 
temperature increases will continue. The temperature, put it 
this way, it lags the greenhouse gas. You have set in motion 
melting the Arctic sea ice. That is going to continue right on, 
even after you stabilize the CO<INF>2</INF>. So this is a very, 
very tough problem. And it really requires, I think, everyone, 
everyone on the planet to address it.
    Mr. Mollohan. Thank you, Mr. Wolf. Mr. Honda.

                         Mr. Honda's Questions

    Mr. Honda. Thank you, Mr. Chairman, and welcome. Thank you 
for being here this morning. We get a lot of information on 
scientific data, we get a lot of information on different 
cycles and how they all interact globally. And a lot of these 
things have been affected by human behavior. And I think that 
what we are talking about, or alluding to, is human behavior 
again in the form of policy and international cooperation, or 
the lack of cooperation. Leadership or lack of leadership. Can 
you talk to us a little bit about it in the context of human 
behavior? How we can move this country to a point where we 
become not only a nation that is responsible?
    We should have started earlier. And from your point of 
view, you have seen a lot of things happen. And you have a 
context of science and you have the lenses of the kind of thing 
that you would understand coming from that point of view, have 
some critique of the process, human process, political process, 
of this country when it should have started. How should we 
start now? And what are the barriers and obstacles to 
international cooperation. Because, let us face it, there is 
mistrust of us and there is mistrust of them. And so moving, 
addressing that as we watch the cycles continue and change and 
creating, so we know it is going to be creating. How should we 
move as a country in terms of our national policy relative to 
human behavior and political, and policies and address that?
    Mr. Anthes. Wow. Maybe we should ask some psychologists 
here or some religious leaders.
    Mr. Honda. No, because let us face it, the last 
international conference, the countries that came together said 
let us wait until the country has another leadership because we 
know that until that happens they are not going to commit 
themselves to any long term pathway until the other place came 
in. And so, we are prepared to have to have so many other 
countries thinking and their desire for us to be involved. And 
I know what I heard you say, that we cannot solve this problem 
without cooperation of the other emitters. So what is the human 
dynamic that we as policy makers need to embrace as we move 
forward? Knowing full well of the academic, scientific things 
that are in play right now. And the devastation that is 
occurring right now. And do we continue to play our fiddle 
while Rome burns, or do we look at some sort of movement that 
moves the spirit of trying to solve the problem globally and 
domestically?
    Mr. Anthes. Well, I think this gets to my answer to Mr. 
Wolf's question, about can the U.S. solve the global warming 
problem by itself. No, but we can be the leader. We can take 
the high road. And we can start taking actions and set an 
example for the rest of the world that will appeal to the best 
qualities of human beings, not the worst. And so I think this 
is a leadership problem and it involves leadership at the top, 
but more than one leader. And it is to appeal to the best side 
of human nature rather than the side that says it is not my 
problem, let us just wait for the next generation, the next 
administration, the next election to solve it. So I think it 
does take leadership, and to appeal to the highest aspects of 
human nature.
    Mr. Honda. Then what is the next step in order to engage? 
We behave responsibly. Now what is the next step in engaging 
the other countries to overcome the obstacle of this perception 
that we have of mistrust that we have developed over the 
decades?
    Mr. Anthes. Well, this involves, again, starting out by 
being a leader and setting the example, and then negotiating. 
And I am not an expert in that. But if you do not take the high 
road yourself you do not have much of a negotiating position.
    Mr. Honda. So do you have colleagues in the other countries 
that we mentioned of like mind and spirit?
    Mr. Anthes. Absolutely.
    Mr. Honda. And are there discussions around this dilemma 
of, we have met the enemy, the enemy is us, and how we get 
around the politicians and have the politicians understand that 
our behavior sometimes may be the obstacle? And how do you 
create that pathway for us to be able to move down so that we 
can develop this road of competence? What is the mechanism to 
do that? And, I mean, if you know the other folks you talk to 
them, I am sure.
    Mr. Anthes. Well, the scientific community is pretty much 
united on these issues internationally. There is not a U.S. 
science and a French science and a Chinese science.
    Mr. Honda. Right.
    Mr. Anthes. Science is science. And so I think our role is 
to provide you all with the best science that we have. It is 
your role to establish the policies as governors and to work 
with the rest of your counterparts to try to help solve these 
political issues.
    Mr. Honda. You know, the Chinese emperors used to have 
their advisors. And they gave the best advice at the risk of 
their lives. Here we call them kitchen cabinets, and we are 
supposed to give the best advice that we can to our policy 
makers. As knowledgeable, intelligent cadres of folks in all 
these countries come together, would there not be a statement 
that the community, the scientific community, can make besides 
saying there is no Chinese carbon cycle, there is no U.S. 
carbon cycle? The sinkholes are not, you know, they are all 
India?
    Before we had the Cold War ending we had scientists from 
around the world getting together and saying, ``This is 
madness. Stop.'' Where is the scientific community on that, to 
help our policy makers be moved to do something in a timely 
manner?
    Mr. Moore. Oh, I think that there are two very prominent 
levers, if you will, or very prominent statements. The last 
four assessments of the Intergovernmental Panel on Climate 
Change reflect the very best thinking on the science, the 
impacts, and the mitigation strategies. And those are 
assessments of the best thinking of the international 
scientific community. And so I think you could look to the 
Intergovernmental Panel on Climate Change as the gold standard 
in terms of our contribution.
    And the second in terms of an additional activity I think 
on this issue of Earth remote sensing, it after all is remote 
sensing of the planet. We have partners around the planet. And 
I think that it, and it was actually an initiative of the 
previous NOAA administrator, the so called Global Earth 
Observing System of Systems.
    Mr. Honda. Right.
    Mr. Moore. I think that type of activity, if it is actually 
funded and not just a set of meetings that are held with 
nothing of no consequent coming out, might be a very real way 
forward so that it would be, it would reflect U.S. leadership 
in an international context. But at the end of the day, we have 
to begin to put things in space. We cannot just plan and plan 
and talk about it. Just as at the end of the day we have to 
begin to change the energy system. We can make plans forever. 
But if we do not begin to execute, carbon dioxide is going to 
continue to increase in the atmosphere and we are not going to 
know what is happening.
    Mr. Honda. The testimonials written here divided the 
comments into scientific information and human behavior. And I 
still get answers in terms of human behavior embedded in more 
science. And I guess I am just looking for someone to say, you 
know, if we go to war we lose. We have lost the battle. If we 
wait too long and do not say what needs to be said, then the 
political leaders who depend upon information will be lacking. 
Because when we are taught to be science students we are driven 
to take notes, observe data, record it, and make a conclusion. 
I have not heard a conclusion that is embedded in the direction 
of human behavior relative to how we use all this information 
in terms of moving towards cooperation. I mean, it is said you 
cannot do it alone. That is a given, I think. I would hope that 
is a given. That we need to engage India and China, we need to 
provide that leadership because, that is the right thing to do.
    I know what I want to hear. It probably is obvious. But, 
you know, sometimes we have to hear from the community that 
says we did all the study. We need more money for the other 
studies to embed more information. But how much more 
information do you need, you know? Papa Bear, Mama Bear and 
Baby Bear already knew someone slept in the bed. And the 
conclusion was, you know, someone was here.
    It may be that you are, your position is such that you 
cannot make any other statements other than this. But I am 
trying to drive you to a point where----
    Mr. Moore. I think that this particular problem had a 
period of as it evolved where there was a lot of disinformation 
brought into the system.
    Mr. Honda. Right.
    Mr. Moore. And the reason is this is a very big problem. 
Fossil fuel, look at the Antarctic ozone hole and that involved 
fluorocarbons in spray cans.
    Mr. Honda. Right.
    Mr. Moore. And look how tough that was. Fluorocarbons in 
spray cans is not in the center of the economy of 
industrialized countries.
    Mr. Honda. Right.
    Mr. Moore. Fossil fuels are. They are right in the center 
of economic development. And therefore you are right at the 
core of the fabric of industrial society when you are talking 
about energy. And as a consequence I think that there was a 
period of time where there was a lot of disinformation. Most, 
at least half of our citizens in the United States still think 
that it is just bogus. And so I think that we have to really 
come to grips with the nature of this problem. And then we have 
to say it is not all that bad. We can actually do something 
about it. The color of money is green, what is wrong with that? 
And so that we begin to move from problem identification to 
doing something about it. And that involves jobs, it involves 
redoing the energy structures, it becomes more efficient. I 
think that there is a real opportunity here for the United 
States to really execute leadership.
    Mr. Anthes. I do not know if this is what you are looking 
for, and I am not trying to match that, necessarily. But let me 
give you a simple, personal recommendation, not as representing 
anybody. I think the administration and Congress of the United 
States should take a leadership role internationally working 
with other nations to reduce the global dependence on carbon as 
a source of energy. And do so by setting an example, and do so 
by in a way that it does not disrupt, it does not disrupt our 
economy but rather builds it. And I think this is a serious 
issue for society of the whole world. It is not like an 
asteroid is going to hit us next week or next month. But in the 
next generation and the generation after that it is very 
serious. The western governors already know it is serious and 
are working, and really want to know what is going on with the 
water cycle in the west. And so they want the information right 
now for mitigation purposes, for adaptation purposes. But if 
you want a simple answer I think we need to take a leadership 
role in getting us off the carbon, carbon as a source of 
energy.
    Mr. Honda. Last question, Mr. Chairman. These regional 
leaders experiencing these kinds of natural occurrences, can 
they find other natural occurrences that are similar in other 
parts of the country, other parts of the world, and develop 
partnerships in working with each other?
    Mr. Anthes. I am sorry, I missed the first part of that.
    Mr. Honda. If our western states' leadership understands 
the kind of natural disasters that they are going through, and 
they understand the dynamics and causes, is it reasonable to 
look for other natural occurrences in other parts of the globe 
and create alliances so that this leadership and help and 
connectiveness would pay off in the long run so that we start 
to understand that we are in the same boat. I do not care if 
the hole is in the front of the boat and I am in the rear, the 
boat is going to sink. So, I guess it is like creating sister 
cities.
    Mr. Anthes. Well yes.
    Mr. Honda. Have we thought of that?
    Mr. Anthes [continuing]. Hurricanes are not important to 
the Western United States but they are very important to the 
Southeastern United States. And they are also important to 
China, to Taiwan, to the Philippines. They are important to 
Australia, tropical cyclones. So there is another example of a 
piece of this global warming problem that needs to be, that can 
bring people together.
    Mr. Honda. But if our states like Montana have leadership 
there that understands coal and coal research, clean research 
around coal, they can partner with other parts of the world 
like China, where coal is produced, and we would like them to 
sort of understand that you can do the coal and here is the 
technology. And we can sort of figure out how we can solve your 
problem and our problem, and then address the world problem. I 
am looking for ways to link so that we do not sink, and that we 
do not say ``them'' and ``us.'' Because I think USA really 
spells out US ALL, right? And so I am just trying to push the, 
beyond just the science button. The human, because you touched 
the, you said human behavior. Thank you.

                      ORBITING CARBON OBSERVATORY

    Mr. Mollohan. Thank you, Mr. Honda. Gentlemen, just to tie 
up the Orbiting Carbon Observatory questions, you are clear 
that you did not think that we could rely on Japan's Abuki 
carbon mapping spacecraft or the European weather satellites 
that we cannot and we should not do that. And is that a fair 
summation of your testimony?
    Mr. Moore. I would say that in evaluating what to do right 
now about reflying the orbiting carbon observatory or not, we 
need at least to evaluate what we are able to get out of the 
capabilities that are on orbit right now. In my view, they 
certainly are valuable today but they are inadequate for the 
challenge. And therefore, we are going to have to decide to do 
something. But you need to at least know what you have on orbit 
right now as you evaluate what is the something that I am going 
to do. And how much of a difference will that make? So we need 
to evaluate what difference would an orbiting carbon 
observatory style of technology make to what is on orbit right 
now versus another type of technology. And then that helps 
inform the decision. And I think that is what NASA is doing, is 
they are looking at what are the capabilities of what we have 
on orbit right now? How long would it take to do an alternative 
mission, OCO or an active mission? And how much would it cost? 
So all of those are part of the decision. I would trust that 
NASA could do that analysis, particularly engage the scientific 
community.
    Mr. Mollohan. Okay. So you are saying, this is your 
opportunity to express an opinion about that and I am giving it 
to you. But you are suggesting that you would be more 
comfortable expressing, making that judgment and expressing 
that opinion after NASA has had an opportunity to complete the 
review that they have announced?
    Mr. Moore. Yes. And as I have indicated, I have a personal 
opinion, is that I think that we should move forward with the 
active mission. But I certainly think that----
    Mr. Mollohan. Now when you say----
    Mr. Moore. I am capable of changing my mind once I see what 
NASA concludes after they look at this question.
    Mr. Mollohan. Yes. Dr. Moore, when you say the active 
mission----
    Mr. Moore. Yes?
    Mr. Mollohan. Active, you are talking about a----
    Mr. Moore. Using a, where you actually shine the light down 
from the spacecraft using a laser----
    Mr. Mollohan. A laser. A laser.
    Mr. Moore [continuing]. As opposed to using the reflected 
sunlight from the sun.
    Mr. Mollohan. Yes. Okay.
    Mr. Moore. And that, and it is in that context that I use 
the word active.
    Mr. Mollohan. Okay.
    Mr. Moore. That you are actually shining, the spacecraft is 
providing the light, if you will, to probe the atmosphere as 
opposed----
    Mr. Mollohan. And what are you saying about the active 
mission?
    Mr. Moore. And I would believe that would be, to me that is 
the logical next step.
    Mr. Mollohan. What is the active mission?
    Mr. Moore. ASCENDS. A-S-C-E-N-D-S.
    Mr. Mollohan. All right, ASCENDS. So you would want to, you 
would want to accelerate ASCENDS from a priority position 
between 2013 and 2016, and a second tier mission in the decadal 
recommendation?
    Mr. Moore. Well I, right now I----
    Mr. Mollohan. I do not want you to say more than you are 
comfortable saying.
    Mr. Moore. I think that in terms of then going, I have said 
what I would think the logical next step is, which is this 
active mission.
    Mr. Mollohan. Okay.
    Mr. Moore. The issue of acceleration, I think, that really 
requires this analysis of what is on orbit, and how much does 
it cost, and how quickly could we achieve----
    Mr. Mollohan. Okay. It merits a process that is underway. 
Thank you. Dr. Anthes, do you have any more thoughts on that?
    Mr. Anthes. No, I think that is right. And these things are 
never simple. You look at one mission, like a Japanese mission, 
versus OCO, versus ASCENDS, they are never identical. So they 
are measuring different aspects of the same problem. And so you 
cannot say, ``Well, we can just rely on the Japanese.'' Even if 
it was a U.S. mission, laying aside the politics and whether we 
can rely on foreign countries. These missions are never the 
same, whether it is VIIRS and MODIS. They are similar, but they 
are not the same. And they have different costs.
    Mr. Mollohan. They just do not do the same thing.
    Mr. Anthes. They do not do quite the same thing, and they 
are, they have different resolutions, different high def versus 
low def kind of thing, and so this is why you need a thorough 
study, a trade study, and looking at costs and everything. And 
if you move ASCENDS up what is not going to get done? You know, 
because you have ice measurements are important, soil and 
moisture are important.
    Mr. Mollohan. It all has to be looked at in context.
    Mr. Anthes. It all has to be looked at.
    Mr. Mollohan. Well let me ask you this, and this is just a 
quick question and answer I think, do you have any informed 
judgment if NASA were to come forward and say, ``Gee, we ought 
to redo the OCO,'' about cost and timing? Just how much it 
would cost and how long it would take?
    Mr. Anthes. If they did this?
    Mr. Mollohan. Yes, if NASA recommended that?
    Mr. Anthes. Yes, I would support it.
    Mr. Mollohan. No, I say, do you have an informed judgment 
about how much that would cost and how long it would take?
    Mr. Anthes. Study?
    Mr. Mollohan. No, sir.
    Mr. Anthes. Oh, you mean the mission, redoing it?
    Mr. Mollohan. Implementation.
    Mr. Anthes. I have heard two, two to three years.
    Mr. Mollohan. And----
    Mr. Anthes. From a go decision it would take two to three 
years to get another OCO try, another launch.
    Mr. Mollohan. And cost?
    Mr. Anthes. About three, let me just tell you, let me give 
you the cost this way. About twice the AIG bonuses.
    Mr. Mollohan. Now that is going to require that I do 
mathematics. And I have two scientists in front of me that 
probably did really well in mathematics. So I am going to rely 
upon your calculation not mine.
    Mr. Anthes. Okay.
    Mr. Mollohan. What would that be?
    Mr. Anthes. I hear the AIG bonuses are about $165 million. 
Twice that would do another OCO. And this gets back to Mr. 
Wolf's question about, well do we have the money to do these.
    Mr. Mollohan. Well, that is another issue. We will grapple 
with that. But, thanks. So you are saying about----
    Mr. Anthes. A little over $300 million, yes.
    Mr. Mollohan. $300 million, okay. You, Dr. Anthes, in your 
closing I was struck by this, your going ahead and saying it. 
In your closing testimony, your last paragraph, you say that 
you have noted that the NRC is starting a study, assessment of 
impediments to interagency cooperation on space and Earth 
science missions. I mean, hearing your testimony and hearing it 
today from both of you, this whole notion of who has what 
responsibility--roles and missions--between NASA and NOAA is 
extremely important. So I want to give you an opportunity to 
talk about that. And you are suggesting explicitly in your 
testimony, Dr. Anthes, that we should move forward with fixing 
that. And if we have the right director at OSTP then that is a 
good place to start, if I understand your testimony correctly. 
This seems like a really fundamentally important question to me 
as we move forward and try to be efficient and intelligent 
about how we deal with these very expensive systems to address 
this very important problem. So I would like to give you all an 
opportunity, and Dr. Anthes, since I am quoting your testimony, 
why do you not start?
    Mr. Anthes. Yes, just saying it in another way, our long 
term sustained climate observations, there is no mandate for 
either agency to do that. NOAA has a mandate to do weather 
observations. They are thinking about a climate service, and 
observations, long term climate observations have to be part 
of, or have to be the foundation of a climate service. But NOAA 
does not have the mandate for making long term sustained 
climate observations. They certainly do not have the budget; 
they cannot even support weather observations. So how do we 
think they are going to be able to support taking on climate 
observations in addition to the weather observations? NASA does 
not have the responsibility for long term, continuous, 
sustained observations. They are more a demonstration agency, 
demonstrate this technology, move on to the next one.
    So the paradigm has to be fixed. And therefore, some 
agency, one agency, must be given the responsibility and the 
budget to do these long term sustained observations, and not 
rely on goodwill between the two agencies, good cooperation 
between the administrators of the two agencies, relying on 
foreign governments to chip in, and that kind of thing.
    Mr. Mollohan. Yes, relying on, each relying on the other to 
do a mission that neither has. So what you are suggesting.
    Mr. Anthes. It is ad hoc. We depend on goodwill. And there 
is no national plan or commitment or responsibility assigned--
--
    Mr. Mollohan. Yes.
    Mr. Anthes. That is what we would like to see.
    Mr. Mollohan. First things first. Dr. Moore.
    Mr. Moore. I think the difficulty is highlighted by the 
fact that we made the recommendation in January of 2007 to 
OSTP. We met with OSTP to endorse the recommendation, to 
provide the background thinking, and nothing ever happened. And 
I realize that any form of reorganizing government one can be 
dueling with windmills and waste a lot of time. But it does 
seem like to me that this question of climate, which was not 
really on the table thirty years ago when NOAA was formed, it 
really is a new topic, relatively speaking, relative to the 
structure of government. And we just do not have a system that 
is in place to do something about it.
    I do think that there is a chance. I know Professor 
Holdren, who is going to be the new head of OSTP.
    Mr. Mollohan. That was my next question.
    Mr. Moore. I have a great deal of faith in John Holdren. 
But whether or not he can take this big problem on, from the 
platform of OSTP, remains to be seen. It is extremely important 
and needs to be done, though.
    Mr. Mollohan. Well, he can probably take it on if the 
President tells him to take it on.
    Mr. Moore. That is true.
    Mr. Mollohan. You say, you suggest you know Dr. Holdren. 
Have you ever heard him opine on this issue?
    Mr. Moore. I have certainly heard him discuss the issue of 
climate. I have heard him speak about that repeatedly, and his 
understanding of the climate issues particularly as they relate 
to energy systems. I think the question of earth observation 
has not been something that has been as much a part of his 
background. And I think that is where we really need some 
focus. Because that is what falls between NOAA and NASA. It is 
the implementation of the observational program.
    Mr. Mollohan. What is his concentration? Is he an Earth 
scientist?
    Mr. Moore. He is a physicist, and I think his concentration 
in recent years has been on energy systems.

                        NPOESS SATELLITE PROGRAM

    Mr. Mollohan. Well, that should hold him in good stead. Dr. 
Moore, you were recently quoted as suggesting, and this kind of 
relates to your previous testimony, of accelerating the--well, 
let me ask you if this is accurate. Suggesting that ASCENDS, 
the laser sounder that you have talked about, currently slated 
for the 2013 to 2016 time period, should be accelerated. But 
you have had a more thoughtful answer here, so let me not go 
into that.
    For several years now, this Subcommittee has had to wrestle 
with large cost overruns on the NPOESS satellite program and 
its VIIRS imaging instrument. Dr. Moore, you recently 
participated in a major review of this program. What 
recommendations can you share with us today based on this 
review? And how does this affect the future use of satellites 
to study, to monitor, and predict climate change? What should 
we be doing the same? What should we certainly be doing 
differently?
    Mr. Moore. Well, this is obviously a very big problem. And 
it is not isolated to NPOESS. It is not isolated to weather 
satellites. It seems to be a problem that cuts across 
government. The Department of Defense, NASA, other missions, 
the NPOESS program as you have mentioned. I think there are 
three things that I have taken away as I have worked on this 
and worried about it.
    First of all, I think that management by a committee, if 
you will, is very difficult. So if you have one or two, I mean, 
if you have two or three agencies involved in the management 
structure that is extremely difficult. And so I think that the 
Integrated Program Office as a form of management is 
problematic.
    The second thing is that there is almost an awkward or, 
insidious is perhaps too strong of language, relationship 
between the various branches of government. So that when one 
has a program one says it is going to cost X, knowing full well 
it is going to be 2X. And Congress, who is worried about money, 
might be willing to go along with the X because it means less 
pressure on the budget. But they probably know it is going to 
be 2X, too.
    Mr. Mollohan. I just want to stop you. I totally agree with 
that. We saw that in spades with regard to space station. Every 
year they came in here and testified, ``Oh, this is the budget 
this year and we can do it.'' And you knew somebody had told 
them that, they knew it, and we knew it. So we were complicit 
in it. I used to sit down at the other end of the table and 
think this is crazy.
    Mr. Moore. And, and my community is partnered in this 
because I, ``Oh sure, we can do that. We have the technology at 
hand.'' Knowing, ``Well, maybe not. But if I do not get the 
proposal then I will not have the technology.'' So there is an 
insidious relationship that I----
    Mr. Mollohan. We bring these three agencies together, the 
Defense Department, and NASA, and NOAA. And they have different 
cultures, different values with regard to budgets and money, 
and different experiences in getting additional money when the 
inevitable cost overrun comes along.
    Mr. Moore. Right.
    Mr. Mollohan. So that is difficult. But we are going to 
have these combinations in the future. I mean, just for a lot 
of reasons, trying to achieve efficiencies I am sure. Or, maybe 
we will not if it is impossible to do. But I would like for you 
to address this question a little bit from the standpoint, and 
Dr. Anthes you as well, from the standpoint of the different 
cultures, the different modes of operating, the different 
resources, availability of resources. And then, not so much 
dwell on the problems, but address them. But how should we do 
these expensive missions? How should we do them better in the 
future?
    Mr. Moore. All right. I think the, taking the NASA/NOAA, I 
actually think that the way in which we implemented those 
programs in the past, that is the polar orbiting satellite 
system that was NOAA run, for essentially NASA served as the 
procuring agency if you will and then turned those over to 
NOAA.
    Mr. Mollohan. The developing agency?
    Mr. Moore. The developing agency. The difficult with that 
with regards to NPOESS is that I think the Department of 
Defense was not comfortable having NASA have that role. And so 
it created this new object which did not work.
    I think that we do not have a good model on how to solve 
that. It is either going to be to use the NOAA/NASA 
relationship with the Goddard Space Flight Center to handle 
this NPOESS program or you are going to have to use a 
Department of Defense system. I do not know quite how to go 
forward with that because I think it is a fundamental problem 
in the way we actually structured it to begin with.
    The other thing that I think is right at the heart of these 
cost growths, we fib when it comes to the technology readiness. 
We are, shall we say, overly optimistic. And we do that for two 
reasons. One, we want to go forward with the program. And two, 
we have never adequately developed a funding mechanism to 
develop the basic technologies before the mission begins. There 
is this tendency, ``Well, I will develop them once I begin.'' 
So we have been unwilling to actually put the up front money on 
the table to develop the kind of technologies. And I do not 
think that is restricted just to the space business. I think 
there has been a tendency in the country of being unwilling to 
invest in the kind of technologies that this country needs 
until we actually need the technology, and then we kind of do 
it on the fly.
    Mr. Mollohan. Okay, thank you. Mr. Bonner, you have 
questions? Mr. Wolf.
    Mr. Wolf. Yes, Mr. Chairman. I just wanted to comment. It 
is really not a question unless they want to answer it. You 
will not solve the problem with the current office in the White 
House. And the bureaucracy will be such that there will be the 
competition between the Defense Department of its environment, 
and of NASA, and of NOAA. There will be the weakest agency will 
be the least effective. That will certainly be NOAA. And then 
it will sort of move up. NASA, because of contractors and 
things. And then next you will go to the Defense Department 
that will drive it. The Interagency, and I do not know, what is 
the good doctor's background? Has he been in government before, 
who is going to head up the office? What is his background?
    Mr. Anthes. He is a professor at MIT.
    Mr. Wolf. Yes.
    Mr. Moore. Harvard.
    Mr. Anthes. Oh, Holdren, Harvard, okay. Sorry.
    Mr. Wolf. And has he been in government before? Has he 
been? Well, he will probably get chewed up, probably relatively 
fast. We had a situation a number of years ago, violent gangs 
running through the country. Was that the FBI's responsibility, 
or was it the ATF's responsibility? Or was it the DEA's 
responsibility? Or was it the Marshal Service's responsibility? 
This Committee put together a Gang Intelligence Operation that 
coordinated them all, and gave the decision to drive that issue 
to the FBI. Until that time, each agency comes in to gather 
whatever it can for its own area. So you will not solve it. And 
I would predict that it would continue unless you give one 
person, one agency, the responsibility with the ability of the 
support of the White House to kind of deal with that.
    Years ago, I was at the Department of Interior in a 
previous administration. There was great competition, who was 
going to deal on the coastal zone issue. The coastal zone issue 
was clearly in the Department of Interior because that was 
where everyone in Interior felt it should be. It was clearly in 
CEQ because that is where CEQ thought it was. And of course, 
the people at Commerce and NOAA thought it was clearly in the 
Department of Commerce and NOAA. And competition on just who is 
going to have the oversight over coastal zone management. So 
this is a bigger issue. And I think until we have one person, 
one agency responsible generally, and this good doctor will 
come into town and think that he can call up and have things. 
There will be things leaked to the press, or leaked to this 
group, and the end result was nothing will happen. But thank 
you both for your testimony.
    Mr. Mollohan. Thank you, Mr. Wolf. Mr. Ruppersberger.

                                  COST

    Mr. Ruppersberger. Sorry, I had three committees at the 
same time. So, I know the Chairman talked to you about the 
issue of cost. We have DOD, and we have intelligence, and then 
we have NASA and we have NOAA. And there is not enough money 
for everyone to be there. And we need to somehow have more 
dialogue so there is not repetition. And the intelligence or 
DOD in science might be able to use some of that. Now you may 
get a push back from DOD and intelligence. I am on the 
Intelligence Committee and we are going to say it is 
classified. So sometimes we have things that are 
overclassified, also. But with that mind, I know you have 
already answered that question. The decadal survey, I noticed 
that in your example that the decadal survey estimated cost of 
the James Webb Telescope to be about $1 billion, when it was 
three or four times that. And some scientists have said, 
basically, if we would have known the cost would be three or 
four times, in the billions, that we might have looked at other 
areas or other ways to do what James Webb does. Now, we know we 
have in place and we know we have new technology coming 
forward. How confident are you that this survey you have now as 
it relates to the cost factor, because that is what we do as 
appropriators, is where it needs to be?
    Mr. Anthes. You mean in estimates of the cost?
    Mr. Ruppersberger. Cost.
    Mr. Anthes. Well, I think that they were pretty good when 
they were made. And they were as objective as people could feed 
us the information. But as my colleague says, once a mission is 
funded it seems to take on a life of its own and the budget 
suddenly goes up two or three times once it is funded.
    So I think something needs to be put in place that before a 
mission is----
    Mr. Ruppersberger. This is pretty much exactly what I am 
saying, because by the time it gets to us as appropriators, it 
is a whole different ball game.
    Mr. Anthes. Right.
    Mr. Ruppersberger. And the costs are over. And so are you 
going to answer the question? What do you think needs to be 
done?
    Mr. Anthes. These are difficult to estimate costs first of 
all. So if they are 25 percent over, I don't hold that against 
them. It is very difficult. But when it is three times, four 
times, something is wrong.
    So I would recommend----
    Mr. Ruppersberger. In answer to your question.
    Mr. Anthes. Yes. I would recommend something like an 
independent, non-advocate review of the cost estimates of these 
missions before they are funded. And this would be done by 
engineers, by people who really understand space missions, 
technologies, launches, and all that. And have an independent, 
non-advocacy review of these things that would be done before 
they are funded.
    Mr. Ruppersberger. Who would put that together?
    Mr. Anthes. I don't know. It wouldn't be NASA. It wouldn't 
be NOAA.
    Mr. Ruppersberger. Wouldn't it be a representative from 
NOAA?
    Mr. Anthes. It would be a completely independent group, 
probably funded separately. And as I say, a non-NOAA, non-NASA, 
non-government advocacy, even non-scientist advocacy review. It 
would be an objective assessment of the cost before it is 
funded.
    And then if people were low balling the estimate just to 
get the funding, they would--you would have an independent 
check of those estimates, because right now the estimates are 
done by advocates for the missions.
    Mr. Ruppersberger. Where you would get more accountability.
    Mr. Anthes. Exactly.
    Mr. Ruppersberger. Let me ask you this. Is there anything 
in the current earth science decadal that you would change 
based on what you know now that you didn't know in the 
beginning when it came out?
    Mr. Anthes. I stand by the decadal survey and the order 
that it was done. I think it is important to stand by that at 
least for five years. And then maybe take a look at where 
things are. I stand by it.
    Mr. Ruppersberger. Okay. We are leaderless.
    Mr. Moore. Let me just add to what Rick Anthes said. First 
of all, I would like to endorse it. Secondly, I think that this 
is an area where as the Academy does these decadal surveys, 
that might be the time to first involve an independent cost 
team activity, so that the scientists are making the 
recommendations and in some sense setting out what their vision 
is for the program.
    In fact, you have mentioned the fact that some people have 
said, ``Well, if we had known this was going to cost as much on 
James Webb, we might have done something differently.'' So I 
think that in the decadal survey process, we need to have some 
better form of getting budgetary information, because that does 
influence the order in which you put things.
    Mr. Ruppersberger. No question. You know, one of the things 
that we have seen in the construction of satellites and with 
DOD intelligence side, is a constant--you start with a project 
and then you expand the scope.
    Mr. Moore. Yes.
    Mr. Ruppersberger. Another thing you see is that there have 
been a lot of failures recently. And we cannot continue to have 
these failures, because Russia and China are this close to us 
right now. But that their research and development phase, the 
budget for that has been cut at least ten percent.
    But, you know, when you manufacture something in science 
and engineering, it really isn't manufacturing. There shouldn't 
be any mistake when you have done the research and development 
and proper testing. You know, once you are ready to go through 
specifications and whatever you need to know.
    And this constant over budget and not on time is a big 
issue. But I wanted to point out just as an example in the 
decadal----
    Mr. Moore. Decadal.
    Mr. Ruppersberger. Whatever. But here you have got some 
estimates in there for the first phase for some survey that 
cannot be completed before 2016-2017. Now when that is in the 
actual--when that is in the actual report as the inflationary 
issues and the projections for funding, is it considered when 
that is being--when the report is being written?
    Mr. Moore. Well, what we decided to do in writing that 
report was to put those--to lock them in 2006 dollars, so that 
we had a constant dollar value. And so those numbers were in 
fiscal year 2006 dollars.
    I think that that at least was one step that we could 
control. I think that all of us felt that the second way in 
which you could begin to control costs was to put--to start 
missions with an extended early phase of technology 
development.
    And that if the mission then began to grow in costs, you 
could in a sense put it in the breakdown lane and not jam up 
the freeway with a stalled car in the passing lane. And so in a 
sense, you could move it to the side and then let missions that 
are not going through an enormous cost growth, go ahead.
    I think that would encourage missions then to say, well, we 
don't want to go to the breakdown lane. We have got to find a 
way either to descope or get these costs under control.
    Mr. Ruppersberger. Let me ask you this. To your knowledge, 
has the scope and costs changed for any of the Tier 1 missions 
in the survey now? Following through with what you said.
    Mr. Moore. Many of them. Yes, they have gone up 
significantly.
    Mr. Ruppersberger. See that is an issue that when we are 
sitting here as appropriators when we are having a plan, and we 
constantly have the cost overruns, and then we have to make 
priorities on space versus other areas. And we have to maintain 
our space dominance, because that is one of the reasons we are 
the most powerful country in the world.
    Mr. Moore. Yes.
    Mr. Ruppersberger. And I mean from the military 
intelligence point of view, we have even had hearings here with 
NOAA and all these issues, the climate issues, that we are 
dealing with and the research and science. So what it does, it 
doesn't give us a lot of confidence in the projections, where 
we are going down the road. And that is difficult, because we 
have to have a final number when we appropriate.
    Okay, thanks.
    Mr. Mollohan. Okay, Mr. Honda.

                           SCIENCE EDUCATION

    Mr. Honda. Thank you, Mr. Chairman. In the area of 
education, what is the most critical thing, in your view, that 
we need to teach the American public to get them to recognize 
the pressing nature of the climate change problem? And what is 
the most effective way to teach it? And which agencies are best 
equipped to take on that job? And are NASA and NOAA capable of 
working together on this?
    Mr. Anthes. Well, one of the problems is the 
politicalization--I have trouble saying that word.
    Mr. Honda. Me, too.
    Mr. Anthes. Of climate. If you look at the--there is a huge 
gap between what Democrats think about global warming and what 
Republicans think about global warming. The gap is far greater 
than it should be.
    Mr. Honda. Okay.
    Mr. Anthes. And there are other parts of science where--
which I won't get into that there is the same kind of gap. And 
then this means that people are putting their political or 
personal views ahead of the science and maybe on both sides.
    The gap between two parties, the two leading parties of 
this country, on fundamental physics and science and biology 
should not be--ideally should be statistically zero difference.
    We should agree on the science. Then we can get into values 
and various tradeoffs and priorities. But there shouldn't be 
disagreement on the basic science and yet there is. So you have 
asked a very important question about how we at least get 
people of all kinds of persuasions to agree on the science and 
then move the debate to what we should do about what that 
science indicates.
    Mr. Moore. I think there is another aspect of this. And 
that is for very complicated things. And the earth's climate is 
a very complicated thing. I think a picture is truly worth a 
thousand words. And I think that if we had a better way of 
presenting what we know visually about how the planet is 
changing, I think that you could bring the body politic along a 
little bit.
    In 1980, in September, the area of arctic sea ice--the area 
of arctic sea ice in September of 1980, was just about the same 
size as the 48 states. The area of arctic sea ice last 
September, it was as if every state east of the Mississippi had 
melted. All of the states from the western border of the 
Mississippi, they had melted and North Dakota melted. In other 
words, the area of arctic sea ice was that big a change.
    I don't believe one percent of the body politic in the 
country has ever seen any of this. And yet that imagery I think 
would really begin to say this is not political. This is not a 
Republican or a Democrat, because arctic sea ice did what 
arctic sea ice did----
    Mr. Honda. Right.
    Mr. Moore [continuing]. Irregardless of party.
    Mr. Honda. So you are saying that we need some techniques 
that can record visually some of these changes so that we have 
not only inconvenient truth, but a demonstration of 
incontrovertible facts.
    Mr. Moore. Right.
    Mr. Honda. I will let that speak for itself and raise the 
questions.
    Mr. Moore. I think that satellite data and climate models 
are almost exclusively the domain of scientists.
    Mr. Honda. So can I conclude from what you are saying is 
that whether NASA, NOAA and the other agencies work together, 
they should in order to bring all these cycles together so that 
there will be visually demonstrable on PowerPoints and--because 
we have the technology and the computer power now to model all 
that and to show all that visually? And then fill the picture 
in with words and then teach----
    Mr. Moore. That is just a personal interest of mine.
    Mr. Honda. As a school teacher, I agree with you that we do 
a lot of talking, or we do a lot of reading. But in order to 
learn, we have to hit all the senses in order for us to 
comprehend what it is that is being said.
    And some of this stuff, you know, it takes an expansion of 
our minds to be able to wrap it around and say how is it that 
permafrost, if it has started to soften up, creates so much 
CO<INF>2</INF> in an instant, along with methane, that it 
will--it could occur in a flashpoint in such ways that no 
matter what we have in terms of sequestration, it will be 
insufficient.
    Mr. Moore. You were mentioning earlier with Rick Anthes 
about human behavior. I think that that image of the earth 
rising over the lunar horizon, that image really changed human 
behavior. I mean, I think that had--it spoke fundamentally to 
human beings. And noone was the same after seeing that image. 
And I think that there are other ways in which we can go beyond 
just the scientific utility of space observation to really 
understanding what--how the planet is changing.
    This wonderful record of David Keeling. And David began 
that measurement as part of the International Geophysical Year 
in 1957, the same year that Sputnik went up. And it was all 
part of the same enterprise, the International Geophysical 
Year. And the Keeling record of CO<INF>2</INF> increasing in 
the atmosphere like this, I think if that were on every gas 
pump on the planet and we updated it every year, that people 
would get it after a while.
    Mr. Honda. Thank you.

                        DECADAL RECOMMENDATIONS

    Mr. Mollohan. Okay. Thank you, Mr. Honda.
    Gentlemen, I would like to discuss some of these decadal 
recommendations and the status of these programs.
    In the first group we have CLARREO, SMAP, ICESat-II and 
DESDynI. And the time frame for these missions projected would 
be launches between 2010-2013. Give the Committee an 
appreciation for how they are progressing. And if there are 
troubles, talk about the troubles with us. And then we can talk 
a little bit about what--if there is a different approach.
    Mr. Moore. It is my understanding that the two that are 
receiving the most funding are the Soil Moisture Mission and 
the ICE Mission. Perhaps because without your constraints, I 
don't know, but I believe that the earliest either of those 
would be launched would be in the 2015-2016 time frame.
    And the other two I think are just getting going. And I 
guess that would say that of the first-tier instruments that 
were supposed to be--that we were hoping for launch in 2010-
2013, none of them will make that.
    Mr. Mollohan. And is this for technical difficulties? Is it 
the funding schedule, Dr. Anthes?
    Mr. Anthes. I would say frankly our--the decadal survey was 
an optimal--an optimum report and assumed everything would go 
well. And assumed that the budgets would be there. There would 
be no mission creep. That there would be--the decisions would 
be made quickly. And we would get started on it right away. And 
probably none of those things are actually true.
    We certainly didn't have the budget. There is a gap, which 
is now around six or seven hundred million between what the 
decadal survey required. Now that is a gap, even assuming there 
were no cost overruns or mission creep. So it would be easy and 
fun just to say we didn't get that money and that was part of 
it. But it is not the only reason.
    Mr. Mollohan. When you both co-chaired the study, you were 
engaged in carefully reviewing this; is that correct? Do you 
still agree with the--if the order or the way these are 
ordered? Forget about the dates for a second, Tier 1, Tier 2, 
Tier 3.
    Mr. Moore. The way we ordered them within the tier was just 
from the cheapest to the most expensive. We reviewed the----
    Mr. Mollohan. Down through the whole list or through tier 
by tier?
    Mr. Moore. Tier by tier. At each tier, we just took the 
logic behind that was let us get going on the one that is least 
costly, because if we have a cost growth in the one that is 
least costly, we will do less damage than if you have cost 
growth in the one that is most costly.
    Mr. Mollohan. Just so I understand, Dr. Moore, from top to 
bottom, the first tier through the third tier.
    Mr. Moore. No.
    Mr. Mollohan. It is within the tier as you ordered them by 
cost.
    Mr. Moore. Within the tier it is by cost.
    Mr. Mollohan. And they got in the tier by importance of the 
mission?
    Mr. Moore. No, by technological readiness. For instance, 
the ICESat Mission, you notice it is ICESat-II.
    Mr. Mollohan. Yes, I do.
    Mr. Moore. And that was because we had already flown one. 
And it had technical problems. And so we thought well of those 
things that are--that we ought to know how to do, it is when we 
are making a slight adjustment off of a technology problem.
    So our moisture mission had been accepted. And it was 
called HYDROS when it was originally accepted. And then it had 
been cancelled. And so we thought well that has much more--it 
should be much further along. The DESDynI Mission involved a 
radar aspect that had been studied for ten years and had almost 
become a mission at least three or four different times.
    And so at least on three of the four, we thought these were 
things that are well in hand. And, therefore, we should have 
the least cost growth here. And the next tier were those that 
had a little more technology development. And then we could 
start on that technology development now so that by 2013 that 
technology would be in place.
    Unfortunately, that has been--that turned out to be overly 
optimistic.
    Mr. Mollohan. Okay. What turned out to be overly optimistic 
is the advance technology research and development for the Tier 
2 missions so that----
    Mr. Moore. I think that was one part. And then we were I 
had been surprised at the cost growth on those missions that we 
felt were well in hand.
    Mr. Mollohan. Okay. And you are talking about Tier 1?
    Mr. Moore. The Tier 1.
    Mr. Mollohan. What were the reasons for that cost growth? 
And this is important. It is a really important question for us 
to understand. It would be great if you could help us with 
that.
    Mr. Anthes. Well, I think there wasn't the independent, 
non-advocate review of the cost estimates of our cost 
estimates. Now we got the best information we could from 
experts at JPL and Goddard. And I think we got honest 
estimates. These were non-advocate estimates. And we are not--
at least I am not an engineer myself. And I am not an expert in 
costing out space missions. And I have a full-time job that is 
not to do that.
    But I think somebody needs to have a full-time job that 
does that, because the cost of this non-advocate review is 
going to be minuscule compared to the overrun of any one of 
these missions. And that ought to just be something we set up.
    Mr. Mollohan. So the numbers associated with this in your 
report are rough calculating?
    Mr. Anthes. I think they are better than that, because we 
got it from people who are objective in NASA that have 
experience. And so they were better than ballpark. And they had 
a little bit of margin assigned to them but evidently not 
enough. But once you fund one, you say that we are going to do 
this, then people start wanting to embellish the mission and 
add more stuff. They think we have already got it, so now let 
us make it a little bit better, and a little bit better, and a 
little bit better. And so you get mission creep.
    And anyway, I don't know all the reasons. But every one of 
them--it seems like every mission goes way over and something 
is wrong. If only half of the missions were over and half were 
under the estimates and you had a margin, then you would say 
okay, well that is life. This is a real issue.
    Mr. Mollohan. So as the Appropriation Committee, we should 
be getting a very firm fix on what is the project.
    Mr. Anthes. Well, I think you should be getting--you should 
get evidence that these things have gone through a non-advocate 
cost review.
    Mr. Mollohan. And that they are not going to change.
    Mr. Anthes. And they may change, because we are not perfect 
and these are complicated missions. And some are going to go 
over and some that shouldn't go over. But you ought to get a--
--
    Mr. Mollohan. A little flexibility.
    Mr. Anthes. In my opinion, yes, a little flexibility. And 
then there ought to be people held responsible. They could lose 
their jobs when something goes over three times, four times 
what they estimated it to be.
    Mr. Moore. And we had put in the report that if missions 
started to grow in costs--I mean, it is in the report that they 
should be put in the breakdown lane until they sober up. And I 
think it is extremely difficult. It appears to be very 
difficult for the management system to put things in the 
breakdown lane. I think it is very difficult politically.

                             MISSION COSTS

    Mr. Mollohan. To put things in the ``breakdown lane,'' tell 
me what that means.
    Mr. Moore. Well, you say all right, we are having a large 
mission--a large increase in costs here. We have to restructure 
this or we need to--before the standing army becomes a marching 
army, we need to resolve those technology issues. We need to 
resolve those technology issues that are leading to the cost 
growth. And let other missions go ahead that are not suffering 
that kind of cost growth.
    In other words, if something can in a way--if a mission can 
use its fact that it is the first in the cube to almost grow 
uncontrollably, then you have a very big problem. And so there 
has to be some management structure that says all right, well, 
the technology is not as in hand as we thought. Therefore, 
before the mission gets a large standing army, let us work on 
those technology issues so that we can bring this mission back 
on line downstream. But let them let other missions go ahead.
    And I think the psychological impact of saying oh, well, we 
are now parked until we get our--you know, our act together. 
And these other missions are going ahead. That would begin to 
help control the costs. Right now that just does not happen.
    Mr. Mollohan. Both of you are eminent scientists. From your 
perspective, what would be an appropriate control, one that 
would be effective oversight, pick up cost overruns, pick up 
things that shouldn't be happening, but at the same time would 
not be too intrusive. What would be your concept of how that 
might work?
    Mr. Anthes. Well, I would have this initial review of the 
costs, and the mission, and the requirements by experts who 
know how much a laser costs, and how much integration costs, 
and how much a launch costs, and those kinds of things. And has 
an ability to assess the risk of developing this laser that has 
never been developed before on time and within budget. And then 
once they give you, us, the estimate, this is a $350 million 
project but there is an uncertainty of a hundred.
    Mr. Mollohan. Well, that is the process.
    Mr. Anthes. And follow it through.
    Mr. Mollohan. Give me an example of an entity that would do 
that. Is that a government agency? Is it the Government 
Accountability Office? Is it a contractor that you hire to 
oversee it?
    Mr. Anthes. It might be a private firm that has non-
government people in it and whose reputation is, you know, gold 
standard. That their reputation for making these estimates is 
that depends on their continued going forward. And then the 
government would contract with this private firm.
    Mr. Mollohan. Yes.
    Mr. Anthes. I don't know if any exist like that.
    Mr. Moore. Well I think the aerospace company has that 
role. I don't think it is often used as often used in the 
civilian side of things. I think that certainly it has not been 
my experience that they have been used in the earth observing 
side of things. But clearly some form of a non-advocate has to 
be looking at it.
    But there also has to be the ability to say this is not 
going ahead.
    Mr. Mollohan. Okay. Let me ask you with regard to the 
breakdown lane, are any of these projects in Tier 1--should any 
of these projects in Tier 1 be in the breakdown lane?
    Mr. Moore. I think there needs to be an independent cost 
review of all of them. And find out where we are. And----
    Mr. Mollohan. Well, you all have to be very disappointed in 
the way this is playing out.
    Mr. Moore. I am surprised at what happened in that first 
tier. We gave you the rationale, or I gave you the rationale 
that was shared by the whole panel that well almost--because 
everyone has tried to get into the first tier. I mean, there 
was a sense of you are either there or you are never going to 
make it. And so we said all right, the only way in here is 
things that we know that had been studied to death, that had 
been missions before.
    And we went back to JPL and Goddard repeatedly getting cost 
estimates. And so I think we were both surprised that 
something--if it had been the second tier that we had started 
running into trouble, I would have understood it more. But to 
see it happen early, I think indicates that we have a problem 
in the United States about executing these programs.
    Mr. Mollohan. So your response to my question do any of 
them need to be in the breakdown lane or are any of them in the 
breakdown lane in effect is that--well, let me ask you again. 
Can you----
    Mr. Moore. I think there----
    Mr. Mollohan [continuing]. In your judgment----
    Mr. Moore. I think there ought to be a--I think we ought be 
having this cost reviewed to see where we really are.
    Mr. Mollohan. That is fair enough.
    Mr. Moore. Otherwise I am a little too removed from it.
    Mr. Mollohan. Yes, fair enough.
    Mr. Anthes. I would like to state that the aerospace 
industry is part of the problem.
    Mr. Moore. I think the Aerospace Company, not the aerospace 
industry.
    Mr. Anthes. Well, I think that you need this independent 
group that doesn't have any dog in the fight, that is not 
trying to bid on the mission, is not trying to create jobs from 
the mission, is not trying to--you know, it is people who are 
retired from government or retired from aerospace industries 
are real experts that can do this in a totally objective way. 
It can't be part of the government; it can't be part of the 
aerospace industry; it can't be any kind of advocates.
    Okay, we agree actually.
    Mr. Mollohan. You do?
    Mr. Moore. Yes. I was just clarifying that there is a 
company called the Aerospace Company.
    Mr. Mollohan. I actually got that.
    Mr. Moore. And as opposed to aerospace companies.
    Mr. Mollohan. Gentlemen, we are going to recess for just--I 
will be right back.
    Mr. Anthes. Actually, I have to catch a plane, so I am 
going to have to leave.
    Mr. Mollohan. Let us do this. Let us thank you all very, 
very much for your appearance here today. I had a couple other 
questions. I will submit them for the record. It has been very 
valuable and very insightful. I compliment you on your good 
work in the study and subsequent and for your excellent 
testimony here. We may be following up with you.
    And I missed the opportunity being from the First 
Congressional District of West Virginia, the heart of the West 
Virginia high sulfur bituminous coal fields that pump out so 
much of that CO<INF>2</INF>. I missed the opportunity to talk 
with you about that a little bit. I was going to plan on doing 
it off the record, just the difficulties with all that. 
Recognizing we need to do something.
    Thank you for your appearance here today. It's very 
valuable.
    Mr. Moore. Thank you for your service to the country.
    Mr. Anthes. Thank you.
    Mr. Mollohan. Thank you.

    [GRAPHIC] [TIFF OMITTED] T1219B.063
    
    [GRAPHIC] [TIFF OMITTED] T1219B.064
    
    [GRAPHIC] [TIFF OMITTED] T1219B.065
    
    [GRAPHIC] [TIFF OMITTED] T1219B.066
    
    [GRAPHIC] [TIFF OMITTED] T1219B.067
    
    [GRAPHIC] [TIFF OMITTED] T1219B.068
    
    [GRAPHIC] [TIFF OMITTED] T1219B.069
    
    [GRAPHIC] [TIFF OMITTED] T1219B.070
    
    [GRAPHIC] [TIFF OMITTED] T1219B.071
    
    [GRAPHIC] [TIFF OMITTED] T1219B.072
    
    [GRAPHIC] [TIFF OMITTED] T1219B.073
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Anthes, Dr. Richard..............................................   363
Augustine, N. R..................................................   225
Avery, Dr. S. K..................................................   103
Busalacchi, Dr. Antonio..........................................   317
Cicerone, Dr. Ralph..............................................     1
Fisk, Lennard....................................................    57
Karl, Dr. Tom....................................................   317
Moore, Dr. Berrien...............................................   363
Nye, Bill........................................................   161
Pratt, Dr. Harold................................................   161
Rankin, S. M., III...............................................    57
Serum, Dr. James.................................................   103
Solomon, Dr. Susan...............................................   265

                                  <all>

</pre></body></html>
